                                            20                                                                                      11



                                          OFFICE OF INSPECTOR GENERAL
                                                                          U.S. SECURITIES AND EXCHANGE COMMISSION

                                  The mission of the Office of Inspector General (OIG) is to promote the integrity, efficiency, and effectiveness of




                                                                                                                                                                          U.S. Securities and Exchange Commission
                                  the critical programs and operations of the U. S. Securities and Exchange Commission (SEC or Commission).
                                  This mission is best achieved by having an effective, vigorous and independent office of seasoned and talented
                                  professionals who perform the following functions: Conducting independent and objective audits, evaluations,




                                                                                                                                                       (Washington, DC)
                                  investigations, and other reviews of Commission programs and operations; Preventing and detecting fraud,
                                  waste, abuse, and mismanagement in Commission programs and operations; Identifying vulnerabilities in
SEC COMMISSIONER
              (WASHINGTON, DC)




                                  Commission systems and operations and recommending constructive solutions; Offering expert assistance
                                  to improve Commission programs and                              operations; Communicating timely and useful
                                  information that facilitates management                              decision making and the achievement
                                  of measurable gains; and Keeping the                                    Commission and the Congress fully and
                                  currently informed of significant                                        issues and developments.




                                 U.S. Securities and Exchange Commission

                       Office of Inspector General




                                 SEMIANNUAL REPORT TO CONGRESS
                                   APRIL 1, 2011 - SEPTEMBER 30, 2011
                      ORGANIZATIONAL CHART                        Office of Inspector General




                                              Inspector General



                                                   Deputy
                                              Inspector General


      Counsel to the
    Inspector General
                                              Assistant Inspector               Assistant Inspector




2
                                            General for Investigations          General for Audits
                          Investigative
        Paralegal           Specialist
                                             Senior            Senior          Audit                 Audit
                            Inquiry       Investigator      Investigator      Manager               Manager
                           Specialist
       Assistant to
      the Inspector                          Senior            Senior          Audit                 Audit
         General                          Investigator      Investigator      Manager               Manager
                             Legal
                           Specialist
     Administrative                                                            Audit                 Audit
                                          Investigator      Investigator      Manager               Manager
        Ofﬁcer


                                                                              Auditor                Editor


                                                                                         Audit
                                                                                        Assistant
April 1, 2011 - September 30, 2011

                                                                    OFFICE OF
                                                                    INSPECTOR
                                       U.S. Securities
                                       and Exchange
                                                                    GENERAL
                                        Commission
                                                                    SEMIANNUAL
                                                                    REPORT TO
                                                                    CONGRESS
                                      MISSION
                                          The mission of the Office of Inspector General (OIG) is to promote the integrity, efficiency,
                                      and effectiveness of the critical programs and operations of the United States Securities and
                                      Exchange Commission (SEC or Commission). This mission is best achieved by having an effective,
                                      vigorous, and independent office of seasoned and talented professionals who perform the following
                                      functions: 

                                      •	   Conducting independent and objective           •	   Offering expert assistance to improve SEC
                                           audits, evaluations, investigations, and            programs and operations;
                                           other reviews of SEC programs and
                                           operations;                                    •	   Communicating timely and useful informa-
                                                                                               tion that facilitates management decision
                                      •	   Preventing and detecting fraud, waste,              making and the achievement of measur-
                                           abuse, and mismanagement in SEC                     able gains; and
                                           programs and operations;
                                                                                          •	   Keeping the Commission and the Congress
                                      •	   Identifying vulnerabilities in SEC systems          fully and currently informed of significant
                                           and operations and recommending con-                issues and developments.
                                           structive solutions;




                                                                                      3
4
U.S. Securities and Exchange Commission

                                                                                  SEMIANNUAL
                                                                                  REPORT TO
                                                 Ofﬁce of
                                                Inspector
                                                 General
                                                                                  CONGRESS
                                          CONTENTS
                                          MESSAGE FROM THE INSPECTOR GENERAL	..............................................................1


                                          MANAGEMENT AND ADMINISTRATION	........................................................................5

                                               Agency Overview	....................................................................................................................5

                                               OIG Staffing	............................................................................................................................5


                                          CONGRESSIONAL TESTIMONY, REQUESTS, AND BRIEFINGS	...................................7

                                               Inspector General Testimonies on the OIG’s Leasing Investigation...........................................7

                                               Inspector General Testimony on the OIG’s Conflict-of-Interest Investigation.............................8

                                               Inspector General Testimony on the OIG’s Stanford Investigation............................................9

                                               Reports Prepared in Response to Congressional Requests 	..................................................10

                                               Other Requests and Briefings 	...............................................................................................10


                                          THE INSPECTOR GENERAL’S STATEMENT ON THE SEC’S MANAGEMENT AND 

                                          PERFORMANCE CHALLENGES...................................................................................13

                                               Challenge:       Procurement and Contracting	.............................................................................13

                                               Challenge:       Information Technology Management/ Information Systems Security	..................14

                                               Challenge:       Human Resource Management	..........................................................................15

                                               Challenge:       Financial Management	........................................................................................16

                                               Challenge:       Ethics	.................................................................................................................17


                                          ADVICE AND ASSISTANCE PROVIDED TO THE AGENCY	...........................................19


                                          COORDINATION WITH OTHER OFFICES OF INSPECTOR GENERAL 	........................23


                                          AUDITS AND EVALUATIONS	.........................................................................................27

                                               Overview	...............................................................................................................................27

                                                  Audits	.............................................................................................................................27

                                                  Evaluations 	.....................................................................................................................28

                                                  Audit Follow-Up and Resolution 	......................................................................................28




                                                                                                          5
     Audits and Evaluations Conducted	.......................................................................................28

        Report of Review of Economic Analyses Performed by the Securities and 

        	 Exchange Commission in Connection with Dodd-Frank Act Rulemakings 	....................28

        Oversight of and Compliance with Conditions and Representations Related to 

        	 Exemptive Orders and No-Action Letters (Report No. 482)	..........................................30

        Assessment of the Office of Investor Education and Advocacy’s 

        	 Functions (Report No. 498)	..........................................................................................33

        Review of Alternative Work Arrangements, Overtime Compensation, and 

        	 COOP-Related Activities at the SEC (Report No. 491)	.................................................36

        Audit of SEC’s Employee Recognition Program and Recruitment, Relocation, and 

        	 Retention Incentives (Report No. 492) 	.........................................................................41

        Assessment of SEC’s Continuous Monitoring Program (Report No. 497)........................44

        Review of SEC Contracts for Inclusion of Language Addressing Privacy Act 

        	 Requirements (Report No. 496) 	...................................................................................47

        Establishment of the Office of Minority and Women Inclusion	..........................................48

     Pending Audits and Evaluations 	............................................................................................48

        Review of the SEC’s Economic Analyses for Dodd-Frank Act Rulemaking Initiatives.......48

        Review of the SEC’s System Certification and Accreditation Process..............................49

        2011 Federal Information Security Management Act Assessment	...................................49

        Assessment of the SEC’s Systems and Network Logs....................................................50

        Review of SEC’s Continuity of Operations Plan...............................................................50

        Audit of Management of SEC-Furnished and SEC-Funded Property Used by 

        	 Contractors 	.................................................................................................................51


INVESTIGATIONS 	..........................................................................................................53

     Overview	...............................................................................................................................53

     Investigations and Inquiries Conducted	.................................................................................54

         Improper Actions Relating to the Leasing of Office Space (Report No. OIG-553)	.............54

         Investigation of Conflict of Interest Arising from Former General Counsel’s 

         	 Participation in Madoff-Related Matters (Report No. OIG-560)	.....................................63

         Allegations of Enforcement Staff Misconduct in Insider Trading 

         	 Investigation (Report No. OIG-511) 	..............................................................................71

         Investigation into Allegations of Improper Preferential Treatment and Special 

         	 Access in Connection with an Enforcement Investigation (Report No. OIG-559)	...........75

         Excessive Payment of Living Expenses for a Headquarters Senior Official in 

         	 Contravention of OPM Guidance (Report No. OIG-561)	...............................................76

         Inappropriate Communications Between an SEC Attorney and an Outside 

         	 Party (Report No. OIG-555) 	.........................................................................................77

         Investigation of Alleged Enforcement Failure to Investigate Possible Violations 

         	 of the Federal Securities Laws (Report No. OIG-554)	...................................................79

         Other Inquiries Conducted	..............................................................................................80

             Abuse of Leave and Attempt to Defraud the Federal Government by a 

             	 Regional Office Senior Officer (PI 11-33)	..................................................................80

             Misuse of Government Computer Resources, Office Equipment, and 

             	 Official Time to Support a Personal Private Business, and Falsification of 

             	 Time and Attendance Records (PI 10-04) 	................................................................81

             Failure to Disclose Outside Position and Earnings and Misuse of 

             	 Agency Resources (PI 09-70)	..................................................................................82



                                                                            6
           Misuse of SEC Business Shuttle and Transit Benefits (PI 11-28)	................................83

           Misuse of Agency Resources and Official Time for a Private Business (PI 10-58) 	.......84

           Allegations of Misconduct by a Regional Office in an Enforcement 

           	 Investigation (PI 10-19)	............................................................................................84

           Allegations of Misconduct by an Examiner in a Regional Office (PI 11-23)	..................85

           Allegation of Possible Failure to Report Revenue on Financial Disclosure 

           	 Form by Senior Officer (PI 11-01)	.............................................................................85

           Allegations of Waste and Fraud by Headquarters Employees (PI 09-115) 	..................86

           Complaint of Failure to Investigate Aggressively and Appearance of 

           	 Impropriety (PI 09-107)	............................................................................................86

           Complaint of Ineffective Performance within the Office of Compliance 

           	 Inspections and Examinations (PI 10-25)	.................................................................87

    Sentencing Arising Out of Previous OIG Investigation 	............................................................87

    Pending Investigations 	..........................................................................................................88

       Allegations of Improper Document Destruction (Case No. OIG-567) 	...............................88

       Allegations of Misconduct by a Senior Official (Case No. OIG-564) 	.................................88

       Allegation of Favorable Treatment Provided by Regional Office to Prominent 

       	 Law Firm (Case No. OIG-536) 	......................................................................................89

       Allegations Regarding Court-Appointed Receiver (Case No. OIG-565)	............................89

       Investigation of Forgery, False Statements, and Fraud (Case No. OIG-563) 	.....................90

       Allegations of Misconduct, Time and Attendance Abuse, and Ethics 

       	 Violations at a Regional Office (Case No. OIG-562)	......................................................90

       Complaint of Mismanagement and Inappropriate Use of Government 

       	 Funds (Case No. OIG-557) 	..........................................................................................90

       Allegation of Procurement Violations (Case No. OIG-556)	...............................................91


REVIEW OF LEGISLATION AND REGULATIONS	..........................................................93


STATUS OF RECOMMENDATIONS WITH NO MANAGEMENT DECISIONS 	................97


REVISED MANAGEMENT DECISIONS	.........................................................................97


AGREEMENT WITH SIGNIFICANT MANAGEMENT DECISIONS 	.................................97


INSTANCES WHERE INFORMATION WAS REFUSED	..................................................97


TABLE 1: LIST OF REPORTS: AUDITS AND EVALUATIONS	......................................99


TABLE 2: 	 REPORTS ISSUED WITH COSTS QUESTIONED OR 

	 	   	 FUNDS PUT TO BETTER USE (INCLUDING DISALLOWED COSTS) 	........101


TABLE 3: 	 REPORTS WITH RECOMMENDATIONS ON 

	 	   	 WHICH CORRECTIVE ACTION HAS NOT BEEN COMPLETED	.................103


TABLE 4: 	 SUMMARY OF INVESTIGATIVE ACTIVITY 	.................................................115




                                                            7
TABLE 5: 	 SUMMARY OF COMPLAINT ACTIVITY	......................................................
                                                 
                                             117
                                                                                                


TABLE 6: 	 REFERENCES TO REPORTING REQUIREMENTS OF
	 	   	 THE INSPECTOR GENERAL ACT	..............................................................
                                         
                                                      119

APPENDIX A: PEER REVIEWS OF OIG OPERATIONS 	...............................................
                                                    
                                      121
                                                                                            

     Peer Review of the SEC OIG’s Audit Operations.................................................................
                                                          
                                                         121
     Peer Review of the SEC OIG’s Investigative Operations......................................................
                                                                     
                                              121

APPENDIX B: ANNUAL REPORT ON THE OIG SEC EMPLOYEE
SUGGESTION PROGRAM ISSUED PURSUANT TO SECTION 966 OF
                   	
THE DODD-FRANK ACT.............................................................................................
                         
                                                                                     123
     Introduction and Background	..............................................................................................
                                                  
                                                                                    123
                                                                                                                                         

     Summary of Employee Suggestions and Allegations Received	............................................
                                                                                                    
                                  124
                                                                                                                                         

     Examples of Suggestions Received....................................................................................
                                                    	      
                                                                           125
                                                                                                                                         

          Leave and Earnings Statements...................................................................................
                                                      	      
                                                                          125
                                                                                                                                         

          Code of Federal Regulations 	........................................................................................
                                                            
                                                                           125 

          Unclaimed Property......................................................................................................
                                  	      
                                                                                              126
                                                                                                                                         

          Service of Subpoenas ..................................................................................................
                                      	                                                                                                 126
                                                                                                                                         

          Teleconference Services 	...............................................................................................
                                                
                                                                                       126
     Examples of Allegations Received	.......................................................................................
                                                         
                                                                             127
                                                                                                                                         

          Protection of Personally Identifiable Information............................................................
                                                                            	       
                                                  127 

          Referrals to Office of Investigations 	...............................................................................127      

     Conclusion.........................................................................................................................
                 	                                                                  
                                                  127

APPENDIX C: THE INSPECTOR GENERAL’S
CONGRESSIONAL TESTIMONIES
     Before the Oversight and Investigations Subcommittee of the Committee on 

     	 Financial Services, U.S. House of Representatives.......................................................
                                                           	.     
                                               129
                                                                                                                   

     Before the Economic Development, Public Buildings and Emergency 

     	 Management Subcommittee of the Committee on Transportation and 

     	 Infrastructure, U.S. House of Representatives..............................................................
                                                     	.     
                                                     147
                                                                                                                   

     Before the Economic Development, Public Buildings and Emergency 

     	 Management Subcommittee of the Committee on Transportation and 

     	 Infrastructure, U.S. House of Representatives..............................................................
                                                     	.     
                                                     169
                                                                                                                   

     Before the Federal Financial Management, Government Information, 

     	 Federal Services, and International Security Subcommittee of the 

     	 U.S. Senate Committee on Homeland Security and Government Affairs 	.......................  
              177
                                                                                                                   

     Before the Subcommittee on Oversight and Investigations, Committee on 

     	 Financial Services, and Subcommittee on TARP, Financial Services and 

     	 Bailouts of Public and Private Programs, Committee on Oversight and 

     	 Government Reform, U.S. House of Representatives...................................................
                                                               	                                                 199
                                                                                                                   





                                                                           8
                             Message from the
                             Inspector General
                             I am pleased to present this Semiannual Report to Congress on the activi-
                             ties and accomplishments of the Securities and Exchange Commission
                             (SEC) Office of Inspector General (OIG) for the period of April 1, 2011
                             through September 30, 2011. This report is required by the Inspector
                             General Act of 1978, as amended, and covers the work performed by the
                             OIG during the period indicated.

    The audits, reviews, and investigations described in this report illustrate the commitment of the
SEC OIG to promote efficiency and effectiveness in the SEC, as well as the tremendous effect and im-
pact that the SEC OIG has had upon SEC operations.

    During this reporting period, we issued several significant audit reports on matters critical to the
SEC’s programs and operations. We conducted a review of the SEC’s cost-benefit analyses in
connection with Dodd-Frank Wall Street Reform and Consumer Protection Act (Dodd-Frank Act)
rulemakings pursuant to a request from several members of the United States (U.S.) Senate Committee
on Banking, Housing, and Urban Affairs. The review concluded that a systematic cost-benefit analysis
was conducted for each of the six rules we reviewed. Overall, we found that the SEC formed teams
with sufficient expertise to conduct comprehensive and thoughtful economic analyses of the six pro-
posed releases we reviewed. In several instances, we found that staff from the Division of Risk, Strat-
egy, and Financial Innovation were involved in the early stages of the rulemaking process and contrib-
uted extensively to the scope and breadth of the cost-benefit analyses. In these instances particularly,
we found the analyses to be thorough and to have incorporated all aspects of the principles of the ap-
plicable Executive Orders and the SEC’s internal compliance handbook for rulemakings.

     We also conducted a review of the SEC’s oversight of and compliance with conditions and repre-
sentations related to exemptive orders and no-action letters that are granted to regulated entities. The
SEC has statutory authority to issue an exemptive order, in response to an entity’s request, which allows
the entity to engage in transactions that would otherwise be prohibited by the securities laws, rules, or
regulations. In some instances, instead of exemptive relief, a company may request a “no-action” letter
from Commission staff. A no-action letter states that the staff will not recommend enforcement action
in response to the entity’s proposed activity. We found that the Commission could improve its processes
for monitoring compliance with the conditions and representations related to exemptive orders and no-
action letters in a variety of ways. Significantly, our review found that the SEC divisions that issue ex-
emptive orders and no-action letters to regulated entities do not have a coordinated process for review-
ing these entities’ compliance with the conditions and representations related to the orders and letters,
and instead rely on the Office of Compliance Inspections and Examinations to review compliance as
part of its examinations. Because exemptive orders and no-action letters allow industry participants to
conduct activities that, without the relief, could violate the securities laws and regulations, our review
determined that monitoring is important to ensure that regulated entities fully comply with all condi-
tions and representations related to exemptive orders and no-action letters.

    During the reporting period, we also conducted an assessment of the functions of the SEC’s Office
of Investor Education and Advocacy (OIEA), which receives investor inquiries and complaints from the



                                                      1

general public, and is responsible for gathering, processing, and responding to these inquiries and
complaints. Our assessment resulted in several recommendations designed to improve the opera-
tions of OIEA. We also conducted a review of alternative work arrangements, overtime compensa-
tion, and continuity of operations (COOP)-related activities at the SEC, an audit of the SEC’s em-
ployee recognition program and recruitment, relocation, and retention incentives, and reviews of
information technology (IT) areas of concern we identified as part of our annual assessment con-
ducted pursuant to the Federal Information Security Management Act.

     We also had a very productive semiannual report period for investigations. At the request of the
Chairman, we investigated any conflicts of interest arising from the former SEC General Counsel’s
participation in matters relating to the Bernard L. Madoff Ponzi scheme, most notably, the liquida-
tion proceeding under the Securities Investor Protection Act. During the course of our investi-
gation, we obtained and reviewed over 5.1 million e-mails for a total of 45 current and former SEC
employees and took the sworn testimony or interviewed 40 witnesses, including the former SEC
General Counsel, the former SEC Ethics Counsel who provided pertinent ethics advice, the
Chairman, the Commissioners, Securities Investor Protection Corporation officials, the trustee ad-
ministering the Madoff liquidation, and various current and former SEC employees. After com-
pleting the fact-finding phase of our investigation, we provided to the Acting Director of the Office
of Government Ethics (OGE) a summary of the salient facts uncovered in the investigation and re-
quested that OGE review those facts and provide its opinion regarding the former General Coun-
sel’s participation in matters that could have given rise to a conflict of interest. After reviewing that
factual summary, the Acting Director of OGE informed us that based upon the facts provided, the
former General Counsel’s work on the policy determination of the calculation of net equity in
connection with clawback actions stemming from the Madoff matter, and the former General
Counsel’s work on proposed legislation affecting clawbacks should be referred to the U.S. Depart-
ment of Justice (DOJ) for possible violations of Section 208 of Title 18 of the United States Code
(U.S.C.). In late October 2011, the DOJ decided not to pursue prosecution of the former General
Counsel.

     We also conducted an investigation of the SEC’s decision to lease 900,000 square feet of space
at a facility in Washington, D.C., known as Constitution Center. Our investigation concluded that
the analysis the SEC conducted to justify the lease was deeply flawed and unsound, and that the
SEC’s Office of Administrative Services (OAS) grossly overestimated the amount of space needed at
SEC headquarters for the SEC’s projected expansion and used unsupportable figures to justify the
SEC committing to an expenditure of $556,811,589 over ten years. We also found that OAS pre-
pared a faulty Justification and Approval to support entering into the Constitution Center lease
without competition. Moreover, this Justification and Approval was prepared after the SEC had
already signed the contract to lease space at the Constitution Center facility. Further, OAS back-
dated the Justification and Approval, thereby creating the false impression that it had been prepared
only a few days after the SEC entered into the lease. Our report recommended that the newly-
appointed Chief Operating Officer/Executive Director carefully review the report’s findings and
conduct a thorough and comprehensive assessment of all matters currently under the purview of
OAS, and that disciplinary action be taken against several of the senior OAS officials involved in the
leasing process. We also recommended that the Office of Financial Management, in consultation
with the Office of the General Counsel, request a formal opinion from the Comptroller General as
to whether the Commission violated the Antideficiency Act by failing to obligate appropriate funds
for the Constitution Center lease. On June 15, 2011, the SEC’s Chief Financial Officer submitted a
request for a formal opinion to the Comptroller General on this issue, and that request was pending
at the end of the semiannual reporting period. On October 3, 2011, the Comptroller General

                                                   2

issued a decision that the “SEC had no authority to record an obligation for an amount less than its
full liability under [its Constitution Center] contract,” and that the SEC failed to fully record its ob-
ligation when it entered into the contract.

     We also completed several additional complex investigations during the semiannual reporting
period and issued comprehensive reports that did not substantiate allegations of misconduct by Di-
vision of Enforcement (Enforcement) staff in an insider trading investigation, improper preferential
treatment and special access in connection with an Enforcement investigation, and the failure to
investigate possible violations of the federal securities laws. We also completed investigations that
found evidence of the excessive payment of living expenses in contravention of OPM guidance for
a headquarters senior official and inappropriate communications between an SEC manager and an
outside party.

     This semiannual reporting period has also been a particularly busy one for consultations and
briefings with Congressional offices. I testified before Congressional Subcommittees on five sepa-
rate occasions during the reporting period. Three of these testimonies pertained to our invest-
igation of the SEC’s leasing of space at Constitution Center, one related to our investigation of con-
flicts of interest arising from the former SEC General Counsel’s participation in Madoff-related
matters, and one related to an investigation we completed during a previous semiannual reporting
period regarding the SEC’s response to concerns regarding Robert Allen Stanford’s alleged Ponzi
scheme. During the reporting period, I also conducted numerous briefings of, and had discussions
with, Members of Congress and Congressional staff concerning a wide variety of issues impacting
the SEC.

     This semiannual report also includes, for the first time (at Appendix B), the annual report of our
efforts conducted pursuant to the newly-established OIG SEC Employee Suggestion Program. We
implemented this program pursuant to section 966 of the Dodd-Frank Act, and it has been an un-
qualified success. During the past year, we received and reviewed a total of 74 suggestions and
allegations, with a significant number of the suggestions leading to tangible improvements in the
SEC’s programs and operations and, in some instances, cost savings.

     The accomplishments of my Office have been enhanced by the support of the SEC Chairman
and Commissioners, as well as that of the SEC’s management team and employees. I wish to par-
ticularly note Chairman Mary Schapiro’s leadership and support of the OIG, which has been in-
strumental to the many significant improvements in the SEC over the past several years. I look for-
ward to continuing this productive and professional working relationship as we continue to help the
SEC meet its important challenges.




    	           	       	       	       	       	
    	           	       	       	       	       	       	        H. David Kotz
    	           	       	       	       	       	       	        Inspector General

    	

    	           	       	       	       	       	       	



                                                     3
 3
4
U.S. Securities and Exchange Commission

                                                                        SEMIANNUAL
                                                                        REPORT TO
                                                                        CONGRESS
                                                Ofﬁce of
                                               Inspector
                                                General



                                          MANAGEMENT AND
                                          ADMINISTRATION
                                          AGENCY OVERVIEW                                            bility for the Public Company Accounting
                                                                                                     Oversight Board (PCAOB), the Financial In-
                                               The U.S. SEC’s mission is to protect inves-           dustry Regulatory Authority (FINRA), the Mu-
                                          tors; maintain fair, orderly, and efficient mar-           nicipal Securities Rulemaking Board (MSRB),
                                          kets; and facilitate capital formation. The SEC            and the Securities Investor Protection Corpo-
                                          strives to promote a market environment that is            ration (SIPC). While about 3,200 smaller in-
                                          worthy of the public’s trust and characterized             vestment advisers will transition to state regula-
                                          by transparency and integrity. The SEC’s core              tion under the Dodd-Frank Act, the SEC is
                                          values consist of integrity, accountability, effec-        gaining responsibility for directly overseeing ap-
                                          tiveness, teamwork, fairness, and commitment               proximately 700 larger private fund advisers,
                                          to excellence. The SEC’s goals are to foster and           including hedge funds.
                                          enforce compliance with the federal securities
                                          laws; establish an effective regulatory environ-                In order to accomplish its mission most ef-
                                          ment; facilitate access to the information inves-          fectively and efficiently, the SEC is organized
                                          tors need to make informed investment                      into five main divisions (Corporation Finance;
                                          decisions; and enhance the Commission’s per-               Enforcement; Investment Management; Trad-
                                          formance through effective alignment and                   ing and Markets; and Risk, Strategy, and Fi-
                                          management of human resources, information,                nancial Innovation) and 16 functional offices.
                                          and financial capital.                                     The Commission’s headquarters is located in
                                                                                                     Washington, D.C., and there are 11 regional
                                              SEC staff monitor and regulate a securities            offices located throughout the country. As of
                                          industry comprising more than 35,000 regis-                September 30, 2011, the SEC employed 3,844
                                          trants, including approximately 10,000 public              full-time equivalents (FTEs), consisting of 3,806
                                          companies, 11,000 investment advisers, about               permanent and 38 temporary FTEs.
                                          7,500 mutual funds, and about 5,000 broker-
                                          dealers, as well as national securities exchanges
                                          and self-regulatory organizations, 500 transfer            OIG STAFFING
                                          agents, 15 national securities exchanges, nine
                                          clearing agencies, and ten credit rating agencies.            During the reporting period, the OIG
                                          Additionally, the agency has oversight responsi-           added an investigator and an auditor to the


                                                                                                5

staff, thereby further increasing its capacity to        During his time at the EPA, Mr. Moore
conduct its oversight responsibilities.                  supervised reviews of the agency’s position
                                                         management program, Freedom of Informa-
     In May 2011, Elizabeth Leise joined the             tion Act (FOIA) program, and EPA’s
OIG as a Senior Investigator. Ms. Leise comes            management of classified national security in-
to us from the law firm of Arnold & Porter               formation. Prior to joining EPA, Mr. Moore
LLP, where she was a litigation associate for            was a supervisory auditor at the Naval Audit
over eight years. Her law practice at Arnold &           Service, where he conducted reviews of classi-
Porter focused on securities litigation and en-          fied programs that focused on acquisitions
forcement matters. This practice encompassed             management, contract management, financial
various types of matters under the federal               management, organizational structure, and in-
securities laws and general corporate law, in-           ternal controls. Mr. Moore retired from the
cluding the defense of corporations, as well as          U.S. Marine Corps in 2007, after more than 20
their officers and directors, at all stages of           years of military service. He graduated from
securities fraud actions brought by private              the U.S. Naval Academy in 1987, subsequently
plaintiffs and in investigations by the SEC’s Di-        completing a master’s degree in military studies
vision of Enforcement; internal investigations;          and a certificate in accounting. Mr. Moore will
and the representation of special litigation             also complete an MBA in accounting in May
committees. Ms. Leise received a Juris Doctor            2012. Mr. Moore is a member of the Institute
degree from the George Washington University             of Internal Auditors and the American Society
School of Law in 2002 and Bachelor of Arts               of Military Comptrollers.
degrees in Foreign Affairs and French from the
University of Virginia in 1999.                              During the semiannual reporting period,
                                                         one of our senior auditors, Jim Etheridge, re-
    In June 2011, Russell Moore joined the               tired after over 30 years of federal service. A
OIG as an auditor. Mr. Moore comes to us                 second senior auditor, Laura Benton, left the
from the Environmental Protection Agency                 OIG for an opportunity outside the
(EPA) OIG, where he served as a project                  Commission.
manager in the Office of Program Evaluation.




                                                    6

U.S. Securities and Exchange Commission

                                                                          SEMIANNUAL
                                                                          REPORT TO
                                                                          CONGRESS
                                                 Ofﬁce of
                                                Inspector
                                                 General




                                          CONGRESSIONAL TESTIMONY,
                                          REQUESTS, AND BRIEFINGS
                                               During this semiannual reporting period,                  and Emergency Management Subcommittee
                                          the OIG continued to keep the Congress fully                   (Economic Development Subcommittee) of the
                                          and currently informed of the OIG’s investi-                   U.S. House of Representatives Committee on
                                          gations, audits, and other activities through tes-             Transportation and Infrastructure regarding
                                          timony and written reports, as well as numerous                the OIG’s investigation into numerous com-
                                          meetings and telephonic communications. The                    plaints received about the SEC’s decisions and
                                          Inspector General (IG) testified before Congres-               actions relating to the leasing of office space at
                                          sional Subcommittees on five separate occa-                    a newly-renovated building known as Constitu-
                                          sions during the reporting period. As discussed                tion Center. The IG described in detail the
                                          in detail below, three of these testimonies per-               investigative work conducted and the results of
                                          tained to the OIG’s investigation of Improper                  the OIG’s investigation, as reflected in the
                                          Actions Relating to the Leasing of Office Space (Report        OIG’s report of investigation containing over
                                          No. OIG-553, issued May 16, 2011); one                         90 pages of analysis and more than 150
                                          related to the OIG’s Investigation of Conflict of              exhibits.
                                          Interest Arising from Former General Counsel’s Partici-
                                          pation in Madoff-Related Matters (Report No. OIG-              The IG informed the Subcommittee that the
                                          560, issued September 16, 2011); and one                       OIG investigation found that the SEC’s enter-
                                          related to an OIG investigation completed dur-                 ing into a lease for 900,000 square feet of space
                                          ing a previous semiannual reporting period,                    at Constitution Center in July 2010 was part of
                                          Investigation of the SEC’s Response to Concerns Re-            a long history of missteps and misguided leas-
                                          garding Robert Allen Stanford’s Alleged Ponzi Scheme           ing decisions made by the SEC since it was
                                          (Report No. OIG-526, issued March 31, 2010).                   granted independent leasing authority by Con-
                                                                                                         gress in 1990. The IG also summarized the
                                                                                                         report’s recommendations, including that (1)
                                          INSPECTOR GENERAL TESTIMONIES                                  the SEC’s Chief Operating Officer/Executive
                                          ON THE OIG’S LEASING                                           Director (COO) carefully review the report’s
                                          INVESTIGATION                                                  findings and conduct a thorough and compre-
                                                                                                         hensive review and assessment of all matters
                                              On June 16, 2011, the IG testified before
                                                                                                         currently under the purview of the SEC’s Of-
                                          the Economic Development, Public Buildings,                    fice of Administrative Services (OAS); (2) the

                                                                                                    7

COO, upon conclusion of this review and as-              necessary improvements were made and ap-
sessment, determine the appropriate discipli-            propriate disciplinary action was taken. The
nary action and/or performance-based action              full text of the IG’s written testimony is con-
to be taken for matters relating to the OIG’s            tained in Appendix C to this Report and can
report; and (3) the SEC request a formal opin-           also be found at http://www.sec-oig.gov/
ion from the Comptroller General as to                   Testimony/ KotzWrittenTestimony
whether the SEC violated the Antideficiency              BeforeSenateSubcommitteeonFederal
Act by failing to obligate appropriate funds for         FinMangtGovInfoFedServcsandIntnlSecurity8
the Constitution Center lease. The full text of          _4_11.pdf.
the IG’s written testimony is contained in Ap-
pendix C to this Report and can also be found
at http://www.sec-oig.gov/Testimony/                     INSPECTOR GENERAL TESTIMONY
KotzTestimonyBeforeHouseEconomicDevelop                  ON THE OIG’S CONFLICT-OF-
mentSubcommittee_6.16.11.pdf.                            INTEREST INVESTIGATION

                                                              On September 22, 2001, the IG testified
    The IG testified a second time before the
                                                         before a joint hearing of the Subcommittee on
Economic Development Subcommittee regard-
                                                         Oversight and Investigations of the U.S. House
ing the OIG’s leasing investigation on July 6,
                                                         of Representatives Committee on Financial
2011. In his testimony, the IG summarized the
results of the OIG’s investigation and focused           Services, and the Subcommittee on TARP, Fi-
                                                         nancial Services, and Bailouts of Public and
in particular on the report’s recommendations
                                                         Private Programs of the U.S. House of Repre-
that were designed to ensure that the requisite
                                                         sentatives Committee on Oversight and
improvements to policies and procedures were
                                                         Government Reform, concerning the conflict-
made and appropriate disciplinary action was
                                                         of-interest matter investigated by the OIG.
taken. The IG noted that the OIG was com-
                                                         Specifically, the IG described SEC Chairman
mitted to following up on all the recommenda-
                                                         Mary Schapiro’s request that the OIG investi-
tions made in the report and described the ac-
                                                         gate any conflicts of interest arising from the
tions taken by the OIG to date to ensure that
                                                         former General Counsel’s participation in de-
appropriate steps were being taken to imple-
                                                         termining the SEC’s position in the liquidation
ment the OIG’s recommendations. The full
                                                         proceeding brought by the Securities Investor
text of the IG’s written testimony is contained
                                                         Protection Corporation of Bernard L. Madoff
in Appendix C to this Report and can also be
                                                         Investment Securities, LLC. The IG discussed
found at http://www.sec-oig.gov/Testimony/
                                                         in detail the investigative work conducted by
KotzTestimony_7_6_11.pdf.
                                                         the OIG and the results of the investigation, as
    On August 4, 2011, the IG testified before           reflected in the OIG’s report of investigation
the Federal Financial Management, Govern-                containing nearly 120 pages of analysis and
ment Information, Federal Services, and Inter-           200 exhibits.
national Security Subcommittee of the U.S.
                                                              The IG informed the Subcommittees that
Senate Committee on Homeland Security and
                                                         the OIG’s investigation found overall that the
Government Affairs regarding the OIG’s leas-
                                                         former General Counsel participated person-
ing investigation. During that testimony, the IG
                                                         ally and substantially in particular matters in
discussed in detail the investigative work con-
                                                         which he had a personal financial interest by
ducted, the results of the investigation, and the
                                                         virtue of his inheritance of the proceeds of his
recommendations contained in the OIG’s
                                                         mother’s estate’s Madoff account and that
report. The OIG also described the follow-up
                                                         the matters on which he advised could have
efforts the OIG had undertaken subsequent to
                                                         directly impacted his financial position.
the issuance of its report to ensure that the


                                                    8

     The IG further testified that after conduct-         over 150 pages of analysis and 200 exhibits.
ing the fact-finding phase of the investigation,          The IG reported in detail the results of the
the OIG provided a summary of the salient                 OIG’s investigation, which reviewed the SEC’s
facts uncovered in the investigation to the Act-          examinations and investigations of Stanford
ing Director of the Office of Government Eth-             from 1997 through 2009, and the agency’s re-
ics (OGE), and requested that OGE review                  sponse to all complaints it received regarding
those facts and provide the OIG with its opin-            the activities of Stanford’s companies. The IG
ion regarding the former General Counsel’s                further described the recommendations con-
participation in matters that could have given            tained in the OIG’s report of investigation, as
rise to a conflict of interest. The IG reported           well as the steps the OIG had taken to follow
in his testimony that the Acting Director of              up with Enforcement and the Office of Com-
OGE advised the OIG that, in his opinion, as              pliance Inspections and Examinations (OCIE)
well as that of senior attorneys on his staff, the        concerning the implementation of those rec-
former General Counsel’s work on two matters              ommendations. The IG noted that all of the
relating to Madoff should be referred to the              report’s recommendations had been imple-
U.S. Department of Justice (DOJ) for consid-              mented and closed to the OIG’s satisfaction.
eration of whether he had violated 18 U.S.C.
§ 208, and that, based upon this guidance, the                 In his testimony, the IG also reported on a
OIG had referred the result of its investigation          recently-completed audit of the process by
to the Public Integrity Section of DOJ’s                  which OCIE refers examination results to En-
Criminal Division. The IG also described the              forcement in the SEC’s regional offices that
recommendations made in the OIG’s report,                 was conducted in response to the request of the
including recommendations for enhancement                 former Chairman of the U.S. Senate Commit-
of the SEC’s Ethics Office. The IG noted that             tee on Banking, Housing, and Urban Affairs
he was confident that under Chairman                      (Senate Banking Committee), the Honorable
Schapiro’s leadership, the SEC will review the            Christopher Dodd (D-Connecticut). The IG
report and take appropriate steps to implement            testified that the audit found that examiners
the OIG’s recommendations to ensure the con-              across the SEC regional offices were generally
cerns identified in the investigation are appro-          satisfied with their Enforcement attorney coun-
priately addressed. The full text of the IG’s             terparts, but that certain aspects of the referral
written testimony is contained in Appendix C              process could be improved. The IG provided
to this Report and can also be found at                   information concerning the numerous recom-
http://www.sec-oig.gov/Testimony/                         mendations made by the OIG to address the
Kotzwrittentestimony_92211.pdf.                           areas of improvement identified and noted that
                                                          the OIG was following up to ensure these rec-
                                                          ommendations are implemented.
INSPECTOR GENERAL TESTIMONY
ON THE OIG’S STANFORD                                          Finally, in his testimony, the IG discussed
INVESTIGATION                                             another investigation involving the SEC’s Fort
                                                          Worth Regional Office that was completed in
    On May 13, 2011, the IG testified before
                                                          September 2009. The IG noted that this inves-
the Oversight and Investigations Subcommittee             tigation concluded that complaints voiced by
of the U.S. House of Representatives Commit-              two members of the Fort Worth examination
tee on Financial Services concerning the OIG’s
                                                          staff about programmatic issues at a planning
investigation of the handling of the SEC’s in-
                                                          meeting improperly led to actions being taken
vestigations into Robert Allen Stanford and his
                                                          against them. The IG reported that based
various companies. The IG described the work
                                                          upon the OIG’s investigative findings, the OIG
completed during the investigation, as reflected
                                                          recommended the consideration of
in the OIG’s report of investigation containing
                                                          performance-based or disciplinary action

                                                     9

against two Fort Worth senior management                   prior reporting period, the Honorable Barbara
officials. The full text of the IG’s written               Lee (D-California) questioned the IG regarding
testimony is contained in Appendix C to                    the status of the SEC’s Office of Minority and
this Report and can also be found at                       Women Inclusion. In response to Congress-
http://www.sec-oig.gov/Testimony/House%20                  woman Lee’s question, the OIG reviewed the
Oversight%20and%20Investigations%20writte                  SEC’s implementation of the requirement for
n%20testimony%205%2013%2011%20(FINA                        an Office of Minority and Women Inclusion
L).pdf.                                                    contained in Section 342(a)(1)(A) of the Dodd-
                                                           Frank Act. As is more fully discussed in the
                                                           Audits and Evaluations Conducted Section of
REPORTS PREPARED IN RESPONSE                               this Report, the OIG found that the SEC had
TO CONGRESSIONAL REQUESTS                                  not established the required office within the
                                                           statutory timeframe of six months from the
     During the reporting period, the OIG pre-             date of enactment of the Dodd-Frank Act.
pared two reports in response to Congressional             SEC management informed the OIG that it
requests. On May 4, 2011, the OIG received a               had not met this deadline because Congress
letter from several members of the Senate                  had not yet approved the SEC’s request to cre-
Banking Committee requesting that the IG                   ate the office, but that in the meantime the SEC
review the economic analyses performed by the              has been planning for the implementation of
SEC in connection with rulemaking initiatives              the new office and other SEC offices have been
undertaken pursuant to the Dodd-Frank Act.                 conducting activities intended to promote di-
The letter specifically requested that the OIG’s           versity and inclusion. The OIG provided its
review focus on six particular Dodd-Frank Act              report to Congresswoman Lee on June 15,
regulatory initiatives. As is more fully described         2011; it can also be found at
in the Audit and Evaluations Conducted Sec-                http://www.sec-oig.gov/Reports/AuditsInspect
tion of this Report, the OIG completed a                   ions/2011/496.pdf.
report containing the OIG’s initial assessment
of the economic analyses related to the six spe-
cific rulemakings identified. On June 13, 2011,            OTHER REQUESTS AND BRIEFINGS
the OIG provided this initial report to the Sen-
ate Banking Committee members who had re-                       During the reporting period, the IG also
quested the review. The OIG’s report stated                conducted numerous briefings of, and had dis-
that, overall, the OIG found that the SEC                  cussions with, Members of Congress and Con-
formed teams with sufficient expertise to con-             gressional staff concerning a wide variety of
duct a comprehensive and thoughtful economic               issues impacting the SEC. For example, on
analysis of the six proposed releases. However,            April 21, 2011, the IG met with staff of the
we also identified two areas of potential defi-            Subcommittee on Oversight and Investigations
ciencies in the SEC’s cost-benefit analyses. As            of the U.S. House of Representatives Commit-
noted in the report, the OIG will issue a subse-           tee on Financial Services regarding the OIG’s
quent report on the results of our further                 Stanford report and the status of the OIG’s
review of the SEC’s cost-benefit analyses. This            conflict of interest investigation. On May 2,
report is available on the OIG website at                  2011, and again on June 22, 2011, the IG
http://www.sec-oig.gov/Reports/                            briefed various staff of the Senate Banking
AuditsInspections/2011/Report_6_13_11.pdf.                 Committee on the OIG’s review of the cost-
                                                           benefit analyses performed by the SEC in
    At a hearing of the Subcommittee on                    connection with Dodd-Frank Act rulemaking
Financial Services and General Government of               initiatives. On that same day, the IG discussed
the U.S. House of Representatives Committee                issues pertaining to the SEC’s budget and
on Appropriations at which the IG testified in a           Dodd-Frank Act implementation efforts with

                                                     10

staff of the Subcommittee on Financial Serv-             OIG commenced an inquiry to review the
ices and General Government of the U.S. Sen-             matter.
ate Committee on Appropriations.
                                                             Finally, the OIG responded during the pe-
    In addition, on May 31, 2011, the IG met             riod to Congressional requests for information
with staff of the Subcommittee on Economic               regarding closed investigations, evaluations and
Development, Public Buildings, and Emer-                 audits, as well as open and unimplemented
gency Management of the U.S. House of Rep-               recommendations. On May 31, 2011, the IG
resentatives Committee on Transportation and             provided the Honorable Charles Grassley
Infrastructure, concerning the SEC’s leasing             (R-Iowa), Ranking Member, U.S. Senate
investigation. On June 16, 2011, the IG and              Committee on the Judiciary, and the Honor-
Deputy IG met with staff of the Subcommittee             able Tom Coburn (R-Oklahoma), Ranking
on Federal Financial Management, Govern-                 Member, Permanent Subcommittee on Investi-
ment Information, Federal Services, and Inter-           gations of the U.S. Senate Committee on
national Security of the U.S. Senate Commit-             Homeland Security and Governmental
tee on Homeland Security and Government                  Affairs, with a previously-requested biannual
Affairs on that same topic. The IG also had              report on all closed investigations, evaluations,
numerous meetings and telephone calls with               and audits conducted by the OIG. On April
Congressional majority and minority staff                27, 2011, the IG responded to a letter dated
concerning the OIG’s conflict-of-interest inves-         April 7, 2011, from the Honorable Darrell Issa
tigation, and on September 14, 2011, the IG              (R-California), Chairman, U.S. House of Rep-
met with the Honorable Randy Neugebauer                  resentatives Committee on Oversight and
(R-Texas), Chairman of the Subcommittee on               Government Reform, requesting information
Oversight and Investigations of the U.S. House           on open and unimplemented recommenda-
of Representatives Committee on Financial                tions. In that letter, the IG identified, among
Services, regarding the findings of the OIG’s            other things, all pending OIG recommenda-
investigation.                                           tions with estimated cost savings as of April 1,
                                                         2011. The IG also described what the OIG
     The OIG also received a Congressional               considered to be the three most important
request for investigative work during the re-            open and unimplemented recommendations,
porting period. On May 2, 2011, the Honor-               which were that (1) OAS determine the uni-
able Roger F. Wicker (R-Mississippi) sent a let-         verse of active and open contracts and the
ter to the IG expressing concerns regarding              corresponding contract values; (2) OAS
allegations pertaining to the SEC’s treatment of         ensure that the Leasing Branch’s policies and
whistleblowers in connection with the alleged            procedures provide comprehensive guidance
Stanford Ponzi scheme. Congressman Wicker                for SEC leasing officials; and (3) OAS manage-
requested that the IG review correspondence              ment institute a strong and effective anti-
pertinent to the matter and, if appropriate, in-         retaliation policy and communicate this policy
vestigate the matter. On May 4, 2011, the                in writing.




                                                   11

12
U.S. Securities and Exchange Commission

                                                                     SEMIANNUAL
                                                                     REPORT TO
                                                                     CONGRESS
                                                Ofﬁce of
                                               Inspector
                                                General




                                          THE INSPECTOR GENERAL’S
                                          STATEMENT ON THE SEC’S
                                          MANAGEMENT AND PERFORMANCE
                                          CHALLENGES
                                               As required by the Reports Consolidation              Moreover, work performed by the OIG’s
                                          Act of 2000 and Office of Management and              investigative unit during FY 2011 demonstrated
                                          Budget guidance, I am pleased to submit the           that there are particular deficiencies in the
                                          following statement summarizing what I con-           SEC’s processes relating to the use of Justifica-
                                          sider to be the most serious management chal-         tions for Other than Full and Open Competi-
                                          lenges facing the Securities and Exchange             tion. Specifically, on May 16, 2011, the OIG
                                          Commission. This statement has been com-              completed an investigation regarding the cir-
                                          piled based on Office of Inspector General            cumstances surrounding the SEC’s entering
                                          audits, investigations, evaluations, and the          into a lease for 900,000 square feet of space at a
                                          Office’s general knowledge of the agency’s            facility located in Washington, D.C., known as
                                          operations.                                           Constitution Center. The OIG’s Report of In-
                                                                                                vestigation found that after the SEC committed
                                                                                                itself to a ten-year lease term at a cost of
                                          CHALLENGE: 
                                          $556,811,589 based upon flawed projections of
                                          PROCUREMENT AND CONTRACTING 
                         its space needs, the SEC’s Office of Administra-
                                                                                                tive Services prepared a Justification and Ap-
                                              The OIG first identified the SEC’s pro-           proval for Other than Full and Open Competi-
                                          curement and contracting function as a                tion, which the Federal Acquisition Regulation
                                          management challenge in Fiscal Year (FY)              (FAR) requires when an agency decides not to
                                          2008. While management has reported that              allow for full and open competition on a pro-
                                          improvements were made in the procurement             curement or lease.
                                          and contracting area during FYs 2010 and
                                          2011, the SEC’s efforts in this area have not             The OIG investigation found that the Justi-
                                          been completed, and the SEC’s procurement             fication and Approval to lease space at Consti-
                                          and contracting function continues to be a            tution Center without competition was inade-
                                          management challenge.                                 quate, not properly reviewed, and backdated.

                                                                                          13

 Although the SEC’s Competition Advocate                  significant improvements have been made in
signed the Justification and Approval, the OIG            FY 2011. The OIG’s 2010 Annual FISMA Ex-
investigation found that she did not take suffi-          ecutive Summary Report, Report No. 489, issued
cient steps to verify that the information in the         March 3, 2011, confirmed that additional
Justification and Approval was accurate. In               improvements are needed in several IT-
addition, the Justification and Approval was not          related areas, specifically relating to Federal In-
posted publicly within 30 days after contract             formation Security Management Act (FISMA)
award as required by the FAR.                             requirements (e.g., deviations from Federal
                                                          Desktop Core Configurations), access controls,
     The OIG investigation also found that after          privacy requirements, and the SEC’s continu-
the SEC’s Competition Advocate executed the               ous monitoring program. During FY 2011, in
signature page of the Justification and Ap-               addition to the Annual FISMA Summary
proval, she initially backdated her signature to          Report, we conducted reviews of two addi-
reflect an earlier date and then whited-out a             tional areas of IT management and issued the
portion of the date of her signature to make it           following reports: (1) Assessment of SEC’s Con-
appear that she signed the document nearly a              tinuous Monitoring Program, Report No. 497 (is-
month before she actually did. This action                sued August 11, 2011), and (2) Review of SEC
gave the public a false impression about when             Contracts for Inclusion of Language Addressing Privacy
the SEC finalized the Justification and                   Act Requirements, Report No. 496 (issued July 18,
Approval.                                                 2011).

    In addition, an OIG Report of Investiga-                  In its 2010 Annual FISMA Executive Summary
tion issued earlier in FY 2011 found that the             Report, Report No. 489, the OIG identified
Justification and Approval for Other than Full            concerns with the agency’s identification,
and Open Competition used to support the sole             documentation, and reporting of Federal Desk-
source acquisition of approximately $1 million            top Core Configuration requirements to the
of information technology (IT) equipment re-              National Institute of Standards and Technol-
lied on an inapplicable provision of the FAR.             ogy. Further, this report identified multiple
Similarly, OIG audit reports issued in previous           concerns in key areas relating to logical access
FYs have questioned the propriety of the SEC’s            controls, including the disabling of accounts
use of Justification and Approvals for Other              and oversight of user accounts with elevated
than Full and Open Competition in various                 privileges.
circumstances.
                                                              The OIG’s Assessment of SEC’s Continuous
    Therefore, while the SEC continues to                 Monitoring Program, Report No. 497, also identi-
make improvements in the procurement and                  fied several key areas of concern, including
contracting area, further progress is needed to           access control, audit and accountability, confi-
ensure that the SEC complies fully with all per-          guration management, contingency planning,
tinent provisions of the FAR and provides for             identity and authentication, system and services
maximum competition consistent with the re-               acquisition, system and communications pro-
quirements of federal laws and regulations.               tection, and system and information integrity.

                                                               The OIG’s Review of SEC Contracts for Inclu-
CHALLENGE:                                                sion of Language Addressing Privacy Act Requirements,
INFORMATION TECHNOLOGY                                    Report No. 496, found that although the sam-
MANAGEMENT/ INFORMATION                                   pled SEC’s contracts contained language re-
SYSTEMS SECURITY                                          quiring that vendors and their employees com-
  IT management continues to be a                         ply with the Privacy Act, strengthening the lan-
management challenge for the SEC, although                guage in SEC contracts pertaining to privacy

                                                    14

and information would help to ensure vendors’             resources operations audit and, therefore, defi-
compliance with those privacy-related provisions          ciencies identified in OPM’s audit continued to
and could further reduce the risk that personally         exist.
identifiable information (PII) will be mishandled.
                                                              The OIG’s audit also found that there were
      Additionally, as noted in SEC’s FY 2010 Per-        insufficient resources dedicated to developing
formance and Accountability Report, attention is          and overseeing the SEC’s Employee Recognition
still needed in specific critical IT areas, such as       Program (ERP), and that a large number of
oversight of IT capital investment, oversight of          sampled awards and recruitment, relocation, and
IT contracts and IT human capital. These key              retention incentives lacked documentary support.
initiatives remain challenges because measures            The audit also found that OHR lacked updated
have not been completed to mitigate deficiencies          comprehensive policies and procedures and for-
that were identified in the past.                         mal training for awards and incentives. Further,
                                                          we found that the SEC’s budgeting processes for
    The Office of Information Technology                  awards and incentives for SEC SK (staff-level)
(OIT) and the Office of the Chief Operating               employees were flawed which made it difficult for
Officer concurred with the recommendations                supervisors to reward employees for outstanding
identified in the aforementioned OIG reports              performance in the course of their normal job
and have already begun taking steps to remediate          duties.
the deficiencies.
                                                               In OIG Report No. 491, we determined that
                                                          several improvements were needed to the SEC’s
CHALLENGE: 
                                              alternative work schedule (AWS), overtime, and
HUMAN RESOURCE MANAGEMENT
                                telework programs. The OIG audit found that
                                                          although only three types of AWSs were author-
    The OIG has identified the SEC’s human                ized for SEC employees—Flexitour, 5-4/9 com-
resource management as a management                       pressed, and 10-4 compressed, SEC employees
challenge.                                                actually used eight types of AWSs in FYs 2008
                                                          through 2010. We also determined that, due to
     During FY 2011, the OIG conducted audits             the benefits that AWS options provide to em-
related to human resource management that                 ployees (i.e., flexibility with respect to their arrival
identified a number of concerns and the need for          and departure times and the length of workdays
increased management controls. Specifically, the          within the workweek or pay period), the SEC
OIG issued Audit of SEC’s Employee Recognition            might benefit from making additional flexible
Program and Recruitment, Relocation, and Retention In-    work schedule options officially available to its
centives, Report No. 492, in August 2011, and             employees. Our review also found that the SEC
Review of Alternative Work Arrangements, Overtime         did not have a comprehensive manual that ad-
Compensation, and COOP-Related Activities, Report         dressed the AWS options available to employees.
No. 491, in September 2011.                               We further determined that the SEC had no
                                                          official form for employees to use when request-
    In OIG Report No. 492, we identified nu-              ing to participate in AWS programs, and little
merous areas in which the Office of Human                 training on AWS was available to SEC employees.
Resources (OHR) needed to improve its proc-
esses related to awards and recruitment, reloca-               The OIG audit also found that there was sig-
tion, and retention incentives. Significantly, our        nificant confusion with respect to SEC proce-
audit found that OHR had not fully imple-                 dures regarding overtime compensation, as well
mented recommendations pertaining to the                  as a lack of formal policies on key issues such as
SEC’s award activities that resulted from a 2007          the earning of credit hours by SEC Senior Offi-
Office of Personnel Management (OPM) human


                                                    15

cers. The audit also identified areas for im-                    The GAO has identified pervasive deficien-
provement with respect to the tracking of tele-             cies in the design and operation of the SEC’s
work data and ensuring that SEC Continuity of               information security and other system controls
Operations (COOP) personnel have telework                   that span across its general support system and
agreements in place.                                        all key applications that support financial
                                                            reporting. Many of these deficiencies have
     The OIG audits made numerous specific                  existed since SEC began preparing financial
recommendations designed to improve the                     statements in FY 2004. The identified defi-
SEC’s operations in the areas reviewed.                     ciencies jeopardize the confidentiality, availabil-
Agency management concurred with all of the                 ity, and integrity of information processed by
OIG audits’ recommendations and indicated                   SEC’s key financial reporting systems and pose
that they intend to take steps to remedy the de-            a risk of material misstatement in financial re-
ficiencies.                                                 porting. The continuing and newly-identified
                                                            general and application control deficiencies are
                                                            in the areas of (1) security management, (2) ac-
CHALLENGE: 
                                                cess controls, (3) configuration management,
FINANCIAL MANAGEMENT
                                       (4) segregation of duties, and (5) contingency
                                                            planning. The significant deficiencies that col-
     The Government Accountability Office’s                 lectively comprise a material weakness over
(GAO) FY 2010 audit of the Commission’s fi-                 financial reporting and accounting processes
nancial statements found that they were fairly              concern internal control over (1) the financial
presented in all material respects, and the GAO             reporting process, (2) budgetary resources,
found no reportable noncompliance with the                  (3) registrant deposits, (4) disgorgement and
laws and regulations tested. However, because               penalties, and (5) required supplementary in-
of two material weaknesses in internal control              formation.
it identified, the GAO found that the SEC did
not maintain, in all material respects, effective                In addition, the GAO identified other defi-
internal control over financial reporting, and              ciencies in internal controls that although not
thus did not provide reasonable assurance that              considered material weaknesses or significant
misstatements, losses, or noncompliance mate-               deficiencies, could adversely affect the Com-
rial in relation to the financial statements would          mission’s ability to meet financial reporting and
be prevented or detected and corrected on a                 other internal control objectives. These defi-
timely basis.                                               ciencies concerned the Commission’s (1) proper
                                                            and timely approvals of disbursements,
     The GAO defines a material weakness as a               (2) review of service providers’ auditor reports,
deficiency or combination of deficiencies in                and (3) controls over travel transactions.
internal control, such that there is a reasonable
possibility that a material misstatement of the                  The GAO also reported that it continued to
financial statements will not be prevented, or              find ineffective automated controls for the
detected and corrected on a timely basis. A                 SEC’s general ledger system and supporting
significant deficiency is a deficiency, or combi-           applications, and ineffective security controls
nation of deficiencies, in internal control that is         over the databases and supporting processes
less severe than a material weakness, yet impor-            used to generate and maintain the SEC’s finan-
tant enough to merit attention by management.               cial reports. Many of the SEC’s key financial
The material weaknesses identified by the                   reporting applications occurred manually out-
GAO included (1) information systems controls,              side the general ledger system through the use
and (2) controls over financial reporting and               of spreadsheets and databases because many of
accounting processes.                                       the SEC’s key financial system applications did
                                                            not automatically interface with the general

                                                      16

ledger system. Further, the SEC’s general ledger         CHALLENGE:
system and certain software applications and             ETHICS
configurations lacked the capacity to timely and
accurately generate and report information                  The OIG has identified the SEC’s Ethics
needed to prepare financial statements and man-          program as a management challenge.
age operations on an ongoing basis. Until these
system deficiencies, limitations, and vulnerabili-           In January 2011, the OIG issued a report
ties are addressed, the SEC cannot rely on the           of investigation in response to a Congressional
internal controls contained in its automated ac-         request regarding whether a senior employee
counting system and supporting financial appli-          had violated conflict-of-interest restrictions in
cations systems to provide reasonable assurance          connection with employment at a trading firm.
that, in the absence of effective compensating           While the OIG’s investigation found no evidence
procedures, (1) its financial statements, taken as a     that the former employee violated conflict-of-
whole, are fairly stated; (2) the information the        interest provisions or acted inappropriately in
SEC relies on to make decisions on a daily basis         connection with employment at the trading firm,
is accurate, complete, and timely; and (3) sensi-        the OIG investigation did find deficiencies in the
tive data and financial information are appropri-        agency’s ethics procedures, including a lack of
ately safeguarded.                                       proper record keeping. The OIG’s report made
                                                         several recommendations for improvement to the
     The OIG also conducted work in the finan-           SEC Ethics Office, including that it document
cial management area in FY 2011. Specifically,           the advice provided to SEC employees.
in March 2011, the OIG issued Audit of the SEC
Budget Execution Cycle, Report No. 488, which                 In September 2011, the OIG completed an
identified numerous concerns in the SEC’s budg-          investigation of potential conflicts of interest aris-
eting process. The audit’s findings included:            ing from the participation of the SEC’s former
(1) by alternating between two separate appro-           General Counsel in determining the SEC’s posi-
priations, the SEC may have violated federal law         tion in the liquidation proceeding brought by
pertaining to the purpose of appropriations and,         the Securities Investor Protection Corporation
as a consequence, the Antideficiency Act; (2) the        (SIPC) of Bernard L. Madoff Investment
SEC inactivated budgetary controls in the Mo-            Securities, LLC (BMIS). After the SEC charged
mentum financial system to facilitate processing         BMIS and Bernard L. Madoff with securities
payroll transactions, which could lead to a viola-       fraud, SIPC determined that BMIS customers
tion of the Antideficiency Act; (3) the SEC’s            were in need of certain protections against losses
Budget and Program Performance Analysis Sys-             that are provided through a reserve fund that is
tem (BPPAS) was not configured to accept more            used to restore money to investors who have as-
than one appropriation; (4) the Office of Finan-         sets with bankrupt or financially troubled broker-
cial Management (OFM) did not have a formal              age firms.
budgetary training program; (5) OFM did not
require written authorization of reprogramming               The OIG investigation found that the former
and realignment actions between budget object            General Counsel participated personally and
classes; and (6) OFM did not sufficiently track the      substantially in particular matters in which he
reprogramming and realignment of funds. The              had a personal financial interest by virtue of his
OIG made nine specific and concrete recom-               inheritance of the proceeds of his mother’s
mendations to correct the deficiencies found in          estate’s Madoff account and that the matters
the audit. OFM agreed to all of the recommen-            on which he advised could have directly im-
dations and has taken significant steps to address       pacted his financial position.
them.
                                                           The OIG investigation further found that the
                                                         SEC’s former General Counsel had sought ethics


                                                   17

advice from the former SEC Ethics Counsel                    (1)		 The SEC Ethics Counsel should
who advised him that he did not have a finan-                      report directly to the Chairman,
cial conflict of interest. We found that the for-                  rather than to the General Counsel.
mer SEC Ethics Counsel’s advice was based
upon several incorrect assumptions and that he               (2)  The SEC Ethics Office should take all
did not document the consideration of whether                      necessary steps, including the imple-
the former SEC General Counsel’s actions con-                      mentation of appropriate policies and
stituted an appearance of impropriety. We also                     procedures, to ensure that all advice
found that the former Ethics Counsel reported                      provided by the Ethics Office is well-
directly to the former General Counsel, who                        reasoned, complete, objective, and
had given the former Ethics Counsel a per-                         consistent, and that Ethics officials
formance evaluation just seven months after the                    ensure that they have all the necessary
ethics advice was provided.                                        information in order to properly de-
                                                                   termine if an employee’s proposed
    The OIG investigation also found that the                      actions may violate rules or statutes or
Ethics Office considered the former General                        create an appearance of impropriety.
Counsel’s participation differently when mat-
ters other than the Madoff liquidation proceed-              (3)		 The SEC Ethics Office should take all
ing were involved. In addition, the OIG inves-                     necessary actions to ensure that all
tigation found that the Ethics Office considered                   ethics advice provided in significant
recusals in Madoff-related matters differently in                  matters, such as those involving finan-
situations that did not involve the former Gen-                    cial conflict of interest, are docu-
eral Counsel, and took a more conservative ap-                     mented in an appropriate and consis-
proach for recusal from Madoff-related matters                     tent manner.
with respect to other employees in the Office of
the General Counsel. These findings raised                    The SEC Ethics Office has indicated that it
concerns about the consistency of the advice              intends to implement all three recommenda-
being provided by the SEC Ethics Office.                  tions and take the necessary steps to improve
                                                          the SEC ethics program.
     The OIG Report of Investigation made the
following three recommendations with respect
to the Ethics Office:




                                                    18

U.S. Securities and Exchange Commission
                                                                        SEMIANNUAL
                                                                        REPORT TO
                                                Ofﬁce of
                                               Inspector
                                                General
                                                                        CONGRESS
                                          ADVICE AND ASSISTANCE 

                                          PROVIDED TO THE AGENCY

                                              During this semiannual reporting period,            an overview of support services, enterprise
                                          the OIG provided advice and assistance to               planning, financial services, human capital
                                          SEC management on various issues that were              administration and facilities, IT data manage-
                                          brought to the OIG’s attention during the               ment, enterprise risk management, records
                                          course of audits and investigations conducted           management, and internal legal and conflict
                                          by the Office and otherwise. This advice was            management.
                                          conveyed through written communications, as
                                          well as in meetings and conversations with                    In addition, the IG and Deputy IG met
                                          agency officials. The advice provided included          with the newly-appointed Acting Director of
                                          comments on draft policies and procedures and           the Office of Administrative Services (OAS) to
                                          suggestions for improvements in existing poli-          discuss issues identified in the OIG’s Report of
                                          cies and procedures.                                    Investigation No. OIG-553, Improper Actions Re-
                                                                                                  lating to the Leasing of Office Space, issued on May
                                               Specifically, during the reporting period, the     16, 2011, as well as other OIG reports. The IG
                                          IG met with the SEC’s Chief Operating Offi-             and OIG staff members met with the SEC’s
                                          cer (COO), who had recently taken over the              Chief Information Officer and Chief Informa-
                                          functions of the agency’s Executive Director, to        tion Security Officer, as well as other OIT staff,
                                          discuss this new role and future coordination           to review new technology OIT plans to deploy
                                          between the OIG and the COO. The IG dis-                to improve the effectiveness of the SEC, includ-
                                          cussed the challenges facing the COO and of-            ing technology pertaining to business automa-
                                          fered suggestions and recommendations with              tion, workflow, knowledge manage-ment, and
                                          respect to the offices under the COO’s purview.         electronic discovery. Further, on a monthly ba-
                                          The IG also met with outside consultants who            sis, the IG and the Counsel to the IG met with
                                          were advising the agency on the Voice of the            the Office of Human Resources (OHR) Assis-
                                          Customer portion of the Mission Advancement             tant Director for Work Life Engagement and
                                          Program, the goal of which is to design and             her staff to review the status of disciplinary and
                                          deliver an effective shared services organization       other actions taken or to be taken in response to
                                          for the SEC. During that meeting, the IG                recommendations contained in OIG investiga-
                                          provided his insights on various topics including       tive reports.

                                                                                                19

    In connection with an inquiry performed               to allow the service of subpoenas by e-mail in
into the misuse of government resources by an             order to expedite the investigative process and
SEC attorney, we determined that certain                  decrease costs incurred by sending subpoenas
guidance on the SEC’s intranet site concerning            by overnight mail. We determined that revi-
the use of SEC resources for pro bono matters             sions to the current rule permitting service of
was vague and potentially confusing. We rec-              subpoenas by personal service, U.S. mail,
ommended that the SEC Ethics Office review                commercial carrier, or facsimile may be war-
the guidance documents on the intranet                    ranted to reflect advancements in technology.
pertaining to pro bono work and the use of                We recommended that Enforcement review the
government resources, and ensure that all the             merits of the suggestion and determine if rec-
intranet guidance on these matters was accu-              ommended revisions to the Rules of Practice
rate and clear. The Ethics Office promptly                would be beneficial. Enforcement concurred
took the necessary steps to implement the                 with the suggestion and indicated that it was
OIG’s recommendation.                                     working with the Office of the General Coun-
                                                          sel (OGC) to prepare a recommendation to the
     Further, the OIG provided advice and assis-          Commission to amend the Rules of Practice
tance to management in connection with sev-               and/or the Rules Relating to Investigations to
eral suggestions received by the OIG through              permit the service of investigative subpoenas by
the OIG SEC Employee Suggestion Program,                  e-mail.
established in accordance with Section 966 of
the Dodd-Frank Wall Street Reform and Con-                     The OIG also reviewed an employee sug-
sumer Protection Act. For example, the OIG                gestion that OHR had received under its
received and reviewed employee suggestions                previous Employee Suggestion Program that
that cost savings could be achieved by eliminat-          was discontinued in April 2011. This sugges-
ing the mailing of hard copy leave and earnings           tion noted the need for additional electronic
statements to employees’ home addresses and               public records search capabilities and that cer-
limiting the distribution of paper copies of the          tain services available to staff in the past had
Code of Federal Regulations (CFR). Based                  provided better information than the services
upon our analysis of these suggestions, we con-           that were currently available. During our
cluded that both suggestions could result in cost         review of this suggestion, we learned that it was
savings. In particular, we noted that the SEC             possible that Lexis/Nexis offered additional fea-
spent over $21,000 for paper copies of the                tures that might be added to the Commission’s
CFR during 2011, even though the CFR was                  existing subscription. We forwarded the sug-
available online at no cost. The OIG recom-               gestion to the Office of the Secretary for con-
mended that management consider both sug-                 sideration, noting that employees could benefit
gestions and further recommended that OAS                 from having additional information available
take steps to ensure that additional information          when conducting public records searches. We
regarding the availability of the CFR online is           recommended that the Office of the Secretary
communicated to SEC staff and that paper                  review current and available data subscriptions
copies of the CFR are not ordered unnecessar-             to determine if additional data sources could
ily. Management concurred with and agreed to              or should be procured, and ensure that all
implement both suggestions. In particular,                employees receive notice if and when such new
OAS agreed to implement new procedures to                 services were procured or additional informa-
be used the next time the Government Printing             tion was made available. In response, the Of-
Office offered paper copies of the CFR for sale.          fice of the Secretary indicated that the SEC
                                                          Library had gained access to an additional fea-
    The OIG also reviewed an employee sug-                ture available through Lexis/Nexis, consistent
gestion for revisions to the current SEC Rules            with the employee’s suggestion, and that the
of Practice pertaining to service of subpoenas            library would work to strengthen its efforts to

                                                    20

ensure that employees were fully aware of the           example, the OIG provided numerous com-
available information resources.                        ments on a draft System Development Life Cy-
                                                        cle Management Waiver Request Form, which
     The OIG reviewed another suggestion that           was designed to reflect the decision to allow a
had been received through the previous OHR              project or product to proceed to the next life
Employee Suggestion Program, which stated               cycle phase or to deny the waiver request.
that the SEC should contact state unclaimed             Overall, the OIG suggested, among other
property offices to determine whether funds             things, that guidance be provided as to what
belonging to the SEC were being held by state           constitutes sufficient justification for a waiver;
governments and could be recouped. Research             the form specify whether and what type of
performed by the employee who submitted the             documentation should be submitted to support
suggestion and the OIG revealed numerous                the waiver request; and the form more clearly
instances in which the SEC appeared to be en-           explain what requirements are being waived
titled to unclaimed property and/or funds.              and what specific signatures are required. The
The OIG learned during its review of the sug-           OIG noted that it might be helpful if an in-
gestion that the SEC currently had no policies          struction sheet was prepared to accompany the
or procedures in place for searching for or po-         form.
tentially retrieving unclaimed property. The
OIG referred the suggestion to the Office of                The OIG also reviewed and provided sub-
Financial Management (OFM) for considera-               stantial comments on a draft Information
tion of establishing procedures to search for           Technology Contingency Planning Handbook,
potential unclaimed property that could poten-          which detailed the agency’s various IT contin-
tially result in cash and/or property being re-         gency planning activities, including the devel-
turned to the SEC. In response, OFM estab-              opment of Information Technology Contin-
lished new written procedures to implement a            gency Plans and Disaster Recovery Plans. The
process for searching for and reclaiming SEC            OIG’s comments pertained to, among other
property and, pursuant to those policies and            things, clarification and consistency of various
procedures, had begun to reclaim funds                  terms or acronyms used in the handbook, clari-
belonging to the SEC.                                   fication as to who must approve certain draft
                                                        documents, and adding an explanation as to
    In addition, during the reporting period,           the differences between the SEC’s Continuity
the OIG reviewed and submitted comments on              of Operations (COOP) plan and the contin-
several draft OIT policies and procedures. For          gency plans covered by the handbook.




                                                  21

22
U.S. Securities and Exchange Commission
                                                                       SEMIANNUAL
                                                                       REPORT TO
                                                Ofﬁce of
                                               Inspector
                                                General
                                                                       CONGRESS
                                          COORDINATION WITH OTHER OFFICES
                                          OF INSPECTOR GENERAL
                                              During this semiannual reporting period,             out the federal government who meet monthly
                                          the SEC OIG coordinated its activities with              and coordinate and share information. The
                                          those of other OIGs, as required by Section              SEC OIG also participated in various surveys
                                          4(a)(4) of the Inspector General Act of 1978, as         being conducted by the CIGIE, including sur-
                                          amended. Specifically, the SEC IG, or a senior           veys pertaining to new media tools and tech-
                                          OIG staff member, attended the monthly                   nology that might be useful to the OIG mission
                                          meetings of the Council of the Inspectors                and performance measurement for audit
                                          General on Integrity and Efficiency (CIGIE).             products.
                                          The SEC IG also participated in the CIGIE-
                                          GAO Annual Coordination Meeting, which                        Further, one of the SEC OIG’s auditors
                                          took place on April 11, 2011. The topics cov-            served as a member of the CIGIE Cybersecu-
                                          ered during this joint meeting included, among           rity Working Group, which was charged with
                                          other things, the elimination of duplicative and         undertaking a two-part review consisting of
                                          wasteful spending, improper payments, and                (1) identifying recommended practices for
                                          emerging and other issues.                               maintaining the integrity of OIG IT systems
                                                                                                   and protecting them from internal threats and
                                              The SEC IG is a member of the CIGIE’s                vulnerabilities, and (2) examining the role of
                                          Professional Development Committee, the                  the IG community in current federal cyberse-
                                          purpose of which is to provide educational op-           curity initiatives. During the reporting period,
                                          portunities for members of the CIGIE com-                the Cybersecurity Working Group completed
                                          munity and to assist in ensuring the develop-            the first part of its review and issued its
                                          ment of competent personnel. The IG or a                 “Management Advisory Report on Cybersecu-
                                          senior SEC OIG staff member attended the                 rity” to CIGIE leadership on September 30,
                                          Professional Development Committee’s                     2011. The SEC OIG’s auditor provided valu-
                                          monthly meetings. The Counsel to the SEC                 able information to the working group and
                                          IG participated in the activities of the Council         contributed significantly to the identity
                                          of Counsels to the Inspector General, an in-             management section of the report.
                                          formal organization of IG attorneys through-


                                                                                             23

     In addition, the SEC IG participated in the         described the SEC OIG’s planned oversight
activities of the Council of Inspectors General          work, including an assessment of the SEC’s
on Financial Oversight (CIGFO), which was                economic analyses for Dodd-Frank Act rule-
created by Section 989E of the Dodd-Frank                making initiatives, a study of the whistleblower
Wall Street Reform and Consumer Protection               protections established under the Dodd-Frank
Act (Dodd-Frank Act). The CIGFO is chaired               Act, a review of the SEC’s Office of Minority
by the IG of the Department of Treasury and              and Women Inclusion, and a review of the
also includes the IGs of the Board of Gover-             SEC’s internal organizational structure to
nors of the Federal Reserve System (Federal              ensure efficiencies and lack of duplication
Reserve Board), the Commodity Futures Trad-              of efforts. The CIGFO Annual Report is
ing Commission, the Department of Housing                available on the SEC OIG website at
and Urban Development, the Federal Deposit               http://www.sec-oig.gov/Reports/Other
Insurance Corporation, the Federal Housing               /CIGFO_%20Annual_Report_July_2011.pdf.
Finance Agency, the National Credit Union
Administration, and the SEC and the Special                   Also during this reporting period, the SEC
Inspector General for the Troubled Asset Relief          IG significantly contributed to a letter sent on
Program. Under the Dodd-Frank Act, the                   July 21, 2011, from the CIGFO Chair to the
CIGFO is required to meet at least quarterly to          Chair of the FSOC, in accordance with the
facilitate the sharing of information with a             CIGFO’s responsibilities for monitoring the
focus on the concerns that may apply to the              activities of the FSOC. The letter addressed a
broader financial sector and ways to improve             proposed rule issued by the FSOC, after ob-
financial oversight. The CIGFO is also re-               taining public comment, on the development of
quired to submit an annual report to the newly-          specific criteria and an analytical framework for
established Financial Stability Oversight Coun-          designating systemically important financial
cil (FSOC) and the Congress, which must in-              institutions (SIFIs) for heightened prudential
clude a section that highlights the concerns and         supervision by the Federal Reserve Board. The
recommendations of each IG who is a member               letter noted that the FSOC was currently revis-
of the CIGFO and a summary of the general                ing the proposed regulation to provide further
observations of the CIGFO.                               detail and planned to seek additional public
                                                         comment. In the letter, the CIGFO encour-
    During this reporting period, the SEC IG             aged the FSOC, as it moved forward with its
attended CIGFO meetings that were held on                rulemaking and guidance-related activities, to
May 26, 2011, and July 20, 2011, and the SEC             use to the extent possible (1) objective criteria;
Deputy IG participated in the CIGFO’s con-               (2) transparency; and (3) established time-
ference calls. The CIGFO’s 2011 Annual                   frames. The CIFGO letter also stated that the
Report was issued in July 2011. The report               FSOC should ensure continuing and appropri-
included a section primarily drafted by the              ate transparency in the process for finalizing the
SEC Deputy IG that provided an overview of               SIFI designation rule and the manner in which
the SEC, discussed the mission of the SEC                the criteria for SIFI designation were imple-
OIG, and set forth recent examples of                    mented. The CIGFO suggested that the
oversight work performed by the SEC OIG.                 FSOC’s transparency efforts include periodic
These examples included audits and investi-              reporting on the status of its implementation of
gations related to the SEC’s failure to uncover          the final rule and clear disclosure of the para-
Bernard Madoff ’s Ponzi scheme, a review of              meters of the SIFI designations and the basis
the SEC’s role regarding and oversight of Na-            for those designations. The CIGFO further
tionally Recognized Statistical Rating Organi-           stated that it would be beneficial for the FSOC,
zations, an assessment of the SEC’s bounty               in coordination with the Federal Reserve
program, and a review of the SEC’s Section               Board, to develop timeframes for completing its
13(f) reporting requirements. The report also            review of public comments, revising the pro-

                                                   24

posed regulation, and issuing a final regulation,           FSOC’s finalization and implementation of the
while balancing the need to ensure the proper               SIFI designation rule and associated guidance,
process is in place. Finally, the letter noted that         consistent with the CIGFO’s Dodd-Frank Act
the CIGFO will continue to monitor the                      responsibilities.




                                                      25

26
U.S. Securities and Exchange Commission

                                                                        SEMIANNUAL
                                                                        REPORT TO
                                                                        CONGRESS
                                                Ofﬁce of
                                               Inspector
                                                General




                                          AUDITS AND EVALUATIONS

                                          OVERVIEW                                                internal SEC staff, the Government Account-
                                                                                                  ability Office (GAO), and the public.
                                              The OIG is required by the Inspector
                                          General Act of 1978, as amended, to conduct             Audits
                                          audits and evaluations of agency programs, op-
                                          erations, and activities. The OIG’s Office of                Audits examine operations and financial
                                          Audits focuses its efforts on conducting and su-        transactions to ensure that proper management
                                          pervising independent audits and evaluations            practices are being followed and resources are
                                          of the programs and operations of the various           adequately protected in accordance with gov-
                                          SEC divisions and offices. The Office of                erning laws and regulations. Audits are system-
                                          Audits also hires independent contractors and           atic, independent, and documented processes
                                          subject matter experts to conduct work on its           for obtaining evidence. In general, audits are
                                          behalf. Specifically, the Office of Audits con-         conducted when firm criteria or data exist,
                                          ducts audits and evaluations to determine               sample data are measurable, and testing inter-
                                          whether:                                                nal controls is a major objective. Auditors col-
                                                                                                  lect and analyze data and verify agency records
                                              •	 There is compliance with governing               by obtaining supporting documentation, issuing
                                                 laws, regulations, and policies.                 questionnaires, and through physical
                                              •	 Resources are safeguarded and appro-             inspection.
                                                 priately managed.
                                              •	 Funds are expended properly.                         The OIG’s audit activities include perform-
                                              •	 Desired program results are achieved.            ance audits that are conducted of SEC pro-
                                              •	 Information provided by the agency to            grams and operations relating to areas such as
                                                 the public and others is reliable.               the oversight and examination of regulated
                                                                                                  entities, the protection of investor interests, and
                                               Each year, the Office of Audits prepares an        the evaluation of administrative activities. The
                                          annual audit plan. The plan includes work that          Office of Audits conducts its audits in accor-
                                          is selected for audit or evaluation based on risk       dance with the generally accepted government
                                          and materiality, known or perceived vulnerabili-        auditing standards (Yellow Book) issued by the
                                          ties and inefficiencies, resource availability, and     U.S. Comptroller General, OIG policy, and
                                          complaints that are received from Congress,             guidance issued by the Council of the Inspec-

                                                                                                27

tors General on Integrity and Efficiency                   ing how financial regulatory agencies such as
(CIGIE).                                                   the SEC operate. Among other things, the
                                                           Dodd-Frank Act:
Evaluations
                                                              •	 gave the SEC regulatory authority over
    The Office of Audits also conducts evalua-                   advisers to hedge funds; 
tions of the SEC’s programs and activities.                   •	 authorized the SEC, together with the
Evaluations consist of reviews that often cover                  Commodity Futures Trading
broad areas and are typically designed to pro-                   Commission, to regulate over-the-
duce timely and useful information associated                    counter derivatives; 
with current or anticipated problems. Evalua-                 •	 provided the SEC with additional
tions are generally conducted when a project’s                   authority and responsibilities for
objectives are based on specialty and highly                     oversight of credit rating agencies; 
technical areas, criteria or data are not firm, or            •	 imposed greater disclosure and risk
needed information must be reported in a short                   retention requirements with respect to
period of time. The Office of Audits’ evalua-                    the issuance of asset-backed securities;
tions are conducted in accordance with OIG                    •	 strengthened the SEC’s authority with
policy, Yellow Book non-audit service standards,                 respect to corporate governance; and
and guidance issued by the CIGIE.                             •	 required the SEC to study and adopt a
                                                                 uniform fiduciary duty for investment
Audit Follow-Up and Resolution                                   advisers and broker-dealers.
    During this semiannual reporting period,                    The Dodd-Frank Act required the SEC to
the SEC offices and divisions made significant             undertake a significant number of studies and
efforts to reduce the backlog of open recom-               rulemakings, including regulatory initiatives
mendations, while ensuring that the most recent            addressing derivatives; asset securitization;
recommendations were fully implemented.                    credit rating agencies; hedge funds, private
Based on the appropriate evidence and docu-                equity funds, and venture capital funds; mu-
mentation management provided to the OIG to                nicipal securities; clearing agencies; and corpo-
support its implementation of the OIG’s rec-               rate governance and executive compensation.
ommendations, the OIG closed 76 recommen-                  Although the Dodd-Frank Act mandated spe-
dations related to 17 different Office of Audits           cific rulemakings, the SEC may have discretion
reports during this semiannual reporting                   to determine the content of a particular rule.
period.
                                                                On May 4, 2011, the SEC OIG received a
                                                           letter from several members of the U.S. Senate
AUDITS AND EVALUATIONS                                     Committee on Banking, Housing, and Urban
CONDUCTED                                                  Affairs (Senate Banking Committee) requesting
                                                           that the Inspector General review the economic
Report of Review of Economic Analyses
Performed by the Securities and                            analyses performed by the SEC in connection
Exchange Commission in Connection                          with rulemaking initiatives undertaken pursuant
with Dodd-Frank Act Rulemakings                            to the Dodd-Frank Act. The letter asked that
                                                           the review focus specifically on the cost-benefit
   Background                                              analyses prepared by the SEC for the following
                                                           Dodd-Frank Act regulatory initiatives:
    The Dodd-Frank Consumer Protection and
Wall Street Reform Act (Dodd-Frank Act) was                   •	 Credit Risk Retention, 76 Fed. Reg.
signed into law on July 21, 2010. The law re-                    24090 (April 29, 2011)
formed the financial regulatory system, includ-


                                                     28

    •	 Clearing Agency Standards for Opera-                 the early stages and contributed extensively to
       tion and Governance, 76 Fed. Reg.                    the scope and breadth of the cost-benefit
       14472 (March 16, 2011)                               analyses. In these instances particularly, we
    •	 Registration and Regulation of                       found the analyses to be thorough and to have
       Security-Based Swap Execution Facili-                incorporated all aspects of the principles of the
       ties, 76 Fed. Reg. 10948 (February 28,               applicable Executive Orders and the SEC’s
       2011)                                                internal compliance handbook.
    •	 Reporting by Investment Advisers to
                                                                 However, we also found from discussions
       Private Funds and Certain Commodity
                                                            with RiskFin staff that the Division’s level of
       Pool Operators and Commodity Trad-
       ing Advisors on Form PF, 76 Fed. Reg.                communication and involvement in rulemaking
       8068 (February 11, 2011)                             initiatives varied considerably and that it had a
                                                            stronger working relationship with some rule-
    •	 Registration of Municipal Advisors, 76
                                                            making teams than with others. Our technical
       Fed. Reg. 824 (January 6, 2011)                      expert noted that because performing a cost-
    •	 Conflict Minerals, 75 Fed. Reg. 80948                benefit analysis is fundamentally an exercise in
       (December 23, 2010)                                  economics, it is critically important for RiskFin
                                                            staff, who have greater expertise in economics
    The OIG retained Professor Albert S.                    than other SEC staff, to be an integral part of
(Pete) Kyle, Ph.D., as a technical expert to assist         the cost-benefit analysis process. He also noted
with the OIG’s review of the SEC’s economic                 that economists often have skills in economet-
or cost-benefit analyses in connection with                 rics and familiarity with economic data that are
Dodd-Frank Act rulemakings. The technical                   necessary for quantifying costs and benefits.
expert has conducted significant research on
such topics as informed speculative trading,                     Moreover, the OIG’s technical expert noted
market manipulation, price volatility, and the              that the Dodd-Frank Act requires the adoption
information content of market prices, market                of many different required regulations. Ac-
liquidity, and contagion.                                   cording to our technical expert, individual
                                                            regulations often create costs and benefits
    In connection with this report, issued on               which spill over into other regulations. It is
June 13, 2011, the technical expert analyzed                critical, therefore, to have cost-benefit analyses
the cost-benefit and economic analyses con-                 coordinated by one group of economists, who
ducted by the SEC’s different rulemaking divi-              can ensure that the costs and benefits of pro-
sions and specifically reviewed the process and             posed rules are not ignored or double-counted.
the collaboration between divisions and offices             Furthermore, as one rule proposal changes,
when determining possible costs and benefits of             spillovers are created in the costs and benefits
the proposed rules.                                         of other rules. Dealing with such spillovers re-
                                                            quires effective lines of communication among
   Results                                                  personnel conducting the cost-benefit analyses.
                                                            Communication works most efficiently when
    The review concluded that a systematic                  the personnel who need to communicate are in
cost-benefit analysis was conducted for each of             one place, such as in RiskFin.
the six rules reviewed. Overall, we found that
the SEC formed teams with sufficient expertise                  We also identified two areas of potential
to conduct a comprehensive and thoughtful                   deficiencies in the SEC’s cost-benefit analyses.
economic analysis of the six proposed releases.             First, we particularly noted the lack of macro-
In several cases, we found that staff from the              level analysis in the proposed release enumerat-
Division of Risk, Strategy, and Financial Inno-             ing standards for clearing agency operation
vation (RiskFin) were involved in the process in            and governance. The OIG’s technical expert

                                                      29

stressed the importance of a robust macro                 The Commission’s general statutory
analysis in connection with the clearing agency       authority to provide exemptive relief is located
operation standards. Second, we noted the             in Section 28 of the Securities Act of 1933,
lack of an assessment of the quantitative             Sections 12(h) and 36 of the Securities
impact of proposed rules, particularly in             Exchange Act of 1934, Section 6(c) of the In-
connection with the rulemaking requiring              vestment Company Act of 1940, and Section
municipal advisors to register with the               206A of the Investment Advisers Act of 1940.
Commission. Our technical expert noted that           The Commission has delegated authority to its
measuring costs and benefits requires both            program divisions to issue exemptive orders.
qualitative and quantitative analysis. A specific     The Division of Investment Management (IM)
advantage of quantitative analysis is that it can     provides exemptive relief under the Investment
be used to set benchmarks that can then be            Company Act of 1940 and the Investment Ad-
used to measure costs and benefits when rules         visers Act of 1940. The Division of Trading
are revisited several years after their adoption.     and Markets (TM) provides exemptive relief
Because the Dodd-Frank Act requires many              pursuant to the Securities Exchange Act of
rules to be implemented in a short time frame,        1934 to entities, including regulated entities
it is likely that there will be many proposals to     such as broker-dealers and exchanges, and for
change the rules in the future. The OIG in-           certain market activities. The Division of
tends to conduct a more in-depth review of            Corporation Finance (CorpFin) provides ex-
specific cost-benefit analyses performed by the       emptive relief under the securities registration
agency and will issue a subsequent report on          and reporting sections of the Securities
the results of that review.                           Exchange Act of 1934. These divisions may
                                                      coordinate on exemptive relief regarding
    This report is available on the OIG website       cross-cutting securities laws issues—for exam-
at http://www.sec-oig.gov/Reports/                    ple, auction rate securities.
AuditsInspections/2011/Report_6_13_11.pdf.
                                                           Exemptive relief was not intended to pro-
Oversight of and Compliance with                      vide unrestricted or unlimited relief from the
Conditions and Representations                        securities laws and rules, however. For exam-
Related to Exemptive Orders and                       ple, the Commission has noted the following
No-Action Letters (Report No. 482)                    regarding the general exemptive authority
                                                      under the Investment Company Act of 1940:
   Background
                                                      “[T]he exceptional power under Section 6(c) to
     The SEC has statutory authority to issue         free any person from any or all provisions of
exemptive orders, in response to an entity’s re-      the [Investment Company] Act is one which
quest, that allow the entity to engage in trans-      must be exercised with circumspection and
actions that would otherwise be prohibited by         with full regard to the public interest and the
the securities laws, rules, or regulations. In        purposes of the [Investment Company] Act.
some instances, instead of exemptive relief, a        ...” In order to provide exemptive relief under
company may request a “no-action” letter from         Section 36 of the Exchange Act, “the
Commission staff. A no-action letter states that      Commission must determine that the exemp-
the staff will not recommend enforcement ac-          tion is necessary or appropriate in the public
tion in response to the entity’s proposed activ-      interest and is consistent with the protection of
ity. Exemptive orders and no-action letters           investors.” While the Commission may pro-
allow the Commission to provide flexibility           vide unconditional exemptive relief, it generally
and accommodate situations not originally             requires that the recipient of the relief comply
contemplated by the securities laws.                  with specified conditions. If the SEC grants an
                                                      exemption that contains conditions, the reques-


                                                    30

tor must adhere to the conditions of the ex-               orders, but does not engage in any systematic
emptive relief issued by the Commission or a               monitoring of such orders.
division acting pursuant to delegated authority
in order for the exemption to have any effect.                 The objective of our review was to assess
                                                           the Commission’s processes for ensuring ad-
     In some instances, instead of exemptive               herence to the conditions under which exemp-
relief from the provisions of the securities laws,         tive orders and no-action letters are granted to
a company will request assurances, known as                regulated entities.
“no-action” letters, from Commission staff that
the staff will not recommend enforcement ac-                  Results
tion in response to the company’s proposed
activity. No-action letters expressly represent                We found that the Commission can im-
only a position by the staff based on the facts            prove its processes for monitoring compliance
and circumstances described in the request,                with conditions and representations related to
and the letters expressly do not represent legal           exemptive orders and no-action letters in a va-
conclusions or opinions. No-action letters are             riety of ways. Significantly, our review found
intended to help industry comply with the                  that SEC divisions that issue exemptive orders
securities laws by providing the divisions’ staff          and no-action letters to regulated entities do
positions on contemplated transactions. The                not have a coordinated process for reviewing
division staff clearly state in the no-action let-         these entities’ compliance with the conditions
ters that the relief granted is based solely on            and representations contained in the orders
the facts and representations presented, and               and letters, and instead rely on OCIE to review
that any different facts or conditions might               compliance as part of its examinations. Be-
require another conclusion.                                cause exemptive orders and no-action letters
                                                           allow industry participants to conduct activities
     Compliance by registered entities with the            that, without the relief, could violate the
conditions and representations in exemptive                securities laws and regulations, the review de-
orders and no-action letters is reviewed primar-           termined that monitoring is important to en-
ily by the Office of Compliance Inspections                sure that regulated entities comply with the
and Examinations (OCIE) as part of its inspec-             conditions and representations in exemptive
tions and examinations program. OCIE con-                  orders and no-actions letters.
ducts examinations of firms that are registered
with the Commission, including registered                      We further determined that the divisions
broker-dealers, transfer agents, clearing agen-            separately track data regarding processed ex-
cies, investment advisers, and investment                  emptive orders and no-action letters in various
companies (collectively, “regulated entities”).            ad hoc spreadsheets and databases and that the
According to OCIE, it has been a longstanding              collected data do not include information on
practice for examiners to review, as part of pre-          compliance with the conditions and representa-
examination work, exemptive orders and no-                 tions in exemptive orders and no-action letters.
action letters that have been issued to the regis-         In addition, while OCIE’s examination track-
trant being examined. OCIE indicated that an               ing system tracks violations of the federal
examination report or deficiency letter will in-           securities laws identified through inspections
clude the results of OCIE’s review of compli-              and examinations, OCIE’s system does not
ance with exemptive orders or no-action letters            identify the exemptive order or no-action letter
if potential violations of the law are found.              that may be related to the violation. Our
TM’s Office of Market Operations has on oc-                review also found that while the divisions and
casion reviewed compliance with IT-related                 OCIE occasionally share information pertinent
conditions of certain temporary exemptive                  to exemptive orders and no-action letters, the


                                                     31

process is informal and not systematic. Be-             Commission’s oversight of compliance with
cause the divisions do not systematically cap-          conditions and representations in exemptive
ture and analyze data on compliance with the            orders and no-action letters:
conditions and representations in exemptive
orders and no-action letters issued to regulated            (1)	   IM, TM, and CorpFin should de-
entities, we determined that the Commission is                     velop processes for coordinating with
less effective than it could be in monitoring                      OCIE regarding reviewing for com-
compliance with such conditions and represen-                      pliance with conditions and represen-
tations.                                                           tations in exemptive orders and
                                                                   no-action letters issued to regulated
    Similarly, our review found that the SEC’s                     entities on a risk basis.
current organizational structure separates the
                                                            (2)	   IM, TM, and CorpFin, in coordina-
agency’s rulemaking and examinations func-
                                                                   tion with OIT and OCIE, should
tions and that there is no formalized coordina-
                                                                   develop and implement processes to
tion between these functions. As noted above,
                                                                   consolidate, track, and analyze in-
there is also no formalized process for monitor-
                                                                   formation regarding exemptive or-
ing or ensuring compliance with the conditions
                                                                   ders and no-action letters.
and representations in exemptive orders and
no-action letters. We noted that the Dodd-                  (3)	   IM and TM should, in their plans for
Frank Wall Street Reform and Consumer Pro-                         implementing the Dodd-Frank Act
tection Act of 2010 requires IM and TM to                          requirement that they establish their
include examiners on their staffs to provide                       own examination staffs, develop pro-
these divisions with expertise in inspections and                  cedures to coordinate their examina-
regulations of those divisions.                                    tions with OCIE and include provi-
                                                                   sions to review for compliance with
     During the review, we learned that                            conditions and representations in ex-
although noncompliance with the conditions                         emptive orders and no-action letters
and representations in exemptive orders and                        on a risk basis.
no-action letters could result in significant vio-          (4)	   IM and TM should include compli-
lations of the securities laws, OCIE and the                       ance with the conditions and repre-
divisions do not view the granting of exemptive                    sentations in significant exemptive
and no-action relief, per se, as a substantial non-                orders and/or no-action letters issued
compliance risk because of the self-executing                      to regulated entities as risk considera-
nature of the relief granted. A sample of ex-                      tions in connection with their moni-
amination reports that we reviewed, however,                       toring efforts.
revealed numerous instances in which OCIE
examinations found deficiencies in compliance               (5)	   OCIE should include compliance
with conditions and representations in exemp-                      with conditions and representations
tive orders and no-action letters. The review                      in significant exemptive orders and
found that, despite the noncompliance noted,                       no-action letters issued to regulated
OCIE’s present risk-rating system does not in-                     entities as risk considerations in
corporate the issuance of exemptive orders or                      connection with its compliance
no-action letters as per se risk factors.                          efforts.

   Recommendations                                           Management concurred with all of the
                                                         report’s recommendations. The report is
   On June 29, 2011, the OIG issued a final              available on the OIG website at http://
report containing the following five recom-              www.sec-oig.gov/Reports/ AuditsInspections/
mendations that are intended to enhance the              2011/482.pdf.


                                                      32

Assessment of the Office of Investor                             The objectives of our audit were to deter-
Education and Advocacy’s Functions                          mine whether OIEA addresses investor inquir-
(Report No. 498)                                            ies accurately and timely processes complaints
                                                            from investors or refers them to other parties in
   Background                                               a timely manner, properly utilizes information
    The SEC receives investor inquiries and                 from previously received complaints, has a
complaints from the general public, and the                 tracking system and standard operating proce-
SEC’s Office of Investor Education and Advo-                dures for investor inquiries and complaints that
cacy (OIEA) is responsible for gathering, proc-             enable it to address inquiries and complaints in
essing, and responding to these inquiries and               accordance with its goals, and provides useful
complaints. OIEA consists of four offices: the              and relevant educational material and events to
Office of Investor Assistance, the Office of In-            the investing public.
vestor Education, the Office of Chief Counsel,
and the Office of Policy.                                      Results

                                                                We found that, based on the samples we
     The Office of Investor Assistance processes
                                                            reviewed, OIEA’s review procedures have
and responds to inquiries and complaints from
                                                            lengthened response time for priority inquiries.
investors. It utilizes the Investor Response In-
                                                            OIEA’s goal is to close out investor inquiries
formation System (IRIS) to track and maintain
                                                            and complaints within seven and 30 business
inquiries and complaints received from the in-
                                                            days. Its specific performance targets, as stated
vesting public. As noted in the Commission’s
                                                            in the SEC’s FY 2010 performance and ac-
2010 Performance and Accountability Report, tens of         countability report, are to close 80 percent of
thousands of investors each year contact the
                                                            complaints and inquiries within seven days and
SEC with investment-related complaints and
                                                            90 percent within 30 days. In the sample we
questions, and OIEA staff “aims to close out as
                                                            tested, which covered the period from Novem-
many new investor assistance matters within                 ber 14, 2009, to March 31, 2011, 53 percent of
seven and 30 business days.” Staff in the Of-               Congressional correspondence, 33 percent of
fice of Investor Assistance consist of investor
                                                            Chairman’s correspondence, and 22 percent of
specialists and attorneys who focus on inquiries
                                                            White House correspondence, excluding repeat
and complaints involving legal matters. The
                                                            complaints, were not closed out within 30 days.
Office of Investor Assistance routinely works
                                                            Some staff members indicated that review by
with other Commission divisions and offices,
                                                            multiple layers of management has caused re-
broker-dealers, investment advisers, and com-               sponse time for priority correspondence to be
panies to provide answers to investors.
                                                            prolonged. According to OIEA management,
                                                            the multiple review process for priority corre-
     The Office of Investor Education produces
                                                            spondence is consistent with OIEA’s focus on
educational material about investing activities
                                                            the quality of responses rather than on simply
and holds events to educate the investing pub-
                                                            closing inquiries. Additionally, OIEA manage-
lic. The Office of Chief Counsel provides legal
                                                            ment stated that certain inquiries require exten-
guidance to OIEA and is primarily responsible
                                                            sive research and that it was important for
for preparing investor alerts and bulletins. The
                                                            OIEA to do its best to assist investors.
Office of Policy participates in the rulemaking
process and, in an effort to promote the inves-
                                                                During the audit, we also identified several
tor’s perspective, reviews the Commission’s
                                                            errors in the processing and categorizing of
rules, concept releases, and studies that might
                                                            investor inquiries and complaints. In addition,
affect investors.
                                                            a number of OIEA staff indicated that they
                                                            needed training on OIEA’s tracking system and
                                                            on the securities industry and new securities

                                                      33

products to better serve investors. OIEA                   also found that the survey sent to investors who
management indicated that they believe staff               use the web form contained questions specifi-
have been offered many training sessions on                cally geared to telephone inquiries.
OIEA’s tracking system and the securities
industry.                                                       We also found that information on the SEC
                                                           website about how investors may contact OIEA
     Additionally, we found that the automated             by telephone to make inquiries or complaints is
bridge for transferring allegations of wrongdo-            not displayed prominently or presented clearly.
ing from the OIEA tracking system to the Tips,             When we examined the SEC website,
Complaints, and Referrals (TCR) system,                    www.sec.gov, we found that the home page
which the Commission uses for enforcement                  contains no specific information about how
and examination purposes, has experienced                  to contact OIEA by telephone to make inquir-
problems with transmitting complete infor-                 ies or complaints. Further, the SEC has two
mation and transferring document attach-                   telephone numbers that lead callers to the same
ments. We found two cases in which the in-                 recorded greeting and menu options. Addi-
formation in the field describing the investor’s           tionally, www.investor.gov, which was estab-
allegation(s) in the TCR system was incomplete             lished to support OIEA’s mission to educate
because of a limit on the amount of text that              investors, separate from the SEC’s main
could be entered in that field. In addition, due           website, does not show the SEC Toll-Free
to problems related to the automated bridge,               Investor Information telephone number on
the Office of Market Intelligence (OMI), which             the home page.
is responsible for collecting, analyzing, and
monitoring complaints that the SEC receives,                   Finally, we found that there is a lack of
has expressed concern that it may not receive              communication between Office of Investor
complete information from OIEA. OIEA em-                   Assistance staff members and OIEA
ployees also expressed concerns about the time             management. Many employees expressed con-
it takes to manually transfer information to               cerns about management’s lack of interest in
OMI if there is a problem with the automated               addressing their suggestions on OIEA’s proce-
bridge.                                                    dures and requiring them to follow certain pro-
                                                           cedures that they believe are rigid or inappro-
    During our audit, we also found that inves-            priate. OIEA management stated that it seeks
tor specialists in regional offices do not follow          feedback from employees but that staff mem-
the same procedures used by OIEA investor                  bers are unwilling to communicate with
specialists and that they provide inconsistent             management. We also found that Office of
responses to inquiries. OIEA stated that be-               Investor Assistance staff thought it would be
cause investor specialists in regional offices             beneficial to have officewide meetings on a pe-
report to regional directors, it does not have the         riodic basis so that they would be informed
authority to monitor their investor assistance             about what other offices in OIEA do.
and education activities.
                                                              Recommendations
    Further, we found that while OIEA staff
are required to ask investors who call OIEA                    On September 30, 2011, the OIG issued a
with an inquiry or complaint to take a survey at           final report containing the following 16 rec-
the end of the call, they are not consistently             ommendations that are intended to enhance
doing so. Investors who submit an inquiry or               OIEA’s operations to assist the investing public:
complaint using the SEC web form are sup-
posed to receive a follow-up survey from OIEA,                (1)   OIEA should evaluate its review
but only a low percentage of these surveys have                     process for responses to priority and
been completed and returned to OIEA. We                             other inquiries to determine whether

                                                     34

       bottlenecks or inefficiencies are pre-                  out the Commission are providing
       sent and whether opportunities to                       consistent assistance to investors and
       streamline the process and improve                      that OIEA is aware of significant is-
       the timeliness of responses exist.                      sues in the regional offices.
       Based on the results of the evaluation,          (8)	   OIEA should continue to consult with
       OIEA should make any appropriate                        regional offices to determine ways it
       changes to management review re-                        could facilitate participation by the
       sponsibilities and revise its operating
                                                               SEC in local events held to educate
       procedures accordingly.
                                                               investors and ways to assist regional
(2)	   OIEA should enhance the training                        offices with other efforts related to
       available to OIEA staff on IRIS and                     educating investors.
       on processing investor inquiries and
                                                        (9)	   OIEA should issue periodic remind-
       complaints. In particular, these en-
                                                               ers to OIEA staff members that they
       hancements should address areas
                                                               are required to provide investors with
       where confusion or errors are com-
                                                               the option to complete a survey after
       mon or persistent.
                                                               every call.
(3)	   OIEA should make additional train-               (10)	 OIEA should revise the questions in
       ing available to OIEA staff, including                 its survey sent to investors who use the
       training provided by other divisions                   SEC’s web form for inquiries and
       or offices within the SEC, on new and
                                                              complaints by deleting questions ap-
       emerging topics in the securities in-                  plicable only to telephone inquiries
       dustry to help ensure that information
                                                              and complaints and adding questions
       provided to investors is accurate and
                                                              specifically relevant to inquiries and
       current. OIEA management should
                                                              complaints submitted through the
       regularly solicit ideas for training
                                                              web form.
       topics from OIEA staff.
                                                        (11)	 OIEA, in coordination with the Of-
(4)	   OIEA should take measures to ensure
                                                              fice of the Secretary, should move the
       that all staff, including staff with
                                                              SEC’s Toll-Free Investor Information
       telephone duty responsibilities, have
                                                              Service telephone number to a more
       sufficient time to attend periodic
                                                              prominent location on the SEC
       training.
                                                              website, such as the home page.
(5)	   OIEA, in coordination with OMI
                                                        (12)	 OIEA should determine, in coordina-
       and RiskFin, should continue to en-
                                                              tion with the Office of the Secretary,
       hance the bridge between OIEA’s
                                                              whether there should be one SEC
       IRIS and the TCR system, particu-
                                                              information service telephone num-
       larly the functions for transferring
                                                              ber instead of two on the “Useful
       attachments and for ensuring the
                                                              SEC Contact Information” list on the
       complete transfer of information.
                                                              SEC website.
(6)	   OIEA should provide regional office
                                                        (13)	 OIEA should display the SEC Toll-
       investor specialists with ongoing train-
                                                              Free Investor Information Service
       ing on investor assistance, including
                                                              telephone number on the home page
       information on resources available on
                                                              of Investor.gov for investors to make
       the SEC website and on IRIS.
                                                              inquiries or complaints.
(7)	   OIEA should coordinate with re-
                                                        (14)	 OIEA should communicate matters
       gional offices to establish a system for
                                                              related to OIEA operations, such as
       communicating regularly to help en-
                                                              personnel changes and initiatives by
       sure that investor specialists through-

                                                  35

         offices within OIEA, to staff members            outdated. OHR is developing a new hand-
         at least once a month through office-            book, the Human Capital Directive, to replace
         wide e-mails or an officewide meeting            the POPPS Manual. The 2007 collective bar-
         and ensure appropriate and necessary             gaining agreement (CBA) between the SEC
         communication between the different              and the National Treasury Employees Union
         offices within OIEA.                             (NTEU) addresses alternative work schedules,
   (15)	 OIEA should continue to seek feed-               telework, and overtime compensation in detail
         back from staff members on new and               and is applicable to all SEC bargaining unit
         revised policies and procedures and              employees.  According to OHR, the alternative
         other matters that would affect the              work schedule programs described in the
         office and should provide adequate               CBA are also available to nonbargaining unit
         time for staff to review and respond to          employees.
         feedback requests.
                                                               The objectives of our review were to (1) ex-
   (16)	 OIEA should participate in team-                 amine how well the SEC has implemented and
         building exercises that are available at         oversees its alternative work schedule and tele-
         the Commission to improve commu-                 work programs; (2) determine whether the SEC
         nications and relations between                  complies with applicable federal laws and regu-
         management and staff.                            lations and SEC policies and procedures per-
                                                          taining to alternative work schedules, telework,
    Management concurred with all of the re-              and overtime; and (3) assess the pertinent SEC
port’s recommendations. The report is avail-              IT capabilities and support for the SEC’s tele-
able on the OIG website at http://                        work and COOP programs. As part of our
www.sec-oig.gov/Reports/ AuditsInspections/               review, we issued a survey to all SEC personnel
2011/498.pdf.                                             concerning alternative work schedules, tele-
                                                          work, overtime compensation, and COOP.
Review of Alternative Work                                The survey consisted of numerous yes/no and
Arrangements, Overtime                                    multiple-choice questions and also included an
Compensation, and COOP-Related                            opportunity for respondents to provide written
Activities at the SEC (Report No. 491)
                                                          comments.
   Background
                                                             Results
    Federal agencies have in recent years been
directed to provide employees with greater                    We found that six alternative work schedule
flexibilities in their work and expanded oppor-           programs in which SEC employees particip-
tunities to telework. In addition, agencies are           ated—3-day workweek, flexible workweek,
now required to have continuity of operations             Maxiflex, 10-hour days biweekly, first 40-hour
(COOP) plans and to incorporate telework into             tours of duty, and rotating shifts—were not
these plans.                                              among the alternative work schedules included
                                                          in the CBA or the POPPS Manual. In addi-
    Within the SEC, OHR is responsible for                tion, we determined that some federal agencies
developing, implementing, and evaluating the              are allowing their employees more flexibility
Commission’s work/life programs, including its            with respect to their arrival and departure times
alternative work schedule programs and its te-            and the length of workdays within the work-
lework program. Although the existing SEC                 week or pay period by implementing work
Personnel Operating Policies and Procedures               schedule options such as a gliding schedule,
(POPPS) Manual describes alternative work                 variable day schedule, or variable week sched-
schedules and telework, as well as overtime               ule. We determined that, due to the benefits
compensation for employees, the material is               that alternative work schedule options provide

                                                    36

to employees, the SEC might benefit from mak-              other than religious purposes during FYs 2008
ing additional flexible work schedule options              through 2010.
available to its employees.
                                                                In addition, we found that while many SEC
    Our review also found that the SEC does                employees are compensated for overtime work
not have a comprehensive manual that ad-                   in some manner, other employees are not. A
dresses alternative work schedule options that             1992 provision of the POPPS Manual stated
are available to all employees. The CBA refer-             that employees in professional or supervisory
ences only three types of alternative work                 positions are expected to have sufficient interest
schedules: Flexitour with credit hours, com-               in completing their assignments on a timely
pressed 5-4/9, and compressed 4-10.  The                   basis and keeping their workload reasonably
POPPS Manual addresses only two alternative                current by performing voluntary work outside
work schedule options, Flexitour and 5-4/9                 of regular work hours on their own initiative
compressed, and the pertinent material has not             whenever necessary. We noted, however, that
been updated since January 20, 1995. More-                 with respect to bargaining unit employees, this
over, the POPPS Manual provision addressing                provision appeared to be superseded by the
Flexitour schedules and credit hours is inconsis-          2007 CBA, which provided that the SEC will
tent with the Flexitour provisions of the CBA.             not expect or require employees to donate time
Additionally, the POPPS Manual provision ad-               in lieu of proper overtime compensation. Fur-
dressing compressed work schedules is not only             ther, we found no SEC policy that superseded
outdated, but contains significant inconsisten-            the 1992 POPPS Manual provision for nonbar-
cies with the CBA. We further determined that              gaining unit employees, and we found inconsis-
the SEC has no official form for employees to              tent views among OHR senior staff with
use when requesting to participate in an alter-            respect to the appropriateness or legality of
native work schedule. We also found that little            management’s expectation that employees who
training on alternative work schedules is avail-           are exempt from the overtime pay requirements
able to SEC employees and that this lack of                of the Fair Labor Standards Act work some
training may have contributed to the use of                amount of uncompensated overtime.
unauthorized alternative work schedules by
SEC employees.                                                  We found the SEC’s promotional and
                                                           training activities related to telework to be
     We found that the current CBA language                inadequate.  New SEC employees receive little
allows employees who work a conforming                     information about telework during orientation,
schedule (i.e., one that aligns with the office’s          and 57 percent of the respondents to our work/
official business hours) to earn and use credit            life survey believed that the SEC’s advertise-
hours and is, therefore, inconsistent with federal         ment of its work/life programs could or should
law providing that credit hours are available              be improved, with some comments specifically
only to employees who work flexible schedules.             mentioning the lack of information regarding
We also found that while members of the Sen-               telework. The work/life survey also identified
ior Executive Service (SES) are prohibited by              improvements to the SEC’s current guidance
federal regulation from earning credit hours,              concerning telework. Our analysis of the train-
Senior Officers at the SEC (who are essentially            ing materials currently being used for SEC te-
equivalent to SES members) are permitted to                lework courses revealed some gaps in their con-
earn and do earn credit hours, although the                tent, particularly with respect to the teleworking
SEC has no official policy addressing this issue.          provisions of the CBA.
Our review also found that while Senior Offi-
cers are prohibited from earning compensatory                  In addition, we found that as of December
time off except for religious purposes, one Sen-           31, 2010, 125 SEC employees engaged in tele-
ior Officer did earn compensatory time off for             work three or more days per week, with 68 of

                                                     37

these employees being located in the SEC                 personnel are not likely routinely practicing
headquarters facility.  We learned, however,             their remote access capabilities, which could
that the majority of these frequent teleworkers,         impair their ability to perform mission-essential
including some who telework five days a week,            functions during emergency situations. 
still have private offices at SEC headquarters,
notwithstanding that a stated purpose of fed-                 We further determined that although tele-
eral telework programs is to reduce real estate          work is mentioned in the SEC’s headquarters
and energy costs and promote management                  and regional office COOP plans, the telework
efficiencies.                                            provisions in the COOP Plan were not as spe-
                                                         cific and detailed as those contained in the
    In reviewing the use of telework at the              SEC’s April 2009 Pandemic Influenza Prepar-
SEC, we analyzed the telework data that the              edness Plan. We found that the current SEC
SEC reported to OPM for calendar years 2008              COOP Plan emphasizes the use of relocation
and 2009 and compared the reported data to               facilities rather than telework.
other telework data maintained by OHR. We
found inconsistencies between the two sets of                Our examination of the regional office
data. We also found that the reports produced            COOP plans revealed that none of those
by the SEC for OPM do not track the number               plans contained all the elements of a viable
of employees whose telework agreements have              continuity plan and that some of the plans
been denied or terminated. We also noted that            were outdated. We also determined that the
the Telework Enhancement Act of 2010 estab-              SEC’s regional office COOP plans, like the
lishes additional requirements for OPM reports           Commission-wide COOP Plan, do not fully
based on agency-provided data and that the               address the role of telework.
SEC will be unable to provide the necessary
data to OPM without a system for gathering                   Finally, we determined that although the
timely and accurate information on telework.             SEC has a variety of remote access tools for
While we found that the SEC’s Telework Co-               teleworkers to use, the OIT has not tested the
ordinator has established a telework program             maximum user limits of the SEC’s remote
work plan for FY 2011 that includes addressing           access technology. 
OPM reporting requirements, the Telework
Coordinator has not developed explicit goals                Recommendations
and objectives to ensure that the elements of
the plan are achieved or any goals and objec-                The OIG issued a report on the results of
tives for increasing telework participation.             our review on September 28, 2011. The report
                                                         included the following 27 recommendations to
     With regard to telework as it relates to            improve the SEC’s alternative work schedule,
COOP, we found that nearly half—49 per-                  overtime, telework, and COOP programs:
cent—of SEC COOP mission-essential
personnel do not have telework agreements in                (1)	   OHR should take necessary actions
place. We also determined that the telework                        to ensure that employees do not work
agreements of mission-essential personnel do                       unauthorized alternative work sched-
not include work expectations related to emer-                     ules, including required revisions to
gency telework and that the SEC does not                           the CBA, and steps to ensure that all
require its mission-essential personnel to                         Commission managers and staff are
enter into telework agreements.  In addition,                      fully informed about which alterna-
we found that some SEC mission-essential                           tive work schedules are authorized.
personnel participating in COOP exercises are               (2)	   OHR should ensure that the (a) new
not required to remotely access the SEC’s net-                     Human Capital Directive addresses
work during such exercises. We concluded that                      all alternative work schedules avail-
a significant number of SEC mission-essential
                                                   38

       able to SEC employees, and (b) con-                    guidelines, and procedures related to
       tents of the Human Capital Directive                   credit hours, compensatory time off,
       are and remain consistent with the                     payment for overtime worked, and
       alternative work schedule compo-                       voluntary and uncompensated
       nents of the CBA.                                      services.
(3)	   OHR should ensure that the new                  (8)	   OHR should negotiate revisions to
       Human Capital Directive addresses                      the language in the CBA between the
       all SEC employees—supervisory,                         Commission and the NTEU with
       managerial, professional, nonprofes-                   respect to the use of credit hours by
       sional, bargaining unit, and nonbar-                   employees working conforming
       gaining unit employees—and con-                        schedules, ensuring that the revised
       tains up-to-date information on all                    language conforms with applicable
       alternative work schedule programs                     law.
       authorized by the Commission.
                                                       (9)	   OHR should institute appropriate
(4)	   OHR should (a) provide comprehen-                      controls to ensure that Senior Officers
       sive training to all employees and                     do not receive compensatory time off.
       managers on all available alternative
                                                       (10)	 OHR should consult with OGC and
       work schedule programs and (b) make
                                                             OPM to determine whether the SEC
       up-to-date information on alternative
                                                             should adopt an official policy that
       work schedules and policy available
                                                             addresses whether Senior Officers are
       electronically to all employees on the
                                                             permitted to earn credit hours.
       SEC intranet site and periodically
       notify employees of its availability            (11)	 OHR should ensure that the recom-
       and location.                                         mendations made by the Telework
                                                             Advisory Group in its assessment of
(5)	   OHR should develop an alternative
                                                             the SEC’s telework policy are consid-
       work schedule request form that con-
                                                             ered, including the recommendation
       tains sections for the requesting em-
                                                             that OHR use the Telework Advisory
       ployee’s information and certification;
                                                             Group’s telework policy evaluation
       the type of alternative work schedule
                                                             checklist as a resource to further
       requested, including specific work
                                                             develop the Commission’s telework
       hours and, if applicable, workdays;
                                                             policy.
       the immediate supervisor’s approval;
       and, if applicable, the approving offi-         (12)	 OHR should revise the one-page
       cial’s decision.                                      overview of telework provided to new
                                                             employees to include website refer-
(6)	   OHR, in developing the new Human
                                                             ences for telework resources; the
       Capital Directive, should work with
                                                             name, telephone number, and e-mail
       NTEU to determine whether addi-
                                                             address of the SEC Telework Coor-
       tional alternative work schedules, such
                                                             dinator; and page references to article
       as the gliding, variable day, variable
                                                             11, Telework Program, of the 2007
       week, three-day workweek, and Maxi-
                                                             CBA.
       flex options described in OPM’s
       Handbook on Alternative Work                    (13)	 OHR should provide comprehensive
       Schedules, should be adopted as                       telework training sessions to SEC
       options for SEC employees.                            employees that address, among other
                                                             things, telework tools; policies and
(7)	   OHR should include in the new
                                                             procedures for discontinuing tele-
       Human Capital Directive clear, up-to-
                                                             work; what happens when an em-
       date information on the laws, policies,
                                                             ployee is promoted, reassigned, or

                                                 39

      detailed; duty station policy; em-                   plan for FY 2011 and for increasing
      ployee availability during telework;                 telework participation by SEC
      employee personal computer usage;                    employees.
      mandatory telework-related forms;               (21)	 OHR should establish a process to
      office supplies and equipment; and                    monitor progress in meeting the
      protection of government records.                     Commission’s telework-related goals
(14)	 OHR should provide comprehensive                      and objectives and, if the goals and
      telework training sessions to SEC                     objectives are not being met, OHR
      managers that address, among other                    should take action to identify and
      things, telework tools, policies, and                 eliminate barriers to meeting the
      procedures related to managers’ ap-                   goals and objectives.
      proval and denial of employee tele-             (22)	 Consistent with governing Federal
      work, managers’ right to direct em-                   Emergency Management Agency
      ployees to report to work on their te-                (FEMA) and OPM directives and the
      lework day, and managers’ ability to                  SEC CBA, OHR, in conjunction
      suspend or terminate telework.                        with the Office of FOIA, Records
(15)	 OHR should require training and                       Management, and Security, should
      recertification for current teleworkers               require all mission-essential personnel
      and their managers at least every two                 to enter into telework agreements that
      years.                                                specifically allow them to conduct
(16)	 OHR should send administrative                        their continuity of operations respon-
      notice e-mails to all SEC employees                   sibilities and the mission-essential
      twice each year reminding them of                     functions they will perform during
      the Commission’s telework options                     emergencies or agency closures.
      and the benefits of participating in            (23)	 Consistent with governing FEMA
      the program.                                          and OPM directives and the SEC
(17)	 The Office of Administrative Services                 CBA, OHR, in conjunction with the
      should establish and enforce proce-                   Office of FOIA, Records Manage-
      dures to ensure that employees who                    ment, and Security, should require
      telework three or more days a week                    mission-essential personnel who have
      do not maintain private offices, but                  telework agreements to telework peri-
      rather share office space.                            odically to practice their assigned
                                                            mission-essential and primary
(18)	 OHR should develop an improved                        mission-essential functions.
      telework database that will track the
      processing of telework agreements               (24)	 The Office of FOIA, Records
      and store telework agreements to                      Management, and Security should
      ensure that the data it reports to                    update the continuity communica-
                                                            tions section of the SEC’s COOP
      OPM are reliable and valid.
                                                            Plan and expand it to expressly ad-
(19)	 OHR should require that SEC man-                      dress conducting essential functions
      agers provide the Telework Coordina-                  by telework consistent with governing
      tor with copies of denied or termi-                   FEMA and OPM directives and the
      nated telework agreements to facili-                  SEC CBA, and include subsections
      tate tracking of such agreements.                     addressing telework capability, train-
(20)	 OHR should develop goals and ob-                      ing staff to telework effectively, and
      jectives for accomplishing the work                   exercising agency telework compe-
      listed in the telework program work                   tence as detailed in the SEC’s Pan-
                                                            demic Influenza Preparedness Plan.

                                                40

   (25)	 The Office of FOIA, Records                      allocated among the various divisions and of-
         Management, and Security should                  fices. The Office of Human Resources (OHR)
         instruct regional office directors to            has authority for managing the Commission’s
         revise their regional office COOP                awards budget and granting final approval of
         plan to address all the essential ele-           awards. OHR is also responsible for training
         ments of viable continuity capability            supervisors to use the ERP effectively, providing
         specified by FEMA and, to ensure                 guidelines for initiating appropriately selected
         that the plans are reviewed and modi-            performance-related awards, encouraging em-
         fied timely and presented in a stan-             ployees to submit suggestions to the suggestion
         dard format, the Office of Security              program, and evaluating and processing awards
         Services should establish timelines              and suggestions. Further, OHR is responsible
         and submission criteria for the revised          for monitoring and evaluating the adequacy of
         plans.                                           documentation for award recommendations
   (26)	 The Office of FOIA, Records                      and the use of approval authority that is dele-
         Management, and Security should                  gated to divisions and offices.
         instruct the directors of the appropri-
         ate regional offices to include in their              Recruitment, relocation, and retention (3R)
         COOP plans strategies for supporting             incentives are among the human capital flexi-
         headquarters essential functions                 bilities intended to help federal agencies ad-
         during devolution of control.                    dress human capital challenges and to build
                                                          and maintain a high-performing workforce
   (27)	 OIT should coordinate with other                 with essential skills and competencies. Accord-
         SEC offices and divisions to perform             ing to the Office of Personnel Management
         server stress tests, which should incor-         (OPM), the intent of 3R incentives is to provide
         porate a variety of applications used            agencies with discretionary authority to use
         with remote access.                              nonbase compensation to help recruit, relocate,
                                                          and retain employees in difficult staffing
    Management concurred with all of the                  situations.
report’s recommendations. The report is
available on the OIG website at                               The overall objective of our audit was to
http://www.sec-oig.gov/Reports/                           assess whether monetary awards under the
AuditsInspections/2011/491.pdf.                           SEC’s ERP and 3R incentives were awarded
                                                          consistent with applicable governing policies
Audit of SEC’s Employee Recognition 
                     and procedures. We also examined whether
Program and Recruitment, Relocation, 
                    awards and incentives were linked to the Com-
and Retention Incentives 
                                mission’s human capital plan, as applicable.
(Report No. 492)


   Background                                                Results

    The SEC’s Employee Recognition Program                    Our audit identified numerous areas where
(ERP) is designed to motivate employees and               OHR needed to improve its process related to
recognize contributions above and beyond                  awards and 3R incentives. We found that
normal job requirements with monetary and                 OHR had not fully implemented recommenda-
nonmonetary awards and to improve the effi-               tions resulting from a 2007 OPM human
ciency of operations through an employee sug-             resources operations audit pertaining to the
gestion program. The Commission determines                SEC’s award activities and that the deficiencies
how much of its budget will be allocated to the           the recommendations were intended to address
ERP and how the budgeted amounts will be                  continue to exist.



                                                    41

    We found that insufficient resources were            align with the SEC’s overall human capital
dedicated to developing and overseeing the               goals and objectives.
ERP and that documentary support for a large
number of sampled awards and 3R incentives                  Recommendations
was lacking. As a result, there was insufficient
documentation to show the basis for the awards               The OIG issued a report on the results of
and incentives and that required approvals had           the audit on August 2, 2011. The report in-
been properly obtained. Our audit also found             cluded the following 14 recommendations to
that OHR lacked updated comprehensive poli-              OHR to help enhance management controls
cies and procedures and formal training for              over the ERP and 3Rs:
awards and 3R incentives.
                                                            (1)	   Implement an internal review process
     Further, we found that the SEC’s budgeting                    to review a select number or percent-
processes for awards and incentives for SK                         age of awards annually to ensure that
employees were flawed and that supervisors                         appropriate documentation exists for
currently can use their award budgets only for                     the awards and needed information is
special act awards, virtually eliminating their                    readily available to support the
ability to reward employees for outstanding                        awards.
performance in the course of their normal job               (2)	   Annually provide information to SEC
duties and contrary to one of the primary                          supervisors on relevant parts of the
purposes of the ERP. We also found that some                       SEC award program, including
offices and divisions exceeded their award                         (1) types of awards available and pro-
budgets or provided awards in advance of re-                       cedures for nominating employees for
ceiving their award budgets. In addition, we                       awards, (2) appropriate types of
identified significant time lags between award                     division-and office-level awards for
dates and special act dates that occurred                          peer recognition, and (3) successful
because award budget allocations were made                         award practices.
late in the fiscal year.
                                                            (3)	   Dedicate specific resources to develop
    We also found that an SEC employee re-                         and oversee the ERP.
ceived an award for work that was the subject               (4)	   Finalize its policies and procedures for
of an OIG investigative report and that the                        the ERP within three months and
SEC made a cash award to an SEC Schedule                           publish them on the SEC’s Insider.
C employee in FY 2010 in violation of OPM                          The policies and procedures should
guidance restricting awards, bonuses, and simi-                    include information on current prac-
lar payments for political appointees.                             tices for determining bonuses for Sen-
                                                                   ior Officers (SO), policies for deter-
    Our audit also found that although OHR                         mining performance-based awards
had an Employee Suggestion Program from                            for SK employees, and acceptable
2008 to 2011 that included a monetary incen-                       methods of providing informal non-
tive component, OHR did not make any cash                          monetary awards in addition to tradi-
awards under the program. Additionally, the                        tional nonmonetary awards.
program was given little priority and was not
                                                            (5)	   Review and update its existing poli-
effectively managed. Lastly, we found that the
                                                                   cies and procedures on 3R incentives.
SEC does not currently have in place a human
                                                                   The update should ensure that the
capital plan. Accordingly, activities associated
                                                                   new policies and procedures reflect
with the ERP and 3R incentives were not being
                                                                   appropriate references to SK and SO
assessed to determine whether they effectively
                                                                   employees and include expanded
                                                                   authority for retention bonuses.

                                                   42

(6)	   Provide formal training on its revised                        of placing the initial award funds
       policies and procedures and issue in-                         in OHR’s budget, and hold of-
       formation notices to supervisors and                          fice and division heads responsi-
       employees as needed to reflect                                ble for monitoring use of the
       changes in practices and policies.                            funds.
(7)	   In conjunction with the Office of                        (f)		 Re-examine budgeted amounts
       Financial Management (OFM), take                               for 3R incentives to ensure that
       the following actions:                                         sufficient funds are available, and
        (a)	 Develop alternatives for review-                        make supervisors aware of avail-
              ing the SEC award budget so                             able funding so that they can ef-
              that it is competitive with other                       fectively use incentives to recruit
              federal agencies’ award budgets.                        and retain needed talent.
                                                         (8)	   Develop and train human resources
        (b)		 Develop and implement a
                                                                specialists on a centralized filing sys-
              mechanism to reward employ-
                                                                tem (manual, electronic, or both) for
              ees for superior or meritorious
                                                                all awards that contains appropriate
              performance within their job
                                                                documentation to support the awards,
              responsibilities through lump-
                                                                including SF 50 and SEC Form 48
              sum performance awards.
                                                                with narrative justification and ap-
        (c)		 Determine ways to reduce the                      propriate approvals.
              time required for formulation of
                                                         (9)	   Implement management controls to
              budget allocations, including,
                                                                ensure that employees who are sub-
              for example, moving responsi-
                                                                ject to disciplinary action are re-
              bility for formulating award
                                                                stricted from receiving awards related
              budget allocations to OFM and
                                                                to the performance that resulted in
              having the OIT walk-in devel-
                                                                the disciplinary action.
              opment center develop an elec-
              tronic program to pull payroll             (10)	 Review the August 12, 2010, cash
              data directly from the Depart-                   award to a Schedule C employee to
              ment of the Interior to facilitate               determine whether it was in violation
              more timely completion of                        of the OPM guidance and, if so, seek
              budget allocations.                              recovery of the improper award.
        (d)  Implement a process to make                (11)	 Consider ways that, as part of the
              initial award allocations in the                 ERP, it may be able to provide awards
              first quarter of each fiscal year,               to employees for adopted suggestions
              thereby giving offices the ability               submitted to the OIG’s suggestion
              to make awards throughout the                    program.
              year, as appropriate in light of           (12)	 Revise the service agreement format
              continuing resolutions. Base                     in SEC Form 2299, Securities and
              initial allocations on historical                Exchange Commission Recruitment
              data and then refine the alloca-                 Bonus Service Agreement, to incor-
              tions, as needed, when the                       porate specific reasons that the SEC
              SEC’s annual budget has been                     “may” and “must” terminate service
              approved.                                        agreements for recruitment and relo-
       (e) 	 Allocate award funds directly to                 cation bonuses.
              SEC divisions and offices instead



                                                   43

   (13)	 Develop and train applicable human                operating environments with changing threats,
         resources specialists on the use of a             vulnerabilities, technologies, and missions/
         centralized filing system for all reloca-         business processes. Continuous monitoring in-
         tion, recruitment, and retention in-              cludes, but is not limited to, the following com-
         centives. The centralized filing sys-             ponents, which are specified in National Insti-
         tem should contain all appropriate                tute of Standards and Technology (NIST) Spe-
         documentation to support the incen-               cial Publication 800-53, Recommended Security
         tives, including the SF 50 and the ap-            Controls for Federal Information Systems and Organiza-
         plicable SEC form with the narrative              tions (NIST 800-53):
         justification for the bonus and the ap-
         propriate approvals.                                  •   Access Control
                                                               •   Awareness and Training
   (14)	 Identify resources and establish a
                                                               •   Audit and Accountability
         timeline to complete the required
         human capital plan. Ensure that                       •   Security Assessment and Authorization
         ERP activities are evaluated at least                 •   Configuration Management
         annually to ensure that they align                    •   Contingency Planning
         with human capital plan objectives                    •   Identity and Authentication
         and strategies.                                       •   Incident Response
                                                               •   Maintenance
    Management concurred with all of the                       •   Media Protection
report’s recommendations. The report is                        •   Physical and Environmental Protection
available on the OIG website at                                •   Planning
http://www.sec-oig.gov/Reports/                                •   Personnel Security
AuditsInspections/2011/492.pdf.                                •   Risk Assessment
                                                               •   System and Services Acquisition
                                                               •   System and Communications Protection
Assessment of SEC’s Continuous
Monitoring Program (Report No. 497)                            •   System and Information Integrity

    In August 2010, the SEC OIG contracted                     The overall objective was to assess the
with C5i Federal, Inc. (C5i) to assist with the            SEC’s continuous monitoring program and
completion and coordination of the OIG’s                   further assess current policies and procedures
input to Office of Management and Budget                   and their compliance with NIST, FISMA,
(OMB) Memorandum M-10-15, FY 2010                          OMB guidance, and industry best practices.
Reporting Instructions for the Federal Informa-            C5i reviewed the findings from previously is-
tion Security Management Act (FISMA) and                   sued OIG reports, conducted interviews with
Agency Privacy Management, and to perform                  SEC OIT staff, and reviewed support docu-
two separate reviews—one on the SEC’s con-                 mentation and the Commission’s policies and
tinuous monitoring program and the other on                procedures. C5i used the guidance and best
the inclusion of language addressing Privacy               practices to support their conclusions and rec-
Act requirements in SEC contracts. This                    ommendations.
review was conducted to assess the Commis-
sion’s continuous monitoring program.                         Results

    Continuous monitoring is the process of                     As detailed in the report, C5i found that the
tracking the security state of an information              following additional areas need improvement:
system on an ongoing basis and maintaining
the security authorization for the system over                 • Access Control
time.	 Understanding the security state of in-                 • Audit and Accountability
formation systems is essential in highly dynamic               • Configuration Management

                                                     44

    •   Contingency Planning                               failure of patches or other remediation to work
    •   Identity and Authentication                        correctly when deployed into production,
    •   Planning                                           which can lead to adverse effects on the pro-
    •   System and Services Acquisition                    duction network and degradation of network
    •   System and Communications Protection               performance.
    •   System and Information Integrity
                                                               The assessment further found that the
     Specifically, the assessment found that the           SEC’s password policy was not consistently
OIT Server and Storage Group currently cap-                applied to all network users. Specifically, C5i
tures and retains logs for its networks and sys-           found five contractors who had never been
tems but has no documented policies and pro-               prompted to change their passwords and had
cedures pertaining to this function. Without               their then-current passwords in violation of the
fully defined and documented roles and respon-             SEC’s password policy. In addition, C5i found
sibilities and procedures detailing the types of           that the SEC password policy requirements for
logs to be captured and retained, C5i could                complexity, as documented in SEC Implement-
not fully determine whether the Commission                 ing Instruction, II 24-04.06.01 (01.1), Identifi-
was capturing system and network logs in a                 cation and Authentication, July 9, 2008, were
manner that would provide all the necessary                inconsistent with the Group Policy require-
information in the event of a security event in-           ments implemented in Active Directory on the
vestigation.                                               SEC network. C5i also found many inconsis-
                                                           tencies in the procedures used by the help desk
    Also, during the assessment C5i found that             technicians to verify callers’ identity before
not all the tests produced successful results. For         resetting their network password.
example, some applications exceeded the maxi-
mum allowable time to come back online, and                    Further, the assessment found that while
communication and coordination were not as                 OIT has a policy for contractors’ entry and exit
strong as needed.                                          that specifies steps for issuing badges, setting up
                                                           and terminating accounts, equipment issuance,
    C5i did find there were improvements from              and so on, the policy does not apply
the bi-annual April and November tests in                  Commission-wide. Additionally, C5i found
2010 to the retest performed in January 2011.              that the Office of Administrative Services
However, issues encountered in the disaster re-            (OAS) was developing a policy to be imple-
covery exercises raised concern about the                  mented throughout the Commission, but it had
SEC’s ability to successfully failover and restore         not been completed or approved. C5i assessed
capabilities in the event of a major disaster.             the OAS policy under development and found
                                                           that the policy lacked some of the detail that
     The assessment also found that the                    was included in OIT’s policy such as roles and
Commission had made great strides in improv-               responsibilities and checklists. C5i recom-
ing the deployment of patches to its systems               mended that OAS and OIT work together on
and ensuring that the systems were up to date              Commission-wide policy and finalize and im-
with current security remediation issued by                plement this policy. Additionally, C5i recom-
vendors. However, C5i also found that the en-              mended that training for all staff involved with
vironment used to test patches before deploy-              contractors such as Contracting Officers, Con-
ment was not identically configured to the                 tracting Officer’s Technical Representatives,
Commission’s production environment due to                 and Contractor Points of Contact be developed
differences in hardware and software. Using a              and rolled out to ensure the policy is effectively
test environment that does not accurately re-              and thoroughly communicated.
flect the current production environment can
produce inaccurate results and can result in

                                                     45

    The final report on the results of the as-             (7)	   OIT should require that facilities have
sessment performed by C5i, issued on August                       consistent, appropriately installed
11, 2011, contained the following 13 recom-                       application and system configuration
mendations for improving OIT’s continuous                         files to ensure the ability to success-
monitoring program:                                               fully failover and/or restore in the
                                                                  event of a disaster.
   (1)	   OIT should review the Commission’s
                                                           (8)	   OIT should fully document and
          Microsoft Active Directory settings
                                                                  communicate the criteria used to de-
          and make the necessary changes to
                                                                  termine the success or failure of an
          ensure that OIT password policy re-
                                                                  application during the disaster recov-
          quirements, as documented in the
                                                                  ery tests to ensure consistent reporting
          Implementing Instruction, are strictly
                                                                  of results and alleviate confusion.
          enforced for both on-site and remote
          users and that the documented pass-              (9)	   OIT should analyze the level of criti-
          word structure set forth in OIT policy                  cality of the Commission’s data and
          is strictly enforced.                                   the needs and wants of its customers,
                                                                  and establish an appropriate backup
   (2)	   OIT’s help desk should begin using a
                                                                  retention period based on the results
          random password generator to create
                                                                  of that analysis and that meets the
          temporary passwords for users.
                                                                  requirements of the Commission.
   (3)	   OIT should implement training to                 (10)	 OIT should ensure that backup data
          ensure that technicians consistently                   are stored securely.
          verify users’ information in accor-
          dance with OIT policy when they                  (11)	 OAS should work with the OIT to
          receive requests to change user ac-                    develop and implement a compre-
          counts and passwords.                                  hensive Commission-wide policy for
                                                                 the entry and exit of contractors.
   (4)	   OIT should ensure that security con-
          trols configurations that are applied in         (12)	 After the OAS contractor entry and
          the production environment are iden-                   exit policy, “Contractor Personnel
          tical with those applied in the testing                Employment Entrance and Exit Pro-
          environment.                                           cedures,” has been finalized and ap-
                                                                 proved, OAS should provide training
   (5)	   OIT should develop and implement                       and communicate with responsible
          written procedures to ensure configu-                  parties, such as Contracting Officers,
          ration consistency in the Commis-                      Contracting Officer’s Technical Rep-
          sion’s production and testing envi-                    resentatives, and Inspection and Ac-
          ronments. These procedures should                      ceptance Officials, regarding their
          detail the software and hardware                       roles and responsibilities and proper
          components in both environments                        procedures with respect to contractor
          and specify the actions required to                    entry into and exit from the
          maintain consistent environments.                      Commission.
   (6)	   OIT should complete and finalize                 (13)	 OHR, OIT, OAS, and the contract-
          written server and storage log                         ing office should take steps to ensure
          management policies and procedures                     that OIT has received all account
          that fully document roles and respon-                  termination notices for separated/
          sibilities for log capture, management,                terminated employees and contrac-
          retention, and separation of duties.                   tors and has deactivated the appro-
                                                                 priate accounts in a timely manner.


                                                     46

    Management fully concurred with all of the        addressing such requirements as nondisclosure
report’s recommendations. The report is avail-        agreements, system security, and PII protection.
able on the OIG website at
http://www.sec-oig.gov/Reports/                           C5i also reviewed the results of the SEC’s
AuditsInspections/2011/497.pdf.                       FY 2010 Section (m) Contracts Compliance
                                                      Review Memorandum, dated November 3,
Review of SEC Contracts for Inclusion                 2010, which detailed the results of the SEC
of Language Addressing Privacy Act                    Privacy Office’s review of eight randomly se-
Requirements (Report No. 496)                         lected SEC contracts for compliance with Pri-
                                                      vacy Act requirements. The review concluded
   Background                                         that all sampled contracts included language
     The Privacy Act of 1974, 5 U.S.C. §              binding vendors to the requirements of the Pri-
                                                      vacy Act. C5i examined six additional con-
552a(m)(1), provides that when an agency con-
                                                      tracts to verify that they contained the appro-
tracts for the operation of a system of records
                                                      priate provisions required by the Privacy Act
to accomplish an agency function, the agency
must include in the terms of the contract provi-      for nondisclosure agreements, background in-
sions making the contractor responsible for           vestigations of personnel, PII handling, and
complying with the Privacy Act. It also makes         security of systems. C5i found that the con-
                                                      tracts did include such provisions and, there-
these contractors liable under the criminal pro-
visions of the Act. SEC Administrative Regu-          fore, concurred with the conclusions of the
lation 24-08 (SECR 24-08) establishes policy          FY 2010 Section (m) Contracts Compliance
                                                      Review Memorandum.
for the Commission’s privacy program, includ-
ing the protection of personally identifiable in-
                                                          Although the review found that the SEC’s
formation (PII) that is collected by the SEC.
                                                      contracts contained language requiring that
SECR 24-08 applies not only to SEC employ-
                                                      vendors and their employees comply with the
ees, but also to contractors and others working
                                                      Privacy Act, the report contained the following
on behalf of the SEC who handle, control, or
have access to information, documents, or             two recommendations that were intended to
systems that contain PII.                             strengthen the language in SEC contracts per-
                                                      taining to privacy and to help ensure vendors’
    In August 2010, the SEC OIG contracted            compliance with those provisions:
with C5i to perform two separate reviews. One
                                                          (1)	   OAS should add language provided
of the reviews, described above, examined the
                                                                 by OIT to new service contracts that
SEC’s continuous monitoring program. This
                                                                 require the handling of PII stating
report, which was issued on July 18, 2011, pre-
sented the results of the second review, in                      that the SEC requires the contractor
which the objective was to determine whether                     to provide copies of the contractor’s
SEC contracts contain appropriate language                       privacy policies and privacy impact
addressing Privacy Act requirements.                             assessments.
                                                          (2)	   OAS should add OIT-defined secu-
   Results                                                       rity requirements to applicable con-
                                                                 tracts stating that contractors han-
     C5i reviewed a judgment sample consisting                   dling electronic PII may be required
of 11 SEC contracts that included language                       to meet defined security requirements
requiring vendors to handle SEC PII. The                         when transmitting PII across public
sample contained employee recruitment, finan-                    networks (i.e., Internet) or stored on
cial systems management, and IT contracts.                       portable media. OIT should also add
The review found that each of the contracts in                   language to applicable interconnec-
the sample contained the appropriate sections                    tivity agreements stating that partners

                                                    47

         transmitting electronic PII across               promote minority and women inclusion in SEC
         public networks (i.e., Internet) are re-         contracts and hiring.
         quired to meet OIT-defined security
         requirements.                                        The report is available on the OIG website
                                                          at http://www.sec-oig.gov/Reports/
    Management fully concurred with the                   AuditsInspections/2011/496.pdf.
report’s recommendations. The report is
available on the OIG website at
http://www.sec-oig.gov/Reports/                           PENDING AUDITS AND EVALUATIONS
AuditsInspections/2011/496.pdf.
                                                          Review of the SEC’s Economic
Establishment of the Office of Minority                   Analyses for Dodd-Frank Act
and Women Inclusion                                       Rulemaking Initiatives

   Background                                                 The Dodd-Frank Wall Street Reform and
                                                          Consumer Protection Act (Dodd-Frank Act)
    On February 10, 2011, the SEC Inspector               was passed on July 21, 2010.  Among other
General testified before the Subcommittee on              things, the Dodd-Frank Act required the SEC
Financial Services and General Government,                to promulgate more than 100 new rules and to
Committee on Appropriations, U.S. House of                produce more than 20 new studies and reports.
Representatives, concerning his oversight of the
SEC by means of the OIG’s audit and investi-                   During this semiannual reporting period,
gative functions. During that testimony, Con-             Congress requested that the OIG review select
gresswoman Barbara Lee (D-California) asked               Dodd-Frank Act rulemakings to determine
about the status of the SEC’s efforts in creating         whether the SEC is performing the required
the Office of Minority and Women Inclusion.               cost-benefit analyses in a consistent manner
In response to Congresswoman Lee’s request,               and in compliance with applicable federal
the OIG researched the SEC’s implementation               requirements. In its initial review conducted
of the requirement for an Office of Minority              pursuant to this request, the OIG found, as
and Women Inclusion and provided Congress-                described in the Audits and Evaluations Con-
woman Lee with a copy of the OIG’s report.                ducted Section of this Report, that the SEC
                                                          generally took a systematic approach to prepar-
   Results                                                ing the cost-benefit analyses, but that the
                                                          analyses for particular rulemakings were lack-
    The OIG determined that the SEC did not               ing in the areas of macro-level costs and quan-
establish an Office of Minority and Women                 titative analysis.
Inclusion within six months after the date of
enactment of the Dodd-Frank Act, as required                  Upon completion of the OIG’s initial
by Section 342(a)(1)(A) of the Act. SEC                   review, the OIG informed Congress that it
management informed the OIG that it did not               would conduct a second phase of work consist-
meet this deadline because Congress had not               ing of a more in-depth review of SEC cost-
yet acted on the Commission’s request that                benefit analyses performed for five additional
Congress approve creation of the office. SEC              rulemakings mandated by the Dodd-Frank
management further indicated that, in the                 Act.  In this second phase, the OIG is examin-
meantime, the SEC organized a planning                    ing whether the SEC consistently and system-
group to discuss and address issues related to            atically prepared a cost-benefit analysis in
the establishment of the office, and the SEC’s            compliance with applicable federal require-
OAS and Office of Equal Employment Oppor-                 ments for the following rulemakings:
tunity were conducting activities intended to


                                                    48

   •	 Shareholder Approval of Executive                    Office of Management and Budget (OMB)
      Compensation and Golden Parachute               Circular A-130, “Management of Federal In-
      Compensation (76 Fed. Reg. 6010,                formation Resources,” establishes policy for
      February 2, 2011)                               managing federal information resources and
   •	 Disclosure for Asset-Backed Securities          provides procedural and analytic guidelines for
      Required by Section 943 of the Dodd-            implementing specific aspects of this policy.  In
      Frank Act (76 Fed. Reg. 4489, January           addition, OIT has policies and procedures for
      26, 2011)                                       conducting the C&A process on SEC systems. 
   •	 Issuer Review of Assets in Offerings of         However, both the OIG and the Government
      Asset-Backed Securities (76 Fed. Reg.           Accountability Office have found that the SEC
      4231, January 25, 2011)                         has system security deficiencies that could sig-
                                                      nificantly affect SEC operations.  
   •	 Reporting of Security-Based Swap
      Transaction Data (interim final tempo-               The OIG contracted the services of C5i
      rary rule, 75 Fed. Reg. 64643, October          Federal, Inc., to perform an independent
      20, 2010)                                       review of the SEC’s C&A process.  The review
   •	 Regulation SBSR—Reporting and Dis-              will determine whether:
      semination of Security-Based Swap In-
      formation (proposed rule, 75 Fed. Reg.              •	 OIT’s process for evaluating internal
      75208, December 2, 2010)                               controls and gathering support adheres
                                                             to governing federal guidance;
    This review will also determine where im-             •	 OIT has properly established risk
provements are needed and identify best prac-                factors to ensure that system security
tices to enhance the overall methodology used                controls have been designed to achieve
by the SEC to perform cost-benefit analyses.                 results; and
                                                          •	 Internal controls have been established
Review of the SEC’s System
Certification and Accreditation Process                      and are used to safeguard the integrity
                                                             of the SEC’s programs, activities, and
     Information systems are essential to ac-                information.
complishing the SEC’s mission.  Protecting the
Commission’s systems from hostile attacks, both          Further, C5i Federal, Inc., will assess
internal and external, has become a critical and      whether OIT certifies and accredits SEC sys-
very large component of the OIT’s                     tems in accordance with governing guidelines
responsibilities.  The certification and accredi-     and industry best practices.
tation (C&A) process required by federal law
is designed to ensure that federal agencies’ in-      2011 Federal Information Security
formation systems are secure before they begin        Management Act Assessment
operating and that they remain protected
                                                          The Federal Information Security
throughout their lifecycle.  The C&A process
                                                      Management Act (FISMA) requires that each
involves determining whether system controls
                                                      federal agency’s IT security programs and
are in place and operating as intended, identify-
                                                      practices be independently evaluated each year
ing weaknesses, mitigating weaknesses to the
                                                      to determine the effectiveness of those pro-
maximum extent possible, and officially recog-
                                                      grams and practices.  The evaluation is to be
nizing and accepting residual risks.  The C&A
                                                      performed by the agency’s Inspector General
process must be performed on all SEC
                                                      or by an independent external auditor, as de-
systems.  A system’s C&A remains in effect for
                                                      termined by the agency’s Inspector General.  In
three years unless the system or its operating
                                                      addition, OMB guidance sets forth specific in-
environment undergoes significant change. 


                                                    49

structions and templates for meeting FISMA’s                 Log management is essential to ensure that
reporting requirements.                                  computer security records are stored in suffi-
                                                         cient detail for an appropriate period of time. 
    The OIG has contracted the services of               In addition, routine log analysis is beneficial for
Networking Institute of Technology, Inc., to             identifying security incidents, policy violations,
perform an independent review of OIT’s im-               fraudulent activity, and operational problems. 
plementation of IT security programs and                 Logs are also useful in performing auditing and
practices and the extent to which OIT meets              forensic analysis, supporting internal investi-
OMB, Department of Homeland Security, and                gations, establishing baselines, and identifying
National Institute of Standards and Technol-             trends and long-term problems.
ogy requirements in the following areas:
                                                              The OIG has contracted with C5i Federal,
   •   risk management,                                  Inc., to conduct an assessment of OIT’s con-
   •   configuration management,                         trols over SEC system and network logs and to
                                                         assess OIT’s ability to produce and maintain
   •   incident response and reporting,
                                                         sufficient logs.  Additionally, C5i Federal, Inc.,
   •   security training,                                will evaluate the roles and responsibilities of
   •   plans of actions and milestones,                  OIT staff who access the SEC’s enterprise sys-
   •   remote access,                                    tem and network logs; assess the adequacy of
   •   identity and access management,                   OIT’s policies and procedures covering log
                                                         management and analysis, data collection, and
   •   continuous monitoring management,
                                                         log storage; examine network logs located
   •   contingency planning, and                         within OIT’s enterprise to determine if ade-
   •   contractor systems.                               quate controls have been established to protect
                                                         SEC data; and assess whether OIT maintains
The FY 2011 FISMA evaluation and accom-                  adequate data for forensic analysis.
panying OIG Executive Summary will also
answer OMB’s FY 2011 questions on the                    Review of SEC’s Continuity of
Commission’s information security program.               Operations Plan  

Assessment of the SEC’s Systems and                          A continuity of operations (COOP) plan is
Network Logs                                             essential for maintaining critical agency opera-
                                                         tions during disruptions that affect normal
     Events occurring within an organization’s           operations.  The SEC’s Office of the Chief
IT systems and networks are recorded in logs             Operating Officer recently assumed overall re-
containing a series of entries.  Each entry in a         sponsibility for COOP planning for the agency. 
log contains information related to a specific           The SEC’s Chief Information Officer has
event that has occurred within a system or               oversight responsibility for the disaster recovery
network.  Many logs within an organization               component of the SEC’s COOP plan. 
contain information related to computer
security.  These computer security logs are gen-             The SEC has formal COOP policies and
erated by many sources, including (1) security           procedures and conducts periodic testing of its
software, such as antivirus software, firewalls,         COOP plan.  However, a recently issued OIG
and intrusion detection and prevention systems;          report found that OIT failover testing for cer-
(2) operating systems on servers, workstations,          tain internal IT applications had been
and networking equipment; and (3) applica-               unsuccessful.  Another recently issued OIG
tions.                                                   report found that the SEC’s regional offices
                                                         lacked viable COOP plans and that the SEC



                                                   50

had not tested the maximum user limit for                  Within the SEC, the Property Management
remote access to the SEC’s network.                   Officer (PMO), located within the Office of
                                                      Administrative Services, has overall responsibil-
     The OIG has contracted with TWM Asso-            ity for developing, administering, and oversee-
ciates, Inc., to conduct a review of the SEC’s        ing the SEC’s property management program. 
COOP plan.  The objectives of the review are          In addition, OIT’s Asset Management Branch
to determine whether the SEC has a viable             is responsible for establishing property manage-
COOP plan that is sufficient to support the           ment policies for IT equipment; serving as the
SEC’s operations at its headquarters, Opera-          inventory control point for the acquisition, stor-
tions Center, Alternate Data Center, and 11           age, and issuance of IT equipment; acting as
regional offices.  TWM Associates, Inc., will         the utilization coordinator for the reassignment
also determine whether the SEC is adequately          and disposal of IT assets; and coordinating
prepared to perform essential functions during        with the Assistant PMO regarding all IT prop-
a business continuity or disaster recovery event,     erty issues. 
such as a human/natural disaster, national
emergency, or technology failure that could                The OIG has contracted with Castro &
affect the SEC’s ability to continue mission-         Company, LLC, to perform an audit to assess
critical and essential functions.                     whether (1) the SEC has established adequate
                                                      internal controls over property used by contrac-
Audit of Management of SEC-                           tors that has been furnished or funded by the
Furnished and SEC-Funded Property                     SEC; (2) the SEC has reliable records to iden-
Used by Contractors                                   tify and track contractors who possess property
                                                      furnished or funded by the SEC; (3) Contract-
    The SEC accomplishes much of its mission
                                                      ing Officer’s Technical Representatives or
through the use of contractors.  In some
                                                      others responsible for administration of SEC
instances, the SEC provides its contractors with      property used by contractors have been prop-
SEC property for use in their work and, in            erly trained and perform their duties in accor-
other instances, contractors use SEC funds to         dance with governing policy; (4) annual inven-
acquire property.  In either case, the SEC often      tories are performed of SEC-furnished or
retains title or ownership of the property.  SEC      SEC-funded property used by contractors;
contractors are required to manage and ac-            (5) adequate policies and procedures exist to
count for property provided to them by the            cover managing and disposing of SEC-
SEC or paid for with SEC funds in accordance          furnished or SEC-funded property used by
with the Federal Acquisition Regulation, as well      contractors; and (6) SEC assets held by contrac-
as other directives and specific contract             tors are properly accounted for by the SEC
provisions.                                           and, if applicable, appropriately reported in the
                                                      SEC’s financial statements.  




                                                    51

52
U.S. Securities and Exchange Commission

                                                                        SEMIANNUAL
                                                                        REPORT TO
                                                                        CONGRESS
                                                Ofﬁce of
                                               Inspector
                                                General




                                          INVESTIGATIONS
                                          OVERVIEW                                                    The OIG receives complaints through the
                                                                                                  OIG Complaint Hotline, an office electronic
                                              The OIG’s Office of Investigations re-              mailbox, mail, facsimile, and telephone.  The
                                          sponds to allegations of violations of statutes,        OIG Complaint Hotline consists of both tele-
                                          rules, and regulations, and other misconduct by         phone and web-based complaint mechanisms. 
                                          SEC staff and contractors.  The misconduct              Complaints may be made anonymously by call-
                                          investigated ranges from criminal wrongdoing            ing the Hotline, which is staffed and answered
                                          and fraud to violations of SEC rules and poli-          24 hours a day, seven days a week.  Complaints
                                          cies and the government-wide standards of               may also be made to the Hotline through an
                                          conduct.                                                online complaint form, which is accessible
                                                                                                  through the OIG’s website.  In addition to a
                                               The Office of Investigations conducts thor-        mechanism for the receipt of complaints, the
                                          ough and independent investigations into                OIG’s website also provides the public with
                                          allegations received in accordance with the             an overview of the work of the Office of Inves-
                                          Quality Standards for Investigations of the             tigations, as well as links to some investigative
                                          Counsel of the Inspectors General on Inte-              memoranda and reports issued by the Office. 
                                          grity and Efficiency (CIGIE) and the OIG’s In-          The OIG also receives allegations from SEC
                                          vestigations Manual.  The Investigations Man-           employees of waste, abuse, misconduct, or
                                          ual, which was issued during the previous semi-         mismanagement within the agency through the
                                          annual reporting period, contains the proce-            OIG SEC Employee Suggestion Program,
                                          dures by which the OIG conducts its investiga-          which was established pursuant to Section 966
                                          tions and preliminary inquiries and implements          of the Dodd-Frank Wall Street Reform and
                                          the CIGIE’s Quality Standards.  The Investiga-          Consumer Protection Act and is described in
                                          tions Manual sets forth specific guidance on,           the annual report on that program at Appendix
                                          among other things, OIG investigative authori-          B of this Report.
                                          ties and policies, investigator qualifications, in-
                                          dependence requirements, procedures for con-                The OIG reviews and analyzes all com-
                                          ducting investigations and preliminary inquir-          plaints received to determine the appropriate
                                          ies, coordination with the U.S. Department of           course of action.  In instances where it is
                                          Justice, and issuing reports of investigation.          determined that something less than a full in-
                                                                                                  vestigation is appropriate, the OIG may con-
                                                                                                  duct a preliminary inquiry into the allegation. 
                                                                                                53

If the information obtained during the inquiry                 In many investigative reports provided to
indicates that a full investigation is warranted,         SEC management, the OIG makes specific
the Office of Investigations will commence an             findings and recommendations, including
investigation of the allegation.  Upon the open-          whether the OIG believes disciplinary, or other
ing of an investigation, the primary OIG inves-           action, should be taken.  The OIG requests
tigator assigned to the case prepares a compre-           that management report back disciplinary or
hensive plan of investigation that describes the          other actions taken in response to the OIG’s
focus and scope of the investigation, as well as          recommendations within 45 days of the issu-
the specific investigative steps to be performed          ance of the report.  The OIG follows up as ap-
during the investigation.  The OIG investigator           propriate with management to determine the
interviews the complainant whenever feasible              status of disciplinary action taken in matters
and conducts significant interviews under oath            referred by the OIG.  The OIG also often
and on-the-record.  The OIG investigator may              makes recommendations for improvements in
give assurances of confidentiality to potential           policies and procedures and internal controls in
witnesses who have expressed a reluctance to              its investigative reports, and these recommen-
come forward.                                             dations are tracked in a manner similar to how
                                                          the OIG tracks its audit recommendations.
     Where allegations of criminal conduct are
involved, the Office of Investigations notifies
and works with DOJ and the Federal Bureau of              INVESTIGATIONS AND INQUIRIES
Investigation (FBI), as appropriate.  The OIG             CONDUCTED
also obtains necessary investigative assistance
from the SEC’s Office of Information Tech-                Improper Actions Relating to the
nology, including the prompt retrieval of em-             Leasing of Office Space (Report No.
                                                          OIG-553)
ployee e-mails and forensic analysis of com-
puter hard drives.  During this semiannual                   Background
reporting period, the OIG, in the course of
conducting its investigations and inquiries,                   On July 28, 2010, the SEC’s Office of
obtained and searched more than 8.7 million               Administrative Services (OAS) leased approxi-
employee e-mails. The OIG investigative staff             mately 900,000 square feet of space for a ten-
meets with the Inspector General frequently to            year period at a newly-renovated office building
review the progress of ongoing investigations.            located at 400 Seventh Street, S.W., Washing-
The OIG investigative staff also consults as              ton, D.C., known as Constitution Center. The
necessary with the Commission’s Ethics Coun-              lease also included a right of first refusal for the
sel to coordinate activities.                             remaining 500,000 square feet of space at Con-
                                                          stitution Center. The SEC estimated the costs
    Upon completion of an investigation, the              associated with leasing and occupying Constitu-
OIG investigator prepares a comprehensive                 tion Center at $556,811,589.
report of investigation that sets forth in detail
the evidence obtained during the investigation.               In early October 2010, the SEC informed
Investigative matters are referred to the DOJ             the owner of Constitution Center that it did
and SEC management as appropriate.  The                   not need approximately 600,000 of the
OIG does not publicly release its reports of in-          900,000 square feet of space it had leased or
vestigation because they contain nonpublic                the 500,000 square feet that had been subject
information.  Decisions regarding whether an              to the right of first refusal. In January 2011,
OIG investigative report should be publicly               the Constitution Center owner signed leases
released, in response to a FOIA request or                with two other agencies for approximately
otherwise, are made by the agency.                        558,000 square feet of the space that the SEC
                                                          previously had leased. In March 2011, the

                                                    54

SEC informed the Constitution Center owner               SEC; the leasing of office space in the Station
that it was trying to sublease the remaining             Place Three facility (located adjacent to the
342,000 square feet covered by its lease. The            SEC’s Station Place One and Two headquar-
SEC and the Constitution Center owner sub-               ters building); the availability of space in Sta-
sequently had a dispute regarding the SEC’s              tion Place Three; and analyses of current and
obligation to compensate the owner for dam-              future SEC staff size.
ages allegedly caused by the SEC’s actions.
The owner asserted damages of $93,979,493,                   Finally, the OIG took the sworn testimony
while the SEC denied that any damages were               of 18 witnesses and interviewed 11 other indi-
owed.                                                    viduals with knowledge of the facts or cir-
                                                         cumstances surrounding the SEC’s leasing
     In October and November 2010, the OIG               activities.
received several written complaints about the
SEC’s actions related to the Constitution Cen-              Results of the Investigation
ter lease. These complaints alleged that the
decision to lease space at Constitution Center               The OIG issued its report of investigation
was ill-conceived, resulted from poor manage-            to management on May 16, 2011, which in-
ment practices, and was made without Con-                cluded over 90 pages of analysis and more
gressional funding for the significant projected         than 150 exhibits. Overall, the OIG investiga-
growth necessary to support the leasing deci-            tion found that the circumstances surrounding
sion. On November 16, 2010, the OIG                      the SEC’s entering into a lease for 900,000
opened its investigation into these allegations.         square feet of space at Constitution Center in
                                                         July 2010 represented another in a long history
   Scope of the Investigation                            of missteps and misguided leasing decisions
                                                         made by the SEC since Congress granted it
    The OIG made numerous requests to the                independent leasing authority in 1990. We
SEC’s OIT for the e-mails of current and for-            found that notwithstanding this significant
mer SEC employees for various periods of time            authority, the SEC had not even established a
pertinent to the investigation. The requested            Leasing Branch until April 2009 and did not
e-mails were received, loaded onto computers             put in place leasing policies and procedures
with specialized search tools, and searched on a         until August 2010.
continuous basis throughout the course of the
investigation. In all, OIT provided the OIG                  The OIG investigation further found that,
with e-mails for a total of 27 current or former         based upon estimates of increased funding
SEC employees for the time periods pertinent             primarily to meet the requirements of the
to the investigation. The OIG estimates that it          Dodd-Frank Wall Street Reform and Con-
obtained and searched over 1.5 million e-mails           sumer Protection Act (Dodd-Frank Act), be-
during the course of its investigation.                  tween June and July of 2010, OAS conducted a
                                                         deeply flawed and unsound analysis to justify
    The OIG also made several requests to                the need for the SEC to lease 900,000 square
OAS for documents relating to its leasing prac-          feet of space at Constitution Center. We found
tices. We carefully reviewed and analyzed the            that OAS grossly overestimated the amount of
information received as a result of our docu-            space needed at SEC headquarters for the
ment production requests. These documents                SEC’s projected expansion by more than 300
related to, among other things, planning in-             percent and used these groundless and unsup-
formation for the Constitution Center lease;             portable figures to justify the SEC committing
the approval of funding for the Constitution             to an expenditure of $556,811,589 over ten
Center lease by parties within or outside the            years.


                                                   55

    The OIG investigation also found that OAS                Commission staff affected by the restacking
prepared a faulty Justification and Approval to              project had been satisfied with the location of
support entering into the Constitution Center                their workspace before the project was initiated,
lease without competition. This Justification                and did not believe the project’s benefits were
and Approval was prepared after the SEC had                  worth the cost and time of construction, pack-
already signed the contract to lease the space in            ing, moving, and unpacking.
the Constitution Center facility. Further, OAS
backdated the Justification and Approval,                         The OIG investigation further found that as
thereby creating the false impression that it had            a result of a belief that the SEC would receive
been prepared only a few days after the SEC                  significant increases to its appropriations in FYs
entered into the lease. In actuality, the Justifica-         2011, 2012, and 2013, OAS made grandiose
tion and Approval was not finalized until a                  plans to lease space at the upscale Constitution
month later.                                                 Center facility. On May 14, 2010, the SEC
                                                             submitted an authorization request to the
    More specifically, the OIG investigation                 Chairman of the U.S. Senate Committee on
found that, in 1990, Congress provided the                   Banking, Housing, and Urban Affairs, request-
SEC with independent leasing authority, which                ing $1.507 billion for FY 2012 to fund an in-
exempted the SEC from General Services Ad-                   crease of 800 new staff positions. On May 20,
ministration (GSA) regulations and directives.               2010, the U.S. Senate passed a version of the
The House Conference Report for this legisla-                financial regulatory reform bill that eventually
tion expressed the clear intention that “the                 became the Dodd-Frank Act (the U.S. House of
authority granted the Commission to lease its                Representatives had previously passed a version
own office space directly will be exercised vigor-           of the legislation on December 11, 2009). The
ously by the Commission to achieve actual cost               SEC estimated that it would need to add an-
savings and to increase the Commission’s pro-                other 800 positions in FYs 2011 and 2012 to
ductivity and efficiency.”                                   implement the Dodd-Frank Act. After comple-
                                                             tion of the reconciliation process between the
     The OIG investigation found that notwith-               two versions of the financial regulatory reform
standing this clear Congressional intent, since              bills, the Dodd-Frank Act became law on July
the SEC was granted independent leasing                      21, 2010. The Dodd-Frank Act authorized an
authority, there have been several expensive                 increase in the SEC’s budget from the $1.11
missteps related to the SEC’s leasing actions                billion appropriated in FY 2010 to $1.3 billion
and space management. For example, in May                    in FY 2011, $1.5 billion in FY 2012, and $2.25
2005, the SEC disclosed to a House Subcom-                   billion by FY 2015.
mittee that it had identified unbudgeted costs of
approximately $48 million attributable to mises-                   The OIG investigation determined that
timates and omissions of costs associated with               authorization of funding for an executive
the construction of its headquarters facilities              agency like the SEC does not guarantee that the
near Union Station, known as Station Place                   agency will be appropriated the funds. Rather,
One and Two. In 2007, merely a year after                    an authorization request is only the first step in
moving into its new headquarters, the SEC em-                the SEC’s lengthy budget process. An authori-
barked on a major “restacking” project, in                   zation request is submitted to Congress in May
which various SEC employees were shuffled to                 of the fiscal year two years prior to the fiscal
different office spaces at a cost of over $3 mil-            year for which the authorization is requested
lion. An OIG review of the project found that                (e.g., the FY 2012 authorization request takes
there was no record of any cost-benefit analysis             place in May 2010). The following September,
having been conducted before this restacking                 several months after the authorization request is
project was implemented. Moreover, an OIG                    made, the SEC submits a proposed budget re-
survey found that an overwhelming majority of                quest to OMB. In November, OMB replies to

                                                       56

the SEC with a “pass-back,” and the SEC and                 facility promised abundant daylighting, pano-
OMB then usually negotiate the amount of the                ramic views of the city and surrounding region,
budget request. Several months later, the                   and an open plaza area containing a one acre
President formally submits a budget proposal                private garden.
to Congress, which then begins the decision-
making process as to how much money to                           Almost immediately after being contacted
appropriate the SEC and other agencies.                     by the broker for Constitution Center, OAS
SEC employees interviewed in the OIG’s inves-               decided to expand the delineated locality of
tigation acknowledged that an authorization                 consideration for new office space to add Con-
may indicate an intention for Congress to pro-              stitution Center to the other three buildings
vide funding, but that circumstances frequently             that would be included in the solicitation for
change and, therefore, federal agencies under-              offers for approximately 300,000 square feet of
stand that they cannot count on money coming                space.
to them until it has been appropriated.
                                                                 On June 17, 2010, OAS and the then-
     Notwithstanding the uncertainty of actually            Executive Director briefed Chairman Mary
being appropriated the amount requested                     Schapiro on OAS’s immediate expansion plans
through the budget process, in May 2010, OAS                at SEC headquarters. At that briefing, the
began planning for an expansion at SEC head-                former Executive Director told the Chairman
quarters based on the SEC’s FY 2012 budget                  that the SEC needed to immediately lease
request. Initially, the SEC’s Associate Executive           280,000 to 315,000 square feet of office space
Director of OAS and the former Chief of the                 in Washington, D.C., and identified on a map
Leasing Branch decided that the SEC needed                  specific locations for that expansion, including
to lease approximately 300,000 square feet of               Constitution Center. Both Chairman Schapiro
space to accommodate its needs through FY                   and her former Deputy Chief of Staff recalled
2012. In May 2010, the former Chief of the                  the Chairman expressing a clear preference for
Leasing Branch’s plan was to solicit offers from            the locations that were within walking distance
three properties within walking distance of Sta-            of Station Place, as opposed to Constitution
tion Place. However, on June 2, 2010, the for-              Center. Chairman Schapiro also questioned
mer Chief of the Leasing Branch received an                 whether the SEC needed 300,000 additional
e-mail from the real estate broker for the Con-             square feet in light of her belief that the SEC
stitution Center facility, which was located ap-            should concentrate its growth in the regional
proximately two miles from the SEC’s Station                offices.
Place facility, regarding its availability and some
of its features.                                                 However, the OIG investigation found that
                                                            notwithstanding Chairman Schapiro’s expres-
     The 1.4 million square foot Constitution               sions in mid-June of her preference for a facility
Center building had just been renovated in                  closer to Station Place and her questioning of
“one of the largest office redevelopment pro-               why the SEC needed as much as 300,000
jects in Washington, DC,” according to build-               square feet of space, by mid-July, the former
ing promotional literature. One of the more                 Executive Director came back to the Chairman
attractive features of the Constitution Center              with an urgent recommendation that the SEC
facility was its 5,000 square foot lobby, which             immediately lease 900,000 square feet of space
included spacious accommodations for a guard                with the only available option being Constitu-
desk(s), security screening room, shuttle elevator          tion Center. The OIG investigation found that
lobby, and display space, Jerusalem limestone               the analysis OAS performed to justify the need
floors and marble walls, wood and metal panel-              for three times its original estimate of necessary
ing, decorative light, and a floor-to-ceiling glass         square footage, and its determination that Con-
wall facing the landscaped courtyard. The                   stitution Center was the only available option,

                                                      57

was deeply flawed and based on unfounded and              calculations to justify the Constitution Center
unsupportable projections. We found that OAS              lease, it added even more unnecessary space by
grossly overestimated the amount of space                 double-counting for contractors, interns, and
needed at SEC headquarters for the SEC’s pro-             temporary staff, and by projecting future
jected expansion.                                         growth. We also found that each one of these
                                                          estimates was wildly inflated and unsupported
    The OIG investigation found that OAS as-              by the data OAS was using.
sumed that all of the new positions contained in
the SEC’s Office of Financial Management’s                     The OIG investigation found that OAS in-
(OFM) projections for FYs 2011 and 2012                   flated its estimate of new positions that would
would be allocated to SEC headquarters and                need space by including an estimate of the
none of those new positions would be allocated            number of contractors that would be hired in
to the SEC’s regional offices. This assumption            addition to the number of new SEC employees.
was contrary to the Chairman’s position com-              This new contractor estimate was prepared by
municated to OAS at the June 17, 2010 meeting             the OAS Assistant Director for Real Property
that as much as possible of the SEC’s future              Operations. In early June 2010, the OAS Asso-
growth should occur in the regional offices, not          ciate Executive Director asked the OAS Branch
at SEC headquarters. We found that although               Chief for Space Management and Mail Opera-
there were discussions about the need to calcu-           tions (Space Management) to obtain informa-
late the number of positions being allocated to           tion about the number of SEC contractors. On
the regions, no such calculation was ever con-            June 12, 2010, the Branch Chief reported back,
ducted. The OAS Associate Executive Director              “Right now, based on the Contractor numbers I
acknowledged that assuming all the new posi-              have at [Station Place], I can justify us using a
tions would be located in SEC headquarters                10%, Contractor to Position, factor.” The
would “inflate the number.”                               Space Management Branch Chief later learned
                                                          that OAS needed the numbers to be larger. He
     We also found that OAS factored in a stan-           testified that he understood the former Leasing
dard of 400 square feet per person when calcu-            Branch Chief was trying to “make sure that
lating how much space would be needed for the             whatever size lease she entered into was enough
additional positions it believed the SEC was              to meet our needs. And I think that in this case,
gaining as a result of the Dodd-Frank Act and             if we were going to take the whole building, the
associated increases in the SEC’s budget. A Re-           numbers needed to be larger.” Ultimately, OAS
alty Specialist in OAS explained that she and             ignored the data that had been gathered during
the former Leasing Branch Chief developed the             the first two weeks of June 2010, which indi-
standard by dividing the square footage of exist-         cated the correct contractor factor was ten per-
ing office space by the number of people the              cent, and inflated its calculation of needed space
SEC had authority to hire for the offices in that         by adding contractors using a completely arbi-
space at headquarters and several of the SEC’s            trary 20 percent.
regional offices. The Realty Specialist described
the standard as a “back of the envelope” calcu-               In addition, we found that OAS’s estimate of
lation, and she stated in her OIG testimony that          new positions that would require space included
“we didn’t do this scientifically.” OAS’s 400             an estimate of the number of interns and tem-
standard of square feet per person was an “all-           porary staff who would be hired in addition to
inclusive number” that included common spaces             new employees. OAS’s estimate of new interns
and amenities. It included an additional ten              and temporary staff assumed an increase of
percent for contractors, ten percent for interns          16.5 percent (nine percent for interns and 7.5
and temporary staff, and five percent for future          percent for temporary staff). However, the OIG
growth. Notwithstanding this “all-inclusive”              found that the estimate of interns and tempo-
number, we found that when OAS later did its              rary staff positions used in OAS’s calculation

                                                    58

was significantly higher than the estimate con-          recalled the July 23, 2010 meeting with the
tained in the data it received. On July 16,              former Executive Director, noting that the for-
2010, a management program analyst in the                mer Executive Director had come to her “and
SEC’s Office of Human Resources provided                 said that he needed to see Mary [Schapiro]
OAS with “the [peak] numbers [for interns and            quickly because he needed to make a quick de-
temporary staff],” which ranged from ap-                 cision on Constitution Center. That the other
proximately four to seven percent for the six            possible space opportunities had evaporated,
fiscal years of data she analyzed.                       gone to others, were no longer available. And
                                                         that this one was really all that was left and that
     Further, the OIG investigation found that           we needed to act quickly.”
OAS’s calculations increased the amount of
space required for every person to be hired in               Chairman Schapiro testified as follows
FY 2011 and FY 2012 by ten percent for “in-              regarding the July 23, 2010 meeting with the
ventory,” representing vacant offices for expan-         former Executive Director:
sion and unanticipated growth. However, the
calculation of the 400-square-foot standard it-             I remember explicitly being told there
self already incorporated an inventory factor.              really wasn’t any other space available
Moreover, the ten percent inventory factor                  that could fulfill our needs and that
added was double the five percent factor that               there was a time—a sense of we were
was previously determined to be appropriate.                about to lose this. We had lost other
                                                            space that we had apparently indicated
    We also found that OAS’s estimate of new                an interest in and that we were about
positions that would require space not only in-             to lose this. So there was a sense of
cluded assumptions about FYs 2011 and 2012,                 urgency on their part.
but also assumed that in FY 2013, the SEC’s
appropriation would increase by 50 percent of                 The former Deputy Chief of Staff testified
the agency’s FY 2012 budget request. We                  that the former Executive Director did not ex-
found that the assumption of 50 percent                  plain in the July 23, 2010 meeting, or at any
growth in FY 2013 was arbitrary and unsup-               other time, that the assertion that SEC head-
ported. Based on the FY 2013 assumption,                 quarters needed an additional 900,000 square
OAS projected that the SEC would add an-                 feet was predicated, in part, on the assumption
other 295 positions in that year and again as-           that all the agency’s new positions in FYs 2011
sumed that all of those positions would be allo-         and 2012 would be allocated to SEC headquar-
cated to SEC headquarters. We found that this            ters. The former Deputy Chief of Staff testi-
estimate was not based on any firm numbers or            fied, “[I]n fact, that’s inconsistent with what I
projections and was contrary to the SEC’s                had understood, because . . . [Chairman
planning and budget process, which does not              Schapiro] specifically said that, to the extent
project growth more than two years into the              possible, she wanted new hires to go to the re-
future.                                                  gions.” The former Deputy Chief of Staff also
                                                         testified that the former Executive Director did
    The OIG investigation found that OAS                 not explain in the July 23, 2010 meeting, or at
used the above-described overinflated estimates          any other time, that the assertion that SEC
to calculate a space need of 934,000 square              headquarters needed an additional 900,000
feet. On Friday, July 23, 2010, the former Ex-           square feet was predicated, in part, on OAS’s
ecutive Director met with Chairman Schapiro,             projection of significant growth in FY 2013.
her Chief of Staff, and the SEC’s then-Deputy
Chief of Staff to recommend that the SEC                     On July 23, 2010, the former Executive Di-
lease 900,000 square feet of space at Constitu-          rector sent an e-mail to the OAS Associate Ex-
tion Center. The former Deputy Chief of Staff            ecutive Director, the OAS Assistant Director for

                                                   59

Real Property Operations and the former Leas-             Leasing Branch Chief testified that OAS
ing Branch Chief, stating, “Met with Chairman             wanted a right of first refusal on all of the re-
this morning, and we have her approval to                 maining space at Constitution Center “because
move forward.” The OIG investigation found                the Congress was throwing money at us,” and
that the SEC negotiated the contract for                  “[the Associate Executive Director of OAS]
900,000 square feet at Constitution Center in             was always hoping that we wouldn’t have any-
three business days, signing the contract on              body else in the building. That we would be
July 28, 2010. On July 27, 2010, the SEC staff            able to ultimately justify the need for the whole
involved in the negotiations discussed the fact           building or something.”
that they had “no bargaining power” because
“[the OAS Associate Executive Director]                        After the SEC committed itself to the ten-
want[ed] this signed tomorrow.” Internal                  year lease term, it prepared a Justification and
e-mails showed that OAS feared losing the                 Approval for Other than Full and Open Com-
building to the National Aeronautics and Space            petition, which is required by the Federal Ac-
Administration (NASA), which had also ex-                 quisition Regulation (FAR) when an agency
pressed an interest in the facility. However, the         decides not to allow for full and open competi-
OIG found that OAS staff apparently under-                tion on a procurement or lease. Under Section
stood that NASA could not have had signed a               6.302-2 of the FAR, 48 C.F.R. § 6.302-2, other
lease for space at Constitution Center before             than full and open competition is permitted
September 2010.                                           “when the agency’s need for the supplies or
                                                          services is of such an unusual and compelling
     On July 28, 2010, the SEC executed a Let-            urgency that the Government would be seri-
ter Contract committing the SEC to lease ap-              ously injured unless the agency is permitted
proximately 900,000 square feet of space at               to limit the number of sources from which it
Constitution Center. The Letter Contract set a            solicits bids or proposals.” (Emphasis added).
multiphase delivery schedule, in which Phase 1,
consisting of approximately 350,000 square                     The OIG investigation found that the Justi-
feet, would be delivered no later than Septem-            fication and Approval to lease space at Consti-
ber 2011, and Phase 2, consisting of approxi-             tution Center without competition was inade-
mately 550,000 square feet, would be delivered            quate, not properly reviewed, and backdated.
no later than September 2012. The Letter                  The Justification and Approval provided as
Contract stated that “the SEC’s interests re-             follows:
quire that [the Constitution Center owner] be
given a binding commitment so that the space                 To fulfill these new responsibilities it is
required will be committed to the SEC and ini-               necessary to significantly increase full-
tial build out for the Phase 1 space can com-                time staff and supporting contractors by
mence immediately….” The lease term in the                   approximately 2,335 personnel to be
Letter Contract was ten years. The former                    located at the SEC’s headquarters in
Leasing Branch Chief estimated the costs asso-               Washington, DC. However, the SEC’s
ciated with leasing and occupying Constitution               current headquarters is full. Accord-
Center would be $556,811,589.                                ingly the SEC has a requirement of an
                                                             unusual and compelling urgency to ob-
    The Letter Contract also granted the SEC                 tain approximately 900,000 rentable
the right of first refusal for the remaining ap-             square feet (r.s.f.) of additional head-
proximately 500,000 square feet of space at                  quarters space in the Washington, D.C.
Constitution Center until December 15, 2010.                 Central Business District, as this is the
If the SEC had exercised this option, it would               amount of space required to accom-
have leased the entire 1,400,000 square feet of              modate the approximately 2,335 new
space at Constitution Center. The former                     staff and contractors in headquarters.

                                                    60

     The Justification and Approval asserted            dated her signature to August 27, 2010, but
that the 900,000 square feet “must be in a sin-         subsequently whited-out the “7” on the date to
gle building or integrated facility to support the      make it appear that she had also signed the
SEC’s functional requirements and operational           document on August 2, 2010. The actions of
efficiency.”                                            the signatories to the Justification and Approval
                                                        gave the public the false impression that the
     An OAS Management and Program Ana-                 document was finalized a few days after the
lyst signed the Justification and Approval as the       Letter Contract was signed and there was only
SEC’s Competition Advocate. She testified that          a delay in its publication.
she did not take any steps to verify that the in-
formation in the Justification and Approval was              The OIG investigation also found that there
accurate, “[o]ther than asking [the former              was significant uncertainty among the SEC
Leasing Branch Chief], the contracting officer,         staff regarding important requirements of
you know, just general questions, ‘Is this indeed       government leasing, as well as serious questions
urgent and compelling[?].’” She further testi-          as to whether the SEC complied with several
fied that when she signed the Justification and         requirements in connection with its leasing of
Approval, she was not aware that funding for            Constitution Center. Appendix B of the U.S.
the projected growth had not been appropri-             Office of Management and Budget (OMB)
ated. She also did not have an understanding            Circular No. A-11 states, “Agencies are required
of when the projected 2,335 personnel were              to submit to OMB representatives the following
expected to be hired. Further, she acknowl-             types of leasing and other non-routine financ-
edged in testimony that the SEC would, in fact,         ing proposals for review of the scoring impact:
not be “seriously injured” if it lost the opportu-      Any proposed lease of a capital asset where to-
nity to rent one contiguous building and had to         tal Government payments over the full term of
rent multiple buildings to fill its space needs.        the lease would exceed $50 million.” Although
                                                        the evidence showed that the SEC initially con-
    The FAR also requires that a Justification          templated providing OMB with the requisite
and Approval for Other than Full and Open               written notification and senior SEC officials
Competition be posted publicly “within 30 days          believed that OMB had been formally notified,
after contract award.” The Letter Contract              no written notification was provided.
was signed on July 28, 2010. Accordingly, the
deadline for publication of the Justification and           In addition, the OIG found that there was a
Approval was August 27, 2010. On September             possibility that the SEC violated the Antidefi-
3, 2010, the SEC publicly posted the Justifica-        ciency Act in connection with its lease of Con-
tion and Approval on the Federal Business Op-          stitution Center. The Antideficiency Act, 31
portunities website. The document was signed           U.S.C. § 1341(a)(1)(B), prohibits officers or
by four individuals with all four signatures           employees of the government from involving
dated August 2, 2010.                                  the government “in a contract or obligation for
                                                       the payment of money before an appropriation
    However, the OIG investigation found that          is made unless authorized by law.” The incur-
the Justification and Approval was not finalized       ring of an obligation in excess or advance of
until September 2, 2010, and substantial revi-         appropriations violates the Antideficiency Act.
sions were being made up to that date. We              Notwithstanding its July 28, 2010 commitment
found that three of the four signatories exe-          to a ten-year lease at Constitution Center, the
cuted the signature page on August 2, 2010,            SEC did not obligate the entire amount of rent
before a draft even remotely close to the final        payments due under the lease. Although the
version existed. The OIG found that the SEC’s          SEC has been granted independent leasing
Competition Advocate executed the signature            authority and is generally granted authority to
page on August 31, 2010, and initially back-           enter into multiyear leases in its annual appro-

                                                     61

priations, the U.S. Government Accountability             anonymous came forward to provide informa-
Office (GAO) has found that “[t]he existence of           tion concerning the environment and decision-
multiyear leasing authority by itself does not            making processes within OAS. These witnesses
necessarily tell [an agency] how to record obli-          described an environment in which inexperi-
gations under a lease.”  GAO has distinguished            enced senior management made unwise
agencies such as the GSA, which has “specific             decisions without any input from employees
statutory direction” to obligate funds for multi-         with significant knowledge and experience. We
year leases one year at a time, from agencies             found that questioning of upper manage-ment
such as the Federal Emergency Management                  decisions by the staff was “not allowed,” and
Agency (FEMA), which does not have such ex-               that the OAS Associate Executive Director sur-
plicit direction.  Because the SEC, like FEMA,            rounded herself with “yes-men” and did “not
does not have specific statutory direction to ob-         want to hear what [experienced staff would]
ligate funds for multiyear leases on an annual            tell her.” These individuals testified that upon
basis, its lease obligations may have to be obli-         learning of the SEC’s decision to lease 900,000
gated in their entirety at the time they are in-          square feet of space at Constitution Center,
curred. As a consequence, the SEC may have                they “just couldn’t understand how they could
violated the Antideficiency Act in connection             justify that amount of space . . . ” and were
with its commitment to lease space at Constitu-           “flabbergasted” by the decisions. One experi-
tion Center.                                              enced employee testified that OAS
                                                          management had “grandiose plans” and was
    In early October 2010, the SEC informed               significantly influenced by the upscale nature of
the Constitution Center owner that it could not           the facility.
use approximately 600,000 of the 900,000
square feet of space it had leased at Constitu-              Recommendations in the Report of
tion Center and asked for the owner’s assis-                 Investigation
tance in finding other tenants for that space.
In November 2010, the Constitution Center                      The OIG recommended that the newly-
owner began negotiations with the Federal                 appointed Chief Operating Officer/Executive
Housing Finance Agency (FHFA) and the                     Director carefully review the report’s findings
Office of the Comptroller of the Currency                 and conduct a thorough and comprehensive
(OCC) to lease portions of Constitution Center.           review and assessment of all matters currently
In January 2011, FHFA and OCC entered into                under the purview of OAS, including, but not
contracts to lease space at Constitution Center,          limited to: (1) the adequacy of written policies
leaving approximately 350,000 square feet to              and procedures currently in place for all aspects
which the SEC remained committed. The                     of the SEC’s leasing program, particularly writ-
SEC expressed its intention to sublease the re-           ten procedures for leasing approvals; (2) the
maining 350,000 square feet. On January 18,               methods and processes used to accurately pro-
2011, the Constitution Center owner’s counsel             ject spacing needs based on concrete and sup-
sent a demand letter to the SEC, asserting that           portable data; (3) the determination to employ
the SEC’s actions had caused the Constitution             a standard of 400 square feet per person for
Center owner to incur $93,979,493 in costs at             planning SEC space needs; (4) the necessity of
Constitution Center.                                      retaining architects, furniture brokers, or other
                                                          consultants to assist in the work generally
    The OIG investigation further found that a            performed by OAS officials; and (5) all pending
“closed” and “rigid” atmosphere within OAS                decisions in which OAS is committing the SEC
may have contributed to the irresponsible                 to expend funds, including decisions relating to
decisions made with respect to the Constitution           regional office lease renewals. As of the end of
Center lease. In the course of the OIG’s inves-           the semiannual reporting period, action had
tigation, several witnesses who sought to remain          not yet been taken by management to fully
                                                          address the OIG’s recommendations.
                                                    62

     The OIG further recommended that the                 of interest arising from the former SEC Gen-
Chief Operating Officer/Executive Director,               eral Counsel’s participation in matters relating
upon conclusion of such review and assess-                to the Bernard L. Madoff Ponzi scheme, most
ment, determine the appropriate disciplinary              notably, the liquidation proceeding under the
and/or performance-based action to be taken               Securities Investor Protection Act (SIPA). Her
for the matters discussed in the OIG’s report of          request came after she received inquiries from
investigation, as well as other issues identified         certain Congressional committees and sub-
during the review and assessment. The OIG                 committees requesting information and docu-
specifically recommended, at a minimum, con-              ments related to, among other things, the for-
sideration of disciplinary action, up to and in-          mer General Counsel’s participation in the
cluding dismissal against the OAS Associate               SEC’s work on the Madoff liquidation. These
Executive Director and the OAS Assistant Di-              inquiries came in response to recent press re-
rector for Real Property Operations, and con-             ports indicating that the former SEC General
sideration of disciplinary action against the             Counsel, along with his two brothers, had been
Competition Advocate, for their actions in                named as defendants in a clawback suit
connection with the gross overestimation of the           brought by the trustee administering the
amount of space needed at SEC headquarters                Madoff liquidation to recover approximately
for projected expansion, the failure to provide           $1.5 million in fictitious profits received from
complete and accurate information to the                  the Ponzi scheme by a Madoff account held by
Chairman’s office, and the preparation of a               his mother’s estate. The OIG immediately
faulty and back-dated Justification and Ap-               commenced the requested investigation and
proval to support eliminating competition. As             met with the Honorable Darrell Issa (R-Cali-
of the end of the semiannual reporting period,            fornia), Chairman of the U.S. House of Repre-
management had not yet proposed any disci-                sentatives Committee on Oversight and
plinary action against these individuals.                 Government Reform, and numerous Congres-
                                                          sional staff concerning their requests for infor-
    Finally, the OIG recommended that the                 mation pertaining to this matter.
OFM, in consultation with OGC, request a
formal opinion from the Comptroller General                  Scope of the Investigation
as to whether the SEC violated the Antidefi-
ciency Act by failing to obligate appropriate                 During the course of its investigation, the
funds for the Constitution Center lease. On               OIG obtained and searched over 5.1 million
June 15, 2011, the SEC’s Chief Financial Offi-            e-mails for a total of 45 current and former
cer submitted a request for a formal opinion to           SEC employees, including employees of the
the Comptroller General on this issue, and a              Office of the General Counsel (OGC), the
decision was pending as of the end of the re-             Division of Trading and Markets (TM), and
porting period. A public version of the OIG’s             the Office of Intergovernmental and Legisla-
report is available on the agency’s website at            tive Affairs (OLA), the Commissioners, and the
http://www.sec.gov/foia/docs/oig-553.pdf.                 Chairman. The OIG also obtained and re-
                                                          viewed numerous documents from the Office of
Investigation of Conflict of Interest                     the Secretary, including minutes of certain
Arising from Former General Counsel’s                     Commission meetings and memoranda pre-
Participation in Madoff-Related                           sented to the Commission regarding the
Matters (Report No. OIG-560)                              Madoff liquidation. The OIG also issued a
                                                          subpoena for certain documents to the trustee
   Background                                             administering the Madoff liquidation, and
   On March 4, 2011, the SEC Chairman                     upon production thereof, reviewed the docu-
requested that the OIG investigate any conflicts          ments produced by the trustee.



                                                    63

     The OIG took the sworn testimony of 35               equity and the clawback actions brought by the
witnesses, including the former SEC General               trustee in the Madoff liquidation, including the
Counsel, the former SEC Ethics Counsel who                overall amount of funds the trustee would seek
had provided ethics advice to the former Gen-             to claw back and the calculation of amounts
eral Counsel, the Chairman, the Commission-               sought in individual clawback suits. In addition
ers, and various current and former employees             to the former General Counsel’s work on the
from OGC, TM, and OLA. The OIG also                       net equity issue, the OIG investigation also
interviewed the trustee appointed in the                  found that he provided comments on a pro-
Madoff liquidation, representatives of the                posed amendment to SIPA that would have
Securities Investor Protection Corporation                severely curtailed the power of a SIPA trustee,
(SIPC), a former senior official in TM who was            including the trustee in the Madoff liquidation,
awaiting confirmation as a Commissioner, and              to bring clawback suits against individuals like
a former Commissioner. The OIG also con-                  the former General Counsel.
sulted with officials from the Office of Govern-
ment Ethics (OGE), requesting OGE’s opinion                    More specifically, the OIG investigation
regarding the former General Counsel’s par-               found that the former SEC General Counsel,
ticipation in matters that could have given rise          along with his two brothers, inherited an
to a conflict of interest.                                interest in a Madoff account owned by his
                                                          mother’s estate after she died in 2004. The
   Results of the Investigation                           former SEC General Counsel testified that he
                                                          became aware of this account in or about Feb-
     On September 16, 2011, the OIG issued its            ruary 2009, and that he knew the account had
report of investigation in this matter, which in-         been opened by his father prior to his death in
cluded nearly 120 pages of analysis and 200               2000, was transferred to his mother’s estate af-
exhibits. The OIG investigation found that the            ter her death in 2004, and was liquidated for
former SEC General Counsel participated per-              approximately $2 million. We also found that,
sonally and substantially in particular matters           at the time that the former General Counsel
in which he had a personal financial interest by          participated on behalf of the SEC in the net
virtue of his inheritance of the proceeds of his          equity issue in the Madoff liquidation, he un-
mother’s estate’s Madoff account and that the             derstood that there was a possibility that the
matters on which he advised could have di-                trustee would bring a clawback suit against him
rectly impacted his financial position. We                for the fictitious profits in his mother’s estate’s
found that the former General Counsel played              account, but asserted that he did not know the
a significant and leading role in determining             likelihood of such a suit. Notwithstanding this
what recommendation the staff would make to               knowledge, the former General Counsel, who
the Commission regarding the appropriate po-              also served as the SEC’s alternate Designated
sition for the SEC to advocate as to the deter-           Agency Ethics Official (i.e., the alternate official
mination of a customer’s net equity under                 responsible for coordinating and managing the
SIPA in the Madoff liquidation. In a SIPA                 SEC’s ethics program), worked on particular
proceeding like the Madoff liquidation, net eq-           matters that could impact the likelihood, and
uity is the amount that a customer can claim to           even possibility, of a clawback suit against him,
recover, and the method for determining net               as well as the amount that could be recovered
equity is, therefore, critical to determining the         in such a clawback action.
overall amount that the trustee would pay to
customers in the Madoff liquidation. SIPC                     The OIG found that after the former Gen-
officials and numerous SEC witnesses, as well             eral Counsel rejoined the SEC as General
as documentary evidence, demonstrated that                Counsel in February 2009, the SEC’s approach
there was a direct connection between the                 to the net equity determination changed. As of
method used to determine a customer’s net                 February 2009, SIPC had emphasized that it

                                                    64

was critical for SIPC and the SEC to reach a               stated that during a June 2009 meeting, the
consensus as to the methodology for paying                 former General Counsel “was very persistent
customer claims. TM officials concurred with               on the view that the last account statement
SIPC and the trustee that the Money In/                    should be the measure of what customers were
Money Out Method was the appropriate                       owed, which meant that you would basically
method for determining net equity, and SIPC                recognize and honor fictitious profits.” Mean-
understood that the Commission was likewise                while, SIPC officials expressed frustration to
in agreement. Under the Money In/Money                     the SEC Chairman that the Commission was
Out Method, a Madoff investor’s net equity                 still exploring other options for the net equity
claim would only be for the amount of money                determination while the trustee was processing
initially invested with Madoff, less any amounts           claims and wished to offer settlements to
withdrawn over time.                                       Madoff customers.

     However, after the former General Counsel                  The former General Counsel and OGC
rejoined the Commission, and the SEC re-                   eventually rejected the Last Account Statement
ceived submissions from representatives of                 Method, and certain variations on that ap-
Madoff claimants who disagreed with the pro-               proach that it also considered, and determined
posed Money In/Money Out method, the                       that such approaches could not be reconciled
former General Counsel and OGC began to                    with the law. However, they continued to con-
analyze whether another approach should be                 sider other methods that would allow Madoff
used. These submissions, including a May 1,                customers to receive some amount more than
2009 letter from the law firm of a former SEC              their initial investments with Madoff. After
Commissioner and other law firms, advocated                consultation with officials from the Division of
the Last Account Statement Method, under                   Risk, Strategy, and Financial Management, the
which a Madoff investor would receive the                  former General Counsel ultimately decided to
amount listed as being in the customer’s ac-               recommend to the Commission the Constant
count on the last Madoff account statement                 Dollar Approach. Under that approach, an
that the customer received (i.e., including the            inflation rate, based upon the Consumer Price
fictitious profits reflected on that statement).           Index, would be added to the amount of a
The OIG investigation found that after receiv-             Madoff customer’s initial investment to deter-
ing the May 1, 2009 letter, the former General             mine the additional amount the customer
Counsel and OGC initially gave serious con-                would receive. Accordingly, in late October
sideration to this method. We also found that              2009, the former General Counsel signed an
the prevailing opinion within the SEC and                  Advice Memorandum to the Commission,
SIPC was that using the Last Account                       which proposed that the Commission adopt the
Statement Method would have eliminated the                 Money in/Money Out Method, as modified by
trustee’s ability to bring clawback suits like the         the Constant Dollar Approach to take into
one brought against the former General Coun-               consideration the time value of money. TM
sel. In fact, the former General Counsel ac-               concurred in that recommendation as to the
knowledged that one of the reasons the Madoff              Money In/Money Out Method, but did not
trustee opposed using the Last Account State-              necessarily concur that using a time-equivalent-
ment Method was that if this method was                    dollar basis would be consistent with SIPA. At
adopted, the trustee “couldn’t do any claw-                a Commission Executive Session during which
backs.”                                                    this issue was considered, the former General
                                                           Counsel made this recommendation and re-
    The OIG also found that the former Gen-                quest in person, and the Commission voted not
eral Counsel initially advocated to SIPC that              to object to the staff ’s recommendation of the
some version of the Last Account Statement                 Constant Dollar Approach.
Method be adopted. SIPC’s General Counsel

                                                     65

     The OIG investigation found that neither          to preclude the trustee from bringing clawback
SIPC nor the trustee believed that the Constant        suits, like the one against the former General
Dollar Approach was appropriate or consistent          Counsel and the majority of the clawback suits
with SIPA, and that the President and Chief            brought, which did not rely on any knowledge
Executive Officer of SIPC had specifically in-         of the alleged wrongdoing. The former Gen-
formed the General Counsel that there was no           eral Counsel responded to OLA that the
justification under SIPA for such an approach.         amendment was “incomprehensible” and did
Moreover, the SIPC President and CEO made              not “seem fair.” In testimony before the OIG,
clear that every proffered methodology other           the former General Counsel defended his ac-
than the Money In/Money Out Method would               tions, stating that he regarded the amendment
have directly affected the former General              as merely “political noise,” rather than a serious
Counsel’s financial position or the financial po-      proposal.
sition of his mother’s estate’s Madoff account.
He explained that, by increasing the amount                    The OIG investigation further found that
that a customer’s account was owed, the                   the former General Counsel consulted with the
amount that the trustee could have received in            SEC’s Ethics Office on two occasions regarding
a clawback suit from the former General Coun-             his interest in his mother’s estate’s Madoff ac-
sel would decrease. The SIPC President and                count: first, upon his return to the SEC in Feb-
CEO also explained that, upon learning in late            ruary 2009, and, second, when he received the
February 2011 of the former General Coun-                 May 1, 2009 letter advocating the Last Account
sel’s mother’s estate’s account, he performed             Statement Method. On both occasions, he was
“back of the envelope calculations” to deter-             advised that there was no conflict. However,
mine the difference in bringing a clawback suit           the OIG investigation identified concerns about
under the Constant Dollar Approach, as op-                the role and culture of the Ethics Office at the
posed to the Money In/Money Out Method,                   time it provided this advice. The former SEC
and determined that the amount sought in the              Ethics Counsel with whom the former General
clawback suit would decrease by approximately             Counsel consulted on both occasions reported
$140,000. The OIG recreated this analysis and             directly to the former General Counsel. The
calculated that a benefit of approximately                former General Counsel prepared a perform-
$138,500 would result from applying the Con-              ance evaluation of the former Ethics Counsel
stant Dollar Approach in the clawback suit.               only seven months after the May 2009 ethics
                                                          advice was provided and described the per-
     The OIG investigation also found that the            formance of the Ethics Office as “superb” and
former General Counsel participated in an-                the quality of the ethics advice as “very high.”
other particular matter that could have im-               The former Ethics Counsel also held the for-
pacted his financial position while serving as            mer General Counsel in extremely high regard,
SEC General Counsel. In October 2009, OLA                 and testified he factored into his analysis of
forwarded the former General Counsel a draft              whether the former General Counsel should be
amendment to SIPC, as well as TM’s analysis               recused from the Madoff liquidation the fact
of that proposal, and asked him if there was              that “he was a reputed securities lawyer who
any reason that the staff should weigh in on              was making a decision to come back and serve
this amendment regarding the trustee’s ability            the public and protect investors….”
to bring clawback suits. The proposed
amendment would have amended SIPA to pre-                  Additionally, the former Ethics Counsel
clude a SIPA trustee from bringing clawback            explained his belief that as Ethics Counsel, the
actions against a customer “absent proof that          most important thing was that people trust him,
the customer did not have a legitimate expecta-        and noted that people trusted him with “in-
tion that the assets in his account belonged to        credibly personal information.” He viewed his
him.” The effect of this amendment would be            job as “to create a culture where people would

                                                    66

seek advice, and to alert those employees—all             lution of the meaning of ‘securities positions’
employees—where the danger lines were, and                and the trustee’s claw back decision. For this
to encourage them to come and seek ethics ad-             reason, you do not have a financial conflict of
vice, because that provides a level of protec-            interest and you may participate.”
tion.” He stated, “The people who, in the eth-
ics community, that I respect the least are the                When the OIG took the testimony of the
ones who always say no. If you are a constant             former Ethics Counsel in this investigation, we
naysayer, one, nobody comes to secure advice;             learned that his opinion was based upon the
two, you’re not actually doing your job.” He              incorrect understanding that the SEC’s partici-
further noted, “The key, as I saw it in my job as         pation in the Madoff liquidation was solely an
[Designated Agency Ethics Official] and as eth-           advisory one, when, in fact, the SEC was a
ics counsel, was to make decisions. That’s the            party to the liquidation proceeding and could
reason I was promoted. I was willing to make              request the court to compel SIPC to do as it
decisions. That requires a certain amount of              wished. The former General Counsel himself
willingness to be second-guessed by other                 acknowledged in his OIG testimony that con-
people. If you always say no, you’ll never be             sistent with its role as a party, the SEC’s partici-
second-guessed. That was not what I saw my                pation in the net equity issue in the Madoff liq-
role to be.”                                              uidation was not theoretical, and that if SIPC
                                                          disagreed with the SEC’s position, the SEC
    The OIG investigation found that at no                should eventually recommend that the court
time was the former General Counsel advised               adopt the SEC’s position, indicating that “[t]he
that he should not participate in any Madoff-             Commission had done that in the past and may
related matters, but that this advice appeared            do it again.”
to have been based on incorrect assumptions.
The OIG investigation further found that the                  The OIG also found that the former Ethics
former General Counsel never advised the                  Counsel’s advice was also based upon the in-
former SEC Ethics Counsel of the request for              correct assumption that the interpretation of
his opinion of the SIPA amendment, which                  SIPA for purposes of claim determination was
would have precluded clawbacks against indi-              a separate and distinct legal question from the
viduals such as the former General Counsel,               trustee’s decision of from whom to institute a
and never sought advice on whether providing              claw back suit, and completely ignored any im-
advice on that amendment was improper.                    pact on the calculation of the amount to be
                                                          clawed back. We also found no evidence that
     In the second discussion in early May 2009,          the former Ethics Counsel took any further
the former General Counsel disclosed to the               steps to better understand the extent and na-
former Ethics Counsel the details of his                  ture of the General Counsel’s involvement in
mother’s account with Madoff, including when              the Madoff liquidation, and the former Gen-
it was opened and closed, and approximately               eral Counsel testified that he did not recall the
how much money was invested. He also                      Ethics Counsel asking for additional facts or
explained that the Madoff trustee had been                directing him to seek additional guidance if
bringing clawback suits and that a clawback               new facts arose.
suit could “[i]n theory” be brought against him.
He also acknowledged that it was possible that                The OIG investigation further found that
the extent to which SIPA coverage would be                notwithstanding the importance that the for-
available could make it “less likely that the             mer Ethics Counsel had placed on appearance
[t]rustee would bring claw back actions against           matters in his communications to SEC employ-
persons at the margin” like him. The former               ees, he did not even reference appearance con-
Ethics Counsel responded, in part, “There is no           siderations in his May 2009 written advice to
direct and predictable effect between the reso-           the former General Counsel. Nonetheless, the

                                                    67

former Ethics Counsel testified that he did con-          Madoff SIPC liquidation proceeding. Simi-
sider appearance issues when providing advice             larly, the former General Counsel himself took
in this matter and, in fact, concluded that the           a more conservative stance on recusal in certain
former General Counsel’s participation in the             matters, and even declined to participate in one
Madoff liquidation matter passed the “appear-             matter where the Ethics Office had advised he
ance of impropriety test,” which the Ethics               could do so. In connection with one matter
Counsel had himself described in an ethics bul-           from which he had been recused, the former
letin issued to all SEC employees as follows:             General Counsel commented to the Ethics
                                                          Office, “I recused myself because of a brief
   What are the optics of the situation;                  (under 30 minutes) involvement with the case.
   what is the context of the facts and cir-              Ultra conservative, but wise.”
   cumstances? Would it pass what has
   often been referred to as the New York                      The OIG investigation also determined
   Times or Washington Post test? If what                 that the Ethics Office considered recusals in
   you propose doing becomes the subject                  Madoff-related matters differently in situations
   of an article in the press, would you not              that did not involve the former General Coun-
   care or would it look like you were do-                sel. Shortly after Madoff confessed, the former
   ing something wrong? Even if you                       Ethics Counsel sent a memorandum to all
   wouldn’t care, what effect would the                   Commission employees regarding mandatory
   story have on the SEC and your fellow                  recusal from SEC v. Madoff in a broad variety of
   employees?                                             circumstances. The memorandum stated,
                                                          “[A]ny member of the SEC staff who has had
    Even with the advantage of hindsight and              more than insubstantial personal contacts with
given the intense press scrutiny and criticism of         Bernard L. Madoff or Mr. Madoff ’s family
the former General Counsel’s work on Madoff-              shall be recused from any ongoing investigation
related matters in the Washington Post and New            of matters related to SEC v. Madoff.” The
York Times, the former Ethics Counsel indicated           memorandum further set forth certain contacts
in his OIG testimony that he stood by his con-            that required recusal, including being invited to
clusion that the former General Counsel’s in-             or visiting any Madoff family members’ homes
volvement in the SEC determinations in the                or being an active member of the same social
Madoff liquidation passed this appearance test.           or charitable organizations.

     The OIG investigation further found that                 In addition, the OIG investigation found
the Ethics Office considered the former Gen-              that with respect to employees within OGC
eral Counsel’s participation differently in other         besides the former General Counsel, the Ethics
matters than it did in the Madoff liquidation.            Office took a more conservative approach to-
For example, in March 2009, shortly after the             ward recusal from Madoff-related matters, in-
former General Counsel returned to the                    cluding the Madoff liquidation. For example,
Commission, the former Ethics Counsel ad-                 the Ethics Office advised a staff attorney in
vised him to recuse himself from the Commis-              OGC’s Appellate Litigation and Bankruptcy
sion’s consideration of an insider trading mat-           Group that she had a conflict from working on
ter involving a company in which the former               any aspect of the Madoff liquidation because
General Counsel held about $90,000 in                     she “spent a very small amount of time in
securities of issuers that were harmed by the             private practice working on a question related
trading at issue in the case. In that case, the           to the Madoff bankruptcy.”
basis for recusal was a “theoretical possibility”
of some benefit to the former General Counsel,                The OIG investigation also found that the
which seems significantly less likely than the            former Ethics Counsel was not the only indi-
situation presented by his participation in the           vidual within the SEC who was aware of the

                                                    68

former General Counsel’s mother’s estate hav-             had a Madoff account from which he “had
ing an account with Madoff prior to the time              gotten an inheritance.” The former General
this issue appeared in the press. Both the for-           Counsel also testified that he told the OLA Di-
mer General Counsel and the Chairman re-                  rector that “if [he did] testify, [he] would put at
called that, around the time of his return to the         the beginning, [he] would mention [his], the
SEC in February 2009, the former General                  fact of [his] mother’s account with Madoff.”
Counsel discussed his mother’s estate’s Madoff            He further testified that after this conversation,
account with her. While their recollections of            the OLA Director contacted him later in the
the substance of the conversation were not en-            day and said, “You know, now that I think
tirely consistent, the evidence clearly showed            about it, I think it would be better if somebody
that the former General Counsel advised the               else testified. My concern is—not that there’s
Chairman that his mother had had an account               anything inappropriate, but my concern is [ ]
with Madoff, she had died several years before,           that when you’re in a political environment,
and the account had been liquidated. The                  people might want to make something of that,
Chairman did not recall asking any questions              and it would be a distraction rather than focus-
after he told her about his mother’s account, or          ing on what the Commission’s position was and
whether he said anything about seeking advice             why.”
from the Ethics Counsel regarding the account,
although he testified he must have mentioned                   The former General Counsel testified that
to her that he would consult with the Ethics              either the evening of his conversation with the
Counsel. At that time, the Chairman did not               OLA Director or the following morning, he
consider the former General Counsel’s per-                spoke with the Chairman about his mother’s
sonal financial gain “in any way, shape, or               account. The Chairman recalled the conversa-
form,” or whether he would be subject to a                tion with the former General Counsel and
clawback action. Indeed, the Chairman testi-              stated, “I recall saying that if [he] did testify, we
fied that she would have had the former Gen-              needed to make it absolutely clear to Congress
eral Counsel recused from the net equity de-              that there was this connection, remote though I
termination if she had known he was poten-                believed it to be, that his long-deceased mother
tially subject to a clawback suit or “understood          had had an account at Madoff, so that nobody
that he had any financial interest in how this            would be surprised by that, so that we were
[was] resolved….”                                         completely forthcoming with Congress.” The
                                                          former General Counsel testified that he was
     In addition, the issue of the former General         certain that it was he who said in the meeting
Counsel’s mother’s estate’s Madoff account was            with the Chairman that if he were to testify, he
discussed by several SEC senior officials in the          would disclose his mother’s account with
fall of 2009, when the SEC learned that the               Madoff. The OIG investigation found that
Subcommittee on Capital Markets, Insurance,               eventually, the OLA Director made the deci-
and Government Sponsored Enterprises of the               sion not to have the former General Counsel
U.S. House of Representatives Committee on                testify. The SEC Deputy Solicitor, who had
Financial Services was scheduling a hearing on            been suggested by the former General Counsel
SIPC and the Madoff victims. Shortly after                as a possible replacement witness, testified in
the SEC learned that the Congressional testi-             his stead at the subcommittee hearing which
mony would focus on legal aspects of the                  occurred on December 9, 2009, and involved
SIPC/Madoff issues, the Chairman suggested                discussions of clawbacks. In the end, the for-
that the former General Counsel testify on be-            mer General Counsel’s Madoff interest was not
half of the SEC at the hearing. The OLA Di-               disclosed to Congress.
rector then had a conversation with the former
General Counsel, during which the former                      Moreover, the OIG investigation found that
General Counsel informed him that his mother              although the decision was made that should the

                                                    69

former General Counsel testify before Con-                     Consultation with OGE and
gress, he would disclose his mother’s interest                 Recommendations in the Report of
with Madoff, during this November 2009 time-                   Investigation
frame, the fact of the former General Counsel’s
                                                                 On August 31, 2011, after completing the
interest in his mother’s estate’s Madoff account
                                                            fact-finding phase of the investigation, the OIG
was not disclosed to the Commissioners or the
                                                            provided to the Acting Director of the Office of
bankruptcy court, notwithstanding the fact that
                                                            Government Ethics (OGE) a summary of the
the Commission was considering the recom-
mendation on the net equity position to take in             salient facts uncovered in the investigation.
court at this very time. One SEC Commis-                    The OIG requested that OGE review those
sioner testified that it was “incredibly surprising         facts and provide the OIG with its opinion re-
                                                            garding the former General Counsel’s partici-
and incredibly disappointing that there was
enough awareness to know that the conflict                  pation in matters that could have given rise to a
existed to prevent him from giving [this]                   conflict of interest. After reviewing that factual
                                                            summary, the Acting Director of OGE
testimony, yet the decision-makers at the
                                                            provided the following guidance to the OIG:
Commission were not provided that informa-
tion.”                                                      “It is [the OGE Acting Director’s] opinion, as
                                                            well as that of senior attorneys on [his] staff,
    In all, the OIG investigation found that,               that certain matters [the OIG] discussed in the
prior to the public disclosure of the former                materials [the OIG] provided to OGE should
General Counsel’s mother’s Madoff account, at               be referred to the United States Department of
least seven SEC officials were informed at one              Justice for its consideration.” The OGE Acting
time or another about that account, including               Director further explained that this guidance
the Chairman, the then-Deputy General                       related to, more specifically: “(a) [the former
Counsel and current General Counsel, the                    General Counsel]’s work as General Counsel
Deputy Solicitor who testified at the hearing in            on the policy determination of the calculation
the former General Counsel’s stead, the OLA                 of net equity in connection with clawback ac-
                                                            tions stemming from the Madoff matter, and
Director, a Special Counsel to the Chairman
                                                            (b) [the former General Counsel]’s SEC work
and the two Ethics officials, and yet none of
                                                            on the proposed legislation affecting claw-
these individuals recognized a conflict or took
                                                            backs.” He also stated that the OGE attorneys’
any action to suggest that the former General
                                                            view was as follows:
Counsel consider recusing himself from the
Madoff liquidation. The rest of the relevant
                                                               [T]he materials provided to OGE con-
personnel who worked with the former General
                                                               tain information relevant to two ele-
Counsel on the Madoff liquidation found out
                                                               ments of 18 USC 208, to the extent
about his mother’s account from the media.
                                                               they evidence [the former General
These included all the TM personnel who
                                                               Counsel]’s apparent personal and sub-
played a role in the Madoff liquidation, OGC
                                                               stantial participation in both of the par-
lawyers who worked with the former General
                                                               ticular matters above, and to the extent
Counsel on the net equity determination, all
                                                               there is implicated a personal financial
the SEC Commissioners other than the
                                                               interest that could be impacted by [the
Chairman, SIPC’s President and CEO, SIPC’s
                                                               former General Counsel]’s participation
General Counsel, and the Madoff trustee. Vir-
tually all these individuals expressed some level              in those matters. Nonetheless, the ac-
of surprise at the revelation, and many ex-                    tual knowledge element of 18 USC
pressed concern about the potential conflict of                208, which would be required to estab-
interest.                                                      lish a violation of that statute, remains a
                                                               question of fact that can only be re-
                                                               solved in a court of law.


                                                      70

     Based upon this guidance, the OIG re-                  Allegations of Enforcement Staff
ferred the results of its investigation to the Pub-         Misconduct in Insider Trading
lic Integrity Section of the Criminal Division of           Investigation (Report No. OIG-511)
the U.S. Department of Justice. This referral
                                                                 The OIG conducted an investigation into a
was pending as of the end of the semiannual
                                                            complaint made by counsel for a defendant in
reporting period.
                                                            an SEC enforcement action that alleged nu-
                                                            merous instances of misconduct by Enforce-
     Additionally, based on its findings, the OIG
                                                            ment attorneys during the course of the inves-
recommended that, in light of the former Gen-
                                                            tigation leading up to that enforcement action.
eral Counsel’s role in signing the Advice
                                                            The alleged misconduct included, among other
Memorandum to the Commission and partici-
                                                            things, that (1) Enforcement staff violated SEC
pating in the executive session at which the
                                                            policy when they notified the prospective de-
Commission considered the pertinent recom-
                                                            fendant that they intended to recommend in-
mendation from OGC regarding the Commis-
                                                            sider trading charges against him (known as a
sion’s position on net equity under SIPA, the
                                                            “Wells notice”) before the staff ’s investigation
Commission should reconsider its position on
                                                            was substantially complete; (2) Enforcement
this issue by conducting a re-vote in a process
                                                            staff demonstrated a bias and predetermined
free from any possible bias or taint and advise
                                                            agenda against the defendant, and the investi-
the bankruptcy court of the results thereof.
                                                            gation appeared to have been motivated by po-
With respect to the SEC Ethics Office, the OIG
                                                            litical bias evidenced by a series of politically-
recommended that: (1) the SEC Ethics Coun-
                                                            charged e-mails an SEC regional office En-
sel should report directly to the Chairman,
                                                            forcement attorney had sent to the defendant;
rather than to the General Counsel; (2) the Eth-
                                                            (3) Enforcement staff used the closure of an
ics Office should take all necessary steps, in-
                                                            earlier investigation to attempt to induce com-
cluding the implementation of appropriate
                                                            pany executives to cooperate with the staff and
policies and procedures, to ensure that all ad-
                                                            perhaps depart from testimony previously
vice provided by the Ethics Office is well-
                                                            provided to the defendant’s counsel; and (4) a
reasoned, complete, objective, and consistent,
                                                            senior Enforcement official failed to properly
and that Ethics officials ensure that they have
                                                            report the misconduct of the regional office
all the necessary information in order to prop-
                                                            Enforcement attorney who was e-mailing the
erly determine if an employee’s proposed ac-
                                                            defendant from his SEC e-mail account during
tions may violate rules or statutes or create an
                                                            the ongoing Enforcement investigation of the
appearance of impropriety; and (3) the Ethics
Office should take all necessary actions to en-             defendant. Counsel for the defendant also sub-
                                                            sequently alleged that an SEC Enforcement
sure that all ethics advice provided in significant
                                                            attorney violated state bar rules by engaging in
matters, such as those involving financial con-
                                                            the “tamp down” of a witness, i.e., requesting
flicts of interest, is documented in an appropri-
                                                            that a witness not be made freely available to
ate and consistent manner. As of the end of
                                                            defense counsel.
the semiannual reporting period, the Chairman
and the Ethics Counsel had agreed to and be-
                                                                During its investigation, the OIG obtained
gun to implement the report’s recommenda-
                                                            and searched the e-mails of eight current or
tions.
                                                            former SEC employees for the time periods
                                                            relevant to the investigation. In all, the OIG
    A public version of the OIG’s report is
                                                            received and searched more than 400,000
available on the agency’s website at
http://www.sec.gov/foia/docs/oig-560.pdf.                   e-mails. In addition, the OIG thoroughly
                                                            examined the record in the court proceedings
                                                            related to the SEC’s enforcement action against
                                                            the defendant and reviewed numerous plead-
                                                            ings filed in connection with that litigation.

                                                      71

The OIG also took sworn, on-the-record testi-              The complaint received by the OIG alleged
mony of eight current or former SEC staff                  that a mere four days after the defendant’s
members, the defendant in the SEC enforce-                 counsel sent a letter to a senior Enforcement
ment action and two of his counsel, and inter-             official and “just around the time the staff was
viewed an additional former SEC employee.                  seeking testimony from the very same [com-
                                                           pany] executives in its investigation of [the de-
     After conducting a thorough investigation             fendant], the Commission abruptly closed its
into the defendant’s claims, the OIG issued a              investigation of [the company], which at that
comprehensive report of investigation on                   time had been ongoing for over three years.”
August 22, 2011. Overall, the OIG investi-                 The complaint further alleged:
gation concluded that there was insufficient
evidence to substantiate the allegations that the             [T]hat the staff would suddenly choose
SEC Enforcement staff engaged in misconduct                   to close a long-standing investigation …
in conducting their investigation into the de-                only a few days after receiving a Wells
fendant’s alleged insider trading. First, the                 submission, and just when the staff was
OIG investigation found that there was insuffi-               seeking testimony from the company’s
cient evidence to substantiate the claim that                 senior executives, [gave] rise to the rea-
Enforcement staff improperly provided the                     sonable suspicion that the staff, bent on
prospective defendant’s counsel with a “Wells                 obtaining testimony unfavorable to [the
notice” before the investigation was substan-                 defendant], used the closure of the in-
tially complete. The OIG found that Enforce-                  vestigation to attempt to induce [com-
ment staff had conducted significant investiga-               pany] executives to cooperate with the
tive work before the Wells notice was provided.               staff and perhaps even to depart from
Specifically, SEC Enforcement staff had (1)                   the testimony they previously had
conducted several interviews, (2) obtained prof-              provided to [the     complainants].
fers from other relevant persons, and (3) taken
investigative testimony of two key witnesses.                  However, the OIG found evidence that the
SEC Enforcement staff had also obtained im-                Enforcement staff intended to close the earlier
portant documents, including trading and tele-             investigation several weeks before a matter un-
phone records, documents reflecting the timing             der inquiry (MUI) was opened into the defen-
of the announcement of a particular offering,              dant’s trading. While a letter was not sent noti-
and relevant e-mails about a key telephone call.           fying the relevant company of the closure of
While the OIG did find that Enforcement staff              the investigation of the company until a year
conducted some additional investigative work               later, when SEC Enforcement staff was con-
after the Wells notice was provided and respon-            ducting additional investigative work in the
sive submissions were received, the OIG found              matter related to the defendant, the OIG did
that conducting additional investigative work,             not find any evidence that closing the earlier
and even taking testimony, after the Wells no-             investigation had any effect on the investigation
tice is provided, is not per se prohibited by the          into the defendant’s trading or in any way in-
Enforcement Manual that sets forth various                 duced the company executives to provide dif-
general policies and procedures as guidance for            ferent testimony. The Enforcement staff ob-
the Enforcement staff or internal guidance and             tained additional information from only one
sometimes occurs in Enforcement cases.                     company executive in a second follow-up testi-
                                                           mony of that individual. Moreover, the OIG
     The OIG investigation also did not find               found that the two investigations were separate
sufficient evidence to substantiate the claim that         and there was very little interaction between
an earlier Enforcement investigation into the              the investigative teams, except to request cer-
relevant company was closed as a quid pro quo              tain transcripts of testimony taken years earlier.
for the investigation relating to the defendant.

                                                     72

    The OIG investigation further established             office attorney and the complainant. The OIG
that a former SEC regional office Enforcement             investigation established that immediately after
attorney began e-mailing the defendant from               receiving copies of those e-mail exchanges, the
his SEC computer during the time period when              senior Enforcement official informed the for-
the Enforcement staff was investigating the de-           mer regional office attorney of the ongoing in-
fendant. The e-mails pertained to the defen-              vestigation related to the defendant and in-
dant’s apparent backing of a movie that the               structed him to stop communicating with the
former regional office attorney alleged posited           defendant. There was no evidence that the
a certain political agenda. In these e-mails, the         former regional office attorney communicated
former regional office attorney expressed his             any further with the defendant while he re-
personal views accusing the defendant of pro-             mained an SEC employee. However, the OIG
moting a radical and irresponsible viewpoint by           found that the senior Enforcement official
backing this movie. The OIG investigation                 failed to promptly report this misconduct to his
found that the former regional office attorney            supervisors, the former regional office attor-
continued the e-mails to the complainant again            ney’s supervisors, the Office of Human
a couple of months later, and copied the then-            Resources, or the OIG. Nevertheless, the for-
SEC Chairman on those e-mails.                            mer Chief of Staff and former Counsel to the
                                                          then-SEC Chairman did take action several
     The OIG investigation revealed that the              weeks after the then-Chairman was copied on
former regional office attorney was not in-               the e-mail exchanges, and the former regional
volved in any way in the investigation into the           office attorney was then promptly suspended
defendant’s trading, and that there was no evi-           without pay. Subsequently, the former regional
dence that the former regional office attorney            office attorney was removed from federal serv-
had any knowledge of that ongoing investi-                ice for continuing to engage in misconduct of a
gation when he was e-mailing the defendant.               similar nature.
The OIG found that the then-SEC Chairman
did receive the e-mail exchanges between the                   The OIG investigation did not find suffi-
former regional office attorney and the defen-            cient evidence to establish that the investigation
dant and forwarded them to the then-Director              into the defendant’s trading was motivated by
of the SEC’s Office of Equal Employment                   politics or other improper motives, or that
Opportunity. However, the OIG investigation               Enforcement staff targeted the defendant be-
revealed that the then-Chairman did not know              cause he was a high-profile or recognized indi-
who the defendant was and was unaware that                vidual. The OIG investigation revealed that an
there was an ongoing Enforcement investi-                 Enforcement staff attorney opened the inves-
gation into the defendant’s trading. Neverthe-            tigation of the defendant as a result of finding
less, the then-Chairman did recuse himself                instant messages while searching for the term
from the meeting and vote to authorize the En-            “jail” in the course of conducting another in-
forcement action against the defendant. In all,           vestigation. While the staff attorney knew who
the OIG investigation did not reveal that the             the complainant was, her two immediate su-
former regional office attorney’s e-mail                  pervisors were not aware of who the complain-
exchange with the complainant had any sub-                ant was at the time the Enforcement investiga-
stantive impact on Enforcement’s investigation            tion was opened. The OIG investi-gation did
of the defendant.                                         not establish that anyone on the Enforcement
                                                          staff was motivated to bring a case against the
    In addition, the OIG determined that a                complainant because he was a well-known or
senior Enforcement official, who supervised the           high-profile individual. The OIG investigation
investigation into the defendant’s trading, was           further revealed that the Enforcement staff
also forwarded at least a portion of the later            only learned about the existence of the e-mail
e-mail exchanges between the former regional              exchanges between the former regional office

                                                    73

attorney and the complainant the day before                in this context to be improper. Overall, the
the Wells meeting with the defendant’s counsel,            OIG investigation concluded that these com-
and it had no bearing on their investigation. In           ments, standing alone, did not establish a pre-
addition, the OIG found that none of the En-               conceived bias against the defendant, particu-
forcement staff working on the investigation               larly because they were made in the context
discussed the defendant’s political views, even            of responding to the defendant’s counsel’s
after reading the e-mail exchanges between                 arguments.
the former regional office attorney and the de-
fendant.                                                        The OIG also found that a senior En-
                                                           forcement official sent photographs of the
     Moreover, the OIG investigation did not               complainant (one or two of which could be
find sufficient evidence to substantiate the alle-         considered unflattering) that he obtained from
gation that the Enforcement staff had a pre-               the Internet to the then-Enforcement Director
conceived notion or bias as to the defendant’s             and another senior Enforcement official with-
guilt. The investigation did establish that dur-           out commentary. The OIG found that the
ing the Wells meeting with the defendant’s                 senior Enforcement official sent these photo-
counsel, the trial attorney who had recently               graphs of the complainant because the then-
been assigned to the matter made the com-                  Enforcement Director and the other senior
ment, “[The defendant] takes irrational and                official were unaware of who the complainant
silly risks every day,” or words to that effect.           was, and to explain why the request for a for-
This comment was confirmed by the defen-                   mal order of investigation in the matter should
dant’s counsel, memorialized in a memoran-                 be presented in executive session. We did not
dum prepared the next day from notes taken                 find evidence to establish that the sending of
during the meeting, and the trial attorney ac-             these photographs without any commentary
knowledged that he made such a comment.                    demonstrated evidence of a bias against the
The OIG further found that although the                    defendant that could have tainted the investiga-
comment was made as part of a back-and-forth               tion of him.
conversation in a Wells meeting about the
strengths and weaknesses of the case against                    Further, the OIG investigation did not find
the defendant, and the defendant’s propensity              sufficient evidence to establish that the En-
to take risks was not altogether irrelevant to the         forcement staff attorney identified by the com-
merits of the SEC’s case (particularly when his            plainants or anyone else on the Enforcement
counsel raised the argument that the defendant             staff had engaged in a “tamp down” of a par-
would not risk everything he had and his repu-             ticular witness, or otherwise engaged in efforts
tation for the amount of dollars at stake), the            to prevent witnesses from speaking with the de-
trial attorney could have been more temperate              fendant’s counsel. First, the witness in question
in his language.                                           did provide the defendant’s counsel with a dec-
                                                           laration during their own investigation of the
    The OIG also found that the then-                      matter and before Enforcement took the wit-
Enforcement Director, who attended the Wells               ness’s testimony. Second, according to the staff
meeting in this matter, made the comment,                  attorney, as substantiated by her second-line
“That’s just noise,” or words to that effect, in           supervisor, the staff attorney merely stated that
response to the defendant’s counsel’s arguments            the witness’s counsel did not have to make the
about a witness’s credibility. While perhaps the           witness available for an interview with the de-
then-Enforcement Director could have chosen                fendant’s counsel, and the staff attorney noted
a different word to describe her view that cer-            that the “only preference [she] expressed was
tain arguments were irrelevant or extraneous to            wanting the SEC to go first with the testimony.”
the merits of the case against the defendant,              Third, even according to the witness’s counsel’s
the OIG did not find use of the word “noise”               declaration obtained by the defendant’s coun-

                                                     74

sel, the staff attorney merely “stated that she           friend and former colleague of the senior
would prefer that [counsel] did not produce               official. The complaint also alleged that, dur-
[the witness] to [the defendant’s] counsel for an         ing this secret conversation, the senior official
interview but that [he] could do what [he]                agreed to drop contested fraud charges against
wanted.” Moreover, we did not find that the               an individual, and that the Enforcement staff
staff attorney articulating her preference as to          were later forced to drop fraud charges that
the timing of presenting employees to defense             were part of a settlement with another individ-
counsel would violate ethical standards of con-           ual in the same case.
duct or State bar rules. In addition, while the
complainants also alleged that SEC Enforce-                    The anonymous complaint further alleged
ment staff engaged in misconduct when ques-               that the senior official’s failure to apprise the
tioning this witness in testimony, the OIG’s              staff of the secret conversation before it oc-
review of the transcript of this testimony did            curred was contrary to previous OIG recom-
not reveal any misconduct.                                mendations designed to address concerns about
                                                          the appearance problems created by special
     While the OIG did not find sufficient evi-           access and preferential treatment.
dence to substantiate the allegations of mis-
conduct, we referred this matter to manage-                   The OIG conducted a thorough investi-
ment for counseling for the senior Enforcement            gation of the allegations in the anonymous
official for his failing to promptly report the           complaint. In conducting its investigation, the
former regional office attorney’s misconduct              OIG reviewed e-mails of nine current SEC
and for the trial attorney for his comment                employees who worked on the Enforcement
about the defendant in the Wells meeting. No              investigation in question for the relevant ten-
action had yet been taken by management with              month time period. The OIG also reviewed
respect to the OIG’s recommendations at the               the entries regarding the Enforcement investi-
end of this reporting period. A public version            gation in two internal databases. In addition,
of the OIG’s report is available on the agency’s          the OIG took the sworn, on-the-record testi-
website at http://www.sec.gov/foia/docs/                  mony of seven current SEC employees who
oig-511.pdf.                                              had knowledge of the facts and circumstances
                                                          surrounding the matter, and interviewed the
Investigation into Allegations of                         defense lawyer who allegedly had the secret
Improper Preferential Treatment and                       conversation with the SEC senior official.
Special Access in Connection with an
Enforcement Investigation (Report No.                         The OIG investigation learned that the
OIG-559)
                                                          SEC in the Enforcement matter at issue had
    On January 11, 2011, the OIG opened an                agreed to settle charges against the public com-
investigation as a result of information received         pany, but initially pursued charges against two
in an anonymous complaint. The Honorable                  company officials. These individuals ultimately
Charles Grassley (R-Iowa) also forwarded the              consented to the entry of administrative cease-
anonymous complaint to the OIG and re-                    and-desist orders and undertook to pay fines.
quested that we review the allegations con-               The OIG investigation found that the settle-
tained in the complaint. The anonymous                    ments the SEC ultimately entered into with the
complaint alleged serious problems with special           two individual defendants were non-fraud set-
access and preferential treatment at the SEC.             tlements negotiated just one month before the
Specifically, the complaint alleged that during           SEC’s action in the matter and a few days after
Enforcement’s investigation into a public com-            the senior official had a telephone conversation
pany’s failure to disclose certain subprime               with a former colleague who was representing
securities, a senior SEC official had a secret            the company. However, the evidence obtained
conversation with a prominent defense lawyer              in the OIG’s investigation did not establish that
representing the company, who was also a good             those settlements were the result of any special
                                                    75

favor. In addition, the OIG found no evidence               official would reject it and move forward with
that the senior official had an unusually close             a contested action.
relationship with the defense counsel or that
any decision was made based upon any friend-                    Accordingly, the OIG investigation did not
ship.                                                       substantiate the allegations contained in the
                                                            anonymous complaint, and the report of inv-
    Instead, the OIG found that the settlement              estigation was issued to management for infor-
decisions were made after a negotiation process             mational purposes on September 27, 2011.
that included consultation with several mem-
bers of the Enforcement staff working on the                Excessive Payment of Living Expenses
investigation. The OIG investigation also                   for a Headquarters Senior Official in
found that the senior official made significant             Contravention of OPM Guidance
efforts to keep the Enforcement staff informed              (Report No. OIG-561)
of the status of the matter and also made con-                   The OIG opened this investigation on
siderable efforts to allow them to express their            April 27, 2011, after receiving a confidential
views on the case. Therefore, the OIG investi-              complaint alleging the SEC engaged in waste-
gation concluded that the conversation the sen-             ful spending in connection with the hiring of a
ior official had with the defense counsel did not           senior official. On September 9, 2009, the sen-
result in any secret deal, but rather, at most, was         ior official, who was employed by a Texas uni-
the beginning of further negotiations and dis-
                                                            versity, was hired through the Intergovernmen-
cussions that continued for several days.
                                                            tal Personnel Act (IPA) to occupy a senior posi-
                                                            tion at SEC headquarters in Washington D.C.
     In addition, the OIG investigation did not
                                                            The IPA is intended to facilitate cooperation
find evidence that the senior official acted con-
                                                            between the federal government and non-
trary to prior OIG recommendations or vio-
                                                            federal entities through the temporary assign-
lated the provisions of the Enforcement Man-                ment of skilled personnel. Through the IPA
ual applicable to all Enforcement staff regard-             agreement in question, the SEC reimbursed the
ing external communications, which were                     university for more than $300,000 for the sen-
included in the manual to address concerns                  ior official’s salary and benefits. In addition,
raised in a previous OIG investigation. Al-
                                                            the SEC spent approximately $120,000 for his
though the senior official did not include other
                                                            housing, airfare, and living expenses (including
staff members on the telephone call with the
                                                            meals) for the 16-month period while he
defense counsel, the evidence showed the senior
                                                            worked in Washington, D.C., but was officially
official did not commit to any specific settle-
                                                            stationed at his home location.
ment during that telephone call. The evidence
further demonstrated that when the senior
                                                                 During its investigation, the OIG took the
official learned that the defense counsel be-
                                                            sworn, on-the-record testimony of five indi-
lieved a commitment had been made, the sen-
                                                            viduals with knowledge of the relevant facts
ior official immediately reached out to the de-
                                                            and circumstances, including the senior official
fense counsel to disabuse any notion that a set-
                                                            hired through the IPA. The OIG also con-
tlement had been reached. Moreover, the evi-                ducted a follow-up interview of the senior
dence showed that the senior official reported              official hired through the IPA, as well as two
back to the Enforcement staff about the matter              other SEC senior officials. The OIG also ob-
and further discussions were conducted with                 tained and searched over 85,000 e-mails of
the Enforcement staff before a final decision on            current and former SEC staff members rele-
the settlement was made. In addition, the                   vant to this matter. The OIG further reviewed
senior official informed the Enforcement staff              other documents related to this matter, includ-
working on the matter that if they were not
comfortable with the settlement, the senior

                                                      76

ing travel records, invoices, and several IPA              been incurred if OPM guidance and previous
agreements entered into by the SEC.                        SEC practice had been followed.

    According to the Office of Personnel                        On September 7, 2011, the OIG issued its
Management (OPM), an agency entering into                  report of investigation in this matter. The OIG
an IPA agreement may offer the recipient                   recommended that the Chief Operating Offi-
either “limited relocation expenses” or a per              cer develop guidelines regarding IPA agree-
diem allowance for living expenses during the              ments that: (1) mandate that duty stations be
period of the assignment, but not both. OPM                located where there is an SEC office; (2) define
guidance further provided, “An agency should               the circumstances when a per diem arrange-
also consider the duration of the assignment.              ment similar to the one at issue in this investi-
A per diem allowance is meant for shorter as-              gation may be offered; and (3) establish limits
signments.” Consistent with OPM’s guidance,                on the duration of per diem travel arrange-
SEC policy had been to limit relocation                    ments. No action had yet been taken by
expenses to $9,000.                                        management with respect to the OIG’s rec-
                                                           ommendations at the end of the reporting
    The OIG investigation found that the                   period. A public version of the OIG’s report
SEC’s agreement with the senior official in                is available on the agency’s website at
question was contrary to the OPM guidance on               http://www.sec.gov/foia/docs/oig-561.pdf.
IPA agreements and SEC practice based on
that guidance. Specifically, the OIG investi-              Inappropriate Communications
gation found that the arrangement to pay the               Between an SEC Attorney and an
senior official’s living expenses was not short-           Outside Party (Report No. OIG-555)
term as OPM guidance indicated such ar-
rangements should be. Instead, the investiga-                  On December 15, 2010, the OIG opened
tion showed that the SEC initially arranged to             an investigation into allegations received from
pay those expenses for one year and renewed                an SEC regional office that an SEC headquar-
                                                           ters supervisory attorney had been communi-
the arrangement for a second year.
                                                           cating inappropriately with an outside party,
     Moreover, the evidence showed that the                who was a hedge fund manager. Specifically, it
SEC offered to pay the senior official’s living            was alleged that the SEC attorney inappropri-
                                                           ately discussed with the hedge fund manager
expenses without considering the cost to the
                                                           the legality of certain actions previously taken
federal government as a major factor. Further,
                                                           by the hedge fund manager, as well as certain
the offer did not include any limit on how
                                                           actions he proposed to take. It was further al-
much the SEC would pay for the senior offi-
cial’s living expenses and was made despite                leged that these inappropriate communications
concerns expressed by SEC staff that the ar-               dated as far back as 2006, and, according to the
rangement was too costly. The OIG found that               regional office that was investigating the hedge
even as the costs incurred for the senior offi-            fund manager’s activities, made it impossible
cial’s living expenses mounted, no effort was              for Enforcement to litigate a case against him
made to renegotiate the arrangement with the               because of his ability to raise these communica-
senior official, even when his IPA agreement               tions as a potential defense.
was renewed for a second year. The unprece-
dented arrangement to pay for the senior offi-                 During its investigation of these allegations,
cial’s living expenses while he worked in Wash-            the OIG obtained and searched nearly 8,000
ington, D.C., the actual location of his position,         e-mails and took sworn, on-the-record testi-
                                                           mony of the attorney who allegedly had the
ultimately cost the SEC approximately
$100,000 more than the costs that would have               inappropriate conversations and a senior En-
                                                           forcement attorney who was familiar with the


                                                     77

matter. The OIG also obtained and reviewed                  defense against any potential Enforcement ac-
testimony transcripts from the regional office’s            tion(s) due to these communications, creating
investi-gation, and interviewed a regional office           unacceptable litigation risk. At the time the
Enforcement official about the alleged miscon-              OIG investigation was completed, the regional
duct.                                                       office was in the process of closing its investi-
                                                            gation due to, among other factors, a lack of
     The OIG investigation found that in June               requisite scienter for insider trading liability on
2010, the SEC regional office opened an                     the part of the hedge fund manager.
official investigation into alleged insider trading
and possible market manipulation by the hedge                    The OIG investigation found that the SEC
fund manager based on a referral from that                  attorney’s communications with the hedge fund
regional office’s Examination staff. According              manager during 2006 showed a lack of judg-
to the regional office Examination staff, the               ment on his part. We determined that these
hedge fund manager may have been involved                   communications, which occurred during a time
in insider trading and market manipulation                  period when Enforcement was considering rec-
stemming from a 2006 purchase of securities of              ommending possible charges against the fund
a natural resource company and a subsequent                 manager to the Commission, were inappropri-
offer to purchase all of the company’s outstand-            ate and inconsistent with the duties and respon-
ing shares at a substantial premium over the                sibilities of a supervisory SEC attorney. The
preceding day’s closing price.                              OIG also found that the SEC attorney had
                                                            communications with the hedge fund manager
     The regional office was especially con-                that predated the 2006 occurrences by several
cerned about two specific communications in                 years, indicating a close relationship between
April 2006: (1) a telephone conversation dur-               the SEC manager and hedge fund manager.
ing which the SEC attorney allegedly told the               Moreover, the OIG found that the SEC attor-
hedge fund manager that his purchase of secu-               ney’s continuing communications with the
rities prior to announcing a proposed takeover              hedge fund manager, in addition to being inap-
of the company was legal; and (2) an e-mail in              propriate: (1) prompted Enforcement to ask the
which the SEC attorney provided his cell                    SEC attorney’s former supervisor to ensure he
phone number and informed the hedge fund                    was not involved in Enforcement’s 2006 inves-
manager that he might “feel freer” to fully ex-             tigation; (2) caused the hedge fund manager to
press his opinions on a non-SEC line. We                    believe that his 2006 purchase of securities
found that Enforcement staff at SEC head-                   from the natural resource company was legiti-
quarters had looked into the hedge fund man-                mate; (3) led to a finding that the hedge fund
ager’s 2006 purchase of the natural resource                manager lacked the requisite scienter for liabil-
company’s securities and, while they did not                ity; and (4) created significant litigation risk for
open an official investigation, likewise were               the regional office in 2010.
concerned by the SEC attorney’s communica-
tions with the hedge fund manager.                               Additionally, the OIG found that the SEC
                                                            attorney inappropriately offered his cell phone
     The OIG investigation learned that be-                 number to the hedge fund manager so that an
cause of the telephone and e-mail communica-                outside lawyer could call the SEC attorney to
tions that had taken place between the SEC                  discuss whether the hedge fund manager had
attorney and the hedge fund manager, both                   done anything wrong. The OIG investigation
headquarters and regional office Enforcement                showed that the SEC attorney informed the
staff were concerned that the hedge fund                    hedge fund manager that he would be more
manager would: (1) be found to lack the requi-              willing to express his opinions on a non-SEC
site scienter for liability due to his communica-           telephone line. The OIG found that this
tions with the SEC attorney; and (2) have a                 statement was inappropriate, created a cloud of

                                                      78

suspicion as to the SEC’s attorney’s intentions,            hedge fund operations. In addition, the OIG
and was inconsistent with the requirement that              took the sworn, on-the-record testimony of 16
federal employees conduct themselves in a                   current and former SEC employees.
manner that ensures complete confidence in
the integrity of the federal government.                         The OIG investigation found that from late
                                                            June to early September 2004, the regional
    As a result of its findings in this matter, the         office Examination staff conducted a broker-
OIG issued its report of investigation on                   dealer cause examination of the brokerage firm
August 8, 2011, and recommended that disci-                 based on a tip that the hedge fund manager
plinary action, up to and including dismissal,              was living an overly-extravagant lifestyle. The
be taken against the SEC attorney. As of the                regional office Examination staff drafted an
end of the reporting period, no action had yet              examination report and accompanying referral
been taken by management with respect to the                memorandum, and recommended its findings,
OIG’s recommendation.                                       which included potentially fraudulent markups
                                                            and a securities parking scheme, to the regional
Investigation of Alleged Enforcement                        office Enforcement staff for investigation in
Failure to Investigate Possible                             December 2004. The regional office Enforce-
Violations of the Federal Securities                        ment Staff viewed the referral as significant
Laws (Report No. OIG-554)                                   and immediately opened an investigation. Af-
     On December 15, 2010, the OIG opened                   ter conducting substantial investigative work,
an investigation into allegations by an anony-              however, the regional office decided to transfer
                                                            the investigation to another SEC regional office
mous complainant that the SEC had failed to
                                                            to avoid an appearance of a conflict of interest
investigate the activities of a hedge fund
manager and his brokerage firm. Specifically,               arising from a senior regional office official re-
                                                            cently having left the SEC and taken a position
the complaint alleged that, in late 2004, the
                                                            with the brokerage firm.
Examination staff in an SEC regional office
uncovered the hedge fund manager’s massive
                                                                 The OIG investigation further found that
fraud and referred it to Enforcement. The
                                                            the second regional office Enforcement Staff
complaint further alleged that the regional of-
                                                            expressed skepticism toward the referral from
fice Examination staff provided Enforcement
                                                            the first regional office, primarily due to the
with an examination report detailing the mag-
nitude of the illegal conduct, but that the mat-            second regional office’s belief that the examina-
                                                            tion report contained several mistakes. At the
ter was never pursued. The complaint also
                                                            outset of their investigation, the second re-
pointed out that the hedge fund manager in
question was listed as one of the top 25 people             gional office Enforcement staff narrowed the
                                                            scope of the investigation to one of four issues
responsible for the 2008 financial crisis by Time
                                                            that the Examination staff had referred and the
magazine.
                                                            first regional office Enforcement Staff had in-
    During the course of its investigation, the             tended to investigate. The OIG found that the
OIG obtained searched nearly 600,000 e-mails                decision to narrow the matter to one particular
                                                            issue was made solely to simplify the matter,
of current and former SEC employees, includ-
ing supporting attachments. The OIG also re-                and that the staff in the second regional office
viewed numerous other materials including, but              did not fully understand the nature of the other
not limited to: (1) the regional office’s broker-           issues. After narrowing the scope of the inves-
                                                            tigation, the second regional office decided to
dealer examination report and accompanying
                                                            close the matter entirely. The reason cited for
referral memorandum to Enforcement; (2) draft
                                                            that decision was the “lack of a good working
and final versions of internal memoranda to
                                                            theory.” The matter was closed without the
the Commission; and (3) articles concerning the
                                                            second regional office Enforcement staff taking
hedge fund manager and his brokerage and

                                                      79

the testimony of the hedge fund manager or                        The OIG issued its report of investigation
any other witnesses.                                         in this matter to management for informational
                                                             purposes on September 28, 2011. The OIG
     The OIG also found that prior to closing                noted in its report that, at the time of the Ex-
the investigation, the second regional office En-            amination staff ’s 2004 referral, Enforcement
forcement staff subpoenaed documents, includ-                had not yet reorganized into the specialized
ing bank records, from the brokerage firm and                units that currently comprise the Division.
its affiliates, as well as additional documents              Specifically, in January 2010, Enforcement an-
from certain related third parties. Upon re-                 nounced that it had appointed certain SEC
viewing these documents, the second regional                 managers to head an extensive reorganization
office Enforcement staff was unable to establish             of the Division and, according to Enforcement,
that money was being funneled to entities other              this extensive reorganization was designed to
than the hedge fund manager, his brokerage                   address many of the difficulties inherent in en-
firm, or family members. Without additional                  forcing the federal securities laws by: (1) im-
evidence of fraud by the hedge fund manager                  proving institutional understanding of complex
and his brokerage firm other than price mark-                products and markets; (2) increasing investiga-
ups between sophisticated, institutional inves-              tors’ capability to detect emerging fraud and
tors (e.g., evidence of kickbacks from the hedge             misconduct earlier and more effectively; (3) in-
fund manager to his customers), the second re-               creasing investigators’ capacity to bring cases
gional office Enforcement staff determined that              quickly; and (4) increasing overall expertise
they would be unable to demonstrate fraud or                 throughout Enforcement. Among the newly-
violations of the federal securities laws. Before            formed specialized units was the Structured
officially closing the case, the second regional             and New Products Unit, designed specifically to
office informed the first regional office of its             focus on fraud involving certain complex finan-
decision and offered the case back to the first              cial instruments including collateralized debt
regional office. After the offices conferred, the            obligations, which formed the basis for the
decision was reaffirmed to close the matter.                 Examination staff ’s referral in this matter.
The OIG found that, before the matter was
officially closed in 2007, the first regional office         Other Inquiries Conducted
Enforcement staff opened a second investi-
gation into the hedge fund manager and cer-                     Abuse of Leave and Attempt to
tain of his operations, but ultimately did not                  Defraud the Federal Government by
bring an Enforcement action and closed that                     a Regional Office Senior Officer
                                                                (PI 11-33)
matter in 2011.
                                                                  On June 14, 2011, the OIG received an
     Overall, the OIG investigation did not find             anonymous complaint alleging that a senior
evidence that SEC staff violated the Commis-                 officer in an SEC regional office had used two
sion’s Canons of Ethics or acted in an improper              weeks of sick leave, instead of annual leave, to
fashion in connection with the broker-dealer                 vacation in Hawaii. The complaint did not
examination and resulting investigations of the              specify a timeframe for when the alleged mis-
hedge fund manager, his brokerage firm, and                  conduct occurred. In response to the
its affiliated entities. Although a determination            complaint, the OIG opened this preliminary
was made to close the investigation after a lim-             inquiry on June 15, 2011.
ited amount of investigatory work, we did not
find evidence to substantiate the allegation that                In conducting this inquiry, the OIG re-
the SEC failed to investigate the alleged viola-             viewed the senior officer’s official personnel file,
tions of the federal securities laws by the hedge            as well as her payroll and time and attendance
fund manager or his brokerage firm.                          records for 2011. In addition, the OIG ob-
                                                             tained and reviewed her e-mails for the time

                                                       80

period relevant to the inquiry. The OIG inter-               before any disciplinary action was taken against
viewed a regional office senior official. The                her; however, the 80 hours of sick leave was
OIG attempted to contact the senior officer to               converted to annual leave.
schedule her testimony on six separate occa-
sions, but she refused to respond to those com-                 Misuse of Government Computer
munications. Further, the OIG reviewed the                      Resources, Office Equipment, and
senior officer’s travel records and contacted                   Official Time to Support a Personal
several airlines. The OIG also issued a sub-                    Private Business, and Falsification
                                                                of Time and Attendance Records
poena to an airline for the senior officer’s airline            (PI 10-04)
tickets and related reservation information. In
response to the subpoena, the airline provided                    The OIG conducted an inquiry into an
the OIG with a copy of an electronic ticket                  anonymous complaint that an SEC headquar-
issued to the senior officer for travel during               ters employee was receiving preferential treat-
the relevant time period.                                    ment from her supervisor by being allowed to
                                                             earn overtime or compensatory time on a daily
    The OIG inquiry found that on April 14,                  basis, while other employees were not allowed
2011, the senior officer requested 80 hours of               to do so. During its inquiry, the OIG reviewed
sick leave for the two weeks from Monday, May                the subject employee’s time and attendance re-
9, 2011 through Friday, May 20, 2011. The                    cords for approximately a 21-month period.
OIG also found that she flew to Hawaii on                    The OIG also obtained and reviewed e-mails
May 8, 2011, and returned on May 19, 2011.                   of the subject employee, her supervisor, and
The OIG further found that in June 2011, she                 five other employees who worked in the appli-
submitted a request to use another 56 hours                  cable office for approximately the same period
of sick leave six weeks after the request. That              of time. The OIG also took the sworn on-the-
request was cancelled after the senior officer’s             record testimony of the subject employee and
new supervisor questioned why she was re-                    her supervisor.
questing seven days of sick leave so far in
advance.                                                         The OIG’s inquiry did not find evidence to
                                                             substantiate the allegation in the complaint that
     The OIG further found that prior to the                 the subject employee was receiving preferential
conclusion of the OIG’s inquiry, the senior offi-            treatment in connection with overtime. How-
cer announced that she was resigning from the                ever, the OIG did find evidence that the subject
SEC at the end of August 2011. Accordingly, if               employee submitted excessive claims for over-
left uncorrected, she would have been entitled               time and that both the employee and her super-
to a lump-sum payment of approximately                       visor used government property and official
$7,800 for the 80 hours of annual leave that                 time to support private businesses.
should have been deducted from her annual
leave balance for her vacation. On August 8,                     Specifically, we found that due to staff
2011, the OIG issued its memorandum report,                  shortages, a substantial amount of overtime
summarizing the results of its inquiry and rec-              was required in the office where the subject
ommending disciplinary action against the sen-               employee worked, and that the employee
ior officer, up to and including dismissal. The              worked and was compensated for significant
OIG also recommended that her balance of                     amounts of overtime during the period under
unused annual leave be reduced by 80 hours in                review. We also found that, on several occa-
order to prevent the improper crediting of                   sions, the employee claimed more overtime
those hours to her service or her receipt of an              than she actually worked. In addition, we
improper lump-sum payment for those hours                    found that the employee regularly claimed
upon her planned departure from the SEC.                     overtime pay for lunchtime, which is prohibited
The senior officer’s resignation was effective               by federal rules.

                                                       81

     Our inquiry also revealed that the subject           management action on the OIG’s recommen-
employee spent considerable government time,              dations was pending.
including time for which she received overtime
compensation, working on a private for-profit                Failure to Disclose Outside Position
travel business. We found that at least over a               and Earnings and Misuse of Agency
two-year period, the employee consistently used              Resources (PI 09-70)
her SEC e-mail account to send and receive
                                                               The OIG opened this inquiry after meeting
e-mails for the private business and also used
                                                          with a confidential informant who claimed that
other SEC resources, such as telephone, copy
                                                          a headquarters employee had performed work
machines and her SEC computer, for this busi-
ness. We specifically found that the employee             for an outside vendor without properly disclos-
                                                          ing that outside work in mandatory ethics fil-
used her SEC computer to prepare flyers to
                                                          ings, consulting in advance with the SEC Ethics
solicit new owners to join the business. In fact,
                                                          Office, or obtaining approval for the outside
the employee admitted that she signed up at
                                                          employment. The complainant also alleged
least seven other individuals, including her su-
pervisor and two other SEC employees, to start            that the employee did not report to his work
similar private businesses and received referral          station in accordance with his established work
fees for doing so.                                        schedule. During its inquiry into the
                                                          complaint, the OIG also reviewed whether the
     The OIG inquiry further found evidence               employee improperly used SEC resources and
that after the employee signed up her supervi-            official time to conduct work in support of his
sor for the private business, the supervisor used         outside employment.
her SEC e-mail account to send and receive e-
mails for her private travel business. In addi-                The OIG took the sworn, on-the-record
tion, the supervisor admitted that she used her           testimony of the employee and his former and
government computer, e-mail and SEC copy                  present supervisors. We also obtained and
machine for the private business, and that she            searched the employee’s e-mails for an 18-
accessed her business website over the Internet           month period, as well as e-mails provided by
from her government computer. Both the sub-               the confidential informant. We also contacted
ject employee and her supervisor admitted that            the SEC Ethics Office during our inquiry to
they had taken required training concerning               obtain information about guidance that Office
the use of SEC IT resources and that they                 has provided to SEC employees on the issues of
knew it violated SEC policy to use government             conflicts of interest and outside employment.
resources for a private business.                         In addition, the OIG obtained and reviewed:
                                                          (1) copies of all the employee’s Confidential
    The OIG issued a memorandum report to                 Financial Disclosure Reports (i.e., OGE Forms
management on September 1, 2011, describing               450), and correspondence sent about those
in detail the results of its inquiry. The OIG             forms; (2) the employee’s time and attendance
referred both the subject employee and her su-            records for the two years prior to the
pervisor for appropriate disciplinary action, up          complaint; and (3) personnel records including
to and including dismissal. The OIG also rec-             the employee’s telework agreements and per-
ommended that the agency seek reimburse-                  formance evaluations.
ment from the employee for the amount of
overtime compensation she improperly re-                      The OIG inquiry found that while the em-
ceived. Finally, the OIG referred the em-                 ployee did fulfill the requirements of his official
ployee’s falsification of overtime hours to the           work schedule and was not required to seek
United States Attorney’s Office for the District          ethics advice or obtain approval for his outside
of Columbia, which declined prosecution in                employment, he did hold a paid outside posi-
the matter. At the end of the reporting period,           tion for approximately one year, which he was


                                                    82

legally bound to disclose in mandatory ethics             a total of eight months. We also reviewed the
filings. The OIG determined, however, that                sign-in sheets for every SEC business shuttle
the employee did not appropriately report ei-             that traveled back and forth between Station
ther his outside position, or the associated in-          Place and the Operations Center during the
come, on the financial disclosure forms he filed.         period relevant to our inquiry. Further, we ana-
The OIG further found that the employee did               lyzed the amount of transit benefits provided to
not file a mandatory disclosure form one year             the employee during the months she was found
at all, despite repeated reminders to do so.              to have used the SEC business shuttle to com-
Finally, we determined that the employee im-              mute to and from work. Finally, during the
properly used SEC resources and official time             course of this inquiry, the OIG contacted and
in support of his outside employment.                     obtained pertinent information from the SEC
                                                          Telework Officer, other OHR officials, and an
    On August 4, 2011, the OIG issued a                   official from the U.S. Department of Transpor-
memorandum report, summarizing the results                tation, which operates the SEC’s transit benefit
of its inquiry and referring the matter to                program.
management for disciplinary action against the
employee. As of the end of the reporting                      The OIG inquiry found that the employee
period, no action had yet been taken by                   violated the SEC’s business shuttle policy when
management with respect to the OIG’s                      she regularly used the shuttle for commuting
recommendation.                                           purposes for a period of seven months. Addi-
                                                          tionally, we found that during this same time
   Misuse of SEC Business Shuttle and                     period, she collected transit benefits purport-
   Transit Benefits (PI 11-28)                            edly for the same commute.
    The OIG opened this inquiry after receiv-                 On September 28, 2011, the OIG issued a
ing e-mails and other documentation from the              memorandum report, summarizing the results
Office of Human Resources (OHR) revealing                 of its inquiry and referring the matter to
that a headquarters employee may have im-                 management for consideration of disciplinary
properly used the SEC business shuttle that               or other management-based action against the
runs between the SEC Operations Center lo-                employee. We also recommended that the em-
cated in Alexandria, Virginia, and SEC Station            ployee reimburse the SEC for the value of the
Place headquarters in Washington, D.C., to                total number of round trip commuter train
commute to and from work. Additionally,                   fares for the days on which she was subsidized
OHR advised the OIG that during the months                to commute, but instead used the SEC business
the employee may have improperly used the                 shuttle. Further, the OIG recommended that
SEC shuttle for commuting purposes, she may               the employee’s transit subsidies be scrutinized
have also improperly collected her full month’s           to ensure that she is receiving an appropriate
transportation subsidy from the agency.                   subsidy based upon the number of times she
                                                          commutes to and from Station Place during the
    During this inquiry, the OIG took the                 benefit period using public transportation.
sworn, on-the-record testimony of the em-
ployee and obtained and searched her SEC                      Because the OIG’s memorandum report
e-mails for a nine-month period. Additionally,            was issued just prior to the end of the semian-
we obtained the employee’s telework agreement             nual reporting period, management had not yet
and amendments thereto, as well as her time               taken action with respect to the OIG’s recom-
and attendance records for the relevant period.           mendations.
We examined records reflecting the employee’s
entries to the Operations Center parking lot for



                                                    83

   Misuse of Agency Resources and                         testified in the OIG’s investigation and admit-
   Official Time for a Private Business                   ted violating SEC policies and rules, she de-
   (PI 10-58)                                             cided to resign from the agency. Therefore, the
                                                          OIG closed this inquiry on August 4, 2011,
     The OIG opened this inquiry after receiv-
                                                          without making any recommendations.
ing an anonymous complaint to the OIG
complaint hotline, which alleged that a former
                                                             Allegations of Misconduct by a
manager in one SEC regional office, who had                  Regional Office in an Enforcement
transferred to an attorney position in another               Investigation (PI 10-19)
SEC regional office, had improperly used her
supervisory position to arrange “extensive                     The OIG opened an inquiry as a result of a
trips” to the location of the second regional             complaint dated May 29, 2010, from a regional
office to pursue job opportunities and housing.           office staff member, which alleged that En-
The OIG also investigated whether the em-                 forcement staff had made several misrepresen-
ployee used government resources and official             tations to the Commission in an Action Memo-
time in support of a private business.                    randum regarding its recommendation to file
                                                          an action against a former officer of a public
    During its inquiry, the OIG took the sworn,           company. Specifically, the complainant alleged
on-the-record testimony of the employee who               that certain sections of the Action Memoran-
was the subject of the complaint. We also ob-             dum detailing the public company’s misstated
tained and searched the employee’s e-mails for            income contained false and inaccurate infor-
more than a two-year period and carefully re-             mation. Additionally, the complainant subse-
viewed several hundred of these e-mails and               quently asserted that the statement in the Ac-
attachments. Additionally, we obtained and                tion Memorandum that the staff was in the
examined the employee’s official travel records,          process of reviewing certain documentary evi-
time and attendance records, and personnel                dence was false because no one on the staff
records for the relevant time periods. Finally,           reviewed those documents.
the OIG obtained records pertaining to train-
ing the employee completed relating to the use                 To inquire into the allegations in the
of SEC IT resources.                                      complaint, the OIG took the sworn, on-the-
                                                          record testimony of four regional office staff
     The evidence reviewed in this inquiry re-            members, including the complainant and
vealed that the employee violated Commission              members of senior management. In addition,
policy and rules regarding the use of SEC                 the OIG interviewed two other regional office
resources and official time. Specifically, we             staff members. The OIG also reviewed e-mails
found that the employee used her SEC com-                 for the relevant time period and documents
puter and e-mail to conduct a private, for-profit         produced by the regional office and the com-
music business, despite having repeatedly re-             plainant related to the investigation of the
ceived training that instructed her not to use            public company.
SEC resources for unauthorized purposes, in-
cluding private businesses. We did not substan-               The OIG inquiry did not find sufficient
tiate the original complaint that the employee            evidence to substantiate the allegations made
misused her position to arrange inappropriate             by the complainant. Specifically, after ques-
travel to pursue job opportunities and housing.           tioning several witnesses and reviewing and
                                                          analyzing numerous relevant records, including
    The OIG would have referred this matter               a draft of the Action Memorandum and source
for appropriate disciplinary action based upon            documents, the OIG did not find evidence that
the employee’s misuse of government resources             the Action Memorandum contained false infor-
and official time. However, after the employee            mation as to the amount of the company’s mis-


                                                    84

stated income. We also found evidence that a               quested from, and withheld by, those firms.
regional office staff member had, in fact, re-             The OIG found that, under those circum-
viewed the documents referenced in the Action              stances, it was not improper for the SEC Ex-
Memorandum. On July 18, 2011, the OIG                      amination staff to contact the firms’ customers
issued its memorandum report in this matter,               to obtain the information.
which described in detail the results of the
inquiry, to management for informational                        In addition, the OIG inquiry did not find
purposes.                                                  sufficient evidence substantiating the claim that
                                                           the examiner told any of the customers he con-
   Allegations of Misconduct by an                         tacted that the transfer agents were doing any-
   Examiner in a Regional Office                           thing illegal. Finally, the OIG did not find suf-
   (PI 11-23)                                              ficient evidence to substantiate the claim of
                                                           preferential treatment by the regional office to
     The OIG opened this inquiry as a result of
                                                           another transfer agent. On September 19,
a complaint dated February 22, 2011, from an
                                                           2011, the OIG issued its memorandum report,
officer of two registered transfer agents. The
                                                           which discussed in detail the OIG’s findings, to
complainant alleged that an SEC regional of-
                                                           management for informational purposes.
fice examiner had engaged in “abusive tactics”
while conducting examinations of the com-
                                                              Allegation of Possible Failure to
plainant’s firms.                                             Report Revenue on Financial
                                                              Disclosure Form by Senior Officer
     More specifically, the complainant alleged               (PI 11-01)
that during the course of the examinations of
his firms, the examiner had: (1) called all of his             The OIG opened this preliminary inquiry
clients and informed them he was “under fed-               on October 19, 2010, after receiving an
eral investigation;” (2) made on-site, unan-               anonymous complaint, alleging that an SEC
nounced visits to some of his customers, “solic-           senior officer may have failed to report certain
iting complaints and attempting to put words in            income related to the operations of a business
[their] mouth[s];” and (3) told his former cus-            in which he held an ownership interest, as re-
tomers that he was engaging in “illegal activi-            quired by the federal financial disclosure laws.
ties.” He also claimed that the examiner had               The anonymous complaint was triggered by a
given preferential treatment to a competing                press article that stated that the senior officer
transfer agent.                                            had received a large amount of farm subsidies
                                                           over a period spanning several years.
    To inquire into the claims raised in the
complaint, the OIG took the sworn, on-the-                     In conducting this inquiry, the OIG took
record testimony of three members of the re-               the sworn, on-the-record testimony of the sen-
gional office Examination staff. Additionally,             ior officer. The OIG also obtained and re-
the OIG interviewed the complainant and his                viewed the senior officer’s public financial dis-
wife, who was the President of his firms, as well          closure reports and compared them to the
as a former customer of the complainant’s                  holdings and transactions he had reported in
firms. The OIG also obtained and reviewed                  the agency’s financial reporting tracking sys-
relevant examination documents and personnel               tem, the Ethics Program System. In addition,
records.                                                   the OIG consulted with the SEC’s Ethics
                                                           Counsel about the requirements for reporting
    The OIG inquiry found that the SEC ex-                 certain types of income and her communica-
amination staff had contacted customers of the             tions with the senior officer about his income
complainant’s transfer agent firms in an effort            from the business in question.
to obtain information that had first been re-


                                                     85

     The OIG inquiry found that the senior                 regard to the supervisor, the OIG’s search of
officer properly filed the required new entrant            the supervisor’s e-mails revealed no evidence
public financial disclosure report after he joined         that he was pursuing a Master’s Degree. Our
the SEC. That report required the senior                   review of information concerning the supervi-
officer to disclose his financial holdings and             sor’s background revealed that he had already
sources of income for the previous 12 months.              received a Master’s Degree several years earlier.
The OIG found that the senior officer disclosed            Therefore, the OIG closed this preliminary
his ownership interests in the business refer-             inquiry on June 14, 2011.
enced in the press article. The OIG further
found no evidence that the senior officer had                 Complaint of Failure to Investigate
received income based on his ownership                        Aggressively and Appearance of
interest in that business during the relevant                 Impropriety (PI 09-107)
reporting period.
                                                                The OIG performed a preliminary inquiry
    Accordingly, the OIG inquiry did not sub-              into numerous allegations made by a com-
stantiate the allegation that the senior officer           plainant arising from his purchase of a certain
had failed to properly report certain income on            type of securities. The complaint alleged,
                                                           among other things, that (1) the SEC had
his public financial disclosure report. There-
fore, on September 1, 2011, the OIG issued its             changed its course of action and stopped
memorandum report, describing the results of               aggressively pursuing an investigation relating
the inquiry, to management for informational               to the issuance and sale of the securities in
purposes.                                                  question after the appointment of a senior En-
                                                           forcement official who had previously worked
                                                           for one of the parties involved; (2) this senior
   Allegations of Waste and Fraud by
   Headquarters Employees (PI 09-115)                      official’s appointment created an appearance of
                                                           impropriety; and (3) the SEC had failed to re-
     The OIG conducted an inquiry into an                  spond to the complainant’s submission of his
anonymous complaint containing two separate                resume to Enforcement in apparent retaliation
allegations of waste within an SEC headquar-               to his objections to the appointment of the
ters office. First, the complaint alleged that one         senior official.
staff member had not been at work in over a
year, was attending college in another state, and               During the inquiry, the OIG reviewed nu-
her managers were pretending she was working               merous materials provided by the complainant,
from home. Second, the complaint alleged that              as well as pertinent court filings, information
a supervisor was rumored to be getting a Mas-              obtained from internal databases, and other
ter’s Degree, while pretending to work from                materials. The OIG also interviewed four SEC
home.                                                      staff members with relevant knowledge.

    To inquire into the allegations in the                      The OIG inquiry revealed that Enforce-
complaint, the OIG obtained and received in-               ment had previously reviewed and considered
formation concerning the employee’s SEC                    complaints received concerning the securities
employment history and background informa-                 the complainant had purchased. Specifically, a
tion on the supervisor’s employment and edu-               senior Enforcement attorney stated that she
cation. The OIG also reviewed the supervisor’s             had numerous lengthy conversations with the
e-mails for a nine-month period.                           complainant. The evidence showed that En-
                                                           forcement had devoted a significant amount of
   The OIG’s inquiry found that the employee               staff time to reviewing the complainant’s 

who was alleged to be going to college in an-              allegations, but had decided not to pursue his

other state was no longer employed by the                  claims, in part due to the private nature of the

agency, having separated in mid-2009. With                 claims. Our inquiry did not find evidence that


                                                     86

the senior Enforcement official identified in the                 The OIG also reviewed the complainant’s
complaint was involved in the decision not to                 claims of ineffectiveness and incompetence
pursue the complainant’s allegations or in the                within OCIE and found no allegations of
SEC’s investigations and proceedings related to               specific misconduct on the part of any OCIE
this matter. Finally, we concluded that the                   employees or contractors. Accordingly, we
SEC’s failure to respond to the complainant’s                 referred the claims of ineffectiveness and in-
submission of his resume as a general request                 competence to the OIG’s Office of Audits for
to be part of the Enforcement staff did not it-               consideration of potential audit issues and
self evidence retaliation for his objections to               closed this inquiry on June 14, 2011.
the senior official’s appointment. Therefore,
the OIG closed this preliminary inquiry on
August 10, 2011.                                              SENTENCING ARISING OUT OF
                                                              PREVIOUS OIG INVESTIGATION
   Complaint of Ineffective
   Performance within the Office of                                An investigation conducted by the OIG
   Compliance Inspections and                                 during a prior reporting period (OIG-493) had
   Examinations (PI 10-25)                                    found evidence that an employee had inten-
                                                              tionally falsified her employment application
    The OIG reviewed a letter from a former                   and supporting documents submitted to the
SEC examiner that was forwarded by the                        SEC concerning her position and grade at
Honorable Mark Warner, U.S. Senator (D-                       another federal agency.  During the OIG’s in-
Virginia). The letter contained allegations                   vestigation, the employee admitted falsifying
about ineffectiveness and incompetence within                 this data because she did not believe she would
the SEC’s Office of Compliance Inspections                    qualify for the position at the SEC based upon
and Examinations (OCIE). In the letter, the                   her actual information.  Because the employee
former examiner also sought assistance with                   admitted to committing serious criminal of-
her personal employment issues, claiming that                 fenses, the OIG had referred the matter to the
her termination from OCIE was discriminatory                  Public Integrity Section of the Criminal Divi-
and retaliatory.                                              sion of the U.S. DOJ for consideration of
                                                              prosecution. 
     To inquire into the issues raised in the letter,
the OIG obtained information from the SEC’s                        Based upon the OIG’s referral, the em-
OGC pertaining to claims the complainant had                  ployee was indicted in the United States Dis-
filed with the Merit Systems Protection Board                 trict Court for the Eastern District of Virginia
(MSPB) and the SEC’s Office of Equal Employ                   on four counts of making false statements,
ment Opportunity. We found that the both the                  three counts of submitting false documents,
MSPB and the Equal Employment Opportu-                        and one count of engaging in a concealment
nity Commission’s Office of Federal Opera-                    scheme.  The SEC OIG and the Federal Bu-
tions (OFO) had upheld the agency’s decision                  reau of Investigation’s Washington Field Office
to terminate the complainant’s employment,                    investigated the case, which was prosecuted by
finding no evidence of discrimination or re-                  the DOJ Criminal Division’s Public Integrity
taliation on the SEC’s part. We also noted that               Section and the U.S. Attorney’s Office for the
the complainant had an additional appeal                      Eastern District of Virginia.
pending with OFO and that the complainant
had ample opportunity to present her argu-                        During this semiannual reporting period,
ments of discrimination and retaliation before                on July 29, 2011, the defendant pled guilty to
the agencies and offices with primary jurisdic-               Count 1 of the indictment, which charged her
tion over such matters.                                       with engaging in a fraudulent scheme to con-
                                                              ceal material information concerning her
                                                              criminal history, employment history, and suit-
                                                        87

ability for employment with the federal                    of over 500,000 e-mails. The OIG took the
government.  According to the judgment en-                 sworn testimony of 11 current or former SEC
tered by the court, the defendant was sentenced            employees with knowledge of the relevant facts.
to three years of probation and was required to            In addition, the OIG interviewed 12 current or
pay a special assessment.                                  former SEC employees and one other individ-
                                                           ual. The OIG further reviewed Enforcement
                                                           database records for numerous MUIs. Finally,
PENDING INVESTIGATIONS                                     the OIG sought and received a written opinion
                                                           from NARA on several issues relating to MUI
Allegations of Improper Document                           documents and the SEC’s response to NARA,
Destruction (Case No. OIG-567)                             and we have been in communication with
                                                           NARA officials on an ongoing basis during the
    During this reporting period, the OIG
                                                           course of the investigation.
opened an investigation into allegations that
Enforcement has improperly destroyed records                   The OIG plans to complete its investigative
relating to Matters Under Inquiry (MUIs) over              work and issue its report of investigation early
the past two decades, and that the SEC made                in the next semiannual reporting period.
misleading statements in a response sent to the
National Archives and Records Administration
                                                           Allegations of Misconduct by a Senior
(NARA) concerning the SEC’s potential unau-                Official (Case No. OIG-564)
thorized destruction of MUI records. After we
opened this investigation, it was further alleged              During the reporting period, the OIG
that the SEC does not have authority to destroy            commenced an investigation into allegations
three categories of documents that are cur-                that a former senior Enforcement official may
rently not scheduled with NARA: (1) docu-                  have played an improper role in the decision
ments produced by third parties; (2) internal              not to recommend an enforcement action
work product; and (3) internal e-mails.                    against a financial institution shortly before
                                                           leaving the SEC for employment with that
    In particular, the OIG is investigating the            financial institution.
significance of, and the reasons for, the previous
Enforcement policy to dispose of all documents                 Specifically, the OIG is investigating
relating to MUIs that were closed without be-              whether Enforcement previously decided to
coming investigations. The OIG is also investi-            close an investigation of the financial institu-
gating the impact of this policy on particular             tion, without recommending action against that
MUIs that were closed without being converted              entity, because the senior Enforcement official
to Enforcement investigations. The OIG is                  was pursuing an employment opportunity with
further investigating the circumstances sur-               that financial institution. The OIG is also in-
rounding the drafting of the SEC’s response to             vestigating whether there was any relationship
NARA, and whether this response was                        or quid pro quo between Enforcement’s decision
complete and in compliance with federal                    to close the investigation of the financial institu-
regulations.                                               tion and the senior Enforcement official’s sub-
                                                           sequent employment by the financial institu-
    During this reporting period, the OIG                  tion.
requested and reviewed numerous documents
provided by Enforcement and the SEC’s Office                   In the course of this investigation, the OIG
of Records Management Services. The OIG                    obtained and searched over 200,000 e-mails of
also obtained and searched the e-mails of six              15 current or former SEC employees for the
current or former SEC employees for the rele-              relevant time period. The OIG also took the
vant period of time, which amounted to a total             sworn testimony of four current SEC employ-


                                                     88

ees. The OIG further conducted interviews of              pleadings filed in the underlying case, and con-
four former SEC employees. In addition, the               ducting additional interviews of the confiden-
OIG reviewed documents produced by SEC                    tial complainants and the court-appointed
staff related to the Enforcement investigations           receiver.  The OIG intends to conclude its
and MUIs of the financial institution, as well as         investigative work and issue its report of inves-
Enforcement database records.                             tigation in the next semiannual reporting pe-
                                                          riod.
    The OIG plans to complete its investigative
work and issue its report of investigation during         Allegations Regarding Court-Appointed
the next semiannual reporting period.                     Receiver (Case No. OIG-565)

Allegation of Favorable Treatment                             The OIG has received correspondence
Provided by Regional Office to                            from various parties regarding the court-
Prominent Law Firm (Case No. OIG-536)                     appointed receiver in the SEC’s action against
                                                          Robert Allen Stanford, as well as entities and
    The OIG is nearing the completion of its              individuals involved in his alleged Ponzi
investigation of a complaint that regional office         scheme.  During the reporting period, the OIG
attorneys provided favorable treatment to a               opened an investigation in response to this
prominent law firm by failing to properly inves-          correspondence.  The issues raised in the vari-
tigate that firm for its alleged role in computer         ous correspondence we received pertain to
tampering, and the potential cover-up of that             value added by the Stanford receiver to the re-
computer tampering, in connection with an                 ceivership estate, the timing of distributions
ongoing SEC enforcement action involving a                from the receivership estate to investors, and
fraudulent scheme.  The complainants alleged              the compensation received by the receiver and
that a computer firm recommended and hired                the professionals he has retained to assist him. 
by the prominent law firm, which was repre-               The OIG’s investigation will focus on issues
senting the wife of the accused fraudster, had            related to the receiver and related SEC
significantly tampered with computers seized              oversight that fall within the OIG’s
by the court-appointed receiver in the case               jurisdiction. 
from the accused fraudster.  The complainants
further alleged that regional office staff im-                The OIG collected approximately 70,000
properly provided nonpublic information                   e-mails of certain current and former SEC
related to this matter to the law firm.                   employees with knowledge of the relevant facts
                                                          and began to search for and analyze pertinent
    In addition, the complainants claimed that            e-mails and attachments.  The OIG also con-
the regional office staff and officials likely            ducted research of the applicable statutes and
“backed off ” from investigating or pursuing the          regulations. 
law firm for any alleged role in the computer
tampering, and alleged cover-up of that tam-                  In the next semiannual reporting period,
pering, because of the existing revolving door            the OIG will continue its e-mail review and will
between the regional office and the law firm.             request and search the e-mails of additional
The complainants also specifically asserted that          witnesses identified during the course of the
a now former regional office official, who was            investigation.  The OIG will also interview
allegedly planning to retire in the near future,          and/or take the sworn testimony of individuals
had sought employment from this law firm.                 who have knowledge of the relevant facts and
                                                          circumstances.  The OIG plans to complete its
    During this reporting period, the OIG                 investigation and issue a report of its findings
performed further investigative work, including           prior to the end of the next reporting period.
obtaining documentary evidence, reviewing


                                                    89

Investigation of Forgery, False                            dance records; relevant travel records, including
Statements, and Fraud                                      pertinent travel compensatory worksheets;
(Case No. OIG-563)                                         building entry records for eight regional office
                                                           employees; the official personnel files of several
      During the reporting period, the OIG
                                                           regional office employees; and records pertain-
commenced an investigation upon receiving
                                                           ing to prior OIG inquiries or investigations
information that a headquarters employee ap-
                                                           related to the regional office.  The OIG also
peared to have forged her supervisor’s signature
                                                           obtained and searched over 350,000 e-mails of
on a letter containing false statements. There-
                                                           five staff members for the relevant time
after, the OIG expanded the scope of the inves-
                                                           periods.
tigation to determine whether the employee
had provided false information to obtain bene-                 The OIG intends to finalize the investi-
fits to which she was not entitled. The OIG is             gation and issue its report of investigation dur-
also investigating whether this employee and               ing the next semiannual reporting period.
another headquarters employee submitted false
claims to a federal program.
                                                           Complaint of Mismanagement and
                                                           Inappropriate Use of Government
    During the reporting period, the SEC OIG               Funds (Case No. OIG-557)
obtained and searched the e-mails of five SEC
employees for pertinent time periods ranging                    During the previous semiannual reporting
from 2006 to 2011. The SEC OIG also took                   period, the OIG opened an investigation into
the sworn, on-the-record testimony of four                 anonymous allegations involving the misman-
SEC staff members and interviewed another                  agement of a computer lab and the related
SEC employee. The SEC OIG plans to com-                    waste of government funds.  Specifically, the
plete its investigative work during the next               anonymous complaint alleged that SEC em-
semiannual reporting period.                               ployees have inappropriately used government
                                                           funds for training purposes without filing requi-
Allegations of Misconduct, Time                            site training forms, and have inappropriately
and Attendance Abuse, and Ethics                           allocated and spent significant budget dollars
Violations at a Regional Office                            for purchasing computer equipment for the lab
(Case No. OIG-562)                                         without proper justification or planning. 
   During the reporting period, the OIG
                                                               The complaint also alleged that employees
opened an investigation into allegations that
                                                           who work in the lab do not follow IT security
numerous regional office staff members en-
gaged in various forms of time and attendance              policies, use unencrypted laptops during inspec-
                                                           tions, and have unrestricted access to the
abuse, violations of ethics regulation, and other
                                                           Internet.  The complaint further included
misconduct. 
                                                           allegations regarding improper hiring proce-
                                                           dures, abuse of authority, and waste of SEC
     In the course of this investigation, the OIG
                                                           resources.
carefully reviewed and analyzed the complaints
we received.  The OIG also researched the ap-
                                                               During the reporting period, the OIG con-
plicable statutes, rules, and regulations.  In ad-
                                                           ducted on-the-record testimony of one former
dition, the OIG took the sworn, on-the-record
                                                           SEC employee who was familiar with the lab. 
testimony of 23 current SEC employees and
                                                           The OIG also reviewed information provided
conducted interviews of other staff members
                                                           by other SEC employees who had knowledge of
with knowledge relevant to the investigation. 
                                                           the facts and circumstances surrounding the
    Further, the OIG reviewed numerous re-                 lab’s activities.
gional office staff members’ time and atten-

                                                     90

    The OIG plans to conduct further on-the-                  During the reporting period, the OIG
record testimony of individuals with relevant            performed additional work to further assess the
knowledge, obtain e-mails of individuals asso-           facts and circumstances related to the procure-
ciated with the lab, and request additional              ment in question.  Specifically, the OIG con-
documents pertaining to the lab.  The OIG                sulted with the General Services Administra-
intends to complete its investigative work and           tion (GSA) to obtain a better understanding of
issue a report detailing its findings during the         the laws, rules, and regulations applicable to
next reporting period.                                   this type of procurement.  We then conducted
                                                         additional research into the governing laws,
Allegation of Procurement Violations                     rules, and regulations.
(Case No. OIG-556)
                                                             In light of the information provided by
     The OIG has substantially completed its             GSA and the further research conducted, the
investigation of an anonymous complaint alleg-           OIG took additional sworn, on-the-record tes-
ing that the SEC procured an unnecessary                 timony of two individuals with knowledge of
assessment.  The anonymous complaint further             the facts and circumstances surrounding the
alleged that the SEC inappropriately awarded             procurement.  The OIG intends to issue its
the contract for the assessment to a firm that           report of investigation in the next semiannual
the OIG previously found had conveyed mate-              reporting period.surrounding the allegations
rial benefits to SEC Office of Administrative            and complete its investigation during the next
Services employees.                                      reporting period.




                                                   91

92
U.S. Securities and Exchange Commission

                                                                      SEMIANNUAL
                                                                      REPORT TO
                                                                      CONGRESS
                                                Ofﬁce of
                                               Inspector
                                                General




                                          REVIEW OF LEGISLATION
                                          AND REGULATIONS
                                               During the semiannual reporting period,             Minerals, 75 Fed. Reg. 80948 (December 23,
                                          the OIG reviewed legislation and proposed and            2010). In order to assess the adequacy of the
                                          final rules and regulations relating to the pro-         economic analyses performed by the SEC in
                                          grams and operations of the SEC, pursuant to             connection with each of these rulemakings, the
                                          Section 4(a)(2) of the Inspector General Act of          OIG reviewed and analyzed the relevant re-
                                          1978, as amended.                                        quirements of the Paperwork Reduction Act,
                                                                                                   44 U.S.C. § 3501 et seq., the Regulatory Flexi-
                                              In particular, in response to a request from         bility Act, 5 U.S.C. § 601 et seq., the National
                                          several members of the U.S. Senate Committee             Securities Markets Improvement Act of 1996
                                          on Banking, Housing, and Urban Affairs, the              (which amended the Securities Act of 1933,
                                          OIG reviewed the economic analyses                       the Securities Exchange Act of 1934, the In-
                                          performed by the SEC in connection with                  vestment Advisers Act of 1940, and the In-
                                          rulemaking initiatives undertaken pursuant to            vestment Company Act of 1940); Executive
                                          the Dodd-Frank Act and issued a preliminary              Order 12866, Regulatory Planning and
                                          report on June 13, 2011. Specifically, the               Review, 58 Fed. Reg. 51735 (October 4, 1993);
                                          OIG’s review focused on the cost-benefit                 Executive Order 13563, Improving Regulation
                                          analyses prepared by the SEC for the following           and Regulatory Review, 76 Fed. Reg. 3821
                                          six Dodd-Frank Act regulatory initiatives:               (January 18, 2011); and Office of Management
                                          Credit Risk Retention, 76 Fed. Reg. 24090                and Budget Circular A-4, Regulatory Analysis
                                          (April 29, 2011); Clearing Agency Standards              (September 17, 2003).
                                          for Operation and Governance, 76 Fed. Reg.
                                          14472 (March 16, 2011); Registration and                      While the OIG’s review concluded overall
                                          Regulation of Security-Based Swap Execution              that the economic analyses conducted for the
                                          Facilities, 76 Fed. Reg. 10948 (February 28,             six rulemaking initiatives examined were thor-
                                          2011); Reporting by Investment Advisers to               ough and incorporated the principles of the
                                          Private Funds and Certain Commodity Pool                 applicable Executive Orders, the OIG identi-
                                          Operators and Commodity Trading Advisors                 fied certain areas that warranted further OIG
                                          on Form PF, 76 Fed. Reg. 8068 (February 11,              review. These areas included, among others,
                                          2011); Registration of Municipal Advisors, 76            the level of the involvement of the Division of
                                          Fed. Reg. 824 (January 6, 2011); and Conflict            Risk, Strategy, and Financial Innovation in

                                                                                             93

rulemaking initiatives. The OIG began to                 (OHR) provide comprehensive telework train-
conduct a further review of the SEC’s                    ing sessions to SEC employees and managers
economic analyses during the reporting period.           and require training and recertification for tele-
During this second phase of its review, the OIG          workers and their managers at least every two
began to examine the following five Dodd-                years.
Frank Act rulemaking initiatives to determine
whether the SEC consistently and systemati-                   In its Audit of SEC’s Employee Recognition
cally prepared cost-benefits analyses: Share-            Program and Recruitment, Relocation, and Retention
holder Approval of Executive Compensation                Incentives (Report No. 492), the OIG reviewed 5
and Golden Parachute Compensation, 76 Fed.               C.F.R. § 575.110, which sets forth the require-
Reg. 6010 (February 2, 2011); Disclosure for             ments for written service agreements that must
Asset-Backed Securities Required by Section              be executed before paying a recruitment incen-
943 of the Dodd-Frank Act, 76 Fed. Reg. 4489             tive. The OIG found that the service agree-
(January 26, 2011); Issuer Review of Assets in           ment form used by the SEC, SEC Form 2299,
Offerings of Asset-Backed Securities, 76 Fed.            Securities and Exchange Commission Re-
Reg. 4231 (January 25, 2011); Reporting of               cruitment Bonus Service Agreement (revised
Security-Based Swap Transaction Data, 75                 May 2003) did not fully address Section
Fed. Reg. 64643 (October 20, 2010); and Regu-            575.110’s requirements, as the form did not
lation SBSR – Reporting and Dissemination of             fully state the conditions under which the
Security-Based Swap Information, 75 Fed. Reg.            agency may terminate the service agreement
75208 (December 2, 2010). The OIG’s review               before the employee completes the agreed-
is assessing whether the cost-benefits analyses          upon service period. The OIG recommended
conducted for these five rulemakings met the             that OHR revise Form 2299 to incorporate
applicable statutory and regulatory require-             specific reasons that the SEC may and must
ments and this assessment will be completed              terminate service agreements for recruitment
during the next semiannual reporting period.             and relocation bonuses. The OIG’s audit also
                                                         reviewed OHR’s policies and procedures for its
    The OIG also reviewed statutes, rules, and           awards program that are contained in Chapter
regulations, and their impact on Commission              451.A of the Personnel Operating Policies and
programs and operations, within the context of           Procedures (POPPS) Manual, entitled, “Em-
other reviews, audits, and investigations con-           ployee Recognition Program.” The OIG
ducted during the reporting period, as well as           found that much of this guidance was outdated
in reviewing suggestions received through the            and was not available electronically on the
OIG’s SEC Employee Suggestion Program.                   SEC’s intranet and recommended that OHR
For example, in the OIG’s Review of Alternative          finalize revised policies and procedures for the
Work Arrangements, Overtime Compensation, and            Employee Recognition Program within three
COOP-Related Activities at the SEC (Report No.           months and publish them on the SEC’s intra-
491), the OIG reviewed legislation focusing on           net site.
telework by federal employees, including the
requirements of the Telework Enhancement                     Further, in its review entitled Oversight of and
Act of 2010, Public Law 111-292, enacted on              Compliance with Conditions and Representations
December 9, 2010, which required, among                  Related to Exemptive Orders and No-Action Letters
other things, that agency employees successfully         (Report No. 482), the OIG reviewed the SEC’s
complete an interactive telework training                statutory authority to provide exemptive relief
program prior to entering into a written tele-           contained in Section 28 of the Securities Act of
work agreement. In its report, the OIG made              1933, Sections 12(h) and 36 of the Securities
recommendations designed to ensure that the              Exchange Act of 1934, Section 6(c) of the In-
SEC fully complies with the Act’s requirements,          vestment Company Act of 1940, and Section
including that the Office of Human Resources             206A of the Investment Advisers Act of 1940.

                                                   94

In its Review of SEC Contracts for Inclusion of Lan-          provide protection to customers of bankrupt or
guage Addressing Privacy Act Requirements (Report             finically-troubled brokerage firms. In particu-
No. 496), the OIG reviewed the requirement of                 lar, the OIG reviewed the provisions pertaining
Privacy Act of 1974 found at 5 U.S.C. §                       to liquidation proceedings under SIPA, and the
552a(m)(1), providing that when an agency con-                powers and duties of a trustee appointed under
tracts for the operation of a system of records               SIPA. See 15 U.S.C. §§ 78fff through 78fff-4.
to accomplish an agency function, the agency
must include in the contract a requirement that                   Finally, in response to a suggestion received
the contractor comply with the Privacy Act.                   through the OIG’s SEC Employee Suggestion
The OIG’s assessment found that the applica-                  Program established pursuant to Section 966 of
ble language in the SEC’s contracts could be                  the Dodd-Frank Act, the OIG reviewed Rule
strengthened and recommended that appropri-                   203.8 of the SEC’s Rules Relating to Investi-
ate language be added to new service contracts                gations, 17 C.F.R. § 203.8, which provides that
that require the handling of personally identifi-             service of subpoenas issued in formal investiga-
able information.                                             tive proceedings be effected in accordance with
                                                              Rule 232(c) of the SEC’s Rules of Practice.
    In addition, in its report entitled Investigation         The OIG also reviewed Rule 232(c) of the
of Conflict of Interest Arising from Former General           SEC’s Rules of Practice, 17 C.F.R. §
Counsel’s Participation in Madoff-Related Matters             201.232(c), which requires that subpoenas be
(Report No. OIG-560), the OIG reviewed and                    served in the manner prescribed by 17 C.F.R.
analyzed 18 U.S.C. § 208, Acts affecting a per-               §§ 201.150 (b) through (d), authorizing delivery
sonal financial interest, as well as the Office of            by personal service, U.S. mail, express delivery
Government Ethics regulations pertaining to                   service, or facsimile if certain conditions are
Conflicting Financial Interests, 5 C.F.R. Part                met. The suggestion received by the OIG was
2635, Subpart D, and Impartiality in Perform-                 that the Rules of Practice be revised to allow
ing Official Duties, 5 C.F.R. Part 2635, Subpart              for the service of subpoenas via e-mail. Based
E. The OIG consulted with the Office of                       upon this suggestion, the OIG recommended
Government Ethics with respect to the appli-                  that Enforcement determine if revising the
cation of these provisions to the specific facts              Rules of Practice to allow for service of sub-
uncovered during the OIG’s investigation. In                  poenas by e-mail would be beneficial. En-
conducting its investigation, the OIG also re-                forcement is working with OGC to prepare a
viewed and analyzed various provisions of the                 recommendation to the Commission that, if
Securities Investor Protection Act of 1970                    approved, would amend the Rules of Practice
(SIPA), 15 U.S.C. § 78aaa et seq., which, among               and/or the Rules Relating to Investigations to
other things, created the Securities Investor                 permit the service of investigative subpoenas by
Protection Corporation (SIPC) and required                    e-mail.
SIPC to establish a reserve fund that would




                                                        95

96
U.S. Securities and Exchange Commission

                                                             SEMIANNUAL
                                                             REPORT TO
                                                             CONGRESS
                                             Ofﬁce of
                                            Inspector
                                             General




                                                        STATUS OF RECOMMENDATIONS WITH
                                                            NO MANAGEMENT DECISIONS
                                           Management decisions have been made on all audit reports issued
                                                   before the beginning of this reporting period.

                                                         REVISED MANAGEMENT DECISIONS
                                                No management decisions were revised during the period.

                                            AGREEMENT WITH SIGNIFICANT MANAGEMENT DECISIONS
                                          The Office of Inspector General agrees with all significant management
                                                       decisions regarding audit recommendations.

                                                 INSTANCES WHERE INFORMATION WAS REFUSED

                                                        During this reporting period, there were no
                                                        instances where information was refused.




                                                                            97

98
Table 1
List of Reports: Audits and Evaluations
 Report                                                                    Date
                                      Title
 Number                                                                   Issued

                  Oversight of and Compliance with Conditions
  482           and Representations Related to Exemptive Orders          6/29/2011
                             and No-Action Letters

                   Review of Alternative Work Arrangements,
  491             Overtime Compensation, and COOP-Related                9/28/2011
                             Activities at the SEC

                 Audit of SEC’s Employee Recognition Program
  492                   and Recruitment, Relocation, and                 8/2/2011
                              Retention Incentives

          Review of SEC Contracts for Inclusion of Language Addressing
  496                                                                    7/18/2011
                          Privacy Act Requirements


  497         Assessment of SEC’s Continuous Monitoring Program          8/11/2011


                 Assessment of the Office of Investor Education
  498                                                                    9/30/2011
                         and Advocacy’s Functions

            Report of Review of Economic Analyses Performed by the
   --       Securities and Exchange Commission in Connection with        6/13/2011
                          Dodd-Frank Act Rulemakings


   --      Establishment of the Office of Minority and Women Inclusion   6/15/2011




                                       99

100
Table 2
Reports Issued with Costs Questioned
or Funds Put to Better Use
(Including Disallowed Costs)

                                                                 Number of
                                                                                 Value
                                                                  Reports
A. REPORTS ISSUED PRIOR TO THIS PERIOD

  For which no management decision had been made on any issue
     at the commencement of the reporting period                     3         $1,345,367.00

  For which some decisions had been made on some issues at the
     commencement of the reporting period                            0                   $0


B. REPORTS ISSUED DURING THIS PERIOD                                 7       $556,971,580.24



TOTAL OF CATEGORIES A AND B                                         10       $558,316,947.24


C. For which final management decisions were made during this        5         $1,238,585.00
     period


D. For which no management decisions were made during this           4          $266,773.24
     period


E. For which management decisions were made on some issues           1       $556,811,589.00
     during this period

TOTAL OF CATEGORIES C, D AND E                                      10       $558,316,947.24




                                               101

102
Table 3
Reports with Recommendations on
Which Corrective Action Has Not Been
Completed
               RECOMMENDATIONS OPEN 180 DAYS OR MORE

     Report Number
                               Issue Date           Summary of Recommendation
        and Title
439 - Student Loan Program     3/27/2008    In consultation with the Union, develop a detailed
                                            distribution plan.
446B - SEC’s Oversight of      9/25/2008    Ensure the BDRA system includes financial
Bear Stearns and Related                    information, staff notes, and other written
Entities: Broker-Dealer Risk                documentation and is used to generate
Assessment (BDRA)                           management reports.
Program
456 - Public Transportation    3/27/2009    Implement additional management controls over
Benefit Program                             regional office program operations.
460 - Management and           3/26/2010    Promptly identify all IAAs that have expired but have
Oversight of Interagency                    not been closed, and deobligate any funds that
Acquisition Agreements                      remain on the expired agreements.
(IAAs) at the SEC
                                            Take action to close the IAAs identified for which the
                                            performance period expired and deobligate the $6.9
                                            million in unused funds that remain on the IAAs, in
                                            accordance with the appropriate close-out
                                            procedures.
474 - Assessment of the        3/29/2010    Develop a communication plan to address outreach
SEC’s Bounty Program                        to both the public and SEC personnel regarding the
                                            SEC bounty program, which includes efforts to
                                            make information available on the SEC’s intranet,
                                            enhance information available on the SEC’s public
                                            website, and provide training to employees who are
                                            most likely to deal with whistleblower cases.




                                            103
Report Number
                Issue Date            Summary of Recommendation
   and Title
                             Develop and post to the SEC’s public website an
                             application form that asks whistleblowers to provide
                             information, including, e.g., (1) the facts pertinent to
                             the alleged securities law violation and an
                             explanation as to why the subject(s) violated the
                             securities laws; (2) a list of related supporting
                             documentation available in the whistleblower’s
                             possession and available from other sources; (3) a
                             description of how the whistleblower learned about
                             or obtained the information that supports the claim,
                             including the whistleblower’s relationship to the
                             subject(s); (4) the amount of any monetary rewards
                             obtained by the subject violator(s) (if known) as a
                             result of the securities law violation and how the
                             amount was calculated; and (5) a certification that
                             the application is true, correct, and complete to the
                             best of the whistleblower’s knowledge.
                             Establish policies on when to follow up with
                             whistleblowers who submit applications to clarify
                             information in the bounty applications and obtain
                             readily available supporting documentation prior to
                             making a decision as to whether a whistleblower’s
                             complaint should be further investigated.
                             Develop specific criteria for recommending the
                             award of bounties, including a provision that where
                             a whistleblower relies partially upon public
                             information, such reliance will not preclude the
                             individual from receiving a bounty.
                             Examine ways in which the Commission can
                             increase communications with whistleblowers by
                             notifying them of the status of their bounty requests
                             without releasing nonpublic or confidential
                             information during the course of an investigation or
                             examination.




                             104
     Report Number
                            Issue Date             Summary of Recommendation
        and Title
                                          Develop a plan to incorporate controls for tracking
                                          tips and complaints from whistleblowers seeking
                                          bounties into the development of the tips,
                                          complaints, and referrals processes and systems for
                                          other tips and complaints, which should provide for
                                          the collection of necessary information and require
                                          processes that will help ensure that bounty
                                          applications are reviewed by experienced
                                          Commission staff, decisions whether to pursue
                                          whistleblower information are timely made, and
                                          whistleblowers who provide significant information
                                          leading to a successful action for violation of the
                                          securities laws are rewarded.
                                          Require that a bounty file (hard copy or electronic)
                                          be created for each bounty application, which
                                          should contain at a minimum the bounty application,
                                          any correspondence with the whistleblower,
                                          documentation of how the whistleblower’s
                                          information was utilized, and documentation
                                          regarding significant decisions made with regard to
                                          the whistleblower’s complaint.
                                          Incorporate best practices from the Department of
                                          Justice (DOJ) and the Internal Revenue Service
                                          (IRS) into the SEC bounty program with respect to
                                          bounty applications, analysis of whistleblower
                                          information, tracking of whistleblower complaints,
                                          recordkeeping practices, and continual assessment
                                          of the whistleblower program.
                                          Set a timeframe to finalize new policies and
                                          procedures for the SEC bounty program that
                                          incorporate the best practices from the DOJ and the
                                          IRS, as well as any legislative changes to the
                                          program.
480 - Review of the SEC’s   9/27/2010     Update Form 13F to a more structured format, such
Section 13(f) Reporting                   as Extensible Markup Language (XML), to make it
Requirements                              easier for users and researchers to extract and
                                          analyze Section 13(f) data.
481 - The SEC’s             3/31/2011     Identify and develop a list of all contractors who are
Implementation of and                     employed by the Commission. In addition,
Compliance with Homeland                  coordinate with the Contracting Officer’s Technical
Security Presidential                     Representatives and Inspection and Acceptance
Directive 12 (HSPD-12)                    Officials to implement policies and procedures for
                                          ensuring that the list remains up-to-date.




                                         105
Report Number
                Issue Date            Summary of Recommendation
   and Title
                             Provide a copy of the up-to-date consolidated
                             contractor list on a weekly basis to the Personnel
                             Security Branch.
                             Upon receipt of the up-to-date consolidated
                             contractor list, determine which contractors do not
                             have successfully adjudicated background
                             investigations on record and develop a plan to begin
                             the required background investigations immediately.
                             Upon receipt of the up-to-date consolidated
                             contractor list, ensure that accurate status reporting
                             has been made to the Office of Management and
                             Budget.
                             Discontinue adjudicating all eligibility determinations
                             for access to classified information or holding a
                             sensitive position until the SEC has received an
                             appropriate delegation of authority to conduct such
                             determinations from the Director of National
                             Intelligence (DNI).
                             Identify all eligibility determinations for access to
                             classified information or holding a sensitive position
                             adjudicated by SEC since June 30, 2008, and, upon
                             receipt of authority from the DNI, conduct a quality
                             control assessment to ensure that the
                             determinations were conducted in accordance with
                             the uniform policies and procedures developed by
                             the DNI.
                             Upon receipt of authority from the DNI to make
                             eligibility determinations for access to classified
                             information or holding a sensitive position, use the
                             uniform policies and procedures developed by the
                             DNI when making such determinations.
                             Develop policies and procedures for determining the
                             eligibility of contractors requiring temporary access
                             to SEC’s facilities and information systems.
                             Develop, implement, and post in multiple locations
                             (e.g. agency intranet site, human resource offices,
                             regional offices, contractor orientation, etc.) appeals
                             procedures for individuals who are denied
                             credentials or whose credentials are revoked.
                             Develop internal policies and procedures for
                             suitability determinations for foreign nationals.




                             106
     Report Number
                              Issue Date             Summary of Recommendation
        and Title
                                            Promptly deploy appropriate technology (e.g.,
                                            laptops with internal card readers, keyboards with
                                            card readers, or external card readers) to
                                            employees and contractors who do not have card
                                            readers.
                                            Perform periodic analysis of visitor data to ensure
                                            visitors are not circumventing the HSPD-12
                                            requirements.
484 - Real Property Leasing   9/30/2010     Revise SEC Regulation (SECR) 11-03 and draft
Procurement Process                         Operating Procedure (OP) 11-03 to ensure that they
                                            are adequate and complete and include the
                                            information identified in the audit report, finalize OP
                                            11-03, and ensure that the revised documents are
                                            posted to the Commission’s intranet site and
                                            circulated to staff with leasing-related
                                            responsibilities.
                                            Measure the SEC’s real property leasing policies
                                            and procedures against pertinent provisions of
                                            General Services Administration (GSA) regulations,
                                            including the GSA Acquisition Manual and
                                            Subchapter C of the Federal Management
                                            Regulation, as appropriate.
                                            Ensure that the Leasing Branch’s policies and
                                            procedures, including OP 11-03 and the attached
                                            checklists, provide comprehensive guidance,
                                            including pertinent forms and examples, for SEC
                                            leasing officials regarding the leasing process that
                                            will assist in ensuring compliance with the applicable
                                            policies, regulations, and best practices.
                                            Utilize the “Required Components” section of the
                                            Federal Real Property Council’s (FRPC) Guidance
                                            for Improved Asset Management to develop and
                                            finalize the SEC’s real property leasing asset
                                            management plan, as appropriate. If any required
                                            components in the FRPC Guidance are determined
                                            not to apply to the SEC, the plan should include an
                                            explanation as to why the SEC’s unique
                                            circumstances render those components
                                            unnecessary.




                                           107
     Report Number
                          Issue Date            Summary of Recommendation
        and Title
                                       Develop performance goals for the SEC’s real
                                       property leasing activities, including both lease
                                       acquisition and the monitoring and administration of
                                       existing leases; identify key external factors that
                                       could significantly affect the achievement of these
                                       goals; and periodically evaluate whether these goals
                                       are met.
                                       Develop performance measures to assist in
                                       evaluating the effectiveness of the major functions
                                       of real property acquisitions and operations, and
                                       periodically evaluate performance based on these
                                       measures. The performance measures should
                                       include metrics for all of the Office of Administrative
                                       Services Branches that have a role in real property
                                       leasing, including the Real Property Leasing,
                                       Construction, and Security Branches.
                                       Revise SEC Regulation 11-03 and draft OP 11-03 to
                                       include complete written policies and procedures for
                                       timely acquisition planning pertinent to real property
                                       leases, including the preparation of a project plan
                                       and schedule with projected dates for achieving
                                       various milestones well in advance of the scheduled
                                       commencement of a lease.
                                       Adopt evaluation procedures that involve scoring
                                       and ranking various options prior to deciding to
                                       vacate leased premises or to terminate a lease, and
                                       develop a transparent methodology for formulating
                                       scores and rankings.
485 - Assessment of the   9/29/2010    Evaluate risk assessment processes for scoring risk
SEC’s Privacy Program                  to ensure that all appropriate factors are adequately
                                       weighed, including the identification of risk levels by
                                       vendors.
                                       Implement an agency-wide policy regarding shared
                                       folder structure and access rights, ensuring that only
                                       the employees involved with a particular case have
                                       access to that data. If an employee backs up
                                       additional information to the shared resources, only
                                       the employee and his or her supervisor should have
                                       access.
                                       Ensure personal storage tab (PST) files are saved
                                       to a protected folder.
                                       Ensure all file rooms and file cabinets are secured.




                                         108
     Report Number
                               Issue Date                  Summary of Recommendation
        and Title
                                                  Provide Commission staff training on handling,
                                                  disposal, and storage of portable media storage
                                                  devices.
487 - Review of Select Time-   12/23/2010         Review the $156,532 in unsupported payments
and-Materials and Labor-                          made to Dozier Technologies, Inc., to determine
Hour Contracts                                    what, if any corrective actions are warranted (e.g.,
                                                  requiring the contractor to provide adequate
                                                  support, refund monies for unsupported costs, etc.).
488 - Audit of the SEC         3/29/2011          Develop and establish a formal, ongoing SEC-
Budget Execution Cycle                            focused budgetary training program.
489 - 2010 Annual FISMA         3/3/2011          (a) Perform a thorough review and identify the
Executive Summary Report                          universe of all Commission user accounts; (b)
                                                  Identify all “active” and “inactive” user accounts and
                                                  determine whether or not the accounts should be
                                                  disabled; and (c) Take immediate action to disable
                                                  the accounts of employees and contractors who no
                                                  longer work at the Commission.
                                                  Complete a logical access integration of the
                                                  HSPD-12 card no later than December 2011, as
                                                  reported to the Office of Management and Budget
                                                  on December 31, 2010.
493 - OCIE Regional            3/30/2011          Review the information provided from the OIG
Offices’ Referrals to                             survey regarding the situations where examiners
Enforcement                                       expressed serious concerns that action was
                                                  unsatisfactory, particularly where the examiners
                                                  believed there was ongoing wrongdoing, and take
                                                  appropriate action, including potentially reversing
                                                  previous decisions.
                                                  Take appropriate actions to enforce the policy in all
                                                  the regional offices that all referrals be made in
                                                  writing using the standard Enforcement Referral
                                                  Cover Memorandum or an equivalent record, as
                                                  appropriate, in light of the new Tips, Complaints,
                                                  and Referrals system and other programmatic
                                                  changes.
                                                  Issue policy or guidance requiring examiners in
                                                  regional offices to formally refer all significant
                                                  matters to Enforcement, not merely the matters that
                                                  Enforcement has already decided to accept.
                                                  Take appropriate actions to enforce policy in all
                                                  regional offices that all referrals be uploaded into the
                                                  Tips, Complaints, and Referrals system regardless
                                                  of whether Enforcement has accepted the referral.




                                            109
     Report Number
                               Issue Date           Summary of Recommendation
        and Title
                                            Ensure that all referrals currently in the Super
                                            Tracking and Review System (STARS) are
                                            appropriately and adequately updated with the
                                            information in the Home Office Enforcement
                                            Referral Review Committee spreadsheet.
                                            Continue efforts to establish a complete interface
                                            between STARS or its equivalent, the Hub, and the
                                            Tips, Complaints, and Referrals system.
                                            Determine what will be the future of the Home Office
                                            Enforcement Referral Review Committee. If the
                                            Committee will not continue, they should ensure that
                                            its responsibilities are carried out by another office
                                            or group that will continue to oversee the referral
                                            process and track outstanding referrals in a
                                            meaningful way.
495 - SEC’s Oversight of the   3/30/2011    Document procedures and processes for oversight
Securities Investor                         and monitoring of the SIPC pursuant to the
Protection Corporation’s                    Securities Investor Protection Act (SIPA).
(SIPC) Activities
                                            Complete efforts to update the internal
                                            memorandum that describes oversight
                                            responsibilities under the SIPA and include current
                                            practices and, where appropriate, the legislative
                                            amendments that were made to SIPA in July 2010
                                            by the Dodd-Frank Wall Street Reform and
                                            Consumer Protection Act.
                                            Conduct meetings, on at least an annual basis, to
                                            determine when an inspection of SIPC should occur,
                                            based on the ongoing liquidations, to ensure
                                            systematic and risk based monitoring of SIPC’s
                                            operations. In these meetings, develop a schedule
                                            for future inspections based upon objective criteria
                                            or defined risk-factors, such as conducting
                                            inspections based upon the number of SIPC
                                            liquidations.
                                            Perform a risk assessment to determine problematic
                                            areas or liquidations that are deemed to be complex
                                            prior to the next inspection of SIPC, as was done
                                            prior to the commencement of the 2003 inspection
                                            of SIPC. The scope of each future inspection
                                            should take into consideration the risk assessment
                                            conducted prior to the inspection.




                                              110
     Report Number
                              Issue Date                Summary of Recommendation
        and Title
                                                Conduct additional oversight of SIPC’s assessments
                                                of the reasonableness of trustee fees and
                                                encourage SIPC to negotiate with outside court-
                                                appointed trustees more vigorously to obtain a
                                                reduction in fees greater than ten percent.
                                                Decide on the scope and frequency of the
                                                Commission staff’s monitoring of SIPC’s
                                                assessments of the reasonableness of trustee fees
                                                paid by SIPC, rather than relying only on inspections
                                                of SIPC, which do not occur on a systematic basis.
                                                Determine whether to request that Congress modify
                                                the SIPA to allow bankruptcy judges who preside
                                                over SIPA liquidations to assess the reasonableness
                                                of administrative fees in all cases where
                                                administrative fees are paid by the SIPC.
                                                Encourage SIPC to designate an employee whose
                                                responsibilities include improving investor education
                                                and preventing further confusion among investors
                                                about coverage available under the SIPA.
                                                Support SIPC’s efforts to improve investor
                                                education, including encouraging SIPC to strongly
                                                consider and, as appropriate, implement the Office
                                                of Investor Education and Advocacy’s suggestions
                                                to improve investor awareness.
                                                Utilize more effective methods to communicate with
                                                investors in case of the failure of broker-dealers,
                                                such as notifying investors of the status of the
                                                Commission’s efforts throughout the liquidation
                                                process or designating an employee, as
                                                appropriate, who can communicate directly with
                                                investors on matters unique to each liquidation
                                                case.
PI-09-05 - SEC Access Card    2/22/2010         Ensure, on a Commission-wide basis, that all
Readers in Regional Offices                     regional offices are capable of capturing and
                                                recording building entry and exit information of
                                                Commission employees.
PI-09-07 - Employee           3/10/2010         Review and update internal regulation and policy for
Recognition Program and                         the SEC’s Employee Recognition Program (ERP),
Grants of Employee Awards                       and post the revised regulation and/or policy to the
                                                SEC’s intranet site.
                                                Ensure the revised ERP regulation and/or policy
                                                specifically addresses whether informal recognition
                                                awards are authorized and, if so, what criteria,
                                                standards, and approvals pertain.


                                          111
     Report Number
                               Issue Date            Summary of Recommendation
        and Title
                                            Ensure the revised ERP regulation and/or policy
                                            makes clear that appropriated funds may not be
                                            used to pay for employee parking as an award.
                                            Approve requests to use appropriated funds for non-
                                            monetary employee awards only after ensuring an
                                            authorized agency officer has approved the awards
                                            under statutory and regulatory authority.
ROI-470 - Allegations of       2/24/2010    Institute procedures to require that a decision be
Conflict of Interest and                    made, documented, and approved where
Investigative Misconduct                    Enforcement has informed the Commission it is
                                            continuing to consider recommending charges.
ROI-491 - Allegation of        3/29/2010    Make efforts to recapture a portion of additional
Fraudulently Obtained                       award fees a contractor obtained based on
Award Fees                                  potentially inaccurate data.
ROI-505 - Failure to Timely    2/26/2010    Ensure as part of changes to complaint handling
Investigate Allegations of                  system that databases used to refer complaints are
Financial Fraud                             updated to accurately reflect status of investigations
                                            and identity of staff.
                                            Ensure as part of changes to complaint handling
                                            system that referrals are monitored to ensure they
                                            are being actively investigated and complainants are
                                            provided accurate information.
                                            Ensure as part of changes to case-closing system
                                            that cases that are not actively being investigated
                                            are closed promptly.
                                            Ensure as part of changes to case-closing system
                                            that Enforcement staff members have access to
                                            accurate information about the status of
                                            investigations and staff requests to close
                                            investigations.
                                            Ensure as part of changes to case-closing system
                                            that staff at all levels be appropriately trained in
                                            case-closing procedures.
ROI-524 - Improper Use of      7/23/2010    Conduct an audit of all SEC employees to determine
Leave Without Pay (LWOP)                    whether employees regularly use LWOP to create a
to Receive Full-Time                        part-time schedule but have not had their benefits
Benefits                                    and leave reduced.
ROI-533 - Failure to Uncover   10/26/2010   Establish a recusal policy whereby an individual who
Fraud in Investment Adviser                 previously worked on an examination that did not
Examination                                 uncover an existing fraud is recused from working
                                            on a subsequent cause examination of that entity.
                                            Include in examination referral policy and
                                            procedures a mechanism for tracking the outcome
                                            of an examination, particularly where a follow-up
                                            examination is recommended.

                                              112
      Report Number
                                 Issue Date                 Summary of Recommendation
         and Title
ROI-538 - Abuse of               2/14/2011         Provide training on the SEC’s compensatory time for
Compensatory Time for                              travel rules and management training.
Travel
ROI-540 - Investigation of       1/25/2011         Document the Ethics advice provided to SEC
Possible Violation of Conflict                     employees.
of Interest Restrictions
                                                   Add a field to the online recusal system in which
                                                   employees can add information regarding the
                                                   specific matters from which they are recused.
                                                   Rectify the online recusal database’s inability to
                                                   store certain information entered on the form.
                                                   Seek modification from the U.S. Office of
                                                   Government Ethics of the blanket exemption for SK
                                                   employees from the one-year cooling-off ban.
                                                   Designate an administrative contact to maintain a
                                                   list of specific matters from which senior officers are
                                                   recused.
ROI-544 - Failure to             1/20/2010         Take immediate measures to determine whether
Complete Background                                every OIT employee and contractor has been
Investigation Clearance                            properly cleared by a background investigation and
Before Giving Access to                            issued an official SEC badge.
SEC Buildings and
Computer Systems
                                                   Issue a written policy on proper issuance, and
                                                   documentation of, visitor badges, specifically noting
                                                   that visitor badges cannot be issued in lieu of, or
                                                   while awaiting, a permanent official SEC badge.
                                                   Issue a directive ending the practice of allowing
                                                   contractors (or others) to begin work of any kind
                                                   before being cleared in a proper background
                                                   investigation and being issued an official SEC
                                                   badge.
                                                   Take steps to deactivate official SEC badges and
                                                   terminate access to SEC computer systems for
                                                   terminated or separated employees and contractors.
ROI-551 - Allegations of         3/30/2011         Employ technology that will enable the agency to
Unauthorized Disclosures of                        maintain records of phone calls made from and
Non-Public Information                             received by SEC telephones.
During SEC Investigations




                                             113
114
Table 4
Summary of Investigative Activity

                              Cases                             Number
       Cases Open as of 3/31/2011                                 11
       Cases Opened during 4/01/2011 - 9/30/2011                  7
       Cases Closed during 4/01/2011 - 9/30/2011                  7
       Total Open Cases as of 9/30/2011                           11
       Referrals to the Department of Justice for Prosecution     2
       Prosecutions                                               0
       Convictions                                                1
       Referrals to Agency for Disciplinary Action                6

                      Preliminary Inquiries                     Number
       Inquiries Open as of 3/31/2011                             73

       Inquiries Opened during 4/01/2011 - 9/30/2011              28

       Inquiries Closed during 4/01/2011 - 9/30/2011              27

       Total Open Inquiries as of 9/30/2011                       74

       Referrals to the Department of Justice for Prosecution     3

       Referrals to Agency for Disciplinary Action                6

                      Disciplinary Actions                      Number
       Removals (Including Resignations and Retirements)          3

       Demotions                                                  3

       Suspensions                                                5

       Reprimands                                                 4

       Warnings/Other Actions                                     9




                                  115

116
Table 5
Summary of Complaint Activity

                  Complaints Received During the Period       Number
 Complaints Pending Disposition at Beginning of Period          3

 Hotline Complaints Received                                   144

 Other Complaints Received                                     120

 Total Complaints Received                                     264

 Complaints on which a Decision was Made                       260

 Complaints Awaiting Disposition at End of Period               7

               Disposition of Complaints During the Period    Number
 Complaints Resulting in Investigations                         5

 Complaints Resulting in Inquiries                              28

 Complaints Referred to OIG Office of Audits                    5

 Complaints Referred to OIG Employee Suggestion Program         1

 Complaints Referred to Other Agency Components                136

 Complaints Referred to Other Agencies                          9

 Complaints Included in Ongoing Investigations or Inquiries     17

 Response Sent/Additional Information Requested                 39

 No Action Needed                                               21




                                          117

118
Table 6
References to Reporting Requirements
of the Inspector General Act

   The Inspector General Act of 1978, as amended, specifies reporting requirements for
semiannual reports to Congress. The requirements are listed below and indexed to the
applicable pages.


  Section            Inspector General Act Reporting Requirement                 Pages
   4(a)(2)   Review of Legislation and Regulations                                93-95

   5(a)(1)   Significant Problems, Abuses, and Deficiencies                      13-18,
                                                                                 24-48
                                                                                 54-87
   5(a)(2)   Recommendations for Corrective Action                               19-21,
                                                                                 28-48
                                                                                 54-87
   5(a)(3)   Prior Recommendations Not Yet Implemented                           103-113

   5(a)(4)   Matters Referred to Prosecutive Authorities                         54-88,
                                                                                  115
   5(a)(5)   Summary of Instances Where Information Was Unreasonably               97
             Refused or Not Provided
   5(a)(6)   List of OIG Audit and Evaluation Reports Issued During the Period     99

   5(a)(7)   Summary of Significant Reports Issued During the Period             28-48,
                                                                                 54-87
   5(a)(8)   Statistical Table on Management Decisions with Respect to            101
             Questioned Costs
   5(a)(9)   Statistical Table on Management Decisions on Recommendations         101
             That Funds Be Put To Better Use
  5(a)(10)   Summary of Each Audit, Inspection or Evaluation Report Over Six       97
             Months Old for Which No Management Decision Has Been Made
  5(a)(11)   Significant Revised Management Decisions                              97

  5(a)(12)   Significant Management Decisions with Which the Inspector General     97
             Disagreed
  5(a)(14)   Appendix of Peer Reviews Conducted by Another OIG                    121




                                            119

120
                                                                                  APPENDIX A





PEER REVIEWS OF OIG OPERATIONS
PEER REVIEW OF THE SEC OIG’S AUDIT OPERATIONS

    During the semiannual reporting period, the SEC OIG did not have an external peer review
conducted of its audit operations. Peer reviews of OIG audit operations are required to be con-
ducted every three years. The most recent peer review of the SEC OIG’s audit operations was
conducted by the Corporation for Public Broadcasting (CPB) OIG. The CPB OIG issued its report
on the SEC OIG’s audit operations in January 2010. This report concluded that the SEC OIG’s
system of quality for its audit function was designed to meet the requirements of the quality control
standards established by the U.S. Comptroller General in all material respects. The report is avail-
able on our website at http://www.sec-oig.gov/Reports/Other/CPB_ PeerReviewSEC.pdf.


PEER REVIEW OF THE SEC OIG’S INVESTIGATIVE OPERATIONS

      During the semiannual reporting period, the SEC OIG did not have an external peer review of
its investigative operations. Peer reviews of Designated Federal Entity OIGs, such as the SEC OIG,
are conducted on a voluntary basis. The most recent peer review of the SEC OIG’s investigative
operations was conducted by the U.S. Equal Employment Opportunity Commission (EEOC) OIG.
The EEOC OIG issued its report on the SEC OIG’s investigative operations in July 2007. This
report concluded that the SEC OIG’s system of quality for the investigative function conformed
to the professional standards established by the President’s Council on Integrity and Efficiency and
the Executive Council on Integrity and Efficiency (now the Council of the Inspectors General on
Integrity and Efficiency).




                                            121

122
                                                                                 APPENDIX B





ANNUAL REPORT ON THE OIG SEC
EMPLOYEE SUGGESTION PROGRAM
ISSUED PURSUANT TO SECTION 966
OF THE DODD-FRANK ACT
INTRODUCTION AND BACKGROUND

    The Securities and Exchange Commission (SEC or Commission) Office of Inspector General
(OIG) established the OIG SEC Employee Suggestion Program in accordance with Section 966 of
the Dodd-Frank Wall Street Reform and Consumer Protection Act (Dodd-Frank Act). Under Sec-
tion 966 of the Dodd-Frank Act, the Securities Exchange Act of 1934 (15 U.S.C. § 78a et seq.)
(Exchange Act) was amended to include a new Section 4D (15 U.S.C. § 78d-4), which required the
Inspector General to establish a suggestion program for employees of the Commission. The OIG
established its SEC Employee Suggestion Program on September 27, 2010.

     In accordance with Section 4D(d) of the Exchange Act, the SEC OIG has prepared this annual
report containing a description of suggestions and allegations received, recommendations made or
action taken by the OIG, and action taken by the Commission in response to suggestions or
allegations received since the program’s inception on September 27, 2010, through September 30,
2011.

    Through this program, the OIG receives suggestions from Commission employees for im-
provements in work efficiency, effectiveness, productivity, and the use of the resources of the
Commission, as well as allegations by employees of the Commission of waste, abuse, misconduct,
or mismanagement within the Commission. The OIG established an e-mail mailbox and a tele-
phone hotline to facilitate the making of suggestions or allegations under this program.

    The OIG adopted formal policies and procedures for the SEC Employee Suggestion Program.
These policies and procedures, dated March 30, 2011, encompass both the receipt and handling of
employee suggestions and allegations, as well as recognition of employees whose suggestions or dis-
closures to the OIG may result or have resulted in cost savings to or efficiencies within the
Commission.




                                            123

SUMMARY OF EMPLOYEE SUGGESTIONS AND ALLEGATIONS RECEIVED


    Since the inception of the Employee Suggestion Program, the OIG has received 48 suggestions
or allegations. On March 30, 2011, the OIG was forwarded an additional 26 suggestions that had
been previously submitted to the SEC’s Office of Human Resources’ (OHR) now discontinued em-
ployee suggestion program.1 The OIG analyzed all of the 74 employee suggestions and allegations
received since the inception of the OIG SEC Employee Suggestion Program. Set forth below are
details regarding:

    (1)	   The nature, number, and potential benefits of any suggestions received.

    (2)	   The nature, number, and seriousness of any allegations received.

    (3)	   Any recommendations made or actions taken by the OIG in response to substantiated
           allegations received.

    (4)	   Any action taken by the Commission in response to suggestions or allegations received.



                       Nature and Potential Benefits of Suggestions2                                          Number
     Increase efficiency or productivity                                                                          17
     Increase effectiveness                                                                                       20
     Increase the use of resources or decrease costs                                                              25


                            Nature and Seriousness of Allegations                                             Number
     Mismanagement and/or discrimination                                                                          8
     Waste of Commission resources                                                                                6
     Physical harm to person or property                                                                          1
     Misconduct by an employee                                                                                    3


           Action Taken by OIG in Response to Suggestions or Allegations                                      Number

     Memorandum to or communication with the Commission requesting action be taken                                35
     Referred to OIG Office of Investigations                                                                     6
     Referred to OIG Office of Audits                                                                             6
     OIG Office of Investigations opened preliminary inquiry                                                      1
     Researched issue, but no further action by Commission was necessary                                          21




1OHR’s suggestion program was established in March 2008.  However, because that program was not actively monitored or reviewed for
an extended period of time, it was subsequently closed.  All previously-submitted suggestions were provided to the OIG staff to be ad-
dressed as part of the OIG SEC Employee Suggestion Program.
2Suggestions and/or allegations may fall into more than one category and, as such, the numbers below may be greater than the total num-
ber of suggestions and allegations received.

                                                                 124
                                 Action Taken by the Commission3                                                   Number

      SEC management took specific action to address the suggestion                                                    16
      The Commission decided to secure new technology in response to the suggestion                                     2
      SEC management launched internal review                                                                           2
      The suggestion is currently still being reviewed by SEC management                                                2
      SEC management is considering suggestion in context of existing procedures                                        7

3 This table represents the Commission’s response to suggestions and allegations that were referred to the Commission for considera-

tion and for which a response was received during the reporting period.



EXAMPLES OF SUGGESTIONS RECEIVED

Leave and Earnings Statements

    The OIG received suggestions from several employees regarding the receipt of hard copy leave
and earnings statements. Specifically, the employees stated that, because leave and earnings state-
ments are available electronically on Employee Express, it is an unnecessary expense to mail hard
copies of the leave and earnings statements to employees. Because there were likely many employ-
ees not wishing to have hard copy leave and earnings statements mailed to their homes, the OIG
submitted this suggestion to management for their consideration.

     Management concurred with this suggestion and, in September 2011, in conjunction with the
National Treasury Employees Union, issued a memorandum to all employees announcing the dis-
continuation of paper copies of leave and earnings statements. In addition, an Administrative No-
tice was issued indicating that such statements would no longer be mailed to employees’ homes but
would, instead, be available electronically via Employee Express. Management indicated that this
change was expected to save the Commission approximately $40,000 per year.

Code of Federal Regulations

    An employee suggested that cost savings could be achieved if the Commission limited the dis-
tribution of paper copies of the Code of Federal Regulations (CFR). The CFR is the codification
of the general and permanent rules published in the Federal Register by the executive departments
and agencies of the federal government. The Government Printing Office offers paper copies of
these regulations for purchase annually. The employee suggested that, because these regulations are
available online at no charge, the purchase and distribution of paper versions of the CFR are un-
necessary and wasteful.

    It was determined that management spent over $21,000 on paper copies of the CFR in 2011,
many of which were later returned by staff as unneeded. The OIG recommended that
management take steps to provide information to staff regarding the availability of this resource
online and to institute procedures to ensure that paper copies are not ordered unnecessarily.
Management agreed with this employee suggestion and, in response, prepared new procedures
which will be implemented at the time of the next annual order. Pursuant to these procedures, em-
ployees will only obtain a paper copy of the regulations if one is specifically requested and only af-
ter acknowledging in writing their understanding of the availability of the information online.
Management indicated that this change was expected to save the Commission approximately
$3,230 per year.
                                                          125

Unclaimed Property

    The OIG received a suggestion that was previously submitted to the Office of Human
Resources’ employee suggestion program regarding unclaimed property possibly payable to the
SEC. The employee specifically suggested that the SEC should search unclaimed property data-
bases to determine whether funds belonging to the SEC are being held by state governments. The
employee’s own search uncovered at least nine states that had unclaimed property in the name of
the SEC. The OIG asked management to consider this suggestion and the possible implementa-
tion of procedures to search for unclaimed property that could result in cash and/or property being
return to the SEC.

    In response, management established new written procedures to implement a process for
searching for and reclaiming such property. As a result of these procedures, the agency has since
reclaimed more than $6,000 in funds belonging to the SEC.

Service of Subpoenas

    The OIG received an employee suggestion regarding the procedures for serving subpoenas dur-
ing the Division of Enforcement’s investigative process and the potential benefits of allowing the
service of subpoenas via e-mail. Currently, the service of subpoenas is only permitted via personal
service, U.S. mail, commercial carrier, or facsimile. The employee stated that amending the Com-
mission’s Rules of Practice and Rules Relating to Investigations to allow the service of subpoenas
via e-mail would increase staff efficiency by expediting the investigative process and would decrease
costs associated with the service of subpoenas via U.S. mail.

    The OIG determined that this suggestion could potentially improve efficiency and decrease
costs and recommended to the agency that it be considered. Management concurred with this sug-
gestion and, in response, began the preparation of a recommendation to the Commission to amend
the Rules of Practice and Rules Relating to Investigations to permit the service of investigative sub-
poenas via e-mail. Management is currently in the process of researching and developing the ap-
propriate amendments.

Teleconference Services

    An employee suggested that the SEC should better communicate costs related to various audio
conferencing options. Specifically, the employee suggested that, while the SEC offers a variety of
options for audio conferencing services, staff may not be aware of the cost savings associated with
certain options. Specifically, certain conferencing options are available through the Commission’s
telecommunications contract for no extra charge, while other options are charged per use. We de-
termined that this suggestion could potentially result in decreased costs associated with audio con-
ferencing services and recommended that the agency consider this suggestion.

    The agency recognized the need to educate staff regarding the costs associated with audio con-
ferencing and, in response, agreed to provide additional communication to the user community and
to emphasize to employees the cost benefits of using certain conferencing options.




                                                     126

EXAMPLES OF ALLEGATIONS RECEIVED

Protection of Personally Identifiable Information

     The OIG received an allegation that the agency was not utilizing document shredding contain-
ers properly and, thus, was not adequately protecting personally identifiable information. Specifi-
cally, the employee alleged that shredding bins throughout the agency were often full and, therefore,
documents were left on top of these shredding bins. This practice allowed access to nonpublic or
personally identifiable information. Improper handling of documents containing personally identi-
fiable information is a violation of various SEC policies and procedures designed to ensure the
proper handling of such information.

    Because of the importance of protecting nonpublic and personally identifiable information, the
OIG submitted this suggestion to management for consideration. Although no official response
from management had been received by the end of the reporting period, the OIG was informed
that the agency began deployment of new shredding bins to allow for greater capacity and more
frequent service to better avoid possible access to nonpublic and personally identifiable information.

Referrals to Office of Investigations

    The OIG received five allegations that resulted in referrals to the OIG’s Office of Investigations.
Two of these allegations related to waste in leasing and were included in the Office of Investiga-
tions’ recently completed investigation of the SEC’s leasing activities. One allegation involved
improper personnel practices by a senior official and was referred for inclusion in an ongoing
investigation. The Office of Investigations also opened an investigation based on the receipt of
an allegation regarding potential conflicts of interest surrounding an enforcement investigation.
Finally, an allegation regarding the mishandling of documents was referred for inclusion in an
ongoing investigation regarding improper document destruction.


CONCLUSION

    The OIG is pleased with the effectiveness of the OIG SEC Employee Suggestion Program. We
have received favorable responses from the agency regarding the suggestions submitted for its con-
sideration. These suggestions have resulted in positive changes that will improve the efficiency and
effectiveness of employees and increase the use of the agency’s resources or decrease waste. Of
note, the Commission expects a cost savings of approximately $50,000 per year as the result of the
suggestions received since the OIG SEC Employee Suggestion Program began. The OIG antici-
pates additional favorable responses to those suggestions which are currently under review by the
agency and will continue to encourage the submission of suggestions from employees.




                                             127

128
                                              APPENDIX C





           Written Testimony of H. David Kotz

                 Inspector General of the

           Securities and Exchange Commission





Before the Oversight and Investigations Subcommittee of the

             Committee on Financial Services,

              U.S. House of Representatives


                   Friday May 13, 2011

                        10:00 a.m.




                            129

                                                                               APPENDIX C


                                           Introduction

       Thank you for the opportunity to testify before this Committee on the subject of “The

Stanford Ponzi Scheme: Lessons for Protecting Investors from the Next Securities Fraud.” I

appreciate the interest of the Chairman, the Ranking Member, and the other members of the

Subcommittee, in the Securities and Exchange Commission (SEC or Commission) and the

Office of Inspector General (OIG). In my testimony, I am representing the OIG, and the views

that I express are those of my Office, and do not necessarily reflect the views of the Commission

or any Commissioners.

       I would like to begin my remarks by briefly discussing the role of my Office and the

oversight efforts we have undertaken during the past few years. The mission of the OIG is to

promote the integrity, efficiency and effectiveness of the critical programs and operations of the

SEC. The SEC OIG includes the positions of the Inspector General, Deputy Inspector General,

Counsel to the Inspector General, and has staff in two major areas: Audits and Investigations.

       Our audit unit conducts, coordinates and supervises independent audits and evaluations

related to the Commission’s internal programs and operations. The primary purpose of

conducting an audit is to review past events with a view toward ensuring compliance with

applicable laws, rules, and regulations and improving future performance. Upon completion of

an audit or evaluation, the OIG issues an independent report that identifies any deficiencies in

Commission operations, programs, activities, or functions and makes recommendations for

improvements in existing controls and procedures.

       The Office’s investigations unit responds to allegations of violations of statutes, rules,

and regulations, and other misconduct by Commission staff and contractors. We carefully

review and analyze the complaints we receive and, if warranted, conduct a preliminary inquiry or




                                                130

                                                                                 APPENDIX C

full investigation into a matter. The misconduct investigated ranges from fraud and other types

of criminal conduct to violations of Commission rules and policies and the Government-wide

conduct standards. The investigations unit conducts thorough and independent investigations in

accordance with the applicable Quality Standards for Investigations. Where allegations of

criminal conduct are involved, we notify and work with the Department of Justice and the

Federal Bureau of Investigation as appropriate.

                                           Audit Reports

       Over the past three years since I became the Inspector General of the SEC, our audit unit

has issued numerous reports involving matters critical to SEC programs and operations and the

investing public. These reports have included an examination of the Commission’s oversight of

Bear Stearns and the factors that led to its collapse, an audit of the Division of Enforcement’s

(Enforcement) practices related to naked short selling complaints and referrals, a review of the

SEC’s bounty program for whistleblowers, an analysis of the SEC’s oversight of credit rating

agencies, and audits of the SEC’s real property and leasing procurement process, compliance

with Homeland Security Presidential Directive 12, and oversight of the Securities Investment

Protection Corporation’s activities. In addition, following the OIG’s investigative report related

to the Madoff Ponzi scheme described below, we performed three comprehensive reviews

providing the SEC with 69 specific and concrete recommendations to improve the operations of

both Enforcement and the SEC’s Office of Compliance Inspections and Examinations (OCIE).

                                       Investigative Reports

       The Office’s investigations unit has also conducted numerous comprehensive

investigations into significant failures by the SEC in accomplishing its regulatory mission, as

well as investigations of allegations of violations of statutes, rules, and regulations, and other




                                                 131

                                                                             APPENDIX C

misconduct by Commission staff members and contractors. Several of these investigations

involved senior-level Commission staff and represent matters of great concern to the

Commission, Members of Congress, and the general public. Where appropriate, we have

reported evidence of improper conduct and made recommendations for disciplinary actions,

including removal of employees from the federal service, as well as recommendations for

improvements in agency policies, procedures, and practices.

       Specifically, we have issued investigative reports regarding a myriad of allegations,

including claims of failures by Enforcement to pursue investigations vigorously or in a timely

manner, improper securities trading by Commission employees, conflicts of interest by

Commission staff members, post-employment violations, unauthorized disclosure of nonpublic

information, procurement violations, preferential treatment given to prominent persons,

retaliatory termination, perjury by supervisory Commission attorneys, failure of SEC attorneys to

maintain active bar status, falsification of federal documents and compensatory time for travel,

abusive conduct and the misuse of official position and government resources.

       As noted above, in August 2009, we issued a 457-page report of investigation analyzing

the reasons why the SEC failed to uncover Bernard Madoff’s $50 billion Ponzi scheme. In

March 2010, we issued a thorough and comprehensive report of investigation regarding the

history of the SEC’s examinations and investigations of Robert Allen Stanford’s (Stanford) $8

billion alleged Ponzi scheme.

                     Commencement of the OIG’s Stanford Investigation

       On October 13, 2009, we opened an investigation into the handling of the SEC’s

investigation into Robert Allen Stanford and his various companies, including the history and

conduct of all the SEC’s investigations and examinations regarding Stanford. Between October




                                               132

                                                                             APPENDIX C

13, 2009 and February 16, 2010, our investigative team made numerous requests to the SEC’s

Office of Information Technology (OIT) for the e-mails of current and former SEC employees

for various periods of time pertinent to the investigation. The e-mails were received, loaded onto

computers with specialized search tools, and searched on a continuous basis throughout the

course of our investigation.

       In all, OIT provided e-mails for a total of 42 current and former SEC employees for

various time periods pertinent to the investigation, ranging from 1997 to 2009. We estimate that

we obtained and searched over 2.7 million e-mails during the course of the investigation.

       On October 27, 2009, we sent comprehensive document requests to both Enforcement

and OCIE specifying the documents and records we required to be produced for the

investigation. We carefully reviewed and analyzed the information we received as a result of our

document production requests. These documents included all records relating to the Fort Worth

examinations in 1997 of Stanford Group Company’s Broker-Dealer, in 1998 of Stanford Group

Company’s Investment Advisor, in 2002 of Stanford Group Company’s Investment Advisor, and

in 2004 of Stanford Group Company’s Broker-Dealer. These also included investigative records

relating to the Fort Worth Office’s 1998 inquiry regarding Stanford Group Company and its

Enforcement investigation of Stanford Group Company, which was opened in 2006.

       We also sought and reviewed documents from the Financial Industry Regulatory

Authority (FINRA), including documents concerning communications between FINRA or its

predecessor, the National Association of Securities Dealers (NASD), and the SEC concerning

Stanford, and FINRA documents concerning the SEC’s examinations and inquiries regarding

Stanford.




                                               133

                                                                               APPENDIX C


                                   Testimony and Interviews

        The OIG conducted 51 testimonies and interviews of 48 individuals with knowledge of

facts or circumstances surrounding the SEC’s examinations and/or investigations of Stanford and

his firms. I personally led the questioning in the testimony and interviews of all the witnesses in

this investigation.

        Specifically, we conducted on-the-record and under oath testimony of 28 individuals,

including all the relevant examiners and investigators who worked on SEC matters relating to

Stanford. We also conducted interviews of 20 other witnesses, including former SEC

employees, whistleblowers, victims of the alleged Ponzi scheme, and officials from the Texas

State Securities Board.

                      Issuance of Comprehensive Report of Investigation

        On March 31, 2010, we issued to the Chairman of the SEC a comprehensive report of our

investigation in the Stanford matter containing over 150 pages of analysis and 200 exhibits. The

report of investigation detailed all of the SEC’s examinations and investigations of Stanford from

1997 through 2009 and the agency’s response to all complaints it received regarding the

activities of Stanford’s companies, tracing the path of these complaints through the Commission

from their inception and reviewing what, if any, investigative or examination work was

conducted with respect to the allegations in the complaints.

                          Results of the OIG’s Stanford Investigation

        The OIG’s investigation determined that the SEC’s Fort Worth Office was aware since

1997 that Robert Allen Stanford was likely operating a Ponzi scheme, having come to that

conclusion a mere two years after Stanford Group Company, Stanford’s investment adviser,

registered with the SEC in 1995. We found that over the next eight years, the SEC’s Fort Worth




                                                134

                                                                              APPENDIX C

Examination group conducted four examinations of Stanford’s operations, finding in each

examination that the certificates of deposit (CDs) Stanford was promoting could not have been

“legitimate,” and that it was “highly unlikely” that the returns Stanford claimed to generate could

have been achieved with the purported conservative investment approach utilized. The SEC’s

Fort Worth examiners conducted examinations of Stanford in 1997, 1998, 2002, and 2004,

concluding in each instance that Stanford’s CDs were likely a Ponzi scheme or similar fraudulent

scheme. The only significant difference in the examination group’s findings over the years was

that the potential fraud was growing exponentially, from $250 million to $1.5 billion.

       The first SEC examination occurred in 1997, just two years after Stanford Group

Company began operations. After reviewing Stanford Group Company’s annual audited

financial statements in 1997, SEC examiner Julie Preuitt, who is a witness in this hearing, stated

that, based simply on her review of the financial statements, she “became very concerned” about

the “extraordinary revenue” from the CDs and immediately suspected the CD sales were

fraudulent. In August 1997, after just six days of field work in an examination of Stanford, Ms.

Preuitt and the examination team concluded that Stanford International Bank’s statements

promoting the CDs appeared to be misrepresentations. They noted that while the CD products

were promoted as being safe and secure, with investments in “investment-grade bonds,” the

interest rate, combined with referral fees of between 11% and 13.75% annually, was simply too

high to be achieved through the purported low-risk investments.

       Ms. Preuitt concluded after the 1997 examination was finished that the CDs’ declared

above-market returns were “absolutely ludicrous,” and that the high referral fees paid for selling

the CDs indicated that they were not “legitimate CDs.” The Assistant District Administrator for

the Fort Worth Examination program concurred, noting that there were “red flags” about




                                               135

                                                                               APPENDIX C
Stanford’s operations that caused her to believe Stanford Group Company was operating a Ponzi

scheme, specifically noting the fact that the interest being paid on these CDs “was significantly

higher than what you could get on a CD in the United States.” She further concluded that it was

“highly unlikely” that the returns Stanford claimed to generate could be achieved with the

conservative investment approach Stanford claimed to be using.

       In the SEC’s internal tracking database for examinations, the Fort Worth Broker-Dealer

Examination group characterized its conclusion from the 1997 examination of Stanford Group

Company as “Possible misrepresentations. Possible Ponzi scheme.” We found in our

investigation that the Examination staff determined in 1997, as a result of their findings, that an

investigation of Stanford by the Enforcement group was warranted, and referred a copy of their

examination report to the Enforcement group for review and disposition. In fact, when the

former Assistant District Administrator for the Fort Worth Examination program retired in 1997,

her “parting words” to Ms. Preuitt were to “keep your eye on these people [referring to Stanford]

because this looks like a Ponzi scheme to me and some day it’s going to blow up.”

       We also found that in June 1998, the Investment Adviser Examination group in Fort

Worth began another examination of Stanford Group Company. This investment adviser

examination came to the same conclusions as the broker-dealer examination, finding very

suspicious Stanford’s “extremely high interest rates and extremely generous compensation” in

the form of annual recurring referral fees, and the fact that Stanford Group Company was so

“extremely dependent upon that compensation to conduct its day-to-day operations.”

       In November 2002, the Investment Adviser Examination group conducted yet another

examination of Stanford Group Company. In this examination, the staff identified the same red

flags that had been noted in the previous two examinations, including the fact that “the




                                                136

                                                                              APPENDIX C

consistent, above-market reported returns” were “very unlikely” to be able to be achieved with

Stanford’s investments.

       The investment adviser examiners also found that the list of investors provided by

Stanford Group Company was inaccurate, as the list they received of the CD holders did not

match up with the total CDs outstanding based upon referral fees. The examiners noted that

although they did follow up with Stanford Group Company about this discrepancy, they never

obtained “a satisfactory response, and a full list of investors.”

       After the examiners began this third examination of Stanford, the SEC received multiple

complaints from outside entities reinforcing and bolstering the examiners’ suspicions about

Stanford’s operations. However, the SEC failed to follow up on these complaints or take any

action to investigate them. On December 5, 2002, the SEC received a complaint from a citizen

of Mexico, who raised the same concerns the Examination staff had raised. While the examiners

characterized the concerns expressed in this complaint as “legitimate,” we found that the SEC

did not respond to the complaint and did not take any action to investigate the claims in the

complaint.

       In 2003, the SEC Enforcement staff received two new complaints that Stanford was a

Ponzi scheme, but we found that nothing was done to pursue either of them. On August 4, 2003,

the SEC was forwarded a letter that discussed several similarities between a known Ponzi

scheme and Stanford’s operations. Then, on October 10, 2003, the NASD forwarded a letter

dated September 1, 2003, from an anonymous Stanford insider to the SEC’s Office of Investor

Education and Assistance (OIEA), which stated, in pertinent part:

               STANFORD FINANCIAL IS THE SUBJECT OF A LINGERING
               CORPORATE FRAUD SCANDAL PERPETUATED AS A
               “MASSIVE PONZI SCHEME” THAT WILL DESTROY THE
               LIFE SAVINGS OF MANY; DAMAGE THE REPUTATION OF



                                                 137

                                                                               APPENDIX C

               ALL ASSOCIATED PARTIES, RIDICULE SECURITIES AND
               BANKING AUTHORITIES, AND SHAME THE UNITED
               STATES OF AMERICA.

       Our investigation found that while this letter was minimally reviewed by various

Enforcement staff, the Enforcement group decided not to open an investigation or even an

inquiry. The Enforcement branch chief responsible for the decision explained his rationale as

follows:

               [R]ather than spend a lot of resources on something that could end
               up being something that we could not bring, the decision was made
               to – to not go forward at that time, or at least to – to not spend the
               significant resources and – and wait and see if something else
               would come up.

       In October 2004, the Examination staff conducted its fourth examination of Stanford

Group Company. The examiners once again analyzed the CD returns using data about the past

performance of the equity markets and concluded that Stanford Group Company’s sales of the

CDs violated numerous federal securities laws.

       While the Fort Worth Examination group, and particularly Ms. Preuitt, made multiple

efforts after each examination to convince the Enforcement group to open and conduct an

investigation of Stanford, we found that no meaningful effort was made by the Enforcement

group to investigate the potential fraud until late 2005. In 1998, the Enforcement group opened a

brief inquiry, but then closed it after only three months, when Stanford failed to produce

documents evidencing fraud in response to a voluntary document request. In 2002, no

investigation was opened even after the examiners specifically identified in an examination

report multiple violations of securities laws by Stanford. In 2003, after receiving the three

separate complaints about Stanford’s operations, the Enforcement group decided not to open up




                                                138

                                                                              APPENDIX C

an investigation or even an inquiry, and did not follow up to obtain more information about the

complaints.

       In late 2005, after a change in leadership in the Enforcement group and in response to the

continuing pleas by Ms. Preuitt and the Fort Worth Examination group, who had been watching

the potential fraud grow in examination after examination, the Enforcement group finally agreed

to seek a formal order from the Commission to investigate Stanford. However, even at that time,

the Enforcement group missed an opportunity to bring an action against Stanford Group

Company for its admitted failure to conduct any due diligence regarding Stanford’s investment

portfolio, which could have potentially completely stopped the sales of the Stanford International

Bank CDs through the Stanford Group Company investment adviser, and would have provided

investors and prospective investors with notice that the SEC considered Stanford Group

Company’s sales of the CDs to be fraudulent. We found that this particular action was not

considered, partially because the new head of the Enforcement group in Fort Worth was not

aware of the findings in the investment advisers’ examinations in 1998 and 2002, or even that

Stanford Group Company had registered as an investment adviser, a fact she learned for the first

time in the course of our investigation in January 2010.

       We did not find that the reluctance on the part of the SEC’s Fort Worth Enforcement

group to investigate Stanford was related to any improper professional, social, or financial

relationship on the part of any current or former SEC employee. We found evidence, however,

that SEC-wide institutional influence within the Enforcement group did factor into its repeated

decisions not to undertake a full and thorough investigation of Stanford, notwithstanding staff

awareness that the potential fraud was growing. We found that senior Fort Worth officials

perceived that they were being judged on the numbers of cases they brought, so-called “stats,”




                                               139

                                                                                 APPENDIX C

and communicated to the Enforcement staff that novel or complex cases were disfavored.

Specific testimonial evidence obtained in our investigation showed that, as a result of this

emphasis on “stats,” cases that were not considered “quick-hit” or slam-dunk” cases were

discouraged. The OIG investigation concluded that because Stanford “was not going to be a

quick hit,” it was not considered to be as high a priority as other, easier cases.

       The OIG also found that the former head of Enforcement in Fort Worth who played a

significant role in multiple decisions over the years to quash investigations of Stanford, sought to

represent Stanford on three separate occasions after he left the Commission, and in fact,

represented Stanford briefly in 2006 before he was informed by the SEC Ethics Office that it was

improper for him to do so.

       This individual while working at the SEC was responsible for decisions: (1) in 1998 to

close an inquiry opened regarding Stanford after the 1997 examination; (2) in 2002, in lieu of

responding to a complaint or investigating the issues it raised, to forward it to the Texas State

Securities Board; (3) also in 2002, not to act on the Examination staff’s referral of Stanford for

investigation after its investment adviser examination; (4) in 2003, not to investigate Stanford

after a complaint was received comparing Stanford’s operations to a known fraud; (5) in 2003,

not to investigate Stanford after receiving a complaint from an anonymous insider alleging that

Stanford was engaged in a “massive Ponzi scheme;” and (6) in 2005, to bluntly inform senior

Examination staff after a presentation was made on Stanford at a quarterly summit meeting that

Stanford was not a matter the Enforcement group planned to investigate.

       Yet, in June 2005, a mere two months after leaving the SEC, this former head of the

Enforcement group in Fort Worth e-mailed the SEC Ethics Office that he had been “approached

about representing [Stanford] . . . in connection with (what appears to be) a preliminary inquiry




                                                 140

                                                                              APPENDIX C

by the Fort Worth office.” He further stated, “I am not aware of any conflicts and I do not

remember any matters pending on Stanford while I was at the Commission.”

       After the SEC Ethics Office denied the former head of Enforcement in Fort Worth’s June

2005 request, in September 2006, Stanford retained this individual to assist with inquiries

Stanford was receiving from regulatory authorities, including the SEC. The former head of

Enforcement in Fort Worth met with Stanford Financial Group’s General Counsel in Stanford’s

Miami office and billed Stanford for his time on this representation. In late November 2006, he

called his former subordinate, the Assistant Director working on the Stanford matter in Fort

Worth, who asked him during the conversation, “[C]an you work on this?” and in fact told him,

“I’m not sure you’re able to work on this.” After this call, the former head of Enforcement in

Fort Worth belatedly sought permission from the SEC’s Ethics Office to represent Stanford. The

SEC Ethics Office replied that he could not represent Stanford for the same reasons given a year

earlier, and he discontinued his representation.

       In February 2009, immediately after the SEC sued Stanford, this same former head of

Enforcement in Fort Worth contacted the SEC Ethics Office a third time about representing

Stanford in connection with the SEC matter – this time to defend Stanford against the lawsuit

filed by the SEC. An SEC Ethics official testified that he could not recall another occasion on

which a former SEC employee contacted the Ethics Office on three separate occasions trying to

represent a client in the same matter. After the SEC Ethics Office informed the former head of

Enforcement in Fort Worth for a third time that he could not represent Stanford, he became upset

with the decision, arguing that the matter pending in 2009 “was new and was different and

unrelated to the matter that had occurred before he left.” When asked during our investigation




                                                   141

                                                                              APPENDIX C
why he was so insistent on representing Stanford, he replied, “Every lawyer in Texas and beyond

is going to get rich over this case. Okay? And I hated being on the sidelines.”

       Thus, our investigation found that the former head of Enforcement in Fort Worth’s

representation of Stanford appeared to violate state bar rules that prohibit a former government

employee from working on matters in which that individual participated as a government

employee.

              Recommendations of the OIG’s Stanford Report of Investigation

       We provided our Report of Investigation on Stanford to the Chairman of the SEC with

the recommendation that the Chairman carefully review its findings and share with Enforcement

management the portions of the report that related to the performance failures by those

employees who still work at the SEC, so that appropriate action (which may include

performance-based action, if applicable) would be taken, on an employee-by-employee basis, to

ensure that future decisions about when to open an investigation and when to recommend that

the Commission take action are made in a more appropriate and timely manner.

       We also made numerous recommendations to improve the operations of several divisions

and offices within the SEC. Specifically, we recommended that:

       (1)	 Enforcement ensure that the potential harm to investors if no action is taken is

             considered as a factor when deciding whether to bring an Enforcement action,

             including consideration of whether this factor, in certain situations, outweighs other

             factors such as litigation risk;

       (2)	 Enforcement emphasize the significance of bringing cases that are difficult, but

             important to the protection of investors, in evaluating the performance of an

             Enforcement staff member or a regional office;




                                                142

                                                                                APPENDIX C
       (3)   Enforcement consider the significance of the presence or absence of United States

             investors in determining whether to open an investigation or bring an enforcement

             action that otherwise meets jurisdictional requirements;

       (4)   there be improved coordination between the Enforcement and OCIE on

             investigations, particularly those investigations initiated by an OCIE referral to

             Enforcement;

       (5)   Enforcement re-evaluate the factors utilized to determine when referral of a matter

             to state securities regulators, in lieu of an SEC investigation, is appropriate;

       (6)   there be additional training of Enforcement staff to strengthen their understanding

             of the laws governing broker-dealers and investment advisers; and

       (7)   Enforcement emphasize the need to coordinate with the Office of International

             Affairs and the Division of Risk, Strategy, and Financial Innovation, as appropriate,

             early in the course of investigations.

       We also referred our Report of Investigation to the Commission’s Ethics Counsel for

referral to the Bar Counsel offices in the two states in which the former head of Enforcement in

Fort Worth was admitted to practice law.

                        OIG Follow-up Efforts and Subsequent Audit

       We have followed up with Enforcement and OCIE regarding the recommendations to

improve operations that we made in our Stanford report. All of these recommendations have

been implemented and closed to our satisfaction.

       In addition, in response to the request of former Chairman of the Senate Banking

Committee, the Honorable Christopher Dodd (D - Connecticut), we recently completed an audit

of the process by which OCIE refers examination results to Enforcement in all of the SEC’s




                                                143
                                                                                APPENDIX C
regional offices to determine if the concerns about the Fort Worth Regional Office found in the

Stanford report also existed in other SEC regional offices.

       Our audit found that examiners across the SEC regional offices are generally satisfied

with their Enforcement attorney counterparts. For example, we found through a survey of all

OCIE examiners throughout the SEC’s regional offices that most survey respondents indicated

that they are either “completely satisfied” or “somewhat satisfied” with actions taken by

Enforcement in response to examination-related referrals. We further found that where there was

dissatisfaction with the referral process, the level of concern dramatically dropped over time and

particularly in fiscal year 2010, with some respondents identifying the newly-created Asset

Management Unit in Enforcement as having significantly assisted with the acceptance rate of

OCIE referrals. We also found that the large majority of examiners do not believe that

Enforcement will only take referrals that involve high dollar value amounts and cases that can

easily be brought against the violator. In addition, many of the survey participants who

indicated that they did believe that Enforcement was particularly concerned with dollar

thresholds or “stats” noted that this approach was more evident in the past, i.e., “prior to

Madoff.”

       Our audit did find that certain aspects of the referral process that could be improved. We

found that OCIE sometimes presented referrals informally to Enforcement prior to proceeding

with the formal referral process. As a result, there was a concern that not all referral-worthy

matters may be recorded and tracked. We also found that internal concerns over incentives and

metrics with regard to the percentage of OCIE referrals being accepted by Enforcement may

have led OCIE senior officials to request that a particular referral not be recorded in the Tips,

Complaints, and Referrals (TCR) system to avoid the risk of having large numbers of




                                                144
                                                                               APPENDIX C
outstanding referrals. Additionally, we noted that the level of communication between OCIE

and Enforcement after a referral is not always consistent in the regional offices. We made seven

additional recommendations to address the areas of improvement identified and are currently

following up to ensure that these recommendations are implemented.

                 Results of an Investigation of Retaliatory Personnel Actions

       In September 2009, we completed another investigation involving the SEC’s Fort Worth

office and Ms. Preuitt. In this investigation, we found that Ms. Preuitt and a former colleague in

the SEC’s Fort Worth office voiced their differences about programmatic issues at a planning

meeting concerning management’s initiative to begin conducting a certain type of examination.

Shortly thereafter, Ms. Preuitt’s supervisor called her into several meetings and admonished Ms.

Preuitt for her opposition to the office’s examination initiative. A few months later, Ms. Preuitt’s

supervisor issued her a letter of reprimand for, among other things, her efforts to undermine

management’s authority and frustrate the implementation of the new examination initiative.

Shortly thereafter, Ms. Preuitt was involuntarily transferred to non-supervisory duties.

       Ms. Preuitt’s former colleague, who also voiced opposition to the new examination

initiative, complained to senior management at SEC headquarters about the new initiative and

about the treatment of Ms. Preuitt. Shortly after he sent his complaint, he was issued a

performance counseling memorandum for, among other things, being openly adversarial toward

key examination goals. Less than a month later, the colleague was issued a letter of reprimand,

for, among other things, discussing purported “unfounded and inaccurate allegations” with SEC

senior management.

       Our investigation concluded that the complaints made both by Ms. Preuitt and her

colleague improperly led to actions being taken against them. We found that it was improper for




                                                145
                                                                             APPENDIX C
Fort Worth management to take action against employees for voicing opposition to a program

initiative and for bringing complaints to senior SEC management. Based upon our investigative

findings, we recommended the consideration of performance-based or disciplinary action against

two Fort Worth senior management officials.

                                          Conclusion

       In conclusion, I appreciate the interest of the Chairman, the Ranking Member, and the

Subcommittee in the SEC and my Office and, in particular, in the facts and circumstances

pertinent to our Stanford report. I believe that the Subcommittee’s and Congress’s continued

involvement with the SEC is helpful to strengthen the accountability and effectiveness of the

Commission. Thank you.




                                              146
                                            APPENDIX C




           Written Testimony of H. David Kotz
                 Inspector General of the
           Securities and Exchange Commission




 Before the Economic Development, Public Buildings and
Emergency Management Subcommittee of the Committee on
           Transportation and Infrastructure,
              U.S. House of Representatives

                Thursday, June 16, 2011
                      10:00 a.m.




                          147
                                                                               APPENDIX C

                                           Introduction

       Thank you for the opportunity to testify before this Subcommittee on the lease of

Constitution Center by the U.S. Securities and Exchange Commission (SEC or Commission). I

appreciate the interest of the Chairman, the Ranking Member, and the other members of the

Subcommittee, in the SEC and the Office of Inspector General (OIG). In my testimony, I am

representing the OIG, and the views that I express are those of my Office, and do not necessarily

reflect the views of the Commission or any Commissioners.

       I would like to begin my remarks by briefly discussing the role of my Office and the

oversight efforts we have undertaken during the past few years. The mission of the OIG is to

promote the integrity, efficiency and effectiveness of the critical programs and operations of the

SEC. The SEC OIG includes the positions of the Inspector General, Deputy Inspector General,

Counsel to the Inspector General, and has staff in two major areas: Audits and Investigations.

       Our audit unit conducts, coordinates, and supervises independent audits and evaluations

related to the Commission’s internal programs and operations. The primary purpose of

conducting an audit is to review past events with a view toward ensuring compliance with

applicable laws, rules, and regulations and improving future performance. Upon completion of

an audit or evaluation, the OIG issues an independent report that identifies any deficiencies in

Commission operations, programs, activities, or functions and makes recommendations for

improvements in existing controls and procedures.



       The Office’s investigations unit responds to allegations of violations of statutes, rules,

and regulations, and other misconduct by Commission staff and contractors. We carefully

review and analyze the complaints we receive and, if warranted, conduct a preliminary inquiry or




                                                148
                                                                                 APPENDIX C

full investigation into a matter. The misconduct investigated ranges from fraud and other types

of criminal conduct to violations of Commission rules and policies and the Government-wide

conduct standards. The investigations unit conducts thorough and independent investigations in

accordance with the applicable Quality Standards for Investigations. Where allegations of

criminal conduct are involved, we notify and work with the Department of Justice and the

Federal Bureau of Investigation, as appropriate.

                                           Audit Reports

       Over the past three and one-half years since I became the Inspector General of the SEC,

our audit unit has issued numerous reports involving matters critical to SEC programs and

operations and the investing public. These reports have included an examination of the

Commission’s oversight of the Bear Stearns Companies, Inc. and the factors that led to its

collapse, an audit of the Division of Enforcement’s (Enforcement) practices related to naked

short selling complaints and referrals, a review of the SEC’s bounty program for whistleblowers,

an analysis of the SEC’s oversight of credit rating agencies, and audits of the SEC’s compliance

with Homeland Security Presidential Directive 12 and its oversight of the Securities Investment

Protection Corporation’s activities. In addition, in March 2009, we conducted a review of an

agency restacking project in which over $3 million was expended to relocate approximately

1,750 SEC employees in its headquarters building and, in September 2010, we completed an

audit of the SEC’s real property and leasing procurement process.

                                       Investigative Reports

       The Office’s investigations unit has conducted numerous comprehensive investigations

into significant failures by the SEC in accomplishing its regulatory mission, as well as

investigations of allegations of violations of statutes, rules, and regulations, and other




                                                 149 

                                                                             APPENDIX C

misconduct by Commission staff members and contractors. Several of these investigations

involved senior-level Commission staff and represent matters of great concern to the

Commission, Members of Congress, and the general public. Where appropriate, we have

reported evidence of improper conduct and made recommendations for disciplinary actions,

including removal of employees from the federal service, as well as recommendations for

improvements in agency policies, procedures, and practices.

       Specifically, we have issued investigative reports regarding a myriad of allegations,

including claims of failures by Enforcement to pursue investigations vigorously or in a timely

manner, improper securities trading by Commission employees, conflicts of interest by

Commission staff members, post-employment violations, unauthorized disclosure of nonpublic

information, procurement violations, preferential treatment given to prominent persons,

retaliatory termination, perjury by supervisory Commission attorneys, failure of SEC attorneys to

maintain active bar status, falsification of federal documents and compensatory time for travel,

abusive conduct, and the misuse of official position and government resources.

       In August 2009, we issued a 457-page report of investigation analyzing the reasons why

the SEC failed to uncover Bernard Madoff’s $50 billion Ponzi scheme. In March 2010, we

issued a 151-page report of investigation regarding the history of the SEC’s examinations and

investigations of Robert Allen Stanford’s $8 billion alleged Ponzi scheme. Most recently, on

May 16, 2011, we issued a comprehensive and thorough report of investigation into the

circumstances surrounding the SEC’s decision to lease approximately 900,000 square feet of

office space at a newly-renovated office building known as Constitution Center, which is the

subject of this hearing.




                                               150 

                                                                              APPENDIX C


               Commencement and Conduct of the OIG’s Leasing Investigation

         On November 16, 2010, the OIG opened our investigation as a result of receiving

numerous written complaints concerning the SEC’s decisions and actions relating to Constitution

Center. These complaints alleged that the decision to lease space at Constitution Center was ill-

conceived, resulted from poor management practices, and was made without Congressional

funding for the significant projected growth necessary to support the decision.

         As part of our investigative efforts, we made numerous requests to the SEC’s Office of

Information Technology (OIT) for the e-mails of current and former SEC employees for various

periods of time pertinent to the investigation. The e-mails were received, loaded onto computers

with specialized search tools, and searched on a continuous basis throughout the course of our

investigation. In all, OIT provided e-mails for a total of 27 current and former SEC employees

for various time periods pertinent to the investigation. We estimate that we obtained and

searched over 1.5 million e-mails during the course of the investigation.

         We also made several requests to the SEC’s Office of Administrative Services (OAS),

which oversees the SEC’s leasing function, for documents relating to its leasing practices. We

carefully reviewed and analyzed the information we received as a result of our document

requests. These documents included all records relating to the Constitution Center lease, as well

as documents relating to the leasing of additional office space by the SEC for the past several

years.

         We took the sworn testimony of 18 witnesses in the investigation and interviewed 11

other individuals with knowledge of facts or circumstances surrounding the SEC’s leasing

activities.




                                               151 

                                                                               APPENDIX C


           Issuance of Comprehensive Report of Investigation in Leasing Matter

       On May 16, 2011, we issued to the Chairman of the SEC a comprehensive report of our

investigation in the leasing matter that contained over 90 pages of analysis and more than 150

exhibits. The report of investigation detailed all of the SEC’s recent leasing-related decisions

and analyzed all of the facts and circumstances that led to the SEC’s decision to lease space at

Constitution Center.

                          Results of the OIG’s Leasing Investigation

       The OIG investigation found that the circumstances surrounding the SEC’s entering into

a lease for 900,000 square feet of space at the Constitution Center facility in July 2010 were part

of a long history of missteps and misguided leasing decisions made by the SEC since it was

granted independent leasing authority by Congress in 1990. The OIG investigation further found

that based upon estimates of increased funding, primarily to meet the anticipated requirements of

financial reform legislation that was enacted on July 21, 2010, the Dodd-Frank Wall Street

Reform and Consumer Protection Act (Dodd-Frank), between June and July 2010, OAS

conducted a deeply flawed and unsound analysis to justify the need for the SEC to lease 900,000

square feet of space at the Constitution Center facility. We found that OAS grossly

overestimated (by more than 300 percent) the amount of space needed for the SEC’s projected

expansion and used these groundless and unsupportable figures to justify the SEC’s commitment

to an expenditure of approximately $557 million over 10 years.

       The OIG investigation also found that OAS prepared a faulty Justification and Approval

document to support entering into the lease for the Constitution Center facility without

competition. This Justification and Approval document was prepared after the SEC had already

signed the contract to lease the Constitution Center facility. Further, OAS backdated the




                                                152 

                                                                               APPENDIX C

Justification and Approval, thereby creating the false impression that it had been prepared only a

few days after the SEC entered into the lease. In actuality, the Justification and Approval was

not finalized until a month later.

       A brief summary of our specific findings is set forth as follows. In 1990, Congress

provided the SEC with independent leasing authority, which exempted the SEC from General

Services Administration (GSA) regulations and directives. See 15 U.S.C. § 78d(b)(3). The

House Conference Report for this legislation expressed the clear intention that “the authority

granted the Commission to lease its own office space directly will be exercised vigorously by the

Commission to achieve actual cost savings and to increase the Commission’s productivity and

efficiency.” H.R. Conf. Rep. 101-924, 101st Cong, 2d Sess. 1990 at 20.

       Subsequent to Congress’s granting of independent leasing authority to the SEC, several

expensive missteps related to the SEC’s leasing actions and management of its space have

occurred. For example, in May 2005, the SEC disclosed to a House Subcommittee that it had

identified unbudgeted costs of approximately $48 million attributable to misestimates and

omissions of costs associated with the construction of its headquarters facilities near Union

Station, known as Station Place One and Two. In 2007, merely a year after moving into its new

headquarters, the SEC embarked on a major “restacking” project pursuant to which various SEC

employees were shuffled to different office spaces in the same buildings at a cost of over $3

million. An OIG audit of that project found that there was no record of a cost-benefit analysis

having been conducted before this undertaking. An OIG survey found that an overwhelming

majority of Commission staff affected by the restacking project had been satisfied with the

location of their workspace before that project was initiated, and did not believe the project’s

benefits were worth the cost and time of construction, packing, moving, and unpacking.




                                                153
                                                                               APPENDIX C

       The OIG investigation further found that, as a result of a mistaken belief that the SEC

would receive significant additional funding, OAS made grandiose plans to lease an upscale

facility at Constitution Center. On May 14, 2010, the SEC submitted an authorization request to

the Chairman of the U.S. Senate Committee on Banking, Housing, and Urban Affairs, requesting

$1.507 billion for Fiscal Year (FY) 2012 to fund an increase of 800 new staff positions. On May

20, 2010, the U.S. Senate passed a version of the financial regulatory reform bill that eventually

became Dodd-Frank (the U.S. House of Representatives had passed a version of the legislation

on December 11, 2009). The SEC estimated that it would need to add another 800 positions in

FY 2011 and FY 2012 to implement Dodd-Frank. After the reconciliation process between the

two versions of the financial regulatory reform bills, Dodd-Frank became law on July 21, 2010.

       Authorization of funding for an executive agency like the SEC does not guarantee that

the agency will be appropriated the funds. An authorization request is the first step in the SEC’s

lengthy budget process. Under that process, an authorization request is submitted to Congress in

May of the fiscal year two years prior to the fiscal year for which the authorization is requested

(e.g., the FY 2012 authorization request takes place in May 2010). The following September,

several months after the authorization request is made, the SEC submits a proposed budget

request to the Office of Management and Budget (OMB). In November, the next step of the

budget request process takes place: OMB replies to the SEC with a “pass-back,” and the SEC

and OMB then usually negotiate the amount of the budget request. Several months later, the

President formally submits a budget proposal to Congress. Once the President makes the budget

request to Congress, Congress then begins the decision-making process as to how much money

to appropriate to the SEC and other agencies. SEC employees interviewed in connection with

the OIG’s leasing investigation acknowledged that an authorization may indicate an intention for




                                                154 

                                                                               APPENDIX C

Congress to provide funding, but circumstances frequently change and, therefore, federal

agencies understand that until funds are appropriated, they cannot count on receiving those

funds.

         Notwithstanding the uncertainty of actually being appropriated the amount requested

through the budget process, in May 2010, OAS began planning for an expansion at SEC

Headquarters based on the agency’s FY 2012 budget request. Initially, the SEC’s Associate

Executive Director of OAS, Sharon Sheehan, and the former Chief of OAS’s Leasing Branch

decided that the agency needed to lease approximately 300,000 square feet of space to

accommodate the SEC’s needs through FY 2012. As of May 2010, the Chief of the Leasing

Branch’s plan was to solicit offers from three properties within walking distance of Station Place

to meet the SEC’s additional space needs. However, on June 2, 2010, the Chief of the Leasing

Branch received an e-mail from the real estate broker for a facility at Constitution Center, located

on 7th and D Streets, SW, approximately two miles from the SEC’s Station Place facility near

Union Station, regarding Constitution Center’s availability and some of its features.

         The 1.4 million square foot Constitution Center had just been renovated in “one of the

largest office redevelopment projects in Washington, DC,” according to promotional literature.

One of the more attractive features of the Constitution Center facility was its 5,000 square foot

lobby with spacious accommodations for a guard desk(s), security screening room, shuttle

elevator lobby, and display space, as well as Jerusalem limestone floors, marble walls, wood and

metal paneling, decorative lighting and a floor-to-ceiling glass wall facing the landscaped

courtyard. The facility promised abundant daylighting, panoramic views of the city and

surrounding region, and an open plaza area that contained a one-acre private garden.




                                                155 

                                                                               APPENDIX C

       Almost immediately after being contacted by the broker for Constitution Center, OAS

decided to expand the previous delineated locality of consideration to add Constitution Center to

the other three buildings that would be included in the solicitation for offers for approximately

300,000 square feet of space.

       On June 17, 2010, OAS briefed SEC Chairman Mary Schapiro on its immediate

expansion plans at SEC Headquarters. At that briefing, the Chief of the Leasing Branch

informed the Chairman that the SEC needed to lease immediately 280,000 to 315,000 square feet

of office space in Washington, D.C., and identified on a map specific locations for that

expansion, including Constitution Center. Both Chairman Schapiro and her former Deputy Chief

of Staff, Kayla Gillan, recalled the Chairman expressing clear preference for the locations that

were within walking distance of Station Place, as opposed to the Constitution Center facility.

Chairman Schapiro also questioned whether the SEC needed 300,000 additional square feet,

given that she believed the SEC should concentrate its growth in the agency’s regional offices.

       The OIG investigation found notwithstanding Chairman Schapiro’s expressions in mid-

June 2010 of her preference for a facility closer to Station Place and her questioning of why the

SEC needed as much as 300,000 square feet of space, by mid-July, OAS came back to the

Chairman with an urgent recommendation that the SEC immediately lease 900,000 square feet of

space with the only available option being the Constitution Center facility. The OIG

investigation found that the analysis OAS performed to justify the need for three times its

original estimate of necessary square footage, and its determination that the Constitution Center

facility was the only available option, was deeply flawed and based on unfounded and

unsupportable projections. We found that, as a consequence of its flawed analysis, OAS grossly




                                                156 

                                                                              APPENDIX C

overestimated the amount of space needed at SEC Headquarters for the SEC’s projected

expansion.

       Specifically, the OIG investigation found that OAS erroneously assumed that all of the

new positions projected for FY 2011 and FY 2012 would be allocated to SEC Headquarters and

that none of those new positions would be allocated to the SEC’s regional offices. This

assumption was contrary to the position the Chairman had communicated to OAS at the June 17,

2010 meeting that as much as possible of the SEC’s future growth should occur in the regional

offices, not at Headquarters. We found that although the need for a calculation reflecting the

allocation of a number of the new positions to the regions was discussed, none was ever

prepared. Sheehan testified that “OAS had difficulty getting the breakout,” and acknowledged

that, assuming all of the new positions would be located at Headquarters would “inflate the

number.”

       We also found that OAS conducted its analysis of the SEC’s space needs by using a

standard of 400 square feet per person when calculating how much space would be needed for

the additional positions it believed it would gain as a result of Dodd-Frank and associated

increases in the SEC’s budget. A Realty Specialist in OAS explained to the OIG that the Chief

of the Leasing Branch and she developed the 400 square feet standard by dividing the square

footage of office space by the number of people the SEC had authority to hire for the offices in

that space at Headquarters and several of the SEC’s regional offices. The Realty Specialist

described the standard as a “WAG” (wild-assed guess) and a “back of the envelope” calculation,

and acknowledged in her OIG testimony that OAS “didn’t do this scientifically.” OAS’s 400

square feet per-person standard was an “all-inclusive number” that included common spaces and

amenities. It also included an additional 10 percent for contractors, 10 percent for interns and




                                                157 

                                                                              APPENDIX C

temporary staff, and five percent for future growth. Notwithstanding this “all-inclusive” number,

we found that when OAS later performed its calculations to justify the Constitution Center lease,

it added even more unnecessary space by double-counting contractors, interns and temporary

staff and by improperly incorporating future growth into the projections of space needed. We

also found that each one of these estimates was wildly inflated and unsupported by the data OAS

was using.

         The OIG investigation found that the OAS inflated its estimate of new positions that

would require space by including an estimate of the number of contractors who would be hired in

addition to the number of SEC employees. In early June 2010, OAS Associate Executive

Director Sheehan asked the OAS Branch Chief for Space Management & Mail Operations to

obtain information about the number of contractors in the agency. On June 12, 2010, the Branch

Chief reported back, “Right now, based on the Contractor numbers I have at [Station Place], I

can justify us using a 10%, Contractor to Position, factor.” The Branch Chief later learned that

OAS needed the numbers to be larger. He testified as follows regarding his understanding of

why the Chief of the Leasing Branch needed the number to be larger: “[W]hat I understand she

was trying to do was to make sure that whatever size lease she entered into was enough to meet

our needs. And I think that in this case, if we were going to take the whole building, the

numbers needed to be larger.” Ultimately, OAS ignored the data that had been gathered during

the first two weeks of June 2010, which indicated the correct contractor ratio was 10 percent, and

inflated its calculation of space by adding contractors using a completely arbitrary 20 percent

ratio.

         In addition, we found that OAS’s estimate of new positions that would need space

included an estimate of the number of interns and temporary staff who would be hired, in




                                                158 

                                                                              APPENDIX C
addition to new employees. OAS’s estimate of interns and temporary staff to be hired assumed a

ratio of 16.5 percent (9 percent for interns and 7.5 percent for temporary staff). However, the

OIG found that OAS’s estimate of intern and temporary staff positions was significantly higher

than the estimate in the data it had received. On July 16, 2010, a management program analyst

in the SEC’s Office of Human Resources provided OAS with “the [peak] numbers [for interns

and temporary staff],” which ranged from approximately 4 to 7 percent for the six fiscal years of

data analyzed.

       Further, the OIG investigation found that OAS’s calculations increased the amount of

space required for every person to be hired in FY 2011 and FY 2012 by 10 percent for

“inventory” representing “vacant offices you have for expansion and unanticipated growth, that

kind of thing,” according to an OAS Assistant Director. However, as was the case with the

estimate for contractors, temporary staff and interns, an inventory factor had already been

incorporated into the calculation of the 400 square foot standard. Moreover, the 10 percent

inventory factor added was double the 5 percent factor previously determined to be appropriate.

       We also found that OAS’s estimate of new positions that would need space included an

assumption not only about FY 2011 and FY 2012, but also reflected an assumption that, in FY

2013, Congress would increase the SEC’s appropriation by 50 percent of the assumed FY 2012

increase. We found that the assumption of 50 percent growth in 2013 was arbitrary and

unsupported. Based on the assumed FY 2013 growth, OAS calculated that the SEC would add

another 295 positions in that year and again assumed that all of those positions would be

allocated to SEC Headquarters. We found that this estimate was not based upon any firm

numbers or projections and was contrary to the SEC’s planning and budget process, which does

not project growth more than two years into the future.




                                               159 

                                                                               APPENDIX C

       The OIG investigation found that OAS used the above-described overinflated estimates

to calculate a space need of 934,000 square feet. On Friday, July 23, 2010, Executive Director

Diego Ruiz met with Chairman Schapiro, Chief of Staff Didem Nisanci, and then-Deputy Chief

of Staff Gillan to recommend that the SEC lease 900,000 square feet of space at Constitution

Center. Gillan recalled the July 23, 2010 meeting with Ruiz, and stated that Ruiz had come to

her “and said that he needed to see Mary [Schapiro] quickly because he needed to make a quick

decision on Constitution Center. That the other possible space opportunities had evaporated,

gone to others, were no longer available. And that this one was really all that was left and that

we needed to act quickly.”

       Chairman Schapiro testified as follows regarding the July 23rd meeting with Ruiz:

               I remember explicitly being told there really wasn’t any other
               space available that could fulfill our needs and that there was a
               time – a sense of we were about to lose this. We had lost other
               space that we had apparently indicated an interest in and that we
               were about to lose this. So there was a sense of urgency on their
               part.

       Gillan testified that Ruiz did not explain in the July 23, 2010 meeting, or at any other

time, that the assertion that SEC Headquarters needed an additional 900,000 square feet was

predicated, in part, on the assumption that all of the agency’s new positions in FY 2011 and FY

2012 would be allocated to Headquarters. Gillan testified, “[I]n fact, that’s inconsistent with

what I had understood, because … [Chairman Schapiro] specifically said that, to the extent

possible, she wanted new hires to go to the regions.” Gillan also testified that Ruiz did not

explain in the July 23, 2010 meeting, or at any other time, that the assertion that SEC

Headquarters needed an additional 900,000 square feet was predicated, in part, on OAS’s

projections of significant growth in FY 2013.




                                                160 

                                                                               APPENDIX C

        On July 23, 2010, Ruiz sent an e-mail to Sheehan and others stating, “Met with Chairman

this morning, and we have her approval to move forward.” The OIG investigation found that the

SEC negotiated the contract for 900,000 square feet at Constitution Center in three business

days, signing the contract on July 28, 2010. On July 27, 2010, the SEC staff involved in that

negotiation discussed the fact that they had “no bargaining power” because “Sharon [Sheehan]

wants this signed tomorrow.” Internal e-mails show that OAS feared losing the building to the

National Aeronautics and Space Administration, which had also expressed an interest in the

facility.

        On July 28, 2010, the SEC executed a Letter Contract committing the SEC to lease

approximately 900,000 square feet of space at Constitution Center. The contract established a

multiphase delivery schedule, in which Phase 1, approximately 350,000 square feet, would be

delivered no later than September 2011, and Phase 2, approximately 550,000 square feet, would

be delivered no later than September 2012. The contract stated that “the SEC’s interests require

that [the owner] be given a binding commitment so that the space required will be committed to

the SEC and initial build out for the Phase 1 space can commence immediately ….” The lease

term in the contract was ten years. The Chief of the Leasing Branch estimated the costs

associated with the SEC’s leasing and occupying Constitution Center would be $556,811,589.

        The Letter Contract also granted the SEC the right of first refusal for the remaining

approximately 500,000 square feet of space at Constitution Center until December 15, 2010. If

the SEC had exercised this option, it would have leased the entire 1.4 million square feet of

space at Constitution Center. The Chief of the Leasing Branch testified that OAS wanted a right

of first refusal on all of the remaining space at Constitution Center “because the Congress was

throwing money at us” and “Sharon [Sheehan] was always hoping that we wouldn’t have




                                                161 

                                                                                APPENDIX C
anybody else in the building. That we would be able to ultimately justify the need for the whole

building or something.”

       After the SEC committed itself to the ten-year lease term at a cost of $556,811,589, it

entered into a Justification and Approval for Other than Full and Open Competition, which is

required by the Federal Acquisition Regulation (FAR) when an agency decides not to allow for

full and open competition on a procurement or lease. The FAR permits other than full and open

competition “when the agency’s need for the supplies or services is of such an unusual and

compelling urgency that the Government would be seriously injured unless the agency is

permitted to limit the number of sources from which it solicits bids or proposals.” 48 C.F.R.

§ 6.302-2 (emphasis added).

       The OIG investigation found that the Justification and Approval to lease space at

Constitution Center without competition was inadequate, not properly reviewed, and backdated.

The Justification and Approval provided as follows:

               To fulfill these new responsibilities it is necessary to significantly
               increase full-time staff and supporting contractors by
               approximately 2,335 personnel to be located at the SEC’s
               headquarters in Washington, DC. However, the SEC’s current
               headquarters is full. Accordingly the SEC has a requirement of an
               unusual and compelling urgency to obtain approximately 900,000
               rentable square feet (r.s.f.) of additional headquarters space in the
               Washington, D.C. Central Business District, as this is the amount
               of space required to accommodate the approximately 2,335 new
               staff and contractors in headquarters.


The Justification and Approval asserted that the 900,000 square feet “must be in a single building

or integrated facility to support the SEC’s functional requirements and operational efficiency.”

       An OAS Management and Program Analyst signed the Justification and Approval as the

SEC’s Competition Advocate. She testified that she did not take any steps to verify that the




                                                162 

                                                                                APPENDIX C

information in the Justification and Approval was accurate, “[o]ther than asking the contracting

officer, you know, just general questions, ‘Is this indeed urgent and compelling[?].’” She further

testified that when she signed the Justification and Approval, she was not aware that funding for

the projected growth had not been appropriated. She also did not have an understanding of when

the projected 2,335 personnel were expected to be hired. Further, she acknowledged in

testimony that the SEC would, in fact, not be “seriously injured” if it lost the opportunity to rent

one contiguous building and had to rent multiple buildings to fill its space needs.

       The FAR also requires that a Justification and Approval for Other than Full and Open

Competition be posted publicly “within 30 days after contract award.” The Letter Contract was

signed on July 28, 2010. Accordingly, the deadline for publication of the Justification and

Approval was August 27, 2010. On September 3, 2010, the SEC publicly posted the

Justification and Approval on the Federal Business Opportunities website. The document was

signed by four individuals, with all four signatures dated August 2, 2010.

       However, the OIG investigation found that the Justification and Approval was not

finalized until September 2, 2010, and substantial revisions were being made up to that date. We

found that three of the four signatories executed the signature page on August 2, 2010, before a

draft even remotely close to the final version existed. The OIG found that the SEC’s

Competition Advocate executed the signature page on August 31, 2010, and initially backdated

her signature to August 27, 2010, but subsequently whited-out the “7” on the date to make it

appear that she also had signed the document on August 2, 2010. The actions of the signatories

to the Justification and Approval gave the public the false impression that the document was

finalized a few days after the Letter Contract was signed, and there was only a delay in its

publication.




                                                163 

                                                                                APPENDIX C

       The OIG investigation also found that there is significant uncertainty among the SEC

staff regarding important requirements in connection with government leasing and there are

serious questions as to whether the SEC complied with several of those requirements in

connection with its leasing of Constitution Center. Appendix B of OMB Circular No. A-11

states, “Agencies are required to submit to OMB representatives the following types of leasing

and other non-routine financing proposals for review of the scoring impact: Any proposed lease

of a capital asset where total Government payments over the full term of the lease would exceed

$50 million.” Although the evidence showed the SEC initially contemplated providing OMB

with the written notification and senior agency officials believed that OMB had been formally

notified, no written notification to OMB was provided.

       In addition, we found that there is a possibility that the SEC violated the Antideficiency

Act in connection with its lease of Constitution Center. The Antideficiency Act prohibits

officers or employees of the government from involving the government “in a contract or

obligation for the payment of money before an appropriation is made unless authorized by law.”

31 U.S.C. § 1341(a)(1)(B). The incurring of an obligation in excess or advance of appropriations

violates the Antideficiency Act. Notwithstanding its July 28, 2010 commitment to a ten-year

lease at Constitution Center, the SEC did not obligate the entire amount of rent payments due

under the lease. Although the SEC has been granted independent leasing authority statutorily

and is generally granted authority to enter into multiyear leases in its annual appropriations, the

U.S. Government Accountability Office (GAO) has found that “[t]he existence of multiyear

leasing authority by itself does not necessarily tell [an agency] how to record obligations under a

lease.” GAO has distinguished agencies that have “specific statutory direction” to obligate funds

for multiyear leases one year a time, such as the GSA, from agencies such as the Federal




                                                164 

                                                                                APPENDIX C

Emergency Management Agency (FEMA), which do not have such explicit direction. Because

the SEC, like FEMA, does not have specific statutory direction to obligate funds for its multiyear

leases on an annual basis, its lease obligations may have to be obligated in their entirety at the

time they are incurred. Thus, SEC may have violated the Antideficiency Act in connection with

its commitment to lease space at Constitution Center.

       In early October 2010, the SEC informed the owner of the building that it could not use

approximately 600,000 of the 900,000 square feet of space it had contracted for at Constitution

Center and asked for the owner’s assistance in finding other tenants for that space. In November

2010, the owner of the building began negotiations with the Federal Housing Finance Agency

(FHFA) and the Office of the Comptroller of the Currency (OCC) to lease portions of

Constitution Center. In January 2011, OCC and FHFA entered into contracts for space at

Constitution Center, leaving approximately 350,000 square feet to which the SEC remains

committed. On January 18, 2011, counsel for the building owner sent a demand letter to the

SEC, asserting that the SEC’s actions had caused him to incur $93,979,493 in costs at

Constitution Center.

       The OIG investigation further found that a “closed” and “rigid” atmosphere within OAS

may have contributed to the irresponsible decisions made with respect to the Constitution Center

lease. In the course of this OIG investigation, several witnesses who sought to remain

anonymous came forward to the OIG to provide information concerning the environment and the

decision-making processes within OAS. These witnesses described an environment in which

inexperienced senior management make unwise decisions without any input from employees

who have significant knowledge and experience. We found that questioning of upper

management decisions by the staff is “not allowed” and that OAS Executive Director Sheehan




                                                165 

                                                                              APPENDIX C

surrounds herself with “yes-men” and “does not want to hear what [experienced staff] will tell

her.” These individuals testified that upon learning of the SEC’s decision to lease 900,000

square feet of space at Constitution Center, they “just couldn’t understand how [OAS] could

justify that amount of space …” and were “flabbergasted” by the decisions. One experienced

employee testified that OAS management had “grandiose plans” and was significantly

influenced by the upscale nature of the facility.

                    Recommendations of the OIG’s Report of Investigation

       We provided our Report of Investigation to the SEC with the recommendation that the

newly-appointed Chief Operating Officer/Executive Director carefully review the report’s

findings and conduct a thorough and comprehensive review and assessment of all matters

currently under the purview of OAS. We further recommend that the Chief Operating

Officer/Executive Director, upon conclusion of such review and assessment, determine the

appropriate disciplinary and/or performance-based action to be taken for matters that relate to

subject of the report of investigation, including, at a minimum, consideration of disciplinary

action against two individuals, up to and including dismissal, and consideration of disciplinary

action against a third individual.

       We also recommended that the SEC request a formal opinion from the Comptroller

General as to whether the Commission violated the Antideficiency Act by failing to obligate

appropriate funds for the Constitution Center lease.

       My Office is committed to following up with respect to all of the recommendations we

made in our Report of Investigation to ensure that appropriate changes and improvements are

made in the SEC’s leasing operations as a result of our findings.




                                                166 

                                                                             APPENDIX C


                                          Conclusion

       In conclusion, I appreciate the interest of the Chairman, the Ranking Member, and the

Subcommittee in the SEC and my Office and, in particular, in the facts and circumstances

pertinent to our leasing report. I believe that the Subcommittee’s and Congress’s continued

involvement with the SEC is helpful to strengthen the accountability and effectiveness of the

Commission. Thank you.




                                              167 

        APPENDIX C





168 

                                            APPENDIX C




           Written Testimony of H. David Kotz
                 Inspector General of the
           Securities and Exchange Commission




 Before the Economic Development, Public Buildings and
Emergency Management Subcommittee of the Committee on
           Transportation and Infrastructure,
              U.S. House of Representatives

                Wednesday, July 6, 2011
                      2:00 p.m.




                          169
                                                                                APPENDIX C


                                            Introduction

       Thank you for the opportunity to testify before this Subcommittee on the lease of

Constitution Center by the U.S. Securities and Exchange Commission (SEC or Commission). I

appreciate the interest of the Chairman, the Ranking Member, and the other members of the

Subcommittee, in the SEC and the Office of Inspector General (OIG). In my testimony, I am

representing the OIG, and the views that I express are those of my Office, and do not necessarily

reflect the views of the Commission or any Commissioners.

                             Role of and Reports Issued by the OIG

       The mission of the OIG is to promote the integrity, efficiency and effectiveness of the

critical programs and operations of the SEC. The OIG’s audit unit conducts, coordinates and

supervises independent audits and evaluations related to the internal programs and operations of

the Commission. The Office’s investigations unit conducts thorough and independent

investigations in response to allegations of violations of statutes, rules, and regulations, and other

misconduct by Commission staff and contractors.

       Over the past three and one-half years since I became the Inspector General of the SEC,

my Office has issued numerous audits and investigative reports involving matters critical to SEC

programs and operations and the investing public. On the audit side, some of the significant

reports we have issued have included an examination of the Commission’s oversight of Bear

Stearns and the factors that led to its collapse, a review of the SEC’s bounty program for

whistleblowers, an analysis of the SEC’s oversight of credit rating agencies, and audits of the

SEC’s compliance with Homeland Security Presidential Directive 12 and its oversight of the

Securities Investment Protection Corporation’s activities. Investigative reports issued during this

same period have addressed a myriad of issues, including the failures of the SEC to uncover the




                                                 170 

                                                                              APPENDIX C
Bernard Madoff $50 billion Ponzi scheme and the Robert Allen Stanford $8 billion alleged Ponzi

scheme, improper securities trading by Commission employees, conflicts of interest by

Commission staff members, post-employment violations, unauthorized disclosure of nonpublic

information, and procurement violations.

        Many of the reports we have issued have identified costs savings, including questioned

costs and funds that could be put to better use. The OIG has calculated that for the period from

October 1, 2009 through June 30, 2011, the return on investment for the OIG (i.e., total identified

costs savings divided by the OIG’s budget) is 64.2 to 1.

                               The OIG’s Leasing Investigation

        On June 16, 2011, I testified before this Subcommittee about a May 16, 2011 report of

investigation we issued into the circumstances surrounding the SEC’s decision to lease

approximately 900,000 square feet of office space at a newly-renovated office building known as

Constitution Center.

        As described in my previous testimony, we opened our investigation on November 16,

2010, as a result of receiving numerous written complaints concerning the SEC’s decisions and

actions relating to Constitution Center. These complaints alleged that the decision to lease space

at Constitution Center was ill-conceived, resulted from poor management practices, and was

made without Congressional funding for the significant projected growth necessary to support

the decision.

        My previous testimony described in detail our investigative efforts, including the review

of over 1.5 million e-mails during the course of the investigation and the testimony or interviews

of 29 individuals with knowledge of facts or circumstances surrounding the SEC’s leasing

activities.




                                               171 

                                                                               APPENDIX C

       I also testified concerning the results of our investigation, which found that the

circumstances surrounding the SEC’s entering into a lease for 900,000 square feet of space at the

Constitution Center facility in July 2010 were part of a long history of missteps and misguided

leasing decisions made by the SEC since it was granted independent leasing authority by

Congress in 1990. The investigation further found that based upon estimates of increased

funding, primarily to meet the anticipated requirements of financial reform legislation that was

enacted on July 21, 2010, the Dodd-Frank Wall Street Reform and Consumer Protection Act

(Dodd-Frank), between June and July 2010, the SEC’s Office of Administrative Services (OAS)

conducted a deeply flawed and unsound analysis to justify the need for the SEC to lease 900,000

square feet of space at the Constitution Center facility. Specifically, we found that OAS grossly

overestimated (by more than 300 percent) the amount of space needed for the SEC’s projected

expansion and used these groundless and unsupportable figures to justify the SEC’s commitment

to an expenditure of approximately $557 million over 10 years.

       In my earlier testimony, I also described how the OIG investigation found that OAS

prepared a faulty Justification and Approval document to support entering into the lease for the

Constitution Center facility without full and open competition. We determined that this

Justification and Approval document was prepared after the SEC had already signed the contract

to lease the Constitution Center facility. Further, we found that OAS backdated the Justification

and Approval, thereby creating the false impression that it had been prepared only a few days

after the SEC entered into the lease when, in actuality, the Justification and Approval was not

finalized until a month later. Additional details regarding the findings of our leasing

investigation were provided in my June 16, 2011 testimony, as well as in the 91-page report of

investigation with over 150 exhibits, which has been provided to the Subcommittee.




                                                172 

                                                                                 APPENDIX C


                     Recommendations of the OIG’s Leasing Investigation

       Our report of investigation made numerous recommendations designed to ensure that the

requisite improvements to policies and procedures are made and that appropriate disciplinary

action is taken. Specifically, we recommended that the SEC’s Chief Operating Officer carefully

review the report’s findings and conduct a thorough and comprehensive review and assessment

of all matters currently under the purview of OAS including, but not limited to:

       (1) The adequacy of written policies and procedures currently in place for all aspects of
           the SEC’s leasing program, including, but not limited to, putting in place written
           procedures for leasing approvals;

       (2) The methods and processes utilized to accurately project spacing needs based on
           concrete and supportable data;

       (3) The determination to employ a standard of 400 square feet per person for planning
           agency space needs;

       (4) The necessity of retaining architects, furniture brokers, or other consultants to assist
           in the work generally performed by OAS officials; and

       (5) All pending decisions in which OAS is committing the SEC to expend funds,
           including decisions relating to regional office lease renewals.

       We further recommended that the Chief Operating Officer, upon conclusion of this

review and assessment, determine the appropriate disciplinary and/or performance-based action

to be taken for matters related to the findings in this report of investigation, as well as other

issues identified during the review and assessment. We specified that such disciplinary action

should include, at a minimum, consideration of disciplinary action, up to and including

dismissal, against two senior individuals, and consideration of disciplinary action against a third

individual, for their actions in connection with the gross overestimation of the amount of space

needed at SEC Headquarters for the SEC’s projected expansion, failures to provide complete and




                                                 173 

                                                                                APPENDIX C

accurate information to the Chairman’s office, and the preparation of a faulty and back-dated

Justification and Approval to support eliminating competition.

       Finally, we recommended that the Office of Financial Management, in consultation with

the Office of General Counsel, request a formal opinion from the Comptroller General as to

whether the Commission violated the Antideficiency Act, by failing to obligate appropriate funds

for the Constitution Center lease.

                                        Follow-Up Efforts

       My Office is committed to following up with respect to all of the recommendations we

made in our report of investigation to ensure that appropriate changes and improvements are

made in the SEC’s leasing operations as a result of our findings.

       Subsequent to the issuance of our report of investigation on May 16, 2011, my Office has

requested and received a corrective action plan with regard to the substantive recommendations

we made for improvements in the operations of the Office of Administrative Services. We will

monitor the planned activities carefully to ensure that the necessary improvements are made. We

have also communicated with the SEC’s Office of General Counsel with regard to its review of

the evidentiary record to determine appropriate disciplinary action, and have provided the Office

of General Counsel with records requested to assist in those efforts. We intend to monitor the

disciplinary process to ensure that the individuals who we identified as being responsible for the

failures and improprieties described in our report are held appropriately accountable for their

actions.

       In addition to these efforts, we have met with the newly-installed acting head of the

Office of Administrative Services to provide additional information concerning the failings and

deficiencies we have identified in that Office. As a result of this briefing, a large renovation




                                                174 

                                                                             APPENDIX C
project that had been initiated by the previous head of the Office of Administrative Services has

been discontinued.

       We understand that the Chief Operating Officer, under the direction of Chairman

Schapiro, has already begun to implement the improvements needed in the SEC’s leasing

functions. We are confident that under Chairman Schapiro’s leadership, the SEC will continue

to review our report and take appropriate steps to implement our recommendations and ensure

that fundamental changes are made in the SEC’s leasing operations so the errors and failings we

found in our investigation are remedied and not repeated in the future.

                                           Conclusion

       In conclusion, I appreciate the interest of the Chairman, the Ranking Member, and the

Subcommittee in the SEC and my Office and, in particular, in the facts and circumstances

pertinent to our leasing report. I believe that the Subcommittee’s and Congress’s continued

involvement with the SEC is helpful to strengthen the accountability and effectiveness of the

Commission. Thank you.




                                               175 

        APPENDIX C





176 

                                              APPENDIX C





           Written Testimony of H. David Kotz 

                 Inspector General of the

           Securities and Exchange Commission 





 Before the Federal Financial Management, Government 

Information, Federal Services, and International Security

     Subcommittee of the U.S. Senate Committee on

      Homeland Security and Government Affairs 


                Thursday, August 4, 2011
                       2:30 p.m.




                           177 

                                                                               APPENDIX C


                                           Introduction

       Thank you for the opportunity to testify before this Subcommittee on the subject of

“Federal Leased Property: Are Federal Agencies Getting a Bad Deal?” as the Inspector General

of the U.S. Securities and Exchange Commission (SEC or Commission). I appreciate the interest

of the Chairman, the Ranking Member, and the other members of the Subcommittee, in the SEC

and the Office of Inspector General (OIG). In my testimony, I am representing the OIG, and the

views that I express are those of my Office, and do not necessarily reflect the views of the

Commission or any Commissioners.

       I would like to begin my remarks by briefly discussing the role of my Office and the

oversight efforts we have undertaken during the past few years. The mission of the OIG is to

promote the integrity, efficiency and effectiveness of the critical programs and operations of the

SEC. The SEC OIG includes the positions of the Inspector General, Deputy Inspector General,

Counsel to the Inspector General, and has staff in two major areas: Audits and Investigations.

       Our audit unit conducts, coordinates, and supervises independent audits and evaluations

related to the Commission’s internal programs and operations. The primary purpose of

conducting an audit is to review past events with a view toward ensuring compliance with

applicable laws, rules, and regulations and improving future performance. Upon completion of

an audit or evaluation, the OIG issues an independent report that identifies any deficiencies in

Commission operations, programs, activities, or functions and makes recommendations for

improvements in existing controls and procedures.

       The Office’s investigations unit responds to allegations of violations of statutes, rules,

and regulations, and other misconduct by Commission staff and contractors. We carefully

review and analyze the complaints we receive and, if warranted, conduct a preliminary inquiry or




                                                178 

                                                                                 APPENDIX C

full investigation into a matter. The misconduct investigated ranges from fraud and other types

of criminal conduct to violations of Commission rules and policies and the Government-wide

conduct standards. The investigations unit conducts thorough and independent investigations in

accordance with the applicable Quality Standards for Investigations. Where allegations of

criminal conduct are involved, we notify and work with the Department of Justice and the

Federal Bureau of Investigation, as appropriate.

                                           Audit Reports

       Over the past three and one-half years since I became the Inspector General of the SEC,

our audit unit has issued numerous reports involving matters critical to SEC programs and

operations and the investing public. These reports have included an examination of the

Commission’s oversight of the Bear Stearns Companies, Inc. and the factors that led to its

collapse, an audit of the Division of Enforcement’s (Enforcement) practices related to naked

short selling complaints and referrals, a review of the SEC’s bounty program for whistleblowers,

an analysis of the SEC’s oversight of credit rating agencies, and audits of the SEC’s compliance

with Homeland Security Presidential Directive 12 and its oversight of the Securities Investment

Protection Corporation’s activities. In addition, in March 2009, we conducted a review of an

agency restacking project in which over $3 million was expended to relocate approximately

1,750 SEC employees in its headquarters building and, in September 2010, we completed an

audit of the SEC’s real property and leasing procurement process.

                                       Investigative Reports

       The Office’s investigations unit has conducted numerous comprehensive investigations

into significant failures by the SEC in accomplishing its regulatory mission, as well as

investigations of allegations of violations of statutes, rules, and regulations, and other




                                                 179 

                                                                             APPENDIX C

misconduct by Commission staff members and contractors. Several of these investigations

involved senior-level Commission staff and represent matters of great concern to the

Commission, Members of Congress, and the general public. Where appropriate, we have

reported evidence of improper conduct and made recommendations for disciplinary actions,

including removal of employees from the federal service, as well as recommendations for

improvements in agency policies, procedures, and practices.

       Specifically, we have issued investigative reports regarding a myriad of allegations,

including claims of failures by Enforcement to pursue investigations vigorously or in a timely

manner, improper securities trading by Commission employees, conflicts of interest by

Commission staff members, post-employment violations, unauthorized disclosure of nonpublic

information, procurement violations, preferential treatment given to prominent persons,

retaliatory termination, perjury by supervisory Commission attorneys, failure of SEC attorneys to

maintain active bar status, falsification of federal documents and compensatory time for travel,

abusive conduct, and the misuse of official position and government resources.

       In August 2009, we issued a 457-page report of investigation analyzing the reasons why

the SEC failed to uncover Bernard Madoff’s $50 billion Ponzi scheme. In March 2010, we

issued a 151-page report of investigation regarding the history of the SEC’s examinations and

investigations of Robert Allen Stanford’s $8 billion alleged Ponzi scheme. Most recently, on

May 16, 2011, we issued a comprehensive and thorough report of investigation into the

circumstances surrounding the SEC’s decision to lease approximately 900,000 square feet of

office space at a newly-renovated office building known as Constitution Center, which is the

subject of this hearing.




                                               180 

                                                                              APPENDIX C


              Commencement and Conduct of the OIG’s Leasing Investigation

       On November 16, 2010, the OIG opened an investigation as a result of receiving

numerous written complaints concerning the SEC’s decisions and actions relating to the leasing

of office space at the Constitution Center office building in Washington, D.C. These complaints

alleged that the decision to lease space at Constitution Center was ill-conceived, resulted from

poor management practices, and was made without Congressional funding for the significant

projected growth necessary to support the decision.

       As part of our investigative efforts, we took the sworn testimony of 18 witnesses in the

investigation and interviewed 11 other individuals with knowledge of facts or circumstances

surrounding the SEC’s leasing of this space.

       We made numerous requests to the SEC’s Office of Information Technology (OIT) for

the e-mails of current and former SEC employees for various periods of time pertinent to the

investigation. The e-mails were received, loaded onto computers with specialized search tools,

and searched on a continuous basis throughout the course of our investigation. In all, OIT

provided e-mails for a total of 27 current and former SEC employees for various time periods

pertinent to the investigation. We estimate that we obtained and searched over 1.5 million e-

mails during the course of the investigation.

       We also made several requests to the SEC’s Office of Administrative Services (OAS),

which oversees the SEC’s leasing function, for documents relating to its leasing practices. We

carefully reviewed and analyzed the information we received as a result of our document

requests. These documents included all records relating to the Constitution Center lease, as well

as documents relating to the leasing of additional office space by the

SEC for the past several years.




                                                181 

                                                                               APPENDIX C


           Issuance of Comprehensive Report of Investigation in Leasing Matter

       On May 16, 2011, we issued to the Chairman of the SEC a comprehensive report of our

investigation in the leasing matter that contained over 90 pages of analysis and more than 150

exhibits. The report of investigation detailed all of the SEC’s recent leasing-related decisions

and analyzed all of the facts and circumstances that led to the SEC’s decision to lease space at

Constitution Center.

                          Results of the OIG’s Leasing Investigation

       The OIG investigation found that the circumstances surrounding the SEC’s entering into

a lease for 900,000 square feet of space at the Constitution Center facility in July 2010 were part

of a long history of missteps and misguided leasing decisions made by the SEC since it was

granted independent leasing authority by Congress in 1990. The OIG investigation further found

that based upon estimates of increased funding, primarily to meet the anticipated requirements of

financial reform legislation that was enacted on July 21, 2010, the Dodd-Frank Wall Street

Reform and Consumer Protection Act (Dodd-Frank), between June and July 2010, OAS

conducted a deeply flawed and unsound analysis to justify the need for the SEC to lease 900,000

square feet of space at the Constitution Center facility. We found that OAS grossly

overestimated (by more than 300 percent) the amount of space needed for the SEC’s projected

expansion and used these groundless and unsupportable figures to justify the SEC’s commitment

to an expenditure of approximately $557 million over 10 years.

       The OIG investigation also found that OAS prepared a faulty Justification and Approval

document to support entering into the lease for the Constitution Center facility without

competition. This Justification and Approval document was prepared after the SEC had already

signed the contract to lease the Constitution Center facility. Further, OAS backdated the




                                                182 

                                                                               APPENDIX C
Justification and Approval, thereby creating the false impression that it had been prepared only a

few days after the SEC entered into the lease. In actuality, the Justification and Approval was

not finalized until a month later.

       A brief summary of our specific findings is set forth as follows. In 1990, Congress

provided the SEC with independent leasing authority, which exempted the SEC from General

Services Administration (GSA) regulations and directives. See 15 U.S.C. § 78d(b)(3). The

House Conference Report for this legislation expressed the clear intention that “the authority

granted the Commission to lease its own office space directly will be exercised vigorously by the

Commission to achieve actual cost savings and to increase the Commission’s productivity and

efficiency.” H.R. Conf. Rep. 101-924, 101st Cong, 2d Sess. 1990 at 20.

       Subsequent to Congress’s granting of independent leasing authority to the SEC, several

expensive missteps related to the SEC’s leasing actions and management of its space have

occurred. For example, in May 2005, the SEC disclosed to a House Subcommittee that it had

identified unbudgeted costs of approximately $48 million attributable to misestimates and

omissions of costs associated with the construction of its headquarters facilities near Union

Station, known as Station Place One and Two. In 2007, merely a year after moving into its new

headquarters, the SEC embarked on a major “restacking” project pursuant to which various SEC

employees were shuffled to different office spaces in the same buildings at a cost of over $3

million. An OIG audit of that project found that there was no record of a cost-benefit analysis

having been conducted before this undertaking. An OIG survey found that an overwhelming

majority of Commission staff affected by the restacking project had been satisfied with the

location of their workspace before that project was initiated, and did not believe the project’s

benefits were worth the cost and time of construction, packing, moving, and unpacking.




                                                183 

                                                                               APPENDIX C

       The OIG investigation further found that, as a result of a mistaken belief that the SEC

would receive significant additional funding, OAS made grandiose plans to lease the upscale

facility at Constitution Center. On May 14, 2010, the SEC submitted an authorization request to

the Chairman of the U.S. Senate Committee on Banking, Housing, and Urban Affairs, requesting

$1.507 billion for Fiscal Year (FY) 2012 to fund an increase of 800 new staff positions. On May

20, 2010, the U.S. Senate passed a version of the financial regulatory reform bill that eventually

became Dodd-Frank (the U.S. House of Representatives had passed a version of the legislation

on December 11, 2009). The SEC estimated that it would need to add another 800 positions in

FY 2011 and FY 2012 to implement Dodd-Frank. After the reconciliation process between the

two versions of the financial regulatory reform bills, Dodd-Frank became law on July 21, 2010.

       Authorization of funding for an executive agency like the SEC does not guarantee that

the agency will be appropriated the funds. An authorization request is the first step in the SEC’s

lengthy budget process. Under that process, an authorization request is submitted to Congress in

May of the fiscal year two years prior to the fiscal year for which the authorization is requested

(e.g., the FY 2012 authorization request takes place in May 2010). The following September,

several months after the authorization request is made, the SEC submits a proposed budget

request to the Office of Management and Budget (OMB). In November, the next step of the

budget request process takes place: OMB replies to the SEC with a “pass-back,” and the SEC

and OMB then usually negotiate the amount of the budget request. Several months later, the

President formally submits a budget proposal to Congress. Once the President makes the budget

request to Congress, Congress then begins the decision-making process as to how much money

to appropriate to the SEC and other agencies. SEC employees interviewed in connection with

the OIG’s leasing investigation acknowledged that an authorization may indicate an intention for




                                                184 

                                                                               APPENDIX C

Congress to provide funding, but circumstances frequently change and, therefore, federal

agencies understand that until funds are appropriated, they cannot count on receiving those

funds.

         Notwithstanding the uncertainty of actually being appropriated the amount requested

through the budget process, in May 2010, OAS began planning for an expansion at SEC

Headquarters based on the agency’s FY 2012 budget request. Initially, the SEC’s Associate

Executive Director of OAS, Sharon Sheehan, and the former Chief of OAS’s Leasing Branch

decided that the agency needed to lease approximately 300,000 square feet of space to

accommodate the SEC’s needs through FY 2012. As of May 2010, the Chief of the Leasing

Branch’s plan was to solicit offers from three properties within walking distance of Station Place

to meet the SEC’s additional space needs. However, on June 2, 2010, the Chief of the Leasing

Branch received an e-mail from the real estate broker for a facility at Constitution Center, located

on 7th and D Streets, SW, approximately two miles from the SEC’s Station Place facility near

Union Station, regarding Constitution Center’s availability and some of its features.

         The 1.4 million square foot Constitution Center had just been renovated in “one of the

largest office redevelopment projects in Washington, DC,” according to promotional literature.

One of the more attractive features of the Constitution Center facility was its 5,000 square foot

lobby with spacious accommodations for a guard desk(s), security screening room, shuttle

elevator lobby, and display space, as well as Jerusalem limestone floors, marble walls, wood and

metal paneling, decorative lighting and a floor-to-ceiling glass wall facing the landscaped

courtyard. The facility promised abundant daylighting, panoramic views of the city and

surrounding region, and an open plaza area that contained a one-acre private garden.




                                                185 

                                                                               APPENDIX C

       Almost immediately after being contacted by the broker for Constitution Center, OAS

decided to expand the previous delineated locality of consideration to add Constitution Center to

the other three buildings that would be included in the solicitation for offers for approximately

300,000 square feet of space.

       On June 17, 2010, OAS briefed SEC Chairman Mary Schapiro on its immediate

expansion plans at SEC Headquarters. At that briefing, the Chief of the Leasing Branch

informed the Chairman that the SEC needed to lease immediately 280,000 to 315,000 square feet

of office space in Washington, D.C., and identified on a map specific locations for that

expansion, including Constitution Center. Both Chairman Schapiro and her former Deputy Chief

of Staff, Kayla Gillan, recalled the Chairman expressing clear preference for the locations that

were within walking distance of Station Place, as opposed to the Constitution Center facility.

Chairman Schapiro also questioned whether the SEC needed 300,000 additional square feet,

given that she believed the SEC should concentrate its growth in the agency’s regional offices.

       The OIG investigation found notwithstanding Chairman Schapiro’s expressions in mid-

June 2010 of her preference for a facility closer to Station Place and her questioning of why the

SEC needed as much as 300,000 square feet of space, by mid-July, OAS came back to the

Chairman with an urgent recommendation that the SEC immediately lease 900,000 square feet of

space with the only available option being the Constitution Center facility. The OIG

investigation found that the analysis OAS performed to justify the need for three times its

original estimate of necessary square footage, and its determination that the Constitution Center

facility was the only available option, was deeply flawed and based on unfounded and

unsupportable projections. We found that, as a consequence of its flawed analysis, OAS grossly




                                                186 

                                                                              APPENDIX C

overestimated the amount of space needed at SEC Headquarters for the SEC’s projected

expansion.

       Specifically, the OIG investigation found that OAS erroneously assumed that all of the

new positions projected for FY 2011 and FY 2012 would be allocated to SEC Headquarters and

that none of those new positions would be allocated to the SEC’s regional offices. This

assumption was contrary to the position the Chairman had communicated to OAS at the June 17,

2010 meeting that as much as possible of the SEC’s future growth should occur in the regional

offices, not at Headquarters. We found that although the need for a calculation reflecting the

allocation of a number of the new positions to the regions was discussed, none was ever

prepared. Sheehan testified that “OAS had difficulty getting the breakout,” and acknowledged

that, assuming all of the new positions would be located at Headquarters would “inflate the

number.”

       We also found that OAS conducted its analysis of the SEC’s space needs by using a

standard of 400 square feet per person when calculating how much space would be needed for

the additional positions it believed it would gain as a result of Dodd-Frank and associated

increases in the SEC’s budget. A Realty Specialist in OAS explained to the OIG that the Chief

of the Leasing Branch and she developed the 400 square feet standard by dividing the square

footage of office space by the number of people the SEC had authority to hire for the offices in

that space at Headquarters and several of the SEC’s regional offices. The Realty Specialist

described the standard as a “WAG” (wild-assed guess) and a “back of the envelope” calculation,

and acknowledged in her OIG testimony that OAS “didn’t do this scientifically.” OAS’s 400

square feet per-person standard was an “all-inclusive number” that included common spaces and

amenities. It also included an additional 10 percent for contractors, 10 percent for interns and




                                                187 

                                                                              APPENDIX C

temporary staff, and five percent for future growth. Notwithstanding this “all-inclusive” number,

we found that when OAS later performed its calculations to justify the Constitution Center lease,

it added even more unnecessary space by double-counting contractors, interns and temporary

staff and by improperly incorporating future growth into the projections of space needed. We

also found that each one of these estimates was wildly inflated and unsupported by the data being

used by OAS.

         The OIG investigation found that OAS inflated its estimate of new positions that would

require space by including an estimate of the number of contractors who would be hired in

addition to the number of SEC employees. In early June 2010, OAS Associate Executive

Director Sheehan asked the OAS Branch Chief for Space Management & Mail Operations to

obtain information about the number of contractors in the agency. On June 12, 2010, the Branch

Chief reported back, “Right now, based on the Contractor numbers I have at [Station Place], I

can justify us using a 10%, Contractor to Position, factor.” The Branch Chief later learned that

OAS needed the numbers to be larger. He testified as follows regarding his understanding of

why the Chief of the Leasing Branch needed the number to be larger: “[W]hat I understand she

was trying to do was to make sure that whatever size lease she entered into was enough to meet

our needs. And I think that in this case, if we were going to take the whole building, the

numbers needed to be larger.” Ultimately, OAS ignored the data that had been gathered during

the first two weeks of June 2010, which indicated the correct contractor ratio was 10 percent, and

inflated its calculation of space by adding contractors using a completely arbitrary 20 percent

ratio.

         In addition, we found that OAS’s estimate of new positions that would need space

included an estimate of the number of interns and temporary staff who would be hired, in




                                               188 

                                                                              APPENDIX C
addition to new employees. OAS’s estimate of interns and temporary staff to be hired assumed a

ratio of 16.5 percent (9 percent for interns and 7.5 percent for temporary staff). However, the

OIG found that OAS’s estimate of intern and temporary staff positions was significantly higher

than the estimate in the data it had received. On July 16, 2010, a management program analyst

in the SEC’s Office of Human Resources provided OAS with “the [peak] numbers [for interns

and temporary staff],” which ranged from approximately 4 to 7 percent for the six fiscal years of

data analyzed.

       Further, the OIG investigation found that OAS’s calculations increased the amount of

space required for every person to be hired in FY 2011 and FY 2012 by 10 percent for

“inventory” representing “vacant offices you have for expansion and unanticipated growth, that

kind of thing,” according to an OAS Assistant Director. However, as was the case with the

estimate for contractors, temporary staff and interns, an inventory factor had already been

incorporated into the calculation of the 400 square foot standard. Moreover, the 10 percent

inventory factor added was double the 5 percent factor previously determined to be appropriate.

       We also found that OAS’s estimate of new positions that would need space included an

assumption not only about FY 2011 and FY 2012, but also reflected an assumption that, in FY

2013, Congress would increase the SEC’s appropriation by 50 percent of the assumed FY 2012

increase. We found that the assumption of 50 percent growth in 2013 was arbitrary and

unsupported. Based on the assumed FY 2013 growth, OAS calculated that the SEC would add

another 295 positions in that year and again assumed that all of those positions would be

allocated to SEC Headquarters. We found that this estimate was not based upon any firm

numbers or projections and was contrary to the SEC’s planning and budget process, which does

not project growth more than two years into the future.




                                               189 

                                                                               APPENDIX C

       The OIG investigation found that OAS used the above-described overinflated estimates

to calculate a space need of 934,000 square feet. On Friday, July 23, 2010, Executive Director

Diego Ruiz met with Chairman Schapiro, Chief of Staff Didem Nisanci, and then-Deputy Chief

of Staff Gillan to recommend that the SEC lease 900,000 square feet of space at Constitution

Center. Gillan recalled the July 23, 2010 meeting with Ruiz, and stated that Ruiz had come to

her “and said that he needed to see Mary [Schapiro] quickly because he needed to make a quick

decision on Constitution Center. That the other possible space opportunities had evaporated,

gone to others, were no longer available. And that this one was really all that was left and that

we needed to act quickly.”

       Chairman Schapiro testified as follows regarding the July 23rd meeting with Ruiz:

               I remember explicitly being told there really wasn’t any other
               space available that could fulfill our needs and that there was a
               time – a sense of we were about to lose this. We had lost other
               space that we had apparently indicated an interest in and that we
               were about to lose this. So there was a sense of urgency on their
               part.

       Gillan testified that Ruiz did not explain in the July 23, 2010 meeting, or at any other

time, that the assertion that SEC Headquarters needed an additional 900,000 square feet was

predicated, in part, on the assumption that all of the agency’s new positions in FY 2011 and FY

2012 would be allocated to Headquarters. Gillan testified, “[I]n fact, that’s inconsistent with

what I had understood, because … [Chairman Schapiro] specifically said that, to the extent

possible, she wanted new hires to go to the regions.” Gillan also testified that Ruiz did not

explain in the July 23, 2010 meeting, or at any other time, that the assertion that SEC

Headquarters needed an additional 900,000 square feet was predicated, in part, on OAS’s

projections of significant growth in FY 2013.




                                                190 

                                                                               APPENDIX C

        On July 23, 2010, Ruiz sent an e-mail to Sheehan and others stating, “Met with Chairman

this morning, and we have her approval to move forward.” The OIG investigation found that the

SEC negotiated the contract for 900,000 square feet at Constitution Center in three business

days, signing the contract on July 28, 2010. On July 27, 2010, the SEC staff involved in that

negotiation discussed the fact that they had “no bargaining power” because “Sharon [Sheehan]

wants this signed tomorrow.” Internal e-mails show that OAS feared losing the building to the

National Aeronautics and Space Administration, which had also expressed an interest in the

facility.

        On July 28, 2010, the SEC executed a Letter Contract committing the SEC to lease

approximately 900,000 square feet of space at Constitution Center. The contract established a

multiphase delivery schedule, in which Phase 1, approximately 350,000 square feet, would be

delivered no later than September 2011, and Phase 2, approximately 550,000 square feet, would

be delivered no later than September 2012. The contract stated that “the SEC’s interests require

that [the owner] be given a binding commitment so that the space required will be committed to

the SEC and initial build out for the Phase 1 space can commence immediately . . . .” The lease

term in the contract was ten years. The Chief of the Leasing Branch estimated the costs

associated with the SEC’s leasing and occupying Constitution Center would be $556,811,589.

        The Letter Contract also granted the SEC the right of first refusal for the remaining

approximately 500,000 square feet of space at Constitution Center until December 15, 2010. If

the SEC had exercised this option, it would have leased the entire 1.4 million square feet of

space at Constitution Center. The Chief of the Leasing Branch testified that OAS wanted a right

of first refusal on all of the remaining space at Constitution Center “because the Congress was

throwing money at us” and “Sharon [Sheehan] was always hoping that we wouldn’t have




                                                191 

                                                                                APPENDIX C
anybody else in the building. That we would be able to ultimately justify the need for the whole

building or something.”

       After the SEC committed itself to the ten-year lease term at a cost of $556,811,589, it

entered into a Justification and Approval for Other than Full and Open Competition, which is

required by the Federal Acquisition Regulation (FAR) when an agency decides not to allow for

full and open competition on a procurement or lease. The FAR permits other than full and open

competition “when the agency’s need for the supplies or services is of such an unusual and

compelling urgency that the Government would be seriously injured unless the agency is

permitted to limit the number of sources from which it solicits bids or proposals.” 48 C.F.R.

§ 6.302-2 (emphasis added).

       The OIG investigation found that the Justification and Approval to lease space at

Constitution Center without competition was inadequate, not properly reviewed, and backdated.

The Justification and Approval provided as follows:

               To fulfill these new responsibilities it is necessary to significantly
               increase full-time staff and supporting contractors by
               approximately 2,335 personnel to be located at the SEC’s
               headquarters in Washington, DC. However, the SEC’s current
               headquarters is full. Accordingly the SEC has a requirement of an
               unusual and compelling urgency to obtain approximately 900,000
               rentable square feet (r.s.f.) of additional headquarters space in the
               Washington, D.C. Central Business District, as this is the amount
               of space required to accommodate the approximately 2,335 new
               staff and contractors in headquarters.

The Justification and Approval asserted that the 900,000 square feet “must be in a single building

or integrated facility to support the SEC’s functional requirements and operational efficiency.”

       An OAS Management and Program Analyst signed the Justification and Approval as the

SEC’s Competition Advocate. She testified that she did not take any steps to verify that the

information in the Justification and Approval was accurate, “[o]ther than asking the contracting



                                                192 

                                                                                APPENDIX C
officer, you know, just general questions, ‘Is this indeed urgent and compelling[?]’” She further

testified that when she signed the Justification and Approval, she was not aware that funding for

the projected growth had not been appropriated. She also did not have an understanding of when

the projected 2,335 personnel were expected to be hired. Further, she acknowledged in

testimony that the SEC would, in fact, not be “seriously injured” if it lost the opportunity to rent

one contiguous building and had to rent multiple buildings to fill its space needs.

       The FAR also requires that a Justification and Approval for Other than Full and Open

Competition be posted publicly “within 30 days after contract award.” The Letter Contract was

signed on July 28, 2010. Accordingly, the deadline for publication of the Justification and

Approval was August 27, 2010. However, the SEC did not publicly post the Justification and

Approval on the Federal Business Opportunities website until September 3, 2010. The document

was signed by four individuals, with all four signatures dated August 2, 2010.

       However, the OIG investigation found that the Justification and Approval was not

finalized until September 2, 2010, and substantial revisions were being made up to that date. We

found that three of the four signatories executed the signature page on August 2, 2010, before a

draft even remotely close to the final version existed. The OIG found that the SEC’s

Competition Advocate executed the signature page on August 31, 2010, and initially backdated

her signature to August 27, 2010, but subsequently whited-out the “7” on the date to make it

appear that she also had signed the document on August 2, 2010. The actions of the signatories

to the Justification and Approval gave the public the false impression that the document was

finalized a few days after the Letter Contract was signed, and that there was only a delay in its

publication.




                                                193 

                                                                                APPENDIX C

       The OIG investigation also found that there is significant uncertainty among the SEC

staff regarding important requirements in connection with government leasing and there are

serious questions as to whether the SEC complied with several of those requirements in

connection with its leasing of Constitution Center. Appendix B of OMB Circular No. A-11

states, “Agencies are required to submit to OMB representatives the following types of leasing

and other non-routine financing proposals for review of the scoring impact: Any proposed lease

of a capital asset where total Government payments over the full term of the lease would exceed

$50 million.” Although the evidence showed the SEC initially contemplated providing OMB

with the written notification and senior agency officials believed that OMB had been formally

notified, no written notification to OMB was provided.

       In addition, we found that there is a possibility that the SEC violated the Antideficiency

Act in connection with its lease of Constitution Center. The Antideficiency Act prohibits

officers or employees of the government from involving the government “in a contract or

obligation for the payment of money before an appropriation is made unless authorized by law.”

31 U.S.C. § 1341(a)(1)(B). The incurring of an obligation in excess or advance of appropriations

violates the Antideficiency Act. Notwithstanding its July 28, 2010 commitment to a ten-year lease

at Constitution Center, the SEC did not obligate the entire amount of rent payments due under

the lease. Although the SEC has been granted independent leasing authority statutorily and is

generally granted authority to enter into multiyear leases in its annual appropriations, the U.S.

Government Accountability Office (GAO) has found that “[t]he existence of multiyear leasing

authority by itself does not necessarily tell [an agency] how to record obligations under a lease.”

GAO has distinguished agencies that have “specific statutory direction” to obligate funds for

multiyear leases one year a time, such as the GSA, from agencies such as the Federal Emergency




                                                194 

                                                                                APPENDIX C
Management Agency (FEMA), which do not have such explicit direction. Because the SEC, like

FEMA, does not have specific statutory direction to obligate funds for its multiyear leases on an

annual basis, its lease obligations may have to be obligated in their entirety at the time they are

incurred. Thus, SEC may have violated the Antideficiency Act in connection with its

commitment to lease space at Constitution Center.

       In early October 2010, the SEC informed the owner of the building that it could not use

approximately 600,000 of the 900,000 square feet of space it had contracted for at Constitution

Center and asked for the owner’s assistance in finding other tenants for that space. In November

2010, the owner of the building began negotiations with the Federal Housing Finance Agency

(FHFA) and the Office of the Comptroller of the Currency (OCC) to lease portions of

Constitution Center. In January 2011, OCC and FHFA entered into contracts for space at

Constitution Center, leaving approximately 350,000 square feet to which the SEC remains

committed. On January 18, 2011, counsel for the building owner sent a demand letter to the

SEC, asserting that the SEC’s actions had caused him to incur $93,979,493 in costs at

Constitution Center.

       The OIG investigation further found that a “closed” and “rigid” atmosphere within OAS

may have contributed to the irresponsible decisions made with respect to the Constitution Center

lease. In the course of this OIG investigation, several witnesses who sought to remain

anonymous came forward to the OIG to provide information concerning the environment and the

decision-making processes within OAS. These witnesses described an environment in which

inexperienced senior management make unwise decisions without any input from employees

who have significant knowledge and experience. We found that questioning of upper

management decisions by the staff is “not allowed” and that OAS Executive Director Sheehan




                                                195 

                                                                                 APPENDIX C

surrounds herself with “yes-men” and “does not want to hear what [experienced staff] will tell

her.” These individuals testified that upon learning of the SEC’s decision to lease 900,000

square feet of space at Constitution Center, they “just couldn’t understand how [OAS] could

justify that amount of space …” and were “flabbergasted” by the decisions. One experienced

employee testified that OAS management had “grandiose plans” and was significantly

influenced by the upscale nature of the facility.

                     Recommendations of the OIG’s Leasing Investigation

       Our Report of Investigation made numerous recommendations designed to ensure that the

requisite improvements to policies and procedures are made and that appropriate disciplinary

action is taken. Specifically, we recommended that the Chief Operating Officer carefully review

the report’s findings and conduct a thorough and comprehensive review and assessment of all

matters currently under the purview of OAS including, but not limited to:

       (1)	 The adequacy of written policies and procedures currently in place for all aspects of
            the SEC’s leasing program, including, but not limited to, putting in place written
            procedures for leasing approvals;

       (2)	 The methods and processes utilized to accurately project spacing needs based on
            concrete and supportable data;

       (3)	 The determination to employ a standard of 400 square feet per person for planning
            agency space needs;

       (4)	 The necessity of retaining architects, furniture brokers, or other consultants to assist
            in the work generally performed by OAS officials; and

       (5)	 All pending decisions in which OAS is committing the SEC to expend funds,
            including decisions relating to regional office lease renewals.
       We further recommended that the Chief Operating Officer, upon conclusion of this

review and assessment, determine the appropriate disciplinary and/or performance-based action

to be taken for matters related to subject of this report of investigation, as well as other issues

identified during the review and assessment. We specified that such disciplinary action should


                                                 196 

                                                                               APPENDIX C

include, at a minimum, consideration of disciplinary action, up to and including dismissal,

against two senior individuals, and consideration of disciplinary action against a third individual,

for their actions in connection with the gross overestimation of the amount of space needed at

SEC Headquarters for the SEC’s projected expansion, failures to provide complete and accurate

information to the Chairman’s office, and the preparation of a faulty and back-dated Justification

and Approval to support eliminating competition.

       Finally, we recommended that the Office of Financial Management, in consultation with

the Office of General Counsel, request a formal opinion from the Comptroller General as to

whether the Commission violated the Antideficiency Act, by failing to obligate appropriate funds

for the Constitution Center lease.

                                        Follow-Up Efforts

       My Office is committed to following up with respect to all of the

recommendations we made in our Report of Investigation to ensure that appropriate changes and

improvements are made in the SEC’s leasing operations as a result of our findings.

       Subsequent to the issuance of our Report of Investigation on May 16, 2011, my Office

received a corrective action plan with regard to the substantive recommendations we made for

improvements in the operations of the Office of Administrative Services. We are also

monitoring the planned activities carefully to ensure that the necessary improvements have been

made. We have communicated with the SEC’s Office of General Counsel with regard to its

review of the evidentiary record to determine appropriate disciplinary action, and have provided

the Office of General Counsel with records requested to assist in those efforts. We are

monitoring the disciplinary process to ensure that the individuals who we identified as being




                                                197 

                                                                              APPENDIX C

responsible for the failures and improprieties described in our report are held appropriately

accountable for their actions.

       We understand that the Chief Operating Officer, under the direction of Chairman

Schapiro, has already begun to implement the improvements needed in the SEC’s leasing

functions. We are confident that under Chairman Schapiro’s leadership, the SEC will continue

to review our report and take appropriate steps to implement our recommendations and ensure

that fundamental changes are made in the SEC’s leasing operations so the errors and failings we

found in our investigation are remedied and not repeated in the future.

                                           Conclusion

       In conclusion, I appreciate the interest of the Chairman, the Ranking Member, and the

Subcommittee in the SEC and my Office and, in particular, in the facts and circumstances

pertinent to our leasing report. I believe that the Subcommittee’s and Congress’s continued

involvement with the SEC is helpful to strengthen the accountability and effectiveness of the

Commission. Thank you.




                                               198 

                                               APPENDIX C





            Written Testimony of H. David Kotz 

                  Inspector General of the

            Securities and Exchange Commission 





 Before the Subcommittee on Oversight and Investigations,

  Committee on Financial Services, and Subcommittee on

TARP, Financial Services and Bailouts of Public and Private

   Programs, Committee on Oversight and Government 

          Reform, U.S. House of Representatives


               Thursday, September 22, 2011
                        2:00 p.m.




                            199 

                                                                               APPENDIX C


                                           Introduction

       Thank you for the opportunity to testify before the Subcommittees on the subject of

“Potential Conflicts of Interest at the SEC: The Becker Case” as the Inspector General of the

U.S. Securities and Exchange Commission (SEC or Commission). I appreciate the interest of the

Chairmen, the Ranking Members, and the other members of the Subcommittees, in the SEC and

the Office of Inspector General (OIG). In my testimony, I am representing the OIG, and the

views that I express are those of my Office, and do not necessarily reflect the views of the

Commission or any Commissioners.

       I would like to begin my remarks by briefly discussing the role of my Office and the

oversight efforts we have undertaken during the past few years. The mission of the OIG is to

promote the integrity, efficiency, and effectiveness of the critical programs and operations of the

SEC. The SEC OIG includes the positions of the Inspector General, Deputy Inspector General,

and Counsel to the Inspector General, and has staff in two major areas: Audits and

Investigations.

       Our audit unit conducts, coordinates, and supervises independent audits and evaluations

related to the Commission’s internal programs and operations. The primary purpose of

conducting an audit is to review past events with a view toward ensuring compliance with

applicable laws, rules, and regulations and improving future performance. Upon completion of

an audit or evaluation, the OIG issues an independent report that identifies any deficiencies in

Commission operations, programs, activities, or functions and makes recommendations for

improvements in existing controls and procedures.

       The Office’s investigations unit responds to allegations of violations of statutes, rules,

and regulations, and other misconduct by Commission staff and contractors. We carefully




                                                200 

                                                                                 APPENDIX C
review and analyze the complaints we receive and, if warranted, conduct a preliminary inquiry or

full investigation into a matter. The misconduct investigated ranges from fraud and other types

of criminal conduct to violations of Commission rules and policies and the Government-wide

conduct standards. The investigations unit conducts thorough and independent investigations in

accordance with the applicable Quality Standards for Investigations. Where allegations of

criminal conduct are involved, we notify and work with the Department of Justice and the

Federal Bureau of Investigation, as appropriate.

                                           Audit Reports

       Over the past three and one-half years since I became the Inspector General of the SEC,

our audit unit has issued numerous reports involving matters critical to SEC programs and

operations and the investing public. These reports have included an examination of the

Commission’s oversight of the Bear Stearns Companies, Inc. and the factors that led to its

collapse, an audit of the Division of Enforcement’s (Enforcement) practices related to naked

short selling complaints and referrals, a review of the SEC’s bounty program for whistleblowers,

an analysis of the SEC’s oversight of credit rating agencies, and audits of the SEC’s real property

and leasing procurement process and the SEC’s oversight of the Securities Investment Protection

Corporation’s activities.

                                       Investigative Reports

       The Office’s investigations unit has conducted numerous comprehensive investigations

into significant failures by the SEC in accomplishing its regulatory mission, as well as

investigations of allegations of violations of statutes, rules, and regulations, and other

misconduct by Commission staff members and contractors. Several of these investigations

involved senior-level Commission staff and represent matters of great concern to the




                                                 201 

                                                                               APPENDIX C

Commission, Members of Congress, and the general public. Where appropriate, we have

reported evidence of improper conduct and made recommendations for disciplinary actions,

including removal of employees from the federal service, as well as recommendations for

improvements in agency policies, procedures, and practices.

       Specifically, we have issued investigative reports regarding a myriad of allegations,

including claims of failures by Enforcement to pursue investigations vigorously or in a timely

manner, improper securities trading by Commission employees, conflicts of interest by

Commission staff members, violations of the applicable laws and regulations regarding post-

employment activities, unauthorized disclosure of nonpublic information, procurement

violations, preferential treatment given to prominent persons, retaliatory termination, perjury by

supervisory Commission attorneys, falsification of federal documents and compensatory time for

travel, and the misuse of official position and government resources.

       In August 2009, we issued a 457-page report of investigation analyzing the reasons why

the SEC failed to uncover Bernard Madoff’s $50 billion Ponzi scheme. In March 2010, we

issued a 151-page report of investigation regarding the history of the SEC’s examinations and

investigations of Robert Allen Stanford’s $8 billion alleged Ponzi scheme. In May 2011, we

issued a 91-page report of investigation into the circumstances surrounding the SEC’s decision to

lease approximately 900,000 square feet of office space at a newly-renovated office building

known as Constitution Center, at a projected cost of over $550 million over ten years.

       More recently, on September 16, 2011, we completed a report entitled, “Investigation of

Conflict of Interest Arising from Former General Counsel’s Participation in Madoff-Related

Matters,” which is the subject of this hearing and is discussed in greater detail below.




                                                202 

                                                                               APPENDIX C


        Commencement and Conduct of the OIG’s Conflict-of-Interest Investigation

       On March 4, 2011, Chairman Mary Schapiro requested that the OIG investigate any

conflicts of interest arising from the participation of David M. Becker, the former General

Counsel and Senior Policy Director of the Commission, in determining the SEC’s position in the

liquidation proceeding brought by the Securities Investor Protection Corporation (SIPC) of

Bernard L. Madoff Investment Securities, LLC (the Madoff Liquidation). The Chairman’s

request came after she received Congressional inquiries prompted by press reports beginning on

February 22, 2011, that the Trustee administering the Madoff Liquidation had brought a

clawback suit seeking to recover fictitious profits that had accrued to Becker and his brother as

beneficiaries of their mother’s estate when a Madoff account she held was liquidated after her

death. The OIG opened an investigation the same day it received the Chairman’s request.

       During the course of its investigation, the OIG obtained and searched over 5.1 million e-

mails for a total of 45 current and former SEC employees for various time periods pertinent to

the investigation, ranging from 1998 to 2011. The OIG also obtained and analyzed internal SEC

documents, documentation provided by the Madoff Trustee, Irving H. Picard, Esq., court filings,

and press reports. In addition, the OIG conducted testimony or interviews of 40 witnesses with

knowledge of facts or circumstances surrounding the Madoff Liquidation and Becker’s work at

the SEC.

     Issuance of Comprehensive Report of Investigation in Conflict-of-Interest Matter

       On September 16, 2011, we issued to the Chairman of the SEC a comprehensive report of

our investigation in the conflict-of-interest matter that contained nearly 120 pages of analysis and

200 exhibits. The report of investigation detailed all of the facts and circumstances surrounding

the SEC’s former General Counsel and Senior Policy Director David Becker’s participation in




                                                203 

                                                                                APPENDIX C

issues in the Madoff Liquidation and other Madoff-related matters, notwithstanding his interest

in the Madoff account of his mother’s estate.

                               Results of the OIG’s Investigation

       Overall, the OIG investigation found that Becker participated personally and substantially

in particular matters in which he had a personal financial interest by virtue of his inheritance of

the proceeds of his mother’s estate’s Madoff account and that the matters on which he advised

could have directly impacted his financial position. We found that Becker played a significant

and leading role in the determination of what recommendation the staff would make to the

Commission regarding the position the SEC would advocate as to the calculation of a customer’s

net equity in the Madoff Liquidation. Under the Securities Investor Protection Act of 1970

(SIPA), where SIPC has initiated the liquidation of a brokerage firm, net equity is the amount

that a customer can claim to recover in the liquidation proceeding. The method for determining

the Madoff customers’ net equity was, therefore, critical to determining the amount the Trustee

would pay to customers in the Madoff Liquidation. Testimony obtained from SIPC officials and

numerous SEC witnesses, as well as documentary evidence reviewed, demonstrated that there

was a direct connection between the method used to determine net equity and clawback actions

by the Trustee, including the overall amount of funds the Trustee would seek to claw back and

the calculation of amounts sought in individual clawback suits. In addition to Becker’s work on

the net equity issue, we also found that Becker, in his role as SEC General Counsel and Senior

Policy Director, provided comments on a proposed amendment to SIPA that would have severely

curtailed the Trustee’s power to bring clawback suits against individuals like him in the Madoff

Liquidation.




                                                204 

                                                                                APPENDIX C

       The following is a summary of the findings of our investigation. We found that Becker,

along with his two brothers, inherited an interest in a Madoff account owned by his mother’s

estate after she died in 2004. Becker testified that he became aware of his mother’s estate’s

Madoff account in or about February 2009 and knew that the account had been opened by his

father prior to his death in 2000, was transferred to his mother’s estate after her death in 2004,

and was liquidated for approximately $2 million. According to the complaint filed by the

Madoff Trustee against Becker and his brothers in February 2011, approximately $1.5 million of

the $2 million in the Madoff account constituted fictitious profits and, therefore, should properly

be clawed back into the fund of customer property for distribution to other Madoff customers.

       The OIG investigation found that at the time Becker participated on behalf of the SEC in

the net equity issue presented in the Madoff Liquidation, he understood there was a possibility

the Trustee would bring a clawback suit against him for the fictitious profits, but asserted that he

did not know the likelihood of such a suit. He also acknowledged at the time that it was at least

“theoretically conceivable” that the determination of the extent of SIPA coverage to be afforded

Madoff customers could impact whether the Trustee would bring clawback actions against

“persons at the margin,” which he considered himself to be. Notwithstanding this knowledge,

Becker, who also served as the SEC’s alternate Designated Agency Ethics Official (i.e., the

alternate official responsible for coordinating and managing the SEC’s ethics program), worked

on particular matters that could impact the likelihood, and even possibility, of a clawback suit

against him, as well as the amount that could be recovered in such a clawback action.

       Specifically, the OIG investigation found that after Becker rejoined the SEC as General

Counsel and Senior Policy Director in February 2009, the SEC’s approach with respect to the net

equity determination changed. SIPC and the Trustee proposed to pay customer claims based




                                                205 

                                                                                APPENDIX C

upon a money-in/money-out method of distribution, under which a Madoff investor would be

able to make a net equity claim only for the amount initially invested with Madoff, less any

amounts withdrawn over time (Money In/Money Out Method). SIPC and the Trustee believed

that the Money In/Money Out method was the only method that was consistent with SIPA as a

matter of law, and that SIPA did not allow customers to receive any amount over and above their

initial investment with Madoff, i.e., the fictitious returns shown on their Madoff account

statements. As of February 2009, SEC officials concurred with SIPC and the Trustee that the

Money In/Money Out Method was the appropriate method for determining customer net equity

and SIPC officials understood that the Commission was likewise in agreement with this

approach.

       After Becker rejoined the Commission in late February 2009, and the SEC received

submissions from representatives of Madoff claimants who disagreed with the Money In/Money

Out Method for determining net equity, including a May 1, 2009 letter to Becker, which

advocated a last account statement method for determining customer net equity. Under that

method, customers would receive the amount listed as being in their accounts on the last Madoff

account statement the customers received (i.e., including the fictitious profits reflected on their

statements) (Last Account Statement Method).

       The OIG investigation found that after receiving the May 1, 2009 letter, Becker and the

Office of General Counsel (OGC) initially gave serious consideration to the Last Account

Statement Method. The OIG investigation further found that the prevailing opinion within the

SEC and SIPC was that using the Last Account Statement Method would have eliminated the

Trustee’s ability to bring clawback suits such as the one brought against Becker. Becker himself

testified to the OIG that he recalled that one of the reasons given by the Madoff Trustee for his




                                                206 

                                                                             APPENDIX C

opposition to using the Last Account Statement Method was that if this method was adopted,

“we couldn’t do any clawbacks.” Becker and OGC eventually rejected the Last Account

Statement Method and variations of that approach, determining that they could not be reconciled

with the law, but continued to consider other methods that would allow Madoff customers to

receive more than the amount of their initial investments with Madoff. After consultation with

officials from Division of Risk, Strategy, and Financial Management (Risk Fin), Becker

ultimately decided to recommend to the Commission a method under which an inflation rate,

such as the Consumer Price Index, would be added to the amount of Madoff customers’ initial

investments with Madoff to determine the amount they would receive (Constant Dollar

Approach).

       Accordingly, in late October 2009, eight months after Becker rejoined the Commission,

Becker signed an Advice Memorandum to the Commission, which proposed that the

Commission support the Madoff Trustee’s Money In/Money Out Method, but adjust this

approach in a manner that accounts for the “time value” of funds invested in Madoff’s scheme

pursuant to the Constant Dollar Approach. At an Executive Session of the Commission

convened to consider this matter, Becker requested that the Commission authorize the staff to

“prepare testimony and write a brief taking the position supporting the trustee on [money-

in/money-out], but saying the [money] needs to described in constant dollar terms.” Based upon

Becker’s recommendation and representations made in the Executive Session, the Commission

ultimately voted not to object to the staff’s recommendation of the Constant Dollar Approach to

the net equity determination.

       The OIG investigation found that neither SIPC nor the Trustee believed that the Constant

Dollar Approach was appropriate or in conformance with the statute. The President and Chief




                                              207 

                                                                             APPENDIX C

Executive Officer (CEO) of SIPC stated to the OIG that he specifically recalled telling Becker, in

a telephone conversation during which Becker informed him that the Commission would use the

Constant Dollar Approach, that there was no justification for such an approach under SIPA.

Moreover, the SIPC President and CEO made clear that every proffered methodology, other than

the Money In/Money Out Method that was agreed upon by the SEC prior to Becker’s rejoining

the Commission, would have directly affected Becker’s mother’s estate’s account, and every

proffered methodology would have improved Becker’s financial position or the financial

position of the account. The SIPC President and CEO explained that using the Constant Dollar

Approach would increase the amount that customers’ accounts were owed, and accordingly,

decrease any amount the Madoff Trustee could have recovered in a clawback suit.

       The SIPC President and CEO also stated that, upon learning of Becker’s mother’s Madoff

account, he performed “back of the envelope calculations” to determine the difference of

bringing clawback suits under the Constant Dollar Approach, as opposed to the Money In/Money

Out Method. Under this calculation, the SIPC President and CEO concluded that by utilizing the

Constant Dollar Approach, the amount sought in the clawback suit against Becker and his

brothers would be reduced by approximately $140,000. The OIG recreated the analysis and

calculated that a benefit to Becker and his brothers of approximately $138,500 would result from

applying the Constant Dollar Approach in the Becker clawback suit, by adjusting the amount of

principal invested of approximately $500,000 by a percentage inflation adjustment calculated

from the Department of Labor’s Bureau of Labor Statistics Consumer Price Index Table.

       The OIG investigation also found that Becker participated in another particular matter

while serving as SEC General Counsel and Senior Policy Director that could have impacted his

financial position. In October 2009, the SEC’s Office of Intergovernmental and Legislative




                                               208 

                                                                              APPENDIX C

Affairs (OLA) forwarded Becker a draft amendment to SIPC, as well as TM’s analysis of that

proposal, and asked Becker if there was “any reason SEC staff should weigh in tomorrow on an

amendment to be considered during a House Financial Services Committee markup regarding the

ability of the SIPC trustee to do clawbacks.” The proposed amendment entitled, “Clarification

Regarding Liquidation Proceedings,” would have amended SIPA to preclude a SIPC trustee from

bringing clawback actions against a customer “absent proof that the customer did not have a

legitimate expectation that the assets in his account belonged to him.” The effect of this

amendment would be to preclude the Trustee from bringing clawback actions like the one against

Becker, which were the majority of the clawback suits brought, i.e., suits that did not rely on any

knowledge of the alleged wrongdoing.

       Although the OIG investigation did find that Becker consulted with the SEC Ethics

Office regarding his interest in his mother’s estate’s Madoff account on two separate occasions

and that Becker was advised that there was no conflict, we identified concerns about the role and

culture of the Ethics Office at the time it provided Becker with clearance to work on the Madoff

Liquidation. William Lenox, the now-former Ethics Counsel with whom Becker consulted on

both occasions about whether he should be recused from working on the Madoff Liquidation,

reported directly to Becker. In fact, just seven months after Lenox provided advice regarding

Becker’s participation in the Madoff Liquidation, Becker provided a performance evaluation of

Lenox, which concluded, “The performance of the ethics office has been superb . . . . The quality

of the ethics advice is very high . . . .” Lenox also held Becker in extremely high regard. He

testified that he had “[g]reat professional respect” for Becker and “an appreciation for his humor

and his abilities as a lawyer,” and further described Becker as a “great man and a great lawyer.”

Lenox also testified he factored into his analysis of whether Becker should be recused from the




                                               209 

                                                                              APPENDIX C
Madoff Liquidation the fact that “he was a reputed securities lawyer who was making a decision

to come back and serve the public and protect investors, and he was here to do this sort of

analysis.”

       In addition, Lenox explained his belief that as Ethics Counsel, the most important thing

was that people trust him, and noted that people trusted him with “incredibly personal

information.” He viewed his job as “to create a culture where people would seek advice, and to

alert those employees – all employees – where the danger lines were, and to encourage them to

come and seek ethics advice, because that provides a level of protection.” He stated, “The

people who, in the ethics community, that I respect the least are the ones who always say no. If

you are a constant naysayer, one, nobody comes to secure advice; two, you’re not actually doing

your job.” He further noted, “The key, as I saw it in my job as [Designated Agency Ethics

Official] and as ethics counsel, was to make decisions. That’s the reason I was promoted. I was

willing to make decisions. That requires a certain amount of willingness to be second-guessed

by other people. If you always say no, you’ll never be second-guessed. That was not what I saw

my role to be.”

       Lenox specifically discussed Becker’s mother’s estate’s Madoff account with him on two

separate occasions: first, upon Becker’s return to the SEC in February 2009, and, second, when

he received the May 1, 2009 letter advocating the Last Account Statement Method. Only the

second discussion was documented in writing, but at no time did Lenox advise that Becker

should not participate in any Madoff-related matters and, as discussed below, this advice appears

to have been based on incorrect assumptions. The OIG investigation further found that Becker

never advised Lenox of the request for his opinion of the SIPA amendment, which would have




                                               210 

                                                                                 APPENDIX C

precluded clawbacks against individuals in Becker’s position, and never sought his advice on

whether providing advice on the amendment was improper.

          In the second discussion in early May 2009, Becker disclosed to Lenox the details of his

mother’s account with Madoff, including generally when it was opened and closed, and

approximately how much money was invested. He also explained to Lenox that the Madoff

Trustee had been bringing clawback suits and that a clawback suit could “[i]n theory” be brought

against him. Becker also acknowledged that it was possible that the extent to which SIPA

coverage would be available could make it “less likely that the [t]rustee would bring claw back

actions against persons at the margin” like him.

          Lenox responded, in part, “There is no direct and predictable effect between the

resolution of the meaning of ‘securities positions’ and the trustee’s claw back decision. For this

reason, you do not have a financial conflict of interest and you may participate.” When the OIG

interviewed Lenox in this investigation, we learned that Lenox’s opinion was based upon the

incorrect understanding that the SEC’s participation in the Madoff Liquidation was solely an

advisory one, when, in fact, the SEC is a party to the liquidation proceeding and may request the

court to compel SIPC to do as it wishes. Becker himself acknowledged in his OIG testimony

that consistent with its role as a party, the SEC’s participation in the net equity issue in the

Madoff Liquidation was not theoretical. Becker noted that it was his understanding that if SIPC

disagreed, the SEC should eventually recommend that the court adopt the SEC’s position, not

SIPC’s position, and indicated that “[t]he Commission had done that in the past and may do it

again.”

          We found that Lenox’s advice was also based upon the incorrect assumption that the

interpretation of SIPA for purposes of claim determination was a separate and distinct legal




                                                 211 

                                                                               APPENDIX C

question from the trustee’s decision of from whom to institute a clawback suit, and completely

ignored any impact on the calculation of the amount to be clawed back. We also found no

evidence that Lenox took any further steps to better understand the extent and nature of Becker’s

involvement in the Madoff Liquidation, and Becker testified that he did not recall Lenox asking

for additional facts or directing him to seek additional guidance if new facts arose.

       The OIG investigation further found that notwithstanding the importance Lenox had

placed on appearance matters in his communications to SEC employees, he did not even

reference appearance considerations in his May 2009 written advice to Becker. Nonetheless,

Lenox testified that he did consider appearance issues when advising Becker and, in fact,

concluded that Becker’s participation in the Madoff Liquidation matter passed the “appearance

of impropriety test.” Lenox himself had described that test in an ethics bulletin issued to all SEC

employees as follows:

       What are the optics of the situation; what is the context of the facts and
       circumstances? Would it pass what has often been referred to as the New York
       Times or Washington Post test? If what you propose doing becomes the subject
       of an article in the press, would you not care or would it look like you were doing
       something wrong? Even if you wouldn’t care, what effect would the story have
       on the SEC and your fellow employees?

Even with the advantage of hindsight and given the intense press scrutiny and criticism of

Becker’s work on Madoff-related matters in the Washington Post and New York Times, Lenox

indicated in testimony before the OIG that he stands by his conclusion that Becker’s involvement

in the SEC determinations in the Madoff Liquidation passed this appearance test.

       The OIG investigation further found that the Ethics Office considered Becker’s

participation differently in other matters than it did in the Madoff Liquidation and that Becker

himself took a more conservative stance on recusals in other non-Madoff matters. Moreover, the

OIG investigation found that the Ethics Office considered recusals in Madoff-related matters



                                                212 

                                                                               APPENDIX C

differently in situations that did not involve Becker. In fact, shortly after Madoff confessed,

Lenox, as Ethics Counsel, sent a memorandum to all Commission employees regarding

mandatory recusal from SEC v. Madoff in a broad variety of circumstances. The memorandum

stated, “[A]ny member of the SEC staff who has had more than insubstantial personal contacts

with Bernard L. Madoff or Mr. Madoff’s family shall be recused from any ongoing investigation

of matters related to SEC v. Madoff.” The memorandum further set forth certain contacts that

required recusal, including being invited to or visiting any Madoff family members’ homes or

being an active member of the same social or charitable organizations.

       The OIG investigation found that with respect to employees within OGC besides Becker,

the Ethics Office took a more conservative approach for recusal from Madoff-related matters,

including the Madoff Liquidation. For example, the Ethics Office advised an OGC staff attorney

that she had a conflict from working on any aspect of the Madoff Liquidation because she “spent

a very small amount of time in private practice working on a question related to the Madoff

bankruptcy.”

       The OIG investigation also found that former Ethics Counsel Lenox was not the only

individual in the Commission who was aware of Becker’s mother’s estate having an account

with Madoff prior to the time this issue appeared in the press in February 2011. Both Becker and

Chairman Schapiro recalled that, around the time of his return to the SEC in February 2009,

Becker discussed his mother’s estate’s Madoff account with her. While their recollections of the

substance of the conversation are not entirely consistent, the evidence clearly shows that Becker

advised Chairman Schapiro that his mother had had an account with Madoff, she had died

several years before, and the account had been liquidated. Chairman Schapiro did not recall

asking Becker any questions after he told her about his mother’s account, and did not recall




                                                213 

                                                                                APPENDIX C

whether Becker said anything about seeking advice from the Ethics Counsel regarding the

account, although Becker testified he must have mentioned to her that he would consult with

Lenox. At that time, Chairman Schapiro did not consider Becker’s personal financial gain “in

any way, shape, or form” or whether he would be subject to a clawback action. Indeed,

Chairman Schapiro testified that she would have had Becker recused from the net equity

determination if she had known he was potentially subject to a clawback suit or “understood that

he had any financial interest in how this [was] resolved . . . .”

       In addition, the issue of Becker’s mother’s estate’s Madoff account was discussed by

several SEC senior officials in the fall of 2009, when the SEC learned that the U.S. House of

Representatives Subcommittee on Capital Markets, Insurance, and Government Sponsored

Enterprises was scheduling a hearing on SIPC and Madoff victims. Shortly after the SEC

learned that the Congressional testimony would focus on legal aspects of the SIPC/Madoff

issues, Chairman Schapiro suggested that Becker testify on behalf of the SEC at the hearing.

The OLA Director then had a conversation with Becker, during which Becker informed him that

his mother had a Madoff account from which he “had gotten an inheritance.” Becker also

testified that he told the OLA Director that “if [he did] testify, [he] would put at the beginning,

[he] would mention [his], the fact of [his] mother’s account with Madoff.” Becker testified that

after this conversation, the OLA Director contacted him later in the day and said, “You know,

now that I think about it, I think it would be better if somebody else testified. My concern is –

not that there’s anything inappropriate, but my concern is [ ] that when you’re in a political

environment, people might want to make something of that, and it would be a distraction rather

than focusing on what the Commission’s position was and why.”




                                                 214 

                                                                              APPENDIX C

       Becker testified that either the evening of his conversation with the OLA Director or the

following morning, he spoke with Chairman Schapiro about his mother’s account. Chairman

Schapiro recalled the conversation with Becker and stated, “I recall saying that if David [Becker]

did testify, we needed to make it absolutely clear to Congress that there was this connection,

remote though I believed it to be, that his long-deceased mother had had an account at Madoff,

so that nobody would be surprised by that, so that we were completely forthcoming with

Congress.” Becker testified that he was certain that it was he who said in the meeting with

Chairman Schapiro that if he were to testify, he would disclose his mother’s account with

Madoff. The OIG investigation found that eventually, the OLA Director made the decision not

to have Becker testify. The SEC Deputy Solicitor, who had been suggested by Becker as a

possible replacement witness, testified in Becker’s stead at the subcommittee hearing which

occurred on December 9, 2009, and involved discussions of clawbacks. In the end, Becker’s

Madoff interest was not disclosed to Congress.

       Moreover, the OIG investigation found that although the decision was made that should

Becker testify before Congress, he would disclose his mother’s Madoff account, during this

November 2009 timeframe, the fact of Becker’s interest in his mother’s estate’s Madoff account

was not disclosed to the Commissioners or the bankruptcy court, notwithstanding the fact that

the Commission was considering Becker’s recommendation on the net equity position to take in

court at this very time. SEC Commissioner Aguilar testified that it was “incredibly surprising

and incredibly disappointing that there was enough awareness to know that the conflict existed to

prevent [Becker] from giving [this] testimony, yet the decision-makers at the Commission were

not provided that information.”




                                                 215 

                                                                                APPENDIX C

       In all, the OIG investigation found that, prior to the public disclosure of Becker’s

mother’s Madoff account, at least seven SEC officials were informed at one time or another

about that account, including the Chairman, the then-Deputy General Counsel and current

General Counsel, the Deputy Solicitor who testified at the hearing in Becker’s stead, the OLA

Director, a Special Counsel to the Chairman, and two Ethics officials (Lenox and one of his

colleagues in the Ethics Office). Yet, none of these individuals recognized a conflict or took any

action to suggest that Becker consider recusing himself from the Madoff Liquidation.

       After we concluded the fact-finding phase of our investigation, we provided to the Acting

Director of the Office of Government Ethics (OGE) a summary of the salient facts uncovered in

the investigation, as reflected in our report. We requested that OGE review those facts and

provide the OIG with its opinion regarding Becker’s participation in matters as the SEC’s

General Counsel and Senior Policy Director that could have given rise to a conflict of interest.

After reviewing the summary of facts provided by the OIG, the Acting Director of OGE advised

us that in his opinion, as well as that of senior attorneys on his staff, Becker’s work both on the

policy determination of the calculation of net equity in connection with clawback actions

stemming from the Madoff matter, and his work on the proposed legislation affecting clawbacks

should be referred to the United States Department of Justice for consideration of whether

Becker violated 18 U.S.C. § 208, a criminal conflict of interest provision. Based upon this

guidance, the OIG has referred the results of its investigation to the Public Integrity Section of

the Criminal Division of the United States Department of Justice.

                         Recommendations of the OIG’s Investigation

       Based upon the findings in our report, we recommended that, in light of David Becker’s

role in signing the October 28, 2009 Advice Memorandum and participating in the November




                                                216 

                                                                              APPENDIX C

2009 Executive Session at which the Commission considered OGC’s recommendation that the

Commission take the position that net equity for purposes of paying Madoff customer claims

should be calculated in constant dollars by adjusting for the effects of inflation, the Commission

reconsider its position on this issue by conducting a re-vote in a process free from any possible

bias or taint. We further recommended that once the re-vote has been conducted, the

Commission should advise the United States Bankruptcy Court for the Southern District of New

York of its results and the position that the Commission is adopting.

       The OIG also recommended with respect to the Ethics Office that:

       (1)	    The SEC Ethics Counsel should report directly to the Chairman, rather than to the
               General Counsel.

       (2)	    The SEC Ethics Office should take all necessary steps, including the
               implementation of appropriate policies and procedures, to ensure that all advice
               provided by the Ethics Office is well-reasoned, complete, objective, and
               consistent, and that Ethics officials ensure that they have all the necessary
               information in order to properly determine if an employee’s proposed actions may
               violate rules or statutes or create an appearance of impropriety.

       (3)	    The SEC Ethics Office should take all necessary actions to ensure that all ethics
               advice provided in significant matters, such as those involving financial conflict
               of interest, are documented in an appropriate and consistent manner.

       We are confident that under Chairman Schapiro’s leadership, the SEC will review our

report and take appropriate steps to implement our recommendations to ensure that the concerns

identified in our investigation are appropriately addressed.

                                           Conclusion

       In conclusion, I appreciate the interest of the Chairmen, the Ranking Members, and the

Subcommittees in the SEC and my Office and, in particular, in the facts and circumstances

pertinent to our conflict-of-interest report. I believe that the Subcommittees’ and Congress’s




                                                217 

                                                                            APPENDIX C
continued involvement with the SEC is helpful to strengthen the accountability and effectiveness

of the Commission. Thank you.




                                              218 

   Help ensure the integrity of SEC operations by reporting to the OIG suspected fraud,
waste or abuse in SEC programs or operations, and SEC staff or contractor misconduct by
contacting the OIG.

   Call:	             Hotline (877) 442-0854
   	          	       Main Ofﬁce	 (202) 551-6061

   Web-Based Hotline Complaint Form: www.sec-oig.gov/ooi/hotline.html

   Fax:	      	       (202) 772-9265

   Write:             Ofﬁce of Inspector General
   	                  U.S. Securities and Exchange Commission
   	                  100 F Street, N.E.
   	                  Washington, D.C. 20549

   Email:             oig@sec.gov


                          Information received is held in conﬁdence upon request.

             While the OIG encourages complainants to provide information on how they may be 

              contacted for additional information, anonymous complaints are also accepted.





                                             129
U.S. Securities
and Exchange
 Commission




     Additional copies of this report may be obtained by contacting the
                Office of Inspector General at (202) 551-6061.

      The report is also available on the Inspector General’s website at
                           http://www.sec-oig.gov.
